<html>
<title> - NATIONAL FIRE PLAN</title>
<body><pre>[Senate Hearing 107-62]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 107-62

                           NATIONAL FIRE PLAN

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   FORESTS AND PUBLIC LAND MANAGEMENT

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

             TO CONDUCT OVERSIGHT ON THE ADMINISTRATION'S 
                           NATIONAL FIRE PLAN

                               __________

                             MARCH 29, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                              -----------

                   U.S. GOVERNMENT PRINTING OFFICE
73-204                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         JEFF BINGAMAN, New Mexico
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
RICHARD C. SHELBY, Alabama           TIM JOHNSON, South Dakota
CONRAD BURNS, Montana                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California
GORDON SMITH, Oregon                 CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

                    Brian P. Malnak, Staff Director
                      David G. Dye, Chief Counsel
                 James P. Beirne, Deputy Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

           Subcommittee on Forests and Public Land Management

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairman
PETE V. DOMENICI, New Mexico         RON WYDEN, Oregon
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 TIM JOHNSON, South Dakota
CRAIG THOMAS, Wyoming                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
RICHARD C. SHELBY, Alabama           DIANNE FEINSTEIN, California
                                     CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

  Frank H. Murkowski and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                  Mark Rey, Professional Staff Member
                    Kira Finkler, Democratic Counsel

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bancroft, G. Thomas, Ph.D., Vice President, Ecology and Economics 
  Research Department, The Wilderness Society....................    75
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     5
Burns, Hon. Conrad, U.S. Senator from Montana....................    16
Christoffersen, Nils D., Field Program Manager, Wallowa 
  Resources, Enterprise, OR......................................    47
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    43
Farr, Nancy, Project Coordinator, Forest Stewardship Project, 
  Partnership for a Sustainable Methow...........................    59
Feinstein, Hon. Dianne, U.S. Senator from California.............     7
Hartzell, Tim, Director, Office of Wildland Fire Coordination, 
  Department of the Interior.....................................    18
Headley, Celia, Vice President, Alliance of Forest Workers and 
  Harvesters, Eugene, OR.........................................    64
Holmer, Steve, Campaign Coordinator, American Lands Alliance.....    81
Hubbard, James E., State Forester of Colorado and Representative 
  of the National Association of State Foresters.................    26
Johnson, Hon. Tim, U.S. Senator from South Dakota................     3
Jungwirth, Lynn, Executive Director, the Watershed Center, 
  Hayfork, CA....................................................    68
Kyl, Hon. John, U.S. Senator from Arizona........................    45
Laverty, Lyle, Associate Deputy Chief and National Fire Plan 
  Coordinator, Forest Service, Department of Agriculture.........     9
Nelson, Tom, Director of Forest Policy for Sierra Pacific 
  Industries, on behalf of the American Forest and Paper 
  Association....................................................    90
Smith, David Wm., Ph.D., Vice President, Society of American 
  Foresters......................................................    96
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    25
Vega, Betty, CEO, Cooperative Ownership Development Corporation, 
  Silver City, NM................................................    55
Wyden, Hon. Ron, U.S. Senator from Oregon........................     3

                                APPENDIX

Additional material submitted for the record.....................   107

 
                           NATIONAL FIRE PLAN

                              ----------                              


                        THURSDAY, MARCH 29, 2001

                           U.S. Senate,    
                            Subcommittee on
                Forests and Public Land Management,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone, and welcome to the 
first hearing of the Subcommittee on Forests and Public Land 
Management of the 107th Congress.
    During the last Congress, this subcommittee worked on 47 
freestanding bills that became law with broad bipartisan 
support. This was in addition to a number of other measures on 
which the subcommittee heard testimony that eventually became 
law as a part of either an appropriation bill or an omnibus 
legislative package.
    Obviously, this level of legislative productivity required 
a great deal of cooperation from all of the subcommittee's 
members on both sides of the aisle. But I want to especially 
thank my colleague to my left, Senator Ron Wyden of Oregon, the 
Ranking Democrat Member of the subcommittee. We worked well 
together. We continue to do so. In light of all the new Senate 
rules, I want to gladly acknowledge that he is deserving of 50 
percent of the credit for the work done in the last Congress. 
As we get further into the oversight of what we are about, I am 
also very willing to give him 50 percent of the blame for the 
work that we do not get done.
    [Laughter.]
    Senator Craig. Last year we saw some of the worst and some 
of the best in Federal land management. We experienced the 
worst fire season in the last 50 years, over 70,000 fires that 
burned more than 7.5 million acres. At times nearly 30,000 
personnel were on the fire lines, including the military and 
fire fighters from other countries around the world.
    During the worst of the fire season, we learned that the 
Federal fire fighting agencies' budget requests were reduced 
before they were sent to Congress. Consequently, fire fighting 
preparedness was not optimum, and fire fighting efforts in some 
instances were hampered.
    Today we are suffering through the results of a lack of 
that kind of foresightedness. Some parts of my State and some 
parts of the West will not recover for decades from what it 
experienced last summer.
    Unfortunately, the situation is still very dire. If you 
look at the maps of the mountain snowpack and spring and summer 
runoff forecasts for March of this year--and that is just going 
up--the bright red tells the story. It tells what could be a 
very angry story come summer. For much of the West, mountain 
snowpack is much less than 70 percent of that average, as 
demonstrated by those charts, spring and summer stream flows 
projected at less than 70 percent of the average flow. In very 
simple terms, this means that it is unusually dry out West for 
the summer, and it is dry right now. Unless we get some very 
unusual weather during the late spring and summer, then it will 
get dryer and the heat of the season could well produce a 
catastrophic fire situation.
    I, therefore, offer a very simple conclusion: We are likely 
to have another fire season similar to the one we have just 
experienced, but tragically enough, it could even be worse.
    Lately we have been discussing the crisis of California. 
That is an energy crisis. Once again, my colleague from Oregon 
and I in the Pacific Northwest are experiencing the problems 
that are, in part, a result of California's situation.
    For example, this is how bad it is. Last week a noted 
Hollywood makeup artist was quoted as being horrified at the 
prospects of making up Catharine Zeta Jones for the Oscar 
ceremonies in sheer darkness and without a blow dryer.
    [Laughter.]
    Senator Craig. Now, pertinent to today's hearing, let me 
offer my worst case scenario. It involves an uncontained Sierra 
Nevada project level fire with crews on the line when a rolling 
blackout grounds the air tankers and shuts down tanker loading 
facilities. Could this happen? We are entering potentially a 
very dangerous fire season.
    At the same time, last year we saw some of the best efforts 
in Federal land policy. In addition to the passage of H.R. 
2389, the Secure Rural School and Community Self-determination 
Act, which I hope to review in oversight later this year, we 
were able to pass important legislation addressing wildfire and 
hazardous fuel situations.
    With the cooperation of Senator Ron Wyden and Senator 
Domenici and Senator Bingaman, who has just joined us, and 
Senator Feinstein, who has just joined us, and others, we were 
able to provide considerable authority, support, and funding 
for a National Fire Plan developed by the Clinton 
administration. In addition to increasing findings for fire 
preparedness, we were able to identify communities at risk from 
wild fires, enhance cooperative fire fighting efforts, and 
provide additional funding for the initiation of hazardous fuel 
treatments and forest health projects and secure additional 
funding and accelerated procedures for rehabilitation and 
restoration work.
    Today we will get a first look from Federal and State 
agencies as to how this is coming together. In addition, we 
will hear from community activists and land stewardship 
contractors involved in some of the projects on the ground. 
Finally, we will hear from some national groups which will 
offer their perspectives on what Congress passed last year and 
how the agencies are carrying out Congress' will.
    With that, it is my pleasure to turn to my colleague, the 
Ranking Member of this committee, Ron Wyden, for his comments 
before we turn to other members of the committee.
    [A prepared statement from Senator Johnson follows:]
 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota
    Last year, raging fires scorched large areas of forests in the 
Black Hills of South Dakota and in several other western states. 70,000 
acres were burned in the Black Hills alone. 73,000 wildland fires have 
destroyed 6.4 million acres in the western states at a record cost of 
$626 million.
    The firefighters as well as federal and state authorities did a 
tremendous job in containing the fires. However, it was clear to me 
that South Dakota and the states throughout the western United States 
needed additional resources to manage clean-up and to work on 
prevention efforts in the future.
    Last year, Congress directed emergency resources to address the 
needs of the western forests before the problem worsened. The funding 
being used for fire fighting efforts, post-fire salvage and 
environmental clean up, protecting the integrity of watersheds and 
community water supplies, and assisting individuals and businesses 
adversely affected by property losses and economic hardships.
    Preliminary documents from the Forest Service on its National Fire 
Plan demonstrate commitment to these and other long term efforts to 
address the challenges facing forest maintenance. In particular, I am 
encouraged that the Plan includes programs for rural fire assistance 
that would provide support and training for firefighting in rural 
communities.
    At the same time, I am concerned about reports that the President's 
budget may cut as much as a third of funding that was approved by 
Congress last year. The emergency funding was passed with bipartisan 
support last year in response to a critical need to rehabilitate 
forests that were damaged last summer. It is also designed to provide 
assistance for programs that would help to prevent and contain fires in 
the future.
    In particular, I am disturbed that funding for fire rehabilitation 
and restoration may be eliminated. There is still a great deal of work 
to be done to repair the damage from the fires and leaving this work 
unfinished could be a devastating blow to the health of the forests.
    The President has expressed a desire to work in a bipartisan manner 
but gutting funding for vital fire rehabilitation and prevention 
programs that were passed with bipartisan support is not the way to go. 
The President needs to work together with Congress and the Forest 
Service to ensure that proper steps are being taken to address the 
needs of our forests. We did that last year and must continue to do so 
in the future.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Well, thank you, Mr. Chairman, and thank you 
for your exceptionally kind remarks. Without turning this into 
a bouquet-tossing contest, let me be clear that you have met me 
more than halfway. You have consistently made an effort to work 
in a bipartisan way on these key issues. With the help of 
Senator Bingaman, especially on our county payments bill, we 
produced what the Forest Service called recently the most 
significant bill for their agency in 3 decades. I think if you 
had asked folks 2 years ago whether we could have produced a 
bill like that, they would have said: fat chance. So, I thank 
you and your staff very much for working in such a bipartisan 
way, and I know we are going to pursue these issues in just 
such a fashion again this session.
    I am glad also that you held this hearing. It comes at, I 
think, a very important time.
    I want to begin my brief remarks by describing what 
happened in my office yesterday where we had folks from the 
Joseph Timber Mill, which is in Joseph, Oregon, together with 
Wallowa Resources, which is a nonprofit environmental group. As 
we had with county payments, and so many of the important 
issues that we have dealt with, we had the timber industry 
folks and the environmental community coming together saying: 
we want to be part of a new partnership; we want to get beyond 
the days of salvage riders and all of the bitterness that we 
saw 2 years go and we want to try to figure out a way that 
makes sense for the economic needs of these rural communities 
and, at the same time, manage the resource in a sustainable 
way.
    Well, what the folks who own the mill said, along with the 
environmental leaders that were there as well, is that when 
they were told at the Joseph Timber Mill that their days of 
processing big trees were over, they both got together and made 
an investment in trying to deal with approaches where they 
could look to smaller trees and also ensure forest health. They 
both wanted to make sure that this mill could process trees 
that were thinned from a fire-prone forest.
    So, you had the timber industry people and the 
environmental community working together in exactly the way 
that the Government suggested. They were not going to focus on 
big trees. They were going to go after an opportunity in line 
with the environmental laws to manage the resource as it 
related to small trees and preventing fire.
    The problem is, as of right now, there is no processing or 
thinning going on at this mill in Joseph, Oregon. The fact is 
that the Forest Service has not followed through on their 
promise to provide the small trees.
    I would just offer up the judgment, Mr. Chairman, that this 
issue, reducing the risk of fire, is too important for the 
Government to be the weak link in an effort to build a 
partnership between the timber industry, the environmental 
community, and the Government. Frankly, what I have seen around 
the country is that too often the Government has been the weak 
link and has not followed through on these pledges to work with 
industry and the environmental community, as the folks who were 
sitting in my office described yesterday.
    The last point that I would mention, Mr. Chairman, is 
obviously we need sufficient resources. I was very pleased to 
have been able to join you in expressing concerns about the 
proposed cutbacks in fire prevention funding. The idea of 
cutting a billion dollars of the funds earmarked for fire 
prevention obviously drew bipartisan opposition when it was 
raised earlier. I think we all understand that to have those 
kinds of cutbacks, when things are so dry and we have had such 
a reduced water year, would be really ominous. I know we are 
going to work together to restore that money and to ensure that 
the funding is in place so that people in Enterprise, Oregon, 
the environmental folks, and timber industry people who come 
together can actually take steps to make sure that they are 
putting in place the projects that the Government envisaged as 
we look to making a transition in natural resources policy.
    I thank you for this hearing.
    Senator Craig. Ron, thank you very much.
    Now, let me turn to Senator Bingaman. The Senator is the 
Ranking Member of the full Committee of Energy and Natural 
Resources. Thank you for joining us.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much for having the 
hearing. This is a very important issue in all of our States. I 
am anxious to hear what the status is of the efforts to reduce 
these hazardous fuels all through the West. In my State there 
are many communities where it is considered a very urgent 
matter that needs attention, and that was what we have been 
working on here last year in the Congress and again this year I 
am very glad to say.
    Let me mention three things in particular.
    First, I want to thank Betty Vega who is one of the 
witnesses. She is from my hometown. She is here to talk about 
some of the activities that we have engaged in in New Mexico to 
deal with this issue, the Cooperative Ownership Development 
Corporation in Silver City, New Mexico.
    The three points I wanted to make are: first, I believe 
Senator Craig made this point. It is absolutely critical to 
keep this dialogue going between the land management agencies 
and the communities. That is something that we have not had 
enough of over the years. I think that is doing much better 
now, and I think it is important that it continue.
    A second point is that we need to be vigilant in monitoring 
this National Fire Plan that we put in place.
    Of course, the third point, which we have all said and 
which I firmly believe, is that we need to sustain a commitment 
to deal with this problem over the long term. It is not 
something we are going to do in a year or 2 years. It is going 
to take 10 or 15 years to deal with this in a responsible and 
adequate way.
    I was disappointed at what I have heard about the 
administration's proposed cuts in funding for some of these 
programs, but I have had the chance to speak with Senator 
Craig. I know he is committed to seeing that the funding is 
there when the Congress completes its budget, and I certainly 
am. I think all of us want to see this effort continued.
    I have said to Senator Craig several times that we have had 
a better than average rainfall and snowpack year in New Mexico 
this year, and that the problem is not in the southern Rockies 
near to the extent that it is in his State. I think that is 
true.
    However, there was an article in Sunday's Albuquerque 
Journal entitled ``New Mexico Fire Officials Gear Up for 
Worst,'' pointing out that they do not believe that the 
snowpack, even though it is substantially better than last 
year, is going to solve our problems. So, I would ask consent, 
Mr. Chairman, that that be included in the record.
    Senator Craig. Without objection.
    [The Albuquerque Journal article follows:]
                         Sunday, March 25, 2001
                 N.M. Fire Officials Gear Up for Worst

                    (By David Mercer of the Journal)

    With a heavy snow pack holding in northern New Mexico's mountains, 
some might be tempted to put the memories of 2000's disastrous fire 
season behind them and believe the season ahead doesn't hold the same 
potential for catastrophe.
    Firefighters and forecasters working in the region aren't among 
them.
    The encouraging information, according to Albuquerque-based 
National Weather Service meteorologist Chuck Maxwell, comes from 
measures of those mountain snow packs, as high as 124 percent of 
average in some northern mountains.
    Less encouraging? More moisture means the region's lower elevations 
are carpeted with a healthy layer of grass, waiting to dry and burn.
    ``As of right now we've already had some fires here in this area 
because it's still dry,'' Las Vegas, N.M., Fire Chief Robert Gonzales 
said Saturday. ``People don't realize it's dry'' and want to burn trash 
and brush. Some is left over from last year when dry weather and news 
of big fires made many reluctant to so much as strike a match.
    Gonzales said his department already has responded to a handful of 
grass fires in recent weeks, one that burned 25 acres and another that 
quickly consumed three or four acres. Both threatened homes.
    ``It's still not as wet as people think,'' he said. ``But remember, 
we've had a drought for what, six years now.''
    Taos Administrative Fire Chief Jim Fambro believes the fire season 
of 2001 will be active. In just the past couple of weeks the number of 
fire permits issued by his department has sharply spiked.
    ``So people are starting to get the itch,'' he said.
    One such permitted fire was driven out of control by swirling winds 
Saturday afternoon and consumed an acre before firefighters got a 
handle on it, Fambro said.
    Still, he would rather see people do any burning they feel 
necessary now rather than wait until later this spring, when the 
weather may be warmer and drier.
    Just what's ahead, Maxwell said, is hard to say.
    The long-term outlook calls for drier- and warmer-than-average 
weather. What that really means, Maxwell said, is difficult to say.
    ``I'd be surprised if we didn't have one more big, wet storm come 
through here by the middle of April,'' said the meteorologist, who 
authors the weather service's extended fire weather forecasts for New 
Mexico. ``That's just the way spring is here.''
    Snow that is sitting in the high mountains so far is impressive 
when compared to last year. According to the Natural Resources 
Conservation Service in Washington, D.C.: the Pecos River Basin was at 
124 percent of average in the first week of March, compared to 37 
percent a year ago; Sangre de Cristo drainages were at 120 percent of 
normal, while only 59 percent early last spring; and Jemez Mountains 
drainages were at 104 percent, compared to 31 percent last year.
    ``That's good for places that benefit from the slow melt-off of 
snow,'' Maxwell said. In that high country, ``there's much less 
likelihood of an early fire season.''
    And odds also are decreased for another Viveash, the 28,000-acre 
fire that swept across the southern Sangre de Cristos last spring, and 
Cerro Grande, which burned almost 48,000 acres in the Jemez range in 
May and destroyed more than 400 residences in Los Alamos.
    Maxwell offers a couple of caveats, though. He notes that snow 
measures are taken in some of the highest, coldest places, ``not where 
fire activity is going to be the highest.''
    He also points out that northern New Mexico's snow pack doesn't 
peak until the middle of April. And two or three weeks of windy, dry 
weather--hardly out of the question--could change the picture 
significantly by then.
    ``That could eat up the snow pack,'' he said.
    Firefighters across the region, in the meantime, say they'll plan 
and wait.
    Chama Volunteer Fire Department Chief Felix Gallegos said his 
department saw few brush fires last season but nonetheless had a truck 
follow the daily departure of the Cumbres & Toltec Scenic Railroad's 
steam engines to the Colorado border for fear that a stray cinder might 
ignite a blaze. They'll be ready to do the same this year for the 
tourist line to Antonito, Colo., he said.
    Gonzales said his department will be passing out brochures on how 
people can safeguard their own homes against wildfire and offers free 
home inspections in Las Vegas to evaluate dangers such as debris on 
roofs and the ground around homes.
    Fambro said his department offers similar inspections and will plan 
for at least the potential of another bad year.
    ``We're still gearing up for the worst,'' he said, ``and we'll hope 
for the best, I guess.''

    Senator Bingaman. I would also just alert our witness, Lyle 
Laverty, who is here that I am going to ask him about this 
legislation that we are intending to introduce. I know Senator 
Wyden and I have talked about introducing it to ensure that the 
reimbursement can go to the Fish and Wildlife Service, in 
particular for these hazardous fuels reduction projects. I 
think we need to be sure that the law is clear on that so that 
those funds can flow.
    Thank you very much, Mr. Chairman.
    Senator Craig. Senator, thank you.
    Now let me turn to Senator Feinstein of California. Senator 
Feinstein was leading on the issue of forest health, starting a 
good number of years ago when we partnered up on Quincy 
Library. I must tell you, Senator, that your due diligence over 
the last year and a half or 2 to make that happen has been 
impressive. And I appreciate it because I think those kinds of 
pilot programs, to demonstrate that we can get in and reduce 
fuel loads and change the character and health of the forests 
without damaging the environment, are so necessary for our 
publics to see that kind of thing going on. So, thank you for 
your leadership in that area.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Well, you are very welcome, Mr. 
Chairman.
    I want to thank you for taking the time to meet with 
representatives from the Forest Service and the leadership of 
the House as we work to try to get Quincy underway. I think it 
is pretty fair to say that Quincy has been fought by the 
Department. That is my very sincere belief. I have tried to 
push. You have helped me try to push. I hope we are beginning 
to make some progress. I do not know how the new plan that was 
just put forward is going to affect the Quincy Library 
proposal.
    But let me say this. We have 18 national forests in 
California. They cover 20 million acres of our State. I have 
become a believer that the Forest Service fire suppression 
policies have been a dismal failure in the United States. We 
have had a buildup of the possibility of catastrophic fire over 
the years that is second to none in our history. That is why I 
worked with Senator Domenici in cosponsoring $240 million of 
emergency funding last year. The aim was to address this 
problem of dangerous fuel buildup on millions of acres of our 
national lands.
    With this buildup of fuel, the possibility of very serious 
and destructive forest fires has dramatically increased. The 
Forest Service has now identified 60 million acres of land in 
the interior West as being at high risk of catastrophic fire. 
Almost a full quarter of this acreage lies in California. We 
have more than any other State.
    Two years ago, my State lost more than 700,000 acres of 
forests. Several people lost their lives in these fires and 
dozens of structures were burned. Incidentally, 70,000 acres 
were prime California spotted owl habitat in the Lassen and 
Plumas Forests.
    Now, the loss of owl habitat is exactly one of the things 
that the Quincy Library project attempted to protect against. 
Last year we were luckier than many of our neighbors, but with 
about 15 million acres in California at high risk of 
catastrophic fires, it is only a question of time.
    I very much believe that a one-size-fits-all management 
strategy is not the right approach. I very much believe that 
each forest is distinct, that there are differences in 
topography, in geography, in climate, in trees, different trees 
burn differently, and that proper forest stewardship in 
California may well not be the same practices that are used in 
Pennsylvania or Alaska or Montana.
    So, I believe that a combination of tools must be used to 
fix the problem. The dead and dying trees must be removed. 
Overgrowth must be thinned. Mechanical treatment and controlled 
burns must each be used separately and in conjunction with each 
other. And if we do not do this, incidents of serious fire will 
only continue to increase.
    So, I hope we can get at that 60 million acres in our West 
that are at high risk of catastrophic fire, but in order to do 
so, I truly believe the only solution is to change our forest 
management practices to phase out fire suppression while 
phasing in fire prevention.
    I look forward to continuing to work with you, Mr. 
Chairman, and the ranking member to see if we cannot get some 
additional pilots going. Let us see. You see, I have always 
wondered why was there so much opposition to Quincy. If it was 
wrong, it was going to fail and we would know it. Why was the 
Department so eager to prevent it from moving, from happening? 
Now, with the new plan, I do not know whether it is possible 
for Quincy to succeed or not, but I hope to ask some of these 
questions when my time is appropriate.
    Thanks, Mr. Chairman.
    Senator Craig. Thank you very much.
    Just briefly, before we turn to our panelists, Senator 
Bingaman expressed the same concern that I have had about 
budgets and necessary resources. The administration found the 
situation they were in when they were putting the money 
together, that we put all of the 2001 money in an emergency 
spending account, and in building the 2000 budget proposal, the 
administration did not have such an option. They did manage to 
save about half of the 2001 emergency increase and build it 
into the 2002 budget. Therefore, the 2002 request is a 
significant increase over 2001, albeit I think--and I think my 
colleagues agree--still inadequate. And we are going to resolve 
that problem before the appropriation is finalized. So, that is 
a project we have all got to work on.
    Now let us get to our panelists. I am extremely pleased 
today that we have three people who are directly engaged in the 
issues that we have been talking about. Lyle Laverty, the 
Associate Deputy Chief and National Fire Plan Coordinator, U.S. 
Department of Agriculture, U.S. Forest Service here in 
Washington; Tim Hartzell, Director Office of Wildland Fire 
Coordination, U.S. Department of the Interior; and Jim Hubbard, 
Colorado State Forester, National Association of State 
Foresters.
    With that, Lyle, we will turn to you to ask you to lead 
off, if you would please.

STATEMENT OF LYLE LAVERTY, ASSOCIATE DEPUTY CHIEF AND NATIONAL 
     FIRE PLAN COORDINATOR, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Laverty. Well, thank you, Mr. Chairman and members of 
the committee. It is really an honor to be here this afternoon 
to share with you information and an update on what is actually 
taking place and what we have accomplished so far with the 
implementation of the fire plan and, perhaps more importantly, 
what we plan to do this summer.
    As you have all referenced, the fire season of 2000 
captured the attention of American people in a way that has 
never surfaced before, particularly in the area of protecting 
life and property. I think that you could not watch the news 
anywhere without seeing some type of a fire scene last summer.
    The President directed the Secretary of Agriculture and the 
Secretary of the Interior to develop and prepare a strategy or 
a report on what are we going to do with the situation. 
Actually on September 8, the two Secretaries delivered that 
report to the President. That report is what we have referred 
to as the National Fire Plan. It contains a series of 
recommendations that were developed in consultation with the 
Governors across the country to talk about the impacts of fire 
and the effects on rural communities, but more importantly 
ensure a strategy on what are we going to do with that.
    The important point is that this is a National Fire Plan. 
It is not a Western issue. It is not just an Eastern issue. It 
is not a Southern issue. But it is truly in fact a national 
plan.
    Accordingly, the plan is framed around five goals. You can 
see there the one board that frames those.
    Very quickly, they are: to protect communities, to build 
the fire fighting readiness, to reduce hazardous fuels, restore 
those impacted fire sites. Perhaps most importantly that is on 
the agenda for Tim, Jim and myself is that we can, in fact, 
ensure accountability, that we can come back and look all of 
you in the eye and let you know that these have been good 
investments.
    The Congress for the Forest Service provided an additional 
$1.1 billion in funding for the Forest Service's portion of the 
fire plan in 2001. This represented about an 84 percent 
increase over the 2000 level. The increase provided funding for 
the first time on the Forest Service side to achieve the 
optimal level of fire fighting resources in those emergency 
funds and to carry out the goals and objectives of the plan.
    I would tell you today that the implementation of the plan 
is well underway. We have, in fact, made significant, 
remarkable progress. Cooperation between the agencies, 
collaboration between the Governors, the tribal and local 
governments is beginning I believe to set a new model in how 
government can and should work, responding with results to the 
needs of the people of this great country.
    We recognize that there are many challenges in front of us 
to complete this significantly increased workload. The 
conditions of America's forests, as you have referenced, 
especially in the interior West, typically dictates that 
escaped fires quickly become infernos resulting in significant 
damage not only to resources but to property.
    It is going to take many years and continued and determined 
commitment of resources to effectively reduce the impacts of 
the wildland fire in rural communities across America. But I 
would tell you that these are sound investments and they will, 
in fact, make a difference. Investing in fire fighting 
capacity, both on Federal and on State and private lands, 
combined with aggressive changes in structure and composition 
of these wildland fuels, will lead us to healthy and restored 
fire-adapted ecosystems. Uncontrolled, large catastrophic fires 
will decline. The investment strategy is long-term and it is 
going to be expensive, but the return on the investment is 
going to be significant.
    The National Fire Plan has five key points. First is fire 
fighting, and that is to ensure that we have the preparedness 
resources ready to go for the 2001 season. To that end, we have 
been very aggressive, and I think we are in a much better 
position as we enter the condition that Senator Craig 
highlighted as we move into this summer.
    The second area deals with the restoration and 
rehabilitation of those areas that were severely impacted by 
the wildfires of 2000. Progress is well underway, and in many 
cases we actually had restoration activities taking place 
before we even left the fires this summer and the smoke was 
down.
    The third key point deals with the hazardous fuel 
reduction. The funds that the Congress provided allows us to 
work and invest in projects that will, in fact, reduce risk.
    The fourth key point is community assistance, to work with 
the communities to assure that the communities actually have 
adequate protection as well. This is the great cooperation that 
is going on between the States and the Governors and the 
agencies.
    Finally, the fifth key point deals with accountability. We 
want to be absolutely transparent. We want to be absolutely 
accountable. We have, in fact, a framework that we have 
established for oversight and monitoring for results. Even 
though it is early in the year, we have made a good start and 
we have got a number of accomplishments in place that we are 
already able to report.
    On the Forest Service side, we have treated over 400,000 
acres as we move toward that 1.8 million acres that we expect 
to treat in 2001.
    We have been aggressive in terms of recruiting fire 
fighting personnel. We expect to hire about 3,000 people just 
on the Forest Service side, and we are making great progress on 
that. This is the most significant block of hiring that has 
taken place on the Forest Service side.
    We have started to provide assistance for training and 
equipment for over 4,000 volunteer fire departments across the 
country. This becomes a very critical element because in many 
cases these are the first responders.
    We have developed a framework, working with the Governors, 
on preparing a 10-year comprehensive strategy that includes not 
only the Federal lands but also State and private lands. This 
begins to help us identify where should we strategically place 
resources.
    We are committed to increasing the Nation's fire fighting 
capability and to protect communities and restore resources, 
but it is going to take a long time. It is going to take more 
than 1 year. It is going to take more than 2 years, and it is 
going to take more than 3 years. I am really pleased with the 
conversations that we have had with members and with staff 
about the commitment that we can make a difference.
    The outcome will, in fact, be significant. We are going to 
see healthy ecosystems and we are going to see improved 
watersheds. I can tell you that we are going to be able to 
reduce losses to communities and protect property values.
    Thank you very much for the opportunity, Mr. Chairman, to 
share a few remarks. As Tim and Jim finish up, we would be 
happy to entertain any questions. Thank you very much.
    [The prepared statement of Mr. Laverty follows:]
Prepared Statement of Lyle Laverty, Associate Deputy Chief and National 
    Fire Plan Coordinator, Forest Service, Department of Agriculture
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to talk about the implementation 
of the National Fire Plan. I am Lyle Laverty, Associate Deputy Chief 
and National Fire Plan Coordinator of the Forest Service. I am here 
today to bring you up to date on what has been accomplished thus far 
and what we plan to do next.
    The severe fire season of 2000 captured the attention of the 
American people on the need to find ways to protect life and property 
and minimize losses of natural resources. On September 8, the Secretary 
of Agriculture and the Secretary of the Interior issued a report 
entitled, ``Managing the Impact of Wildfires on Communities and the 
Environment.'' The report, referred to as the National Fire Plan, 
contains recommendations to reduce the impacts of wildland fires on 
rural communities and ensure sufficient firefighting resources in the 
future.
    Mr. Chairman, implementation of the National Fire Plan is well 
underway and significant progress has been made. However, we recognize 
that there are many challenges to complete the significantly increased 
workload. Long-term, it is going to take many years and a continued 
commitment in resources to effectively reduce the impacts of wildland 
fire on rural communities.
    Even though it is early in the year, we have made a good start with 
the following:

  <bullet> Treated over 80,000 acres, 713 miles of roads and 245 miles 
        of trails to restore and rehabilitate areas damaged during the 
        2000 fire season.
  <bullet> Reduced hazardous fuel on over 400,000 acres of the 1.8 
        million acres we plan to treat this year.
  <bullet> Hired over 850 new permanent fire personnel and expect to 
        have another 1906 (650 permanent, 1250 temporary) hired by 
        April 30, 2001 along with planning to acquire 412 fire engines 
        and the services of an additional 47 contracted helicopters to 
        provide the highest practical level of fire fighting 
        capability.
  <bullet> Initiated assistance for training and equipment for 4,000 
        volunteer fire departments.
  <bullet> Published a preliminary list of communities at risk prepared 
        by the States and Tribes to ensure that we increase the focus 
        of our future efforts on reducing fire risk in the areas 
        adjacent to these communities.
  <bullet> Started 63 research projects to increase scientific 
        knowledge in support of the National Fire Plan.
  <bullet> Initiated discussions on a framework and draft of the 
        national ten-year comprehensive strategy for the National Fire 
        Plan.

    Before I talk more about our accomplishments and our planned 
actions let me explain how conditions on our forests and rangelands 
developed the level of uncharacteristic fire risk that exists today.
                               background
Fire Conditions
    Decades of excluding fire from our forests and past management 
practices have drastically changed the ecological condition of western 
forests and rangelands and dramatically affected fire behavior. A 
century ago, when low intensity, high frequency fires were commonplace, 
many forests were less dense and had larger, more fire-resistant trees. 
Over time, the composition of our forests has changed from more fire-
resistant tree species to species non-resistant to fire such as grand 
fir, Douglas-fir, and subalpine fir.
    Fire ecologists point out the paradox of fire suppression: the more 
effective we become at fire suppression, the more fuels accumulate and 
ultimately create conditions for the occurrence of more intense fires. 
As it became Federal practice to extinguish fires aggressively in the 
west, firefighting budgets rose dramatically and firefighting tactics 
and equipment became increasingly more sophisticated and effective. In 
the early 1930s the annual acreage burned by wildfires in the lower 48 
states was about 40 million acres a year. In the 1970s, because of our 
effective fire suppression, the annual acreage burned by wildfires in 
the lower 48 states dropped to about five million acres. In the 1990's, 
the annual average acreage burned by wildfires was less than 4 million 
acres.
    In addition to changes in tree species and ecological conditions of 
forests and grasslands more communities are at risk of wildfire than in 
earlier years. During the last two decades dramatic increases in the 
population in the West has resulted in housing developments in fire-
prone areas, often adjacent to Federal land. This area where human 
development meets or intermingles with undeveloped wildland is called 
the ``wildland-urban interface.''
    Reversing the effects of a century of aggressive fire suppression 
and past management practices will take time and money targeted to high 
priority areas to protect people, communities, readily accessible 
municipal watersheds, and habitat for threatened and endangered 
species. Although not all areas will need to be treated, the Forest 
Service and the General Accounting Office have estimated that there are 
around 60 million acres at risk of uncharacteristic wildfire in the 
interior West and more than 72 million acres nationwide. Many of these 
acres are not in the wildland-urban interface and include acres distant 
from habitation.
    The Forest Service and its interagency partners have increased 
their efforts to reduce risks associated with the buildup of brush, 
shrubs, small trees and other fuels in forest and rangelands through a 
variety of approaches, including controlled bums, the physical removal 
of undergrowth, and the prevention and eradication of invasive plants. 
In 1994 the Forest Service treated approximately 385,000 acres across 
the United States to reduce hazardous fuels. In 2000 we treated over 
750,000 acres almost double our earlier efforts.
Addressing Fire Conditions: The Key Points of the National Fire Plan
    To address these changed conditions the recommendations in 
``Managing the Impact of Wildfires on Communities and the Environment'' 
and actions implementing the National Fire Plan focus on five key 
points:

  <bullet> Firefighting. Be adequately prepared to fight wildland fire.
  <bullet> Rehabilitation and Restoration. Restore landscapes and 
        rebuild communities damaged by the wildfires of 2000.
  <bullet> Hazardous Fuel Reduction. Invest in projects to reduce fire 
        risk.
  <bullet> Community Assistance. Work directly with communities to 
        ensure adequate protection.
  <bullet> Accountability. Be accountable and establish adequate 
        oversight, coordination, program development, and monitoring 
        for performance.

    The report also recommended substantial increases in funding for 
the land management agencies to address the five key points.
    In response to the recommendations in the Report, Congress and the 
Administration increased funding for agency firefighting, fuels 
reduction, and other fire-related programs. We appreciate the quick and 
decisive actions of Congress and the Administration to fully fund the 
fire budgets for both the Department of Agriculture and the Department 
of the Interior. (See Appendix A.)*
---------------------------------------------------------------------------
    * Appendix A and B have been retained in subcommittee files.
---------------------------------------------------------------------------
    The Conference Report for P.L. 106-291 contains explicit direction 
for the implementation of the National Fire Plan. The Appropriations 
conferees directed the agencies to work closely with State and local 
communities to maximize benefits to the environment and to local 
communities. They directed the agencies to seek the advice of the State 
Governors and local and tribal government representatives in setting 
priorities for fuels treatments, burned area rehabilitation and public 
outreach and education. The Appropriations conferees also directed the 
Departments of the Interior and Agriculture to work together to 
formulate complementary budget requests and to carry out the other 
tasks, including developing criteria for rehabilitation projects, 
developing a list of all communities within the vicinity of Federal 
lands at high risk from fire, and working collaboratively with the 
State Governors to develop a 10-year comprehensive strategy. (See 
Appendix B.)
               accomplishments of the national fire plan
    Implementation of the National Fire Plan is well underway. Since 
the very beginning we have worked collaboratively with Department of 
the Interior agencies, the Governors, State Foresters, tribal 
governments and county officials.
    Our implementation efforts focus on addressing the five key points 
of the National Fire Plan. The status of our actions include the 
following:
Firefighting Readiness
    We are focusing on increasing firefighting capability and capacity 
for initial attack, extended attack, and large fire support. We believe 
our efforts will keep a number of small fires from becoming large, 
better protect natural resources, reduce threat to adjacent 
communities, and reduce the cost of large fire suppression.
    The expanded capacity will be used in a manner consistent with our 
knowledge and experience of the causes of fire risks. The agency will 
be guided by fire management plans that we intend to have updated and 
completed by the end of 2001.
    To date the Forest Service has hired over 850 new permanent fire 
personnel and plan to hire a total of over 2,750 (1,500 permanent, 
1,250 temporary) to provide the highest practical level of protection 
efficiency. This will include twelve new hotshot crews for a national 
total of 74 crews. We plan to acquire an additional 412 fire engines 
and have contracts for an additional 47 helicopters for a total of 106 
helicopters and 40 fixed-wing aircraft. In addition we will have 
another 500 aircraft available through ``call when needed'' contracts. 
We are also in the process of awarding the retardant contract for 2001-
2003 to ensure adequate supplies.
    In addition, we will construct several new fire facilities and 
increase the level of maintenance on existing fire facilities to 
support initial attack. This construction includes projects such as a 
new airtanker base and national fire cache in Silver City, New Mexico, 
new hotshot crew housing in Ft. Collins, Colorado, and a new helitack 
base in Price Valley, Idaho.
    The agency is also investing in applied research to improve the 
efficiency, effectiveness, and safety of the national firefighting 
effort. In addition to the progress made in the Forest Service research 
and development program, the Joint Fire Science Program (JFSP) has been 
increased. This additional applied research and development will assess 
fire behavior and fire restoration techniques during and immediately 
after fire events; upgrade aircraft-based tools for monitoring fire 
behavior; increase understanding about post-fire conditions, fire 
effects, and the effectiveness of past land management treatments; and 
establish protocols for evaluating rehabilitation measures. The 
Secretaries of Agriculture and the Interior have also established a 
stakeholder advisory committee to advise the JFSP Governing Board. The 
committee plans to hold its first meeting in April.
Rehabilitation and Restoration
    We are focusing rehabilitation efforts on restoring watershed 
function, including protection of basic soil, water resources, 
biological communities, and prevention of invasive species in priority 
watersheds. Healthy, diverse ecosystems are resilient and less likely 
to produce uncharacteristically intense fires when they burn.
    Burned area emergency rehabilitation (BAER) teams mobilized after 
the 2000 fire season. Plans were developed and approved for over $40.8 
million of emergency stabilization for 235 projects on moderately and 
severely burned National Forest System lands. Most of the emergency 
treatments were completed before winter, including 62,000 acres of 
grass seeding, 3,606 acres of mulching, 17,886 acres of intensive log 
and wattle erosion barriers, and drainage improvements on 713 miles of 
roads and 245 miles of trail. For example:

  <bullet> In Idaho, 650 acres were seeded, 242 acres intensively 
        mulched, and erosion control barriers installed on 3,157 acres 
        on the Trail Creek fire on the Boise NF.
  <bullet> In Montana, drainage was improved on 410 miles of road and 
        4,732 acres of intensive erosion control barriers were 
        installed on the Skalkaho-Valley fire on the Bitterroot NF.
  <bullet> In California, 890 acres were seeded and 200 acres 
        intensively mulched on the Manter fire on the Sequoia NF.
  <bullet> In New Mexico, 13,500 acres were seeded, 3,070 acres 
        intensively mulched, and 5,170 acres of erosion control 
        barriers installed for the Cerro Grande fire on the Santa Fe 
        NF.
  <bullet> In Colorado, 1,000 acres of mulch and erosion barriers are 
        being installed on the Bobcat burn.

    The remaining acres will be treated as soon as the land is 
accessible this spring.
    In addition, long-term rehabilitation and restoration on over 400 
projects is currently underway. These activities will include 
reforestation, replacement or repair of minor facilities, treatment of 
invasive species (including noxious weeds) resulting from fire, survey 
and monitor impacts to wilderness, survey and rehabilitate impacted 
heritage resources, reconstruct fencing, restore critical habitat and 
restore impacted trails.
    We are also conducting additional research in rehabilitation and 
restoration methods. One example is research at Rocky Mountain Research 
Station quantifying the soil and water quality consequences of 
catastrophic fire, using the Cerro Grande and other southwestern fires 
as study sites.
Hazardous Fuel Reduction
    We are focusing hazardous fuels reduction projects in communities 
at risk, readily accessible municipal watersheds, threatened and 
endangered species habitat, and other important local areas, where 
conditions favor uncharacteristically intense fires. We will remove 
excessive vegetation and dead fuels through thinning, prescribed fire, 
and other treatment methods.
    Following Congressional direction we asked State, local and tribal 
governments, and interested parties to identify urban wildland 
interface communities within the vicinity of Federal lands that are at 
high risk from wildfire. The Departments of Agriculture and the 
Interior published a preliminary list in the Federal Register on 
January 4, 2001. The States and Tribes each developed criteria for 
selecting communities that resulted in some States listing numerous 
communities and others listing only a few. The Departments of 
Agriculture and the Interior have asked the Governors and the National 
Association of State Foresters to help the Federal Agencies to work 
with Tribes, States, local governments, and other interested parties to 
develop a national list based on uniform criteria.
    We have completed hazardous fuel reduction on over 400,000 acres of 
the 1.8 million acres that are planned for treatment this fiscal year. 
Many of these projects focus on wildland-urban interface areas. In the 
future, we intend to focus the majority of this work on wildland-urban 
interface areas where hazardous fuel conditions exist near communities.
    In addition to work on Federal lands, we will also provide 
technical and financial support to State and local fire departments to 
implement 329 projects to improve conditions on wildland-urban 
interface areas on non-federal lands. The States will also be 
implementing projects in impacted areas using the Community and Private 
Land Fire Assistance funding.
    Research is also focusing on hazardous fuels projects. An example 
is work to characterize and map vegetation and fuels from remote sensed 
data to locate urban interface areas exposed to high fire potential. 
These methods will be helpful in prioritizing investments in fuels 
treatment.
    Our success in accomplishing hazardous fuel reduction objectives 
will be largely dependent on focusing our treatments in the areas of 
greatest need. Our goal is to do this efficiently and with the least 
amount of controversy, getting the most amount of high-priority work 
done. Protecting communities and restoring forests represents the sort 
of win-win solution that will allow us to build a strong constituency 
for ecologically sensible active management.
Community Assistance
    We are assisting State and local partners by providing funding 
assistance to rural and volunteer fire departments and through programs 
such as FIREWISE to educate homeowners to take actions to reduce fire 
risk to homes and private property. We plan to expand community 
assistance to rural volunteer fire departments to increase local 
firefighting capacity. Rural and volunteer fire departments provide the 
front line of defense, or initial attack, for up to 90 percent of 
communities. Strong readiness capability at the State and local levels 
goes hand-in-hand with optimal efficiency at the Federal level. We will 
increase our assistance for training and equipment to 4,000 volunteer 
fire departments in high-risk areas.
    The Forest Service has been working with the State and private 
landowners, the National Fire Protection Association, and local 
firefighting organizations to help ensure that home protection 
capabilities are improved and to educate homeowners in fire-sensitive 
ecosystems about the consequences of wildfires. Also homeowners are 
being taught techniques in community planning, homebuilding, and 
landscaping to protect themselves and their property. Efforts include 
FIREWISE and other high priority prevention and mitigation education 
programs, as well as fuels reduction, defensible space development, and 
community hazard mitigation on non-federal lands.
    We expect implementation of the National Fire Plan can create over 
8,000 new jobs in rural areas and provide economic opportunities for 
rural forest dependent communities.
    We are also beginning research to test the effectiveness of 
different models of collaboration, education, and community actions and 
to compare different local regulatory and incentive-based policies for 
encouraging residents to adopt FIREWISE practices. These new efforts 
will provide useful insights and guidelines for implementing effective 
community-level programs for wildfire protection.
Accountability
    The agency is working to establish adequate oversight, 
coordination, program development, and monitoring for National Fire 
Plan performance to ensure accountability.
    A key component in ensuring accountability is tracking funding and 
accomplishments. In keeping with Congressional reporting requirements, 
the Forest Service is finalizing a database to track projects funded by 
Title IV funds. It will include project accomplishments and funding for 
work in hazardous fuels reduction, rehabilitation, and community 
assistance. Once it is fully operational--which is planned for the end 
of this month--we will be able to report, for example, numbers and 
types of rehabilitation work being done in a particular national 
forest, congressional district, or state.
    Of course, the Forest Service must be accountable for all funding. 
In fiscal year 2000, obligations in the Wildland Fire Management 
Appropriation totaled $1.5 billion, exceeding available funds by $274 
million. An anti-deficiency report was sent to President Clinton and 
members of Congress as required by law. This violation was caused by 
delays in entering suppression costs into the agency financial system. 
The agency is conducting an intensive Anti-Deficiency Act violation 
review to more fully determine the specific causes and implement 
procedures to prevent a recurrence.
    Another recent development associated with the implementation of 
the National Fire Plan is the ``Review and Update of the 1995 Federal 
Wildland Fire Management Policy.'' The Review and Update was completed 
in January 2001 in response to a request from the Secretaries of 
Agriculture and the Interior. The working team concluded that the 1995 
Federal Fire Policy is generally sound, but that some changes and 
additions are needed to address issues such as fire planning, program 
management and oversight, and program evaluation.
    If you refer to the list of Reporting Requirements in Appendix B, 
you will see the Forest Service and the Department of the Interior have 
accomplished several other important tasks and reported to Congress in 
a timely manner. These include a report on criteria for rehabilitation 
projects; a report on the need for revised or expedited environmental 
compliance procedures; and a financial plan and an action plan showing 
how agencies will spend the emergency funds.
Next Steps
    The following are the next immediate actions to be taken by the 
Forest Service to continue implementation of the National Fire Plan:

  <bullet> Complete the fuels management projects underway and continue 
        planning for 2002 focusing fuels treatments in urban interface 
        communities where they are most likely to reduce risk 
        effectively.
  <bullet> Continue work on a long-term strategy for the National Fire 
        Plan (2002-2010) in collaboration with Governors and other 
        stakeholders.
  <bullet> Complete the hiring of new fire personnel to produce an 
        extremely high level of firefighting capability.
  <bullet> Complete analysis of fire risk and integrate with other 
        resource information to prioritize treatment areas.

    We will continue to provide timely information to Congress and 
other interested parties about the National Fire Plan.
Summary
    Mr. Chairman, my staff and I will continue to work closely with the 
Department of the Interior Team to work with communities to restore and 
maintain healthy ecosystems and to minimize the losses from future 
wildfires on National Forest System lands, other Federal, State, 
Tribal, and privately-owned lands. Our successes to date--beginning to 
define the wildland-urban interface communities, hiring firefighters 
for the 2001 fire season, and ongoing rehabilitation, restoration, 
FIREWISE education work--is evidence of the strong start. However, our 
continued success will depend on what happens this field season.
    We are committed to increasing the Nation's firefighting capability 
and ability to protect communities and restore resources, but it will 
take longer than one year.
    This concludes my statement. I would be happy to answer any 
questions you or the members of the subcommittee might have.

    Senator Craig. Well, Lyle, thank you. Before I turn to Tim, 
let me recognize Senator Conrad Burns of Montana who has joined 
us. Conrad's State was one of those that burned a great deal 
last year, and while we burned a few more acres in Idaho, 
Conrad got all of the attention.
    Senator Burns. We got all the smoke.
    Senator Craig. He got all the smoke and he lost property in 
the sense of homes and human structures.
    Conrad.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. I will not make a 
statement. I will submit it for the record.
    I have also a letter from Jim Hurst of Owens and Hurst up 
at Eureka, Montana.
    I cannot impress enough on the Forest Service to let us 
start salvaging that burned timber. We are doing it on State 
lands and we are way ahead. We are harvesting. All this timber 
is in roaded areas where it should have been harvested in the 
first place. Right now there are 11 million board-feet 
available just in that one area. And we cannot get to it. It 
makes no sense for this Government to deny, number one, a 
clean-up and the salvage by a mill in Eureka, Montana.
    I am going to submit a letter that Jim Hurst wrote to Bob 
Castaneda for the record. And they have got facts and figures 
on what we can do.
    But this is so short-sighted and so ignorant that it is 
unbelievable that we manage our lands this way and this country 
this way. It is unbelievable and I think it is unconscionable. 
It flies in the face of common sense of everything we do in 
this country.
    So, I want to submit that letter, and thank you, Mr. 
Chairman, for this opportunity to sort of vent a little bit.
    I know that it is not entirely the fault of the gentlemen 
in front of us, but I just beg of people to let other folks 
work and let us salvage a product that is wanted and is demand. 
It just flies in the face of just good old common sense.
    Thank you very much.
    Senator Craig. Conrad, thank you. Your letter will become a 
part of the record.
    [The prepared statement of Senator Burns follows:]
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana
    I want to thank the chairman for holding this hearing on the 
National Fire Plan and thank our witnesses for being here. Just a few 
weeks ago I co-chaired a similar hearing on behalf of the House and 
Senate Interior Appropriations Subcommittees, and I am glad we are 
following up on that effort. We are looking at another dry year with 
high fire danger in the West, and this is the time to be doing 
something about it. We were able to dedicate a good deal of money to 
wildfire fighting and prevention last year, but we need to make sure 
it's spent effectively.
    I am looking forward to seeing what each of you has to say this 
afternoon. We have a wide variety of interests represented, which is 
important because the fires affect us in many different ways. I am 
especially pleased to see that we have witnesses not only from the 
Forest Service and the Department of the Interior, but also a 
representative from the National Association of State Foresters. It is 
very important to me that the federal firefighting agencies work 
collaboratively with state and tribal governments in mapping out a 
national long term strategy that addresses the fire risks across all 
jurisdictional boundaries.
    My home state of Montana and many other states were severely 
damaged by wildland fires during this past year. Over 7 million acres 
were burned nationwide--1 million of these acres were in Montana. This 
is more than twice the 10 year average for acres burned. In the West, 
so far this year the snowpack has been well below normal with many 
locations reporting 50 to 70 percent of normal levels. I am concerned 
that these conditions may lead to a repeat of the fires we had in 2000.
    As a result of last year's fires, the firefighting agencies 
prepared a report to the President which is now known as the National 
Fire Plan. This report contained five key recommendations. These 
recommendations were to fully fund the firefighting infrastructure so 
that we are better prepared to fight fire, to restore and rehabilitate 
landscapes and communities damaged by fire, to reduce hazardous fuels, 
to work directly with communities, and to be accountable for 
performance. The agencies requested an additional $1.6 billion to 
implement the Fire Plan. All these funds were provided by Congress in 
the FY 2001 Interior Bill.
    The Department of the Interior and the Forest Service emphasized 
that they would be accountable for the additional funds provided by the 
Congress. Now it's time for us to take the agencies at their word. The 
Committees involved need to know what the Department of the Interior 
and the Forest Service have accomplished with these additional 
resources so far and what they expect to achieve over the course of 
this year. We also need to know what the long term budgetary needs of 
the agencies are.
    I am also interested in what obstacles the agencies, states, and 
tribes are facing and what we can do here in Washington to help 
maximize accomplishments on the ground. I will focus especially in the 
coming year on how the Bureau of Land Management and the Forest Service 
integrate community protection from wildfire into their regular forest 
and range management activities. Reducing fire hazard through thinning 
and stewardship activities can work hand-in-hand with opportunities to 
produce forest products. This was frequently overlooked in the past 
Administration. I would like to know what the agencies' approach will 
be now.
    I believe another way to provide forest products and to carry out 
the agency's stewardship activities is to salvage timber burned last 
year on federal land more efficiently. In Montana, the Forest Service 
has had mixed success in making salvage timber available. For example, 
on the Bitterroot National Forest the agency has been able to offer 
sales only in areas that were slated for timber sales prior to the 
fires. Unfortunately, in other areas there is at least a 4 month lag 
time in getting any timber harvested from federal land. The longer the 
timber stands, the less it is worth, and it is also less useable.
    The problem is partly that each Forest has to reinvent the wheel 
every time it tries to make a timber sale using expediated procedures. 
In last year's Interior Appropriations Bill, we authorized the 
President's Council on Environmental Quality to write new and simpler 
procedures for these after-fire timber sales and fuels reduction 
projects on Forest Service land. Under the previous Administration, CEQ 
chose not to change those procedures, but I hope this will change soon.
    On the other hand, the state of Montana is currently harvesting 
timber from state lands that were burned. To this point, approximately 
21.9 million board feet (mmbf) has been harvested from state land on a 
harvest area of 4,050 acres (out of a total of 14,000 state acres 
burned). The bulk of this salvage was removed within 3 months of the 
burn and no lawsuits were filed against the state. We need to do better 
on the federal lands. I am including in the record letters from two of 
my constituents, Owens & Hurst Lumber Co., Inc. and Pyramid Mountain 
Lumber Inc. which highlight the problems local mills have had in 
attempting to get the Forest Service to expedite salvage logging in 
national forests burned in Montana.
    Finally, I am concerned that the federal commitment to addressing 
wildland fire issues may wane as other priorities in the Interior bill 
become pressing and as the memory of this past year's fires fades. I 
think this would be a terrible mistake. Unless Congress and the 
Administration provides the funds to address the wildfire hazards in 
our forests over the long term we will have more and more devastating 
fire seasons. We need a comprehensive approach to wildland fire 
management that addresses fire hazards across all ownerships, that 
safeguards at-risk communities, and perhaps most importantly, 
emphasizes the need for proactive management which can prevent a repeat 
of 2000 from ever happening again.

    Senator Craig. Now let me turn to Tim Hartzell, Director, 
Office of Wildland Fire Coordination, U.S. Department of the 
Interior.
    Tim, welcome before the committee.

 STATEMENT OF TIM HARTZELL, DIRECTOR, OFFICE OF WILDLAND FIRE 
            COORDINATION, DEPARTMENT OF THE INTERIOR

    Mr. Hartzell. Thank you, Mr. Chairman, members of the 
committee.
    Let me first preface my remarks by letting you know how 
much we appreciate the support the Congress has given us for 
the fire management programs for the Department of the Interior 
and Department of Agriculture this year. We are truly 
appreciative of that. And for fiscal year 2001, for the 
Department of the Interior, that funding is nearly doubling our 
fire program capacity and that is going to increase our fire 
fighting capability. It is going to help us protect critical 
natural resources, sustain local economies, restore healthy 
range and forest ecosystems, and most importantly, keep our 
fire fighters and the public out of harm's way.
    I am pleased to report that the Department of the Interior 
has made some substantial progress in responding to the mandate 
that Congress gave us in the 2001 appropriation report. The 
2001 appropriations provided the best chance in decades for 
Federal agencies to demonstrate that management goals can be 
developed, sound objectives can be formulated, constituencies 
built to implement those objectives, and results achieved.
    The problem is certainly a large one, but it is not 
insurmountable. I believe that the National Fire Plan 
prescribes a blueprint for us and everyone to be successful.
    Let me address our accomplishments to date, which have been 
many, as they relate to the five key goals of the National Fire 
Plan.
    First, in the arena of being adequately prepared to 
prevent, detect, and conduct initial wildfire attack, we are 
hiring nearly 2,500 new fire positions. We are well along the 
road to completing that task. We are also ordering 62 new fire 
engines that will increase our initial attack capability 
throughout the country. We are going to be contracting 24 new 
helicopters and other aircraft to increase our initial attack 
capability. We are going to be reconstructing 52 fire 
facilities, such as crew barracks and heliports, which are 
substandard.
    In the arena of hazardous fuel reduction, we have a plan to 
treat nearly 1.4 million acres. One-fourth of that acreage will 
be around wildland communities in the vicinity of Federal land. 
The remainder will be hazardous fuel treatments in priority 
watersheds to ensure healthy range and forest lands.
    Let me just say that in pursuit of this hazardous fuels 
management goal, we have initiated several actions to increase 
our ability to complete fuels reduction work via contracting, 
which was a directive in the appropriations report.
    We have streamlined procedures. We have eliminated 
duplication among the agencies. We have developed standard 
contracts and statements of work for the various types of work 
to be conducted. We have established geographic contracting 
leads, and we have developed community assistance contracts to 
enable agencies to provide training to increase contracting 
capacity in local communities.
    For the third goal of rehabilitating and restoring the 
acreage that was severely burnt or damaged in last year's 
wildfires, we plan to treat nearly 1.4 million acres in 14 
States. Projects will be targeted at stopping accelerated 
erosion, protecting water quality, and restoring crucial 
wildlife habitat. Of this 1.4 million acres, we estimate that 
treatment on nearly 600,000 acres will be targeted to 
preventing the expansion of noxious weeds.
    For the goal of community assistance, Congress has given 
the Department of the Interior a new appropriations component, 
a $10 million increase that will target small rural fire 
departments in the vicinity of Federal lands throughout the 
country. The purpose of this appropriation is to provide 
training, equipment, supplies, and materials, thereby 
increasing the protection capability and enhancing fire fighter 
safety in these small fire departments. These are communities 
and small fire departments that are very important to us 
because very often, as you know, in small communities 
throughout the country, these fire departments are often the 
first responders. We are delighted that we have increased 
capacity to provide education and material to support these 
rural fire agencies.
    Lastly, Lyle talked about accountability. We are committed 
to the success of the National Fire Plan and we have taken 
several critical actions to ensure that success.
    First, we are tracking all key elements of the National 
Fire Plan. We will continue to do so throughout the year so 
that we can respond to your request for progress status on 
call.
    We are working with the Forest Service to develop one 
national tracking system and one national database. In the 
interim, we are modifying our four Interior bureau management 
information systems to ensure that progress on the key elements 
of the National Fire Plan is tracked and reporting is 
available.
    We have also initiated regular reporting procedures through 
the Department of the Interior bureau directors to the 
Secretary, providing her with updated information on status of 
the National Fire Plan.
    Let me close by saying that I truly appreciate this 
opportunity. We are grateful for the support that Congress has 
afforded us, and we are grateful for the support that you have 
given us to begin to reverse the trend of deteriorating health 
of our forests and rangeland ecosystems. We view the funding 
for 2001 as an investment that will, in the future, help us 
save communities money, our natural resources, and the lives of 
fire fighters and the public.
    However, the progress we have made to date has not occurred 
in isolation. The Federal agencies have for some time worked 
very effectively together in the arena of suppression. This is 
an evolution in that process. You are going to see this year, 
and in the future, increased collaboration among the Federal 
family not just for suppression but for fuels hazard reduction 
and you are going to see increased collaboration with our non-
Federal and our State and local partners to help us carry out 
this important mission. We will not--any of us--be successful 
in isolation. The problem is bigger than any of us and the 
solution clearly depends upon all of us, the Federal community 
with the States, non-government organizations and local 
communities.
    Like any long-term investment, however, I would caution 
that we need to maintain some patience. It took many, many 
decades for fuels to build up to their current dangerous 
levels. The demands on the public lands and resources are only 
going to increase in the future. It will take time for all of 
us, the Federal agencies, our tribal partners, State and local 
partners, rural fire districts, elected officials, and others 
to ameliorate the volatile and dangerous situation that exists 
in so many areas of our country.
    The Department of the Interior has made a commitment to see 
this process through to a successful conclusion. We intend to 
honor our commitment and we look forward to your continued 
support. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hartzell follows:]

 PREPARED STATEMENT OF TIM HARTZELL, DIRECTOR, OFFICE OF WILDLAND FIRE 
                COORDINATION, DEPARTMENT OF THE INTERIOR

    Good morning Mr. Chairman and members of the Committee.
    I appreciate the opportunity to address this committee concerning a 
natural resource effort that is historic in its scope and presents a 
unique challenge, implementation of the National Fire Plan. My name is 
Tim Hartzell and I am the Director of the Office of Wildland Fire 
Coordination for the Department of the Interior. I am pleased to report 
that the Department of the Interior firefighting agencies have made 
substantial progress in responding to the mandate that Congress gave us 
in the appropriation language for FY 2001 to minimize the severity of 
another fire season such as we had in 2000, lessen the dangers to 
communities at risk, restore ecosystems and the natural role of fire, 
protect our critical natural resources, and most important, keep our 
firefighters and the public safe.

                               BACKGROUND

    The 2000 fire season was long, stubborn, volatile and widespread. 
The fire season started on January 1st, when a small blaze ignited near 
Ft. Myers, Florida, and lasted well into the fall. As late as December, 
more than 14,000 acres burned east of San Diego, California, destroying 
fourteen structures.
    In total, almost 93,000 wildland fires burned close to 7.4 million 
acres. While neither the number of fires nor the number of acres 
approached all-time records, the conditions, fire behavior and 
potential for an even more explosive season were perhaps unparalleled 
in the last fifty years. The intensity of the fires was the result of 
two primary factors: a severe drought, accompanied by a series of 
storms that produced millions of lightning strikes and windy 
conditions, and the long-term effects of more than a century of 
aggressively suppressing all wildfires, which has led to an unnatural 
buildup of brush and small trees in our forests and on our rangelands.
    The 2000 fire season also caught the attention of the public. In 
early August, President Clinton visited a battalion of soldiers from 
Ft. Hood, Texas, pressed into duty as firefighters on the Burgdorf 
Junction Fire, near McCall, Idaho. During that trip, President Clinton 
asked the Secretaries of Agriculture and the Interior to develop 
recommendations on how to reduce the impacts of fire on rural 
communities and ensure sufficient firefighting resources for the 
future. On September 8th, the Secretaries responded with a report 
entitled, ``Managing the Impacts of Wildfires on Communities and the 
Environment: A Report to the President in Response to the Wildfires of 
2000,'' also known as the ``National Fire Plan.''
    The National Fire Plan recommended that the Departments of 
Agriculture and the Interior seek an increased appropriation for fire 
management, and do several things:

  <bullet> Continue to make all necessary firefighting resources 
        available;
  <bullet> Restore landscapes and rebuild communities;
  <bullet> Invest in projects to reduce fire risk;
  <bullet> Work directly with communities;
  <bullet> Be accountable.

    We are grateful that Congress took quick and decisive action once 
the report was issued. As a result, the wildland fire budgets for both 
the Department of the Interior and Department of Agriculture were 
substantially increased for FY 2001.
    At present, we are concentrating our efforts in the Department of 
the Interior on three main areas: fire preparedness, fire operations, 
and assistance to rural fire districts. Later in my statement, I will 
detail some of the steps that have been taken and will be taken in the 
coming months to address these three critical areas.

                        ACCOMPLISHMENTS TO DATE

    The FY 2001 appropriation provided an injection of critically 
needed support and funding for wildland fire and resource management. 
Although the agencies have managed wildland fire in the past as 
efficiently and safely as possible, the FY 2001 appropriation provided 
a much needed boost to ensure that adequate resources are available in 
the face of today's significant fire and resource management issues, 
such as rangeland and forest health, the increasing size and intensity 
of wildland fire that is resulting from much of the land's unhealthy 
state, and the ever-expanding wildland-urban interface. Late in 2000, 
the Department of the Interior and the USDA Forest Service began 
implementation of the National Fire Plan by detailing support, 
direction and funding for wildland firefighting agencies to better 
manage fire and resources on the land. An interagency steering group 
convened with representatives and leads from each Federal wildland 
firefighting agency, including DOI's Bureau of Indian Affairs, Bureau 
of Land Management, National Park Service, Fish and Wildlife Service, 
and USDA's Forest Service. Each of these agencies developed an agency-
specific National Fire Plan implementation strategy to provide field 
personnel with procedural guidance.
    The National Fire Plan is founded on a long history of cooperation 
among fire-fighting agencies. Its long-term success depends on 
cooperation and collaboration among Federal agency partners, Tribal, 
State, county and local governments, contractors and other service 
providers, and users of Federally-owned land. As soon as agencies 
received the FY 2001 budget, National Fire Plan leads from the 
Departments of Agriculture and the Interior met with such partners as 
the National Association of State Foresters, the Western Governor's 
Association, and the National Association of Counties, to discuss the 
ramifications of the FY 2001 appropriations.
    Within weeks of the passage of the FY 2001 Appropriations Act, 
requests for pertinent data and status reports were sent to the field 
to determine staffing, rural fire district, and planning needs, and to 
determine which hazardous fuels treatment projects are ready for 
implementation in FY 2001 and which remain in the planning stages. 
Deferred maintenance and capital improvement projects were prioritized 
and allocated, and project tracking systems were developed. Weekly 
interagency and agency meetings, satellite broadcasts and information 
bulletins help coordinate efforts and disseminate information 
throughout the agencies.
    In January 2001, the Department of the Interior and the Forest 
Service issued the ``Review and Update of the 1995 Federal Wildland 
Fire Management Policy.'' This report came in response to a request 
from the Secretaries of Agriculture and the Interior. The National Fire 
Plan is built upon the foundation and framework of the Review and 
Update. The Review was conducted by 14 Federal agencies and the 
National Association of State Foresters, who concluded:

  <bullet> The 1995 Fire Policy is still sound, but additional emphasis 
        is recommended on science, outreach and education, restoration, 
        and program evaluation.
  <bullet> The fire hazard situation is worse than predicted in 1995.
  <bullet> The scope of the Urban Wildland fuels hazard problem is even 
        more complex and extensive than predicted in 1995.
  <bullet> Additional research is needed on the effectiveness of 
        different fuels treatment options, and post-fire rehabilitation 
        activities.
  <bullet> Additional collaboration and integration of all Federal 
        agencies with land management responsibility as well as non-
        Federal agencies is needed.

    The National Fire Plan addresses these concerns by:

  <bullet> Increasing fuels hazard treatment activities for DOI to a 
        planned target of 1.4 million acres of Federal land in FY 2001. 
        This represents an increase from an average of 800,000 acres of 
        fuels treatment activities.
  <bullet> Increasing on-the-ground fuels hazard reduction work in FY 
        2001 around a greater number of vulnerable communities, and by 
        developing a collaborative partnership with the State Foresters 
        and others to design a long-term fuels treatment strategy in 
        the Urban Wildland interface.
  <bullet> Increasing research in: a) the economic and environmental 
        consequences of fuels treatment alternatives in a variety of 
        fuels types across the country; b) the effectiveness of post 
        fire rehabilitation techniques including the control of noxious 
        weeds and invasive species.
  <bullet> Increasing outreach and partnership activities with the 
        Western Governors' Association, the National Association of 
        Counties, Tribes, other Federal partners, and non governmental 
        organizations in designing a 10-year strategy to restore health 
        to fire adapted ecosystems and a plan of action to implement 
        the NFP.

    Also in January 2001, the Department of the Interior completed an 
action plan to implement the National Fire Plan. This action plan 
contains proposed accomplishments for FY 2001 in wildland fire 
preparedness, operations, and rural fire assistance. It addresses 
actions needed to implement the National Fire Plan, including:

  <bullet> Hiring additional personnel and obtaining needed equipment.
  <bullet> Completing deferred maintenance and construction.
  <bullet> Enhancing fire science work.
  <bullet> Planning and implementing hazardous fuels treatments.
  <bullet> Planning and implementing burned area rehabilitation.
  <bullet> A financial plan for complying with Title IV of the 2001 
        Appropriation Act.

    We divided our accomplishments under the National Fire Plan into 
the three key areas: fire preparedness, fire operations, and rural fire 
district assistance.
Fire Preparedness
    Wildland fire preparedness provides agencies with the capability to 
prevent, detect and take prompt, effective initial attack suppression 
action on wildland fires. Preparedness includes staffing, aircraft and 
equipment, maintenance and construction, fire science and research, and 
the associated Federal acquisition practices.
    Interior and Forest Service personnel have been working together to 
create consistency in position classifications. Outreach and 
recruitment to obtain diverse, well-qualified candidates began in 
December 2000 to fill firefighter, fire manager and support positions, 
and for fire and fuels specialists. Many of these positions have been 
advertised jointly and centrally to eliminate duplication of effort and 
to streamline the application process.
    We are contracting for the use of an additional 16 aircraft, and we 
purchased equipment, including 40 new heavy engines, 43 light engine 
upgrades, 14 crew carriers for Hot Shot crews, 7 water tenders, 5 
helitack trucks, and 3 dozers and lowboys. Although this equipment has 
been purchased in 2001, some of it will not be delivered until 2002.
    Within the Department of the Interior agencies, 50 fire facilities 
require maintenance or construction. These projects have been 
prioritized and the funding has been allocated.
    The Joint Fire Science Program, a six agency partnership to address 
wildland fuels issues, was established in 1998 to fill the gaps in 
knowledge about wildland fire and fuels. The purpose of the Program is 
to provide wildland fire and fuels information and tools to specialists 
and managers who make wildland fuels management decisions. The 
information and tools will also help agencies develop sound, 
scientifically-based land use and activity plans. The Joint Fire 
Science Program will fund important new research to explore effective 
methods of mapping and treating fuels. The program will also direct a 
significant portion of funding to answer questions about important 
regional or local suppression, fuels management and rehabilitation 
needs. The Department of the Interior and the Forest Service recently 
issued a request for proposals for fire science projects. We expect new 
proposals to focus on the feasibility of developing a locally-based 
biomass conversion industry. Other proposals will examine carbon 
storage, soil compaction, water quality, and habitat as they relate to 
fuels treatments. We have also requested proposals to determine the 
cumulative effects of fuels manipulation on fire behavior and severity, 
wildlife populations, and habitat structure. In addition, on January 
18, 2001, we established the Joint Fire Science Program Stakeholder 
Advisory Group under the Federal Advisory Committee Act (FACA). The 
purpose of the Group is to advise and assist the Secretaries of 
Agriculture and the Interior, through the Joint Fire Science Program 
Governing Board, on priorities and strategies for completing wildland 
fire and fuels research and implementing research findings.
    The National Fire Plan calls for a dramatic increase in the amount 
of fuels reduction and fuels management work, and much of this work is 
targeted for completion by independent contractors or through service 
agreements. In December 2000, an interagency team of contract and fuels 
specialists met in Boise, Idaho, and developed model contracts and 
agreements that agencies will use for fuels reduction, rehabilitation 
and restoration projects, and model grants and cooperative agreements 
to assist communities and rural fire departments. We created a web site 
that houses these model contracts so that each field office can access 
them easily, saving valuable time and effort, and increasing 
consistency among agencies.
    Although fuels management by contract has grown over the last 10 
years, there is still a need to foster growth in the number of 
contractors available. A primary focus of the 2001 appropriation is to 
facilitate awards to firms that will hire locally. Although the term 
``local'' is undefined, managers and contracting personnel will 
emphasize the use of sealed bid awards to firms that are in closer 
proximity to project work and best value awards to firms that commit to 
specific plans to hire local workers.
    The interagency contract and agreement team has developed an 
outreach plan that will:

  <bullet> Locate firms that are not currently active in bidding or 
        proposing on Government procurement for fuels management 
        contracts.
  <bullet> Introduce local independent contractors to the benefits of 
        contracting for this type of work with the Government.
  <bullet> Encourage continued participation by firms that currently 
        have fuels management contracts.
Fire Operations
    Wildland fire operations include suppression, burned area 
rehabilitation and fuels management, including fuels reduction in 
wildland-urban interface areas that pose a risk to people, property and 
natural resources. To better facilitate these operations, several steps 
have been taken:
    First, a list of communities most at risk from wildland fire in the 
wildland-urban interface (discussed in more detail later in this 
testimony) and hazardous fuels reduction projects within and around 
those communities has been developed. Work is continuing to refine the 
criteria and the list of communities at risk.
    Second, a cohesive fuels management strategy has been drafted that 
will provide a broad, national framework for Interior agencies to 
ensure:

  <bullet> Effective collaboration among Federal agencies, Tribal, 
        State and local governments and other stakeholders.
  <bullet> Alignment of all program areas to prevent further 
        degradation, and to work toward the common goal of reducing 
        unnaturally intense wildland fire.
  <bullet> Integration of fire and resource management within and 
        across all agencies.

    Third, on February 7th, Secretary Norton approved the release of $4 
million to the U.S. Fish and Wildlife Service, and $2 million to the 
National Marine Fisheries Service, needed to perform consultations 
under Section 7 of the Endangered Species Act for work identified by 
DOI. This money will facilitate consultation for critical hazardous 
fuels treatment projects as implementation of the National Fire Plan 
progresses.
    Finally, both Departments are engaged with the Governors, Tribes, 
non-governmental organizations and others in an active and open 
partnership to develop a ten-year comprehensive strategy to implement 
collaboratively the National Fire Plan and to begin to effectively and 
efficiently manage the nation's hazardous fuels situation. This ten-
year strategy will unify State, Tribal, and Federal efforts to 
cooperate across jurisdictions, coordinate activities and maximize 
capabilities to reduce the impacts of wildfires on communities and the 
environment.
Rural Fire Department Assistance (RFDA)
    The 2001 budget appropriation provided $10 million to the 
Department of the Interior for a new program to enhance the wildland 
fire protection capabilities of rural fire departments (RFD). In 
December 2000, representatives from each of the Interior agencies met 
and developed basic selection criteria for the distribution of these 
grant funds. Grants will be limited to $20,000 per RFD, and the RFDs 
that apply will be reviewed for criteria that include:

  <bullet> Having an agreement in place with the State Forester or an 
        Interior agency.
  <bullet> Serving a community with a population of less than 10,000, 
        in the wildland-urban interface.
  <bullet> Using funding only for training, equipment and prevention.
  <bullet> Sharing a minimum of 10 percent of the total cost.

    An Interior work group was formed to develop an interagency 
agreement/contract which will be used by field offices to facilitate 
the transfer of funds to rural fire departments. A draft of this 
document is currently undergoing field review and will be finalized in 
the next few weeks.
    The money for RFDA has been allocated by each Interior Bureau to 
field offices, and fire managers are working with partners at the local 
and regional levels to establish priorities and to allocate available 
funds.
Communities-at-Risk
    The Secretaries of Agriculture and the Interior were asked in the 
FY 2001 Interior Appropriations Act (Public Law 106-291) to publish 
jointly in the Federal Register a list of all wildland-urban interface 
communities that are at high risk from wildfire.
    The list was published in the Federal Register on January 4, 2001. 
Communities on the list were proposed by States, Tribes and local 
governments. The criteria for listing varied from State-to-State, which 
explains why some States listed hundreds of communities, while others 
submitted a much smaller list. The list also identifies communities 
with ongoing fuels treatment projects and those with projects planned 
for FY 2001. A total of 37 States participated and more than 4,500 
communities were listed. Since then, four more States have submitted 
their lists, and the total number of communities has grown to more than 
6,400. We appreciate the work that went into the list, especially the 
work performed by the State Foresters and Tribes.
    Developing the list of communities was only part of the Federal 
Register notice published on January 4. The notice also provided a 
definition of wildland-urban interface, and included suggested criteria 
for categorizing interface communities and evaluating the risk to those 
communities. The January 4 list is a starting point. It needs to be 
refined, possibly narrowed, and focused so that we can set treatment 
priorities for the coming years. The list of communities far exceeds 
our hazardous fuel reduction capabilities.
    Revising the list is a formidable task. Working closely with the 
Western Governors' Association, we have developed a process to address 
this daunting task. Some communities are much more vulnerable to 
wildland fire than others. Our next task becomes one of identifying, 
again in collaboration with our Tribal, State and local partners, the 
communities in the vicinity of Federal lands that are most at risk, 
which are the places where we will begin hazardous fuels reduction 
work. The results of this effort will be published in the Federal 
Register later this spring. The Federal Register Notice will identify 
the full extent of the high-risk wildland urban interface problem along 
with communities where hazardous fuels reduction treatments will not be 
planned, and the reasons why.
    The revised lists of communities at risk in each State will be 
developed by an interagency team consisting of representatives of the 
Department of Agriculture, Department of the Interior, State Foresters, 
and Tribes. Representatives from other Federal agencies such as the 
Departments of Energy and Defense will be included where appropriate. 
Others who may be invited to participate include representatives of 
county government, local fire response organizations, State emergency 
management offices, and community forestry organizations. A specific 
process for refining the urban wildland communities list has been 
developed by the Forest Service, the Department of the Interior, and 
the National Association of State Foresters. We envision that these 
teams will continue and will serve the long-term goals of identifying, 
prioritizing and implementing fuels treatment projects, to ensure that 
the long-term needs of communities vulnerable to wildland fire are 
addressed.
    Existing project proposals in these identified urban wildland 
communities that have approved plans and completed environmental 
compliance will have the highest priority for fuels treatment, and work 
is already underway in many of these communities. DOI's projects will 
cover about 300,000 acres. Additional projects that can be readied for 
implementation this fiscal year will receive the next priority. 
Finally, for those newly identified projects or projects not ready for 
implementation, the planning process will be initiated toward future 
treatments and implementation schedules will be developed.
    A cornerstone of the National Fire Plan has been enhancing the 
communication for preparedness and strategic planning among all 
partners in the wildland fire management arena. To facilitate this 
objective, all of the National Fire Plan Coordinators from the 
Department of the Interior and its bureaus, as well as the Forest 
Service, and representatives from the Environmental Protection Agency, 
Council on Environmental Quality and others, assembled in Denver on 
February 21 and 22, 2001, to share concerns and issues, clarify roles 
and expectations, validate the importance of success, and define a 
management structure for collaboration at the geographic area level 
throughout the country. This meeting provided a springboard to unify 
State, Tribal and Federal efforts to cooperate across jurisdictions, 
coordinate plans and activities, and collaborate with local governments 
to implement efficiently and effectively the goals and commitments 
outlined in the National Fire Plan.

                               CONCLUSION

    We appreciate the opportunity to testify at this hearing. We are 
grateful that Congress has afforded firefighting agencies an 
opportunity to reverse the trend of deteriorating health for our forest 
and rangeland ecosystems. We view the funding for FY 2001 as an 
investment that will, in the future, help save communities, money, our 
natural resources, and the lives of firefighters and the public.
    Like any long-term investment, it will require patience. It took 
many decades for fuels build up to reach their current levels. The 
demands on public land and its resources will only increase in the 
future. It will take time for all of us, the Federal agencies, our 
Tribal, State and local partners, rural fire districts, elected 
officials and others, to ameliorate the volatile and dangerous 
situation that currently exists in many parts of our country. The 
Department of the Interior has made a commitment to see this process 
through to a successful conclusion. We intend to honor this commitment, 
and we look forward to your continued support.
    Thank you, again. I will be happy to answer any questions from the 
committee.

    Senator Craig. Thank you very much, Tim.
    Before, Jim, I recognize you, let me turn to my colleague 
who has just come in, Senator Gordon Smith of Oregon, for any 
opening comment you would like to make.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Mr. Chairman, I do not have an opening 
statement, but I am anxious to hear what our witnesses have to 
say because clearly in our part of the world, fires could be a 
very real part of the drought that is besetting our region.
    Thank you for holding this hearing.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Last year's catastrophic wildfire season, in which nearly 7 million 
acres burned, finally brought to the forefront the need to address the 
increasingly dangerous forest fuel loads on our public lands. It is 
unfortunate that it took such a financially and ecologically 
devastating fire season to bring the former Administration around to 
seriously deal with this issue. I trust that the new Administration 
will make this a top priority, not only this year, but over the long 
term as well. I have been heartened by statements from top officials in 
this Administration indicating that this will, indeed, be the case.
    During today's hearing, I look forward to learning more about how 
the dramatically increased funding for wildfire suppression and fuels 
treatment that we passed last year is being spent. It is my hope that 
this will be just the first year of many years of providing the 
necessary federal resources for federal land management agencies to 
address this important and long-neglected need to reduce the risk of 
catastrophic fire across the West. However, it is equally important to 
ensure that the money is being spent wisely and that the maximum on the 
ground results will be achieved.
    As you know, this year is shaping up to be one of the worst drought 
years on record for many parts of the Northwest. If this turns out to 
be the case, this will only exacerbate what was already a widely known 
problem of significant wildfire threats built up over years of 
relatively inactive management of our public forests. I believe the 
Administration's efforts to reduce the dangerous fuel loads near 
populated areas, both large and small, must be accelerated. There are a 
number of communities in my state--from the large and fast-growing like 
Bend in Central Oregon, to the smaller rural communities like John 
Day--that are nearly surrounded by federally-managed forest lands in 
declining health. I am deeply concerned that this summer we could see a 
tragic loss of life and property--not to mention fish and wildlife 
habitat--if we do not act now to rapidly reduce hazardous fuel loads. 
To the extent possible, I hope that this new Administration will fully 
utilize local stakeholder groups in this process and quickly implement 
fuel-reduction strategies that address the high-priority areas in a 
manner that accrues complimentary economic development and 
environmental benefits.
    I want to thank all the panelists who are here to testify today. In 
particular, I would like to acknowledge Nils Christoffersen of 
Enterprise and Cece Headley of Eugene who have traveled all the way 
from Oregon to take part in this hearing. I look forward to hearing 
your testimony this afternoon.
    Thank you, Mr. Chairman, for holding this important and timely 
hearing today.

    Senator Craig. Thank you, Gordon.
    Now let us turn to Jim Hubbard, Colorado State Forester, 
National Association of State Foresters.
    Jim, welcome to the committee.

 STATEMENT OF JAMES E. HUBBARD, STATE FORESTER OF COLORADO AND 
 REPRESENTATIVE OF THE NATIONAL ASSOCIATION OF STATE FORESTERS

    Mr. Hubbard. Thank you, Mr. Chairman. I am here today 
representing the 50 State foresters trying to provide the 
liaison with the Federal agencies in implementing the National 
Fire Plan. I am pleased to be before you today, and I will 
observe the rules that you laid down, Mr. Chairman. I am 
staying awake and I am taking a lot of notes.
    [Laughter.]
    Senator Craig. Thank you.
    Senator Burns. That is more than I am doing.
    [Laughter.]
    Senator Craig. We have got a buzzer on Conrad's chair.
    [Laughter.]
    Senator Craig. Please continue.
    Mr. Hubbard. The 2000 fire season, with over 7 million 
acres burned, was bad, but it is not necessarily what we should 
consider to be an exceptional year. Our 10-year average is 
increasing and we will continue to have that kind of a problem. 
It is related certainly, in part, to drought in the West, but 
it is also related to forest condition and rangeland condition. 
That condition is not going to change anytime soon, so we can 
expect to have a lot of fire activity. And now we have 
increased the risk of our exposure by adding life and property 
in the interface to this mix.
    Congress responded. Congress provided money to fund the 
National Fire Plan to fight fire, to restore the burned areas, 
and to begin mitigating the fuel hazard. If we work together, 
Federal, State, tribal, local, we think we can make that work.
    The Western Governors got into the picture as well and 
asked for three things of the Secretaries. They asked for full 
involvement in all of the elements of the National Fire Plan. 
They asked that it be an all-lands approach. They are concerned 
that this be the long-term approach with the strategy it takes 
to follow through and complete the work.
    As for the State and local involvement with Federal land 
management agencies, one of the triggers to make that happen is 
the community list, the wildland/urban interface community list 
that is published in the Federal Register. That list is 
provided by the States. The Federal agencies are judged whether 
or not they are successful with their project implementation 
for fuel hazard by how their projects match up with that list. 
So, the collaboration has increased considerably. We have 
always worked together on suppression of wildland fire. We are 
working much closer now than ever before on the mitigation of 
the hazard.
    Now, we have with that list some national consistency, but 
of course, we have regional and State differences that have to 
be observed. So, we have local implementation teams usually 
within each State that are dealing with all aspects of the 
National Fire Plan. Those teams are composed of State, Federal, 
and local participants. Other interests are also participating. 
So, they are coordinating the preparedness, the mitigation, and 
the prevention. They are coordinating the Federal preparedness 
dollars with the volunteer fire assistance dollars, and how we 
meld those two together and fight fire on an interagency basis. 
We have volunteer fire departments that are trained and 
equipped to deal with the increased complexity of fires because 
of our forest condition and because of the interface.
    We are also now mobilizing the interagency on the fuels 
treatment, and with the State fire assistance that you 
provided, that is going into incentives to make sure when we 
work cross-boundary on a landscape scale and we have private 
ownership involved mixed with Federal ownership, that those 
private landowners can participate with some help in producing 
a public benefit to reducing that hazard.
    We also have the community assistance program that takes 
the form of economic action and fire management planning 
locally that is helping counties to determine how they best 
want to deal with this problem.
    Finally, the Fire Wise program and prevention messages so 
that the public is aware. Many of these landowners moving into 
this interface do not have the awareness they need of what they 
are getting into, and they can do a lot to help themselves. 
Fire Wise helps them do that.
    All-lands approach. With the ownership pattern, 
particularly in the West, you cannot do this without dealing 
with all lands across boundaries. If you want to protect a 
subdivision on private land, it is necessarily going to involve 
Federal land treatments that are close to that subdivision. We 
have to deal with that landscape scale and manage on a 
watershed basis and do it together.
    We have to be able to cross the boundaries. Senator Wyden 
helped the Federal agents come across the boundary on the 
private side. We have some legislation that is being tested in 
Colorado that allows the State to go the other direction. That 
is going to be very useful as we proceed with joint project 
efforts.
    Long-term. The forest condition and the age of our forests 
is increasing. It was created by disturbance in many places, 
and it is about to be recreated by disturbance. And that is 
usually fire. The tree moistures, the field moistures are low. 
They are not going to recover regardless of precipitation. So, 
when we have dry periods, we are going to have fires that burn 
hot. We are going to have fires that are more difficult to 
control. We need to deal with those millions of acres of fuel 
accumulation and treat them, and we need to do that, as I have 
said, together.
    The critical factor for the State and local governments is 
the wildland/urban interface. That is because we have life and 
property at risk. What we worry about is a fire like the 
Buffalo Creek fire just outside of Denver, Colorado. That fire 
burned 10 miles long by 2 miles wide in 5 hours. Fortunately 
that was in an area where there was no property involved. We 
lost a lot of trees. We have got all kinds of problems with 
soil erosion following that kind of a fire. But the county that 
it was in replotted the footprint of Buffalo Creek one 
watershed north, and 840 homes were in the way. You do not get 
people out of the way of a fire that moves that fast and covers 
that much area.
    So, it is a major concern. We have got to do something 
about the fuels treatment. You have helped us to start that 
process. We have got to do something about how we fight fire in 
the interface together.
    In summary, we have serious conditions and it is going to 
take us a long time to deal with them. It is complicated by the 
life and property that is at risk. We have to collaborate to 
make that happen. The National Fire Plan finally offers us that 
kind of an opportunity like we have never had before.
    And we do have to get beyond the differences. We do have to 
figure out how we are going to work this together, not just the 
land management agencies, but all the interests involved, and 
protect those properties, those people, and our natural 
resources.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hubbard follows:]

PREPARED STATEMENT OF JAMES E. HUBBARD, STATE FORESTER OF COLORADO AND 
     REPRESENTATIVE OF THE NATIONAL ASSOCIATION OF STATE FORESTERS
         IMPLEMENTATION OF THE NATIONAL FIRE PLAN AND RELATED 
                        CONGRESSIONAL DIRECTION

    My name is Jim Hubbard and I am the State Forester of Colorado. I 
am here today representing the National Association of State Foresters, 
which represents the directors of the State Forestry agencies from all 
50 States and seven U.S. territories, as well as the District of 
Columbia. Our members are actively involved in wildland fire 
suppression and are working in partnership with the USDA Forest Service 
and the agencies of the Department of Interior to implement the 
National Fire Plan. I serve as the liaison between the National 
Association of State Foresters and the National Fire Plan.
    The long-term stewardship and sustainability of our natural 
resources and communities is of utmost importance to the membership of 
the NASF. As many states saw during the 2000 fire season, catastrophic 
wildland fire poses a significant threat to both of these priorities. 
On behalf of NASF, I want to thank you for helping focus attention on 
the long-term challenge of restoring our forests and rangelands to a 
more resilient condition.
    My testimony today will highlight three major areas: First, I want 
reiterate our support for the overall approach to the issue espoused by 
the Western Governors Association. Second, Congress must recognize that 
this is a long-term problem that will be costly in the short term but 
will hopefully prevent higher costs over the long term. Last, I'd like 
to point out why the wildland urban interface is the most critical 
problem facing wildfire managers and which aspects of the National Fire 
Plan are best equipped to address it.

                       STATE FORESTER PRIORITIES

    As the extraordinary scale of the 2000 fire season became apparent, 
particularly in the Interior West, many Western Governors felt 
compelled to become more intimately involved with the recovery and 
response efforts being mounted by the Federal land management agencies. 
The Governors met face-to-face with the Secretaries of Agriculture and 
Interior in September 2000 and emphasized that their priorities for 
both short and long term wildfire response are as follows:

  <bullet> Full state involvement in all relevant planning, 
        prioritization, decision-making and implementation processes at 
        the national, regional and local levels;
  <bullet> Funding and implementation of rehabilitation, hazard 
        reduction, and ecosystem restoration projects across all lands, 
        regardless of ownership; and
  <bullet> Development and funding of a long-term (10+ years), 
        intergovernmental strategy to address ``the wildland fire and 
        hazardous fuels situation as well as the needs for habitat 
        restoration and rehabilitation in the Nation.''

    The Governors and Secretaries left the gathering in full agreement 
that an active state-federal partnership would be necessary to 
effectively address the immediate wildfire recovery needs of the nation 
as well as the long-term restoration and maintenance needs of our fire-
adapted forest and rangeland ecosystems. The group further agreed that 
local communities must play a more integral role in designing and 
carrying out these activities on the ground. The State Foresters fully 
support these priorities and are working in active partnership with the 
Federal agencies to ensure that implementation of the National Fire 
Plan adheres to them.

         FULL STATE INVOLVEMENT IN PLANNING AND DECISION-MAKING

    State governments share responsibility with their federal 
counterparts for the administration of many resources and public 
services within their boundaries. This cooperative, intergovernmental 
partnership is crucial in providing for safe and effective response to 
wildland fire. This is especially true in the wildland-urban interface 
where initial attack may be conducted by volunteer, local, county, 
state or federal firefighters regardless of where the fire started.
    The Governors insisted on full state involvement in all levels of 
wildland fire response, including rehabilitation and hazardous fuels 
mitigation, because they recognized that states bring to the table 
valuable resources such as established networks with local governments 
and communities, knowledge of statewide land management priorities and 
access to local workers and industries. If states are closely involved 
in wildland fire preparedness, mitigation and response activities, they 
can help coordinate the efforts of diverse federal land management 
agencies, ensure that opportunities for interagency collaboration are 
identified, and improve the understanding and support of local 
residents for priority land management actions.
    Congress acknowledged the importance of these intergovernmental 
relationships in the FY 2001 Interior Appropriations Bill (PL 106-291) 
and accompanying Conference report. In several instances, the bill 
directed the USDA Forest Service and Department of Interior agencies 
``to work closely with States and local communities.'' The 2001 
Appropriations bill further directed the agencies to ``seek the advice 
of governors, and local and tribal government representatives in 
setting priorities for fuels treatments, burned area rehabilitation, 
and public outreach and education.'' \1\
---------------------------------------------------------------------------
    \1\ FY 2001 Interior Appropriations Conference Committee Report 
[Report], pgs. 160-161.
---------------------------------------------------------------------------
    Clearly it was, and continues to be, the expectation of Congress 
that the federal land management agencies would incorporate state and 
local representatives into all levels of their wildland fire 
activities. This enhanced level of state-federal partnership is, in 
fact, beginning to develop in many States as federal agencies are faced 
with the task of identifying projects and allocating increased levels 
of funding according to both Congressional and Administrative 
direction.
    Many States have established an interagency state-federal team to 
coordinate implementation of the National Fire Plan within their state. 
My state of Colorado has convened an interagency coordination team that 
we hope will improve our collective land management efforts by 
identifying areas of mutual importance where we can effectively focus 
our efforts and funding.
    It is important to note that each of these partnerships has been 
strengthened by the availability of increased funding to state and 
community assistance programs. These additional dollars for cooperative 
fuels reduction on non-federal lands, for training and equipping of 
local fire departments, and for assistance to communities impacted by 
wildland fire greatly increase the ability of non-federal entities to 
participate fully in large-scale project planning and prioritization. 
Moreover, these are the critical components to reducing the risk to 
life and property in the wildland urban interface, which is creating 
unprecedented levels of complexity for wildland firefighters from coast 
to coast.
    The kind of intergovernmental collaboration now occurring could 
have happened previously but, for the most part, did not. Specific 
direction from Congress combined with increased funding for state and 
private fuels management and wildfire preparedness activities have 
given both sides the impetus to work together. I encourage you, on 
behalf of the State Foresters, to continue to provide both of these 
motivational elements--funding and direction--with the hope that this 
kind of cooperation will eventually become our standard way of doing 
business.

                 CROSS-BOUNDARY LANDSCAPE SCALE ACTION

    Anyone who has spent much time walking across a Western landscape 
will realize that natural forces such as insects, disease, fire, 
invasive weeds and flooding do not generally abide by fence lines or 
other jurisdictional boundaries. In many of our Eastern and Southern 
landscapes, interface fires cross multiple property lines and run 
freely from undeveloped lands into areas with homes and other developed 
property. We must maintain this same boundary-less mindset in our 
efforts to rehabilitate burned areas, mitigate future fire hazards or 
restore forests and watersheds to a more resilient condition.
    The need to work across boundaries is particularly important in the 
wildland-urban interface which is, by definition, a landscape 
characterized by multiple private ownerships and structures surrounded 
by wildland which could be under local, state or federal jurisdiction, 
or a combination thereof. While individual homeowners can reduce their 
risk from wildfire by using fire-resistant building materials and 
clearing defensible space around homes and structures, it takes several 
landowners working together across a landscape or watershed to truly 
impact fire behavior and improve the ability of firefighters to protect 
residents' lives and homes.
    Cross-boundary project planning and implementation is also 
important beyond the interface zone in fire-adapted ecosystems where 
actions are aimed at restoring natural fire cycles, protecting 
municipal and priority watersheds, reducing susceptibility to insect 
invasions or enhancing fish and wildlife habitat. All of these goals 
will be more effectively accomplished if land managers coordinate their 
efforts and improve forest and rangeland condition on a more functional 
landscape scale.
    Both Congress and the Administration can facilitate this boundary-
less concept by prioritizing federal fuels funding on projects that 
involve multiple landowners and/or can be implemented on a landscape 
scale so as to maximize positive results on-the-ground. These efforts 
will be further strengthened by allowing and encouraging the 
expenditure of federal funds across non-federal boundaries when that 
expenditure makes sense on a landscape or watershed scale. The 
continued availability of focused incentives for private landowners to 
participate in large-scale hazard reduction or ecosystem restoration 
projects will make the cross-boundary puzzle complete.

                     LONG-TERM STRATEGY AND FUNDING

    Since last year's fires, the Western Governors have placed 
particular emphasis on the need for a long-term, strategic response to 
wildland fire response rather than a one-year influx of funds. The 
State Foresters strongly agree with them on this point and we seek your 
support for such a multi-year approach, particularly for the programs 
that help fire managers cope with the wildland urban interface.
    Many of us are now familiar with the General Accounting Office's 
(GAO) estimate of 39 million acres of forestland in the interior West 
at high risk of catastrophic wildfire.\2\ What often gets lost is the 
realization that this number does not take into consideration the 
condition of federal lands not under Forest Service management, state 
and locally owned lands, private lands, or that vast majority of lands 
outside the interior West. As we've seen in recent years in States such 
as Florida, Texas, Virginia, New Jersey, and New York, fire is no 
longer a hazard faced only by Westerners but by all Americans.
---------------------------------------------------------------------------
    \2\ GAO/RCED-99-65, pg. 3.
---------------------------------------------------------------------------
    Clearly, the condition of fire-adapted ecosystems--and the related 
risks to lives, property and natural resources--is an issue of national 
proportions and significance. The heavy fuel loads in many Western 
forests is a situation that has developed over more than one hundred 
years. The expansion of development into the interface in the East and 
South has also been ongoing for decades. Treating the lands to reduce 
fire dangers and equipping and training local fire departments will 
take a multi-year investment of time, money and people to address.
    The Interior Appropriations Committee members echoed these 
sentiments in the Conference Report by stating, ``the managers strongly 
believe this FY 2001 funding will only be of value . . . if it is 
sustained in future years.'' \3\ The managers further strengthened this 
declaration by directing the Secretaries of Agriculture and Interior to 
``work with the Governors on a long-term strategy to deal with the 
wildland fire and hazardous fuels situation, as well as needs for 
habitat restoration and rehabilitation.'' \4\
---------------------------------------------------------------------------
    \3\ Report, pg. 161.
    \4\ Report, pg. 193.
---------------------------------------------------------------------------
    The Western Governors and their staff have taken the lead in 
bringing this direction, and their own stated priorities, to fruition 
by serving as the catalyst for the development of an intergovernmental 
strategic plan aimed at restoring health to fire-adapted ecosystems 
across the nation. The drafting team for this ambitious plan is 
national in scope and includes representatives from federal, state and 
local government, non-governmental and environmental organizations, 
ranching and grazing interests, the timber industry, and community 
forestry groups, to name a few of the stakeholders involved. 
Representatives from State Forestry agencies from all regions of the 
country are included in this effort.
    The draft document that is currently being circulated for comments 
outlines a ten-year strategy focused on achieving the following goals:

  <bullet> Reduce the risk and consequence of catastrophic wildfire, 
        and increase public and firefighter safety;
  <bullet> Improve conditions of fire-adapted ecosystems to make them 
        more resilient;
  <bullet> Promote local action by increasing public understanding and 
        providing tools to enhance local responsibility;
  <bullet> Maintain and enhance community health and economic and 
        social well-being;
  <bullet> Increase resource protection capabilities;
  <bullet> Provide for the restoration and rehabilitation of fire-
        damaged lands; \5\ and,
---------------------------------------------------------------------------
    \5\ In the context of this draft document, ``restoration'' 
activities may include: fuel reduction, prescribed fire; riparian 
restoration; invasive plants and noxious weeds treatments; and under-
story thinning or other activities related to restoring fire-adapted 
ecosystems.
---------------------------------------------------------------------------
  <bullet> Enhance collaboration/coordination among all levels of 
        government and stakeholders for joint planning, decision-making 
        and implementation.\6\
---------------------------------------------------------------------------
    \6\ As of March 14, 2001, the most recent draft of this document, 
titled ``A collaborative Ten-Year Strategy for Restoring Health to Fire 
Adapted Ecosystems,'' was version five released for comment on February 
20, 2001. Copies of this draft may be obtained from Rich Phelps at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9f9d8588819d9ead8b9ec38b8889c3989ec3">[email&#160;protected]</a>

    In addition to these goals, the final strategy will include 
indicators for success that can be tracked through monitoring and 
adaptive management. Progress will be guided by yearly performance 
goals, objectives, budget estimates for land ownerships and state 
participation, and time lines that facilitate implementation of the 
strategy within a ten year time frame.
    The draft document also calls for reviews of Federal laws and 
regulations, such as contracting procedures and agreements, liability 
issues, National Environmental Policy Act and Endangered Species Act 
processes and other procedures, for opportunities to improve their 
effectiveness and efficiency in meeting the goals of the Strategy.
    Once finalized, this strategy will serve as a blueprint for 
intergovernmental and multi-stakeholder action at the national, state 
or regional, and local levels. This represents a significant shift in 
the way we traditionally allocate public funds in response to wildland 
fire. Rather than viewing the issue as simply a costly stimulus-
response cycle, where we suppress wildfire and then attempt to 
rehabilitate the land, the strategy attempts to plan for a coordinated 
interagency approach to wildfire that treats the problem as one of 
landscape management.

     IMPLEMENTATION: REDUCING RISKS IN THE WILDLAND-URBAN INTERFACE

    Before concluding, I would like to re-emphasize the importance of 
reducing the risk to lives and vital community resources in the 
wildland-urban interface. As we begin implementing projects and 
carrying out activities in response to the recent fire season, 
addressing the interface challenge must be our top priority.
    The USDA Forest Service and the Department of Interior agencies 
have each produced documents outlining their priorities and actions in 
conjunction with the National Fire Plan. Congress established 
additional direction and goals through Appropriations language. The 
states have expressed their priorities through communication with the 
Secretaries and Congress, interstate resolutions, and the draft ten-
year strategy. Each of these documents and expressions of intent 
acknowledges the critical importance of reducing risk and improving 
protection capability in the interface.
    One way that Congress conveyed this message was by dedicating $240 
million in federal hazardous fuels dollars to ``projects within the 
wildland-urban interface on federal lands or adjacent non-federal 
lands.'' \7\ Congress complemented this funding with $50 million in 
State Fire Assistance for cooperative state and private efforts. The 
states are focusing this funding through a competitive grant program 
for private land incentives, hazardous fuel reduction, and public 
outreach and education.
---------------------------------------------------------------------------
    \7\ Report, pg. 164.
---------------------------------------------------------------------------
    Appropriations Committee members also highlighted the importance of 
addressing the interface by directing the federal agencies to work with 
the states and tribes to develop and jointly publish in the Federal 
Register a ``list of all urban wildland interface communities within 
the vicinity of federal lands and at high risk from wildfire.'' \8\
---------------------------------------------------------------------------
    \8\ PL 106-291, Title IV (3).
---------------------------------------------------------------------------
    The initial version of this list, published in December 2000, was 
developed under a very short timeline without an adequate level of 
consistency from state to state. A team of federal and state 
representatives has since developed a standard set of definitions and 
criteria and outlined a revision process that will be used nationwide 
by interagency state-level teams to refine the original community 
lists.
    Although difficult, the development of these lists has served to 
connect state, federal, and, often local land managers and has 
furthered conversation and information exchange on the status of the 
interface across the nation. The revision of these lists will 
necessarily be an ongoing process as the needs of various communities 
are assessed. However, the version provided for the May 1, 2001 
publication should provide a meaningful display of the enormity of the 
problem facing us and should also serve to highlight those areas where 
we can most effectively work together. We urge the agencies involved to 
keep lines of communication open with the States on these lists, and we 
suggest that the Congress use them as guidelines, not requirements, for 
funding allocations.
    Finally, Congress underscored the importance of safe and effective 
initial attack in the interface by providing nearly $20 million in 
additional funds for assistance to local and volunteer fire 
departments. According to the conference committee, ``effective 
management of fire related issues in the wildland urban interface 
requires strong commitment and resources from state, tribal and local 
government. Fire readiness capability must be on an equal par between 
state, local and federal organizations.'' \9\ NASF believes that we 
need to view the budgets provided for the Cooperative Fire and 
Cooperative Forestry programs in response to last year's fire season as 
the baseline for future budgets if we are to achieve this goal.
---------------------------------------------------------------------------
    \9\ Report, pg. 166.
---------------------------------------------------------------------------
    In addition, some adjustments will likely be needed in the federal 
agencies' Most Efficient Level (MEL) analysis system. Currently the 
method for determining MEL only considers likely suppression needs on 
federal lands and therefore does not adequately address the wildland-
urban interface.

                                SUMMARY

    A successful response to the 2000 fire season revolves around full 
state involvement, implementation of land management projects across 
boundaries on a landscape scale, and the development and funding of a 
long-term strategy for the restoration of fire adapted ecosystems.
    I also want to stress that last year's fire season was not an 
isolated event, either historically or geographically.
    Since roughly 1988, the year of the Yellowstone fires, we've seen 
fires growing in intensity and frequency, in all parts of the country. 
In the West, we've seen a convergence of fire regimes, as fire 
suppression has changed stand structures in certain forest and range 
types, resulting in fires there hotter and more destructive. Other 
forest types, which typically regenerate through catastrophic fire, are 
becoming more susceptible to these stand replacing fires. In the East, 
in spite of effective firefighting and more intensive forest 
management, the growth of the wildland urban interface is putting more 
values at risk with every fire and is complicating the jobs of wildland 
firefighters at all levels.
    The partnerships necessary to implement the National Fire Plan are 
forming, state by state, as disparate field personnel work to realize 
the common goals laid out for them by Congress and by their own agency 
leadership. In Colorado, we are further refining this vision by 
concentrating our initial efforts on reducing risks in the wildland-
urban interface. By focusing our planning and activities on an issue of 
relative common ground, we hope to build trust among our partners and 
constituents. We hope to build support for the more complex actions we 
will need to carry out in the long term.
    But the success of Colorado's efforts, like those of every other 
state, will depend on the sustained commitment of both Congress and the 
Administration to provide the necessary long-term funding and program 
direction. The NASF has written to Secretaries Norton and Veneman and 
expressed our belief that the level of funding needed for the land 
management agencies in FY 2002 and beyond to implement the ten-year 
strategy will be consistent with funding received for FY 2001.
    This will require not only a continued increase in the budgets of 
the USDA Forest Service and USDI agencies, but also sufficient 
resources for the regulatory agencies that may otherwise become a 
bottleneck for this important work to go forward. We believe that the 
agencies are making good faith efforts to implement important fuel 
reduction and rehabilitation work this year, but they have 
understandably focused on projects for which NEPA analyses and ESA 
consultation have been completed. We hope to see future activities 
focus on projects that have been planned and prioritized by 
collaborative efforts at the State and local level. Unless Congress 
supports the budgets of both the land management agencies (i.e., the 
Forest Service, BLM, etc.), and the regulatory agencies (in particular 
the U.S. Fish and Wildlife Service and the National Marine Fisheries 
Service), our ability to carry out such projects in the next ten years 
will be limited.
    The devastation of the 2000 fire season has resulted in the 
emergence of several opportunities that hold promise for helping land 
managers and interested stakeholders find and implement mutually 
agreeable solutions to the wildland fire and ecosystem restoration 
challenge. Focused and consistent leadership from both Congress and 
agency administrators will enable us realize this promise. We urge you 
to support budgets that enable firefighters and land managers to work 
cooperatively to implement a fire plan that protects life and property 
in the wildland urban interface while working towards restoration of 
the landscape.

    Senator Craig. Jim, thank you very much.
    We will go into a round of questioning for 5 minutes, and 
then we will do a second round if the members wish.
    Lyle, let me start with you. In your view, what are the 
goals and major provisions of title IV?
    Mr. Laverty. Mr. Chairman, the major provisions provide for 
the staffing levels to bring us up to the most efficient level 
of fire fighting readiness. Between us, as Tim and I have 
talked, that brings us an additional 5,000 new fire fighters 
over what we had in the season of last year. It provides 
additional funding for fuels treatment. It provides the funding 
for the restoration and treatment of the burned areas of the 
fire season of 2000. And the part Jim talked about, it provides 
funding for community assistance and funds for Fire Wise types 
of programs. It provides funds for volunteer fire departments. 
It provides funds for education opportunities where we can 
actually work with the landowners to help them determine what 
they can do on their land. So, it is a major component for us.
    Senator Craig. So, what are the procedures being used then 
to allocate title IV funding?
    Mr. Laverty. Those funds, in fact, have been allocated to 
the field. The Congress asked us to put together a framework on 
what criteria were we going to use for the restoration and 
rehabilitation funds. We submitted those back in January. So, 
that provided the framework of a matrix on how we would 
allocate those funds to the field.
    Very similar in terms of the process and the framework and 
the matrix in terms of the fuel conditions. We have been 
working across the country with our fuels specialists to 
determine the number of acres. We have a great matrix that 
provides the support for that.
    The State assistance. We have a model that has worked. It 
has been a long-term program that has raised the income level 
for us in terms of working with the State forest system. We 
have a great framework in terms of a smooth machine to deliver 
those funds out.
    Senator Craig. What are the procedures being used to 
determine which communities in the urban/wildland interface 
will be receiving funding in 2001, 2002, and beyond?
    Mr. Laverty. Mr. Chairman, we have been working with the 
Western Governors to identify the list of communities that are 
in harm's way. We published that list in the Federal Register, 
compiled from input from the Governors across the country. 
There were 4,500 communities identified at that time. We are 
currently in the process of working with the Governors and the 
State Foresters to refine that list to see if there are 
communities that need to be on the list or communities that we 
should take off that list.
    We have then taken the list that was published in the 
Federal Register, the first round, the 4,500. We identified 
about 25 percent of the communities that actually have a fuels 
project that is associated with those for 2001. In part, the 
reason for many of those projects for 2001 is because we 
started the planning 2 years ago. So, as they came on line we 
bring down the list of the communities that are at risk.
    Our expectation as we begin to move in the planning of 2002 
and beyond and we look at this list, working with the States 
and the counties, that we are going to find that we have a 
higher percentage of those projects that will be aligned with 
those communities that are at risk.
    Senator Craig. How are Federal agencies using new 
authorities to build community capacity through training and 
local employment and to assist in the development of small 
businesses that may lead to a sustainable restoration economy?
    Mr. Laverty. There is a number of programs that are 
underway as part of the National Fire Plan. One of the most 
significant pieces allows us, as we treat the fuels projects, 
the authority to actually target a portion of those contracts 
to local communities. We expect that 50 percent of the 
contracts we will award, between Interior and the Forest 
Service, will in fact go to local communities to begin 
developing that capacity. The programs on the economic action 
plans are also opportunities where we can invest in communities 
to help build that capacity.
    This is a huge workload. Between us we are going to treat 
about 3.4 million acres. In many cases, we are going to tax 
local capacities to even do that work and will be going out and 
contracting. I think we have opportunity where we can look at 
communities where--we know in Oregon there are communities 
where there is 14-15 percent unemployment. These are 
opportunities where we can put people to work to do some of 
these projects. So, I think we have a good framework, and we 
have good tools to help us to do that.
    Mr. Hubbard. Mr. Chairman, could I add to that?
    Senator Craig. Please do. Tim, you are certainly welcome to 
respond to these questions also, if you wish.
    Mr. Hubbard. In the community assistance programs, there 
are monies through the States for economic action, how to deal 
with the small diameter material that is a big part of the 
removal of this fuel hazard problem and how to deal with that 
in local processing and fit with local markets. There is 
stewardship planning and there are cost-share incentives to 
implement planning for fuel reduction where there is a public 
benefit on a large scale. And there is community planning for 
fire protection within counties, within jurisdictions. All of 
that spinning together and delivered locally to the 
communities.
    Mr. Hartzell. Mr. Chairman, just an observation on 
contracting. One of the things we are concerned about is 
building the internal and external capacity to do this fuels 
work with local contracts or local employment. I wanted the 
committee to be aware that back in December, collectively the 
Federal agencies pulled 100 fuels management and contracting 
experts together at the National Interagency Fire Center. The 
purpose was to ask these people to develop a streamlined 
process so that we do not have the agencies duplicating 
contracting work and being inefficient.
    As a result of that, what we have established is 11 
nationwide geographic areas for contracting. Now, these are 
geographic areas that are consistent with our 11 geographic 
area coordinating regions for wildfire suppression. So, they 
are the same geographic areas. But the concept is that one 
agency and one contracting officer would take the lead for 
contracting within that geographic area.
    Now, we have left it up to the contracting and fuels people 
in these geographic areas to subdivide those geographic areas 
as they see fit based on land ownership or contracting capacity 
within an agency.
    Right now there are four geographic areas that have this 
contracting concept up and working. The Pacific Northwest has 
seven geographic contracting subunits. The Northern Rockies has 
four. As an example of the way that works, the Bureau of Land 
Management has the lead for fuels contracting and rehab 
contracting in eastern Montana based upon land ownership and 
their contracting capacity. The Forest Service has the lead in 
the northwestern part of Montana. Also, this concept is up and 
running in New Mexico and Arizona. I was told today it is soon 
to be up and running in the Great Basin States.
    The way the concept works is that all agencies may order 
against the lead agency's contract. They do not have to develop 
their own contracting model or contracting statement of work. 
There is a model up and running and they can order against it. 
So, it is going to save a lot of time and effort on the 
agencies' parts to implement contracting to get work done on 
the ground.
    By the way, Mr. Chairman, this is all available on a web 
site that we have available through the National Interagency 
Fire Center.
    Senator Craig. Thank you.
    Now let me turn to my colleague, Ron Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Gentlemen, it has been helpful and I want to begin with 
you, Mr. Laverty. As you know, the policies that were set in 
place at the end of last year are pretty new. Money is just 
starting to get out. But I would be curious as to whether or 
not there are any policies that have been set in motion with 
respect to dealing with fires that you would like to see 
changed.
    Mr. Laverty. One of the immediate needs we have is the 
provision that Congress gave us provided for $11.5 million of 
funds on the Forest Service side to transfer to the Fish and 
Wildlife Service for section 7 consultations. Our attorneys 
have indicated that we do not have the authority to do the 
transfer. That is a key one.
    Senator Wyden. I understand that, and as you know, I am 
going to introduce that legislation with Senator Bingaman and 
Senator Craig very shortly, and we are glad to have your 
support of that.
    As you know, Mike Dombeck is no longer going to be at the 
agency, and these policies to deal with fire are new, but a 
variety of changes have been set in motion, and I would just be 
interested in your thoughts as to whether any of those policies 
that have been set in motion that you would like to see 
changed.
    Mr. Laverty. There is a number of opportunities that we 
have right now. One that has surfaced in my conversations with 
many of the regional foresters is categorical exclusion. There 
may be some elements where we could look at categorical 
exclusions to do some of the things that Senator Burns was 
talking about that we could get in very quickly following a set 
of established parameters and principles where we could move 
much faster than we have in terms of being able to go after 
some of that volume, particularly if there were no road 
construction or anything like that, we could move quickly. I 
think that is an opportunity that can be pursued.
    We also have a group. In fact, we have to report back to 
the Congress on the 1st of May on those recommendations. Some 
of those ideas that came out of the report that Dinah Bear put 
together, is that we should take a look perhaps at some of our 
appeal regulations. Those are some things that can perhaps 
streamline some of the process and make things happen on the 
ground.
    So, there is a number of things that we are considering and 
we have a group of people coming together, actually the week 
after next, to frame that set of recommendations.
    Senator Wyden. Now, you told Senator Craig that you thought 
a great many of the contracts were going to involve the local 
communities, and that is certainly welcomed. When do you think 
contracts are going to be let, and when do you think people 
would actually be able to walk out onto the forest floor and do 
the work?
    Mr. Laverty. Let me start. OMB released the title IV funds 
about a month ago. Those funds are now back in the field with 
the regional foresters for their allocation to the national 
forests. I would expect that we should start seeing some 
contracts coming out within the next month or so. In fact, 
while we are here right now, we have a conference call with the 
regional foresters asking that very question, and I can give 
you a good answer tomorrow.
    Senator Wyden. So, contracts would get out within a month 
and people, presumably a few days after that, could actually 
work?
    Mr. Laverty. I would hope so.
    Senator Wyden. The only other area that I wanted to explore 
with you was the question of jobs being created by the fire 
plan. Both the Forest Service and the Department of the 
Interior are giving us very valuable information with respect 
to the number of acres that would be treated and fire engines 
purchased, and research is going to be created. But we do not 
seem to be getting much information about jobs. Of course, we 
are dealing in all of our States with communities with 15 
percent, 17 percent unemployment in resource-dependent 
communities. What can you tell us about the kind of jobs that 
would be created and their effects on local communities?
    Mr. Laverty. Well, Senator Wyden, one of the questions that 
we are asking the regional foresters today is how many 
contracts have you awarded, what is the value of those 
contracts, and how many people are going to be employed as 
those contracts are implemented on the ground. Those calls are 
going to take place every 2 weeks. So, we will be in the 
position of a biweekly response to you to let you know exactly 
how many people we have, in fact, employed through these 
contracts to do these fuels projects.
    A similar position is taking place in Interior.
    Senator Wyden. I am going to wrap up just by asking you to 
look personally at the situation that we are faced with in 
Joseph, Oregon. I know you were here when I described this.
    I want to commend you because you and your staff have 
really been reaching out to us on the county payments bill and 
to Senator Bingaman's folks and others, and we appreciate that.
    Certainly, as elected officials, we get an awful lot out of 
these case studies. To have folks in a very hard-hit community, 
that Senator Smith and I represent, where a mill owner comes 
and a nonprofit environmental group comes and they say, we are 
doing what the Government told us to do: stay away from the big 
logs and the big trees, go after the thinning and the projects 
with small trees, and we cannot get the Government to act.
    I would very much appreciate it if you would work with the 
environmental folks and the industry people. I think we have 
given you all the names already. Take that work through the 
system because I think that kind of thing is going on all 
across the country in the West. I hope we can deal on a 
bipartisan basis to make sure that the Government is not the 
weak link any longer. I think that is what we have seen over 
the last few months, and that is unfortunate.
    Mr. Laverty. Just one quick response, if I could. One of 
the things that we are, in fact, planning to do--I have been 
working with John Howard out of Union County. We are taking 
that Dinah Bear--we are going to spend some time in Union 
County looking at what is happening on the Walt Whitman. Can we 
find some efficiencies in the NEPA process? Are there some 
things that we can do to make us more responsive? I shared with 
some of the folks the blueprint the President provided. It 
talks about the Government being nimble. I like that word and I 
want us to be nimble.
    Senator Wyden. That sums it up. You are running with the 
right crowd when you talk to John Howard. You have worked very 
closely with Senator Smith and me, and we look forward to 
working with you.
    Thank you, Mr. Chairman.
    Senator Craig. Ron, thank you very much.
    Senator Burns, questions?
    Senator Burns. I do not have any questions. We have already 
pretty much covered all the same ground. I am pretty familiar 
with Enterprise and Wallowa, Logsden, Imbler.
    Senator Craig. Senator Bingaman.
    Senator Bingaman. Thank you very much.
    Let me mention a few obvious things that I am sure you 
folks have thought about.
    Back in 1994, in the summer, I remember very distinctly 
flying out to my hometown with then Secretary of Agriculture 
Mike Espy to attend a memorial service for three young men who 
had been fighting a fire there and were killed in the fire. One 
was a helicopter pilot, and the other two were temporary 
employees. I am sure that those kinds of incidents are foremost 
in your thinking as you hire these new people and ramp up for 
all this increased activity that you are expecting out there, 
so that there is adequate protection, that there are adequate 
safeguards in place so we do not have more of those experiences 
this summer. I would certainly hate to attend any more of those 
memorial services. I just wanted to mention that.
    We put $10 million in the bill last year for assistance to 
rural fire departments, as I understand it. That is an issue 
that I know has been very important to some of the volunteer 
fire departments in small communities in my State. They came to 
us and said, look, we can help. The problem is we are not 
equipped with equipment that is adequate to allow us to really 
step in and help. Anything we can do to get the proper 
equipment so that the Forest Service sees us as properly 
equipped and trained, we can be of much bigger help. I think 
you mentioned that in your testimony as something that was 
important.
    Do we need to earmark funds for that purpose, as you 
understand it, again this year in the budget, or will that be 
done on an automatic basis?
    Mr. Laverty. There are two parts to the answer to your 
question. The $10 million that you referred to is new money 
that has come to Interior, which is the first time they have 
had kind of authority.
    The Forest Service has historically had funds that have 
gone to volunteer fire departments, but we have never been 
funded at the level. We have got about $13 million this year in 
the Forest Service budget that goes to volunteer fire 
districts. That is really one of the most, I guess, unfunded 
components in terms of how we get volunteer fire districts 
equipped.
    I was with Governor Janklow of South Dakota the day before 
yesterday. He had 250 volunteer fire districts meeting in Rapid 
City to talk about the fire season for 2001 and what they can 
do. One of the fire chiefs told me it costs him $450 to outfit 
a volunteer fireman with personal protective gear. That is a 
lot of cookie sales and bake sales for those folks to have to 
raise those kinds of funds.
    Senator Bingaman. So, your advice is that we should once 
again earmark funds for that and be sure that there is adequate 
funding for that particular purpose.
    Mr. Laverty. Yes, sir.
    Senator Bingaman. I agree with that. I think it is a very 
high priority activity.
    Did you have a comment, Mr. Hubbard?
    Mr. Hubbard. Yes, Senator Bingaman. Not only the $10 
million that was provided in the Department of the Interior, 
but the $13 million that Lyle referred to in the Forest Service 
budget as well. That combined is a huge increase to what we are 
able to provide as assistance to those volunteers. They provide 
initial attack for 90 percent of our fires in this country. It 
is critically important.
    Those fire departments are also the best sales people we 
have to convince local jurisdictions, local homeowners to do 
mitigation activity as well.
    Senator Bingaman. Mr. Chairman, I would just point out to 
the members of the committee, we have got a lot of talk here in 
town about the Government assisting faith-based organizations 
so that we get them involved in doing social work of various 
kinds. And I favor doing that if we can do it in a proper way.
    This to me seems like a very parallel circumstance where 
you have got a lot of volunteers who spend enormous hours and 
put themselves at great risk to help their communities deal 
with fires, and what public funds we can provide to equip them 
and train them I think is something we really should put an 
emphasis on.
    Mr. Hartzell. Senator Bingaman, could I comment on the 
rural fire departments?
    Senator Bingaman. Please, yes.
    Mr. Hartzell. The Department of the Interior has a 
relationship with about 3,200 or 3,300 rural fire departments. 
With the $10 million the Congress gave us, we will be able to 
provide some sort of assistance probably to between 800 or 900. 
We do not know for sure because it is a pilot program.
    But let me just say that in the first month that our 
instruction memoranda went out to the field on how to 
administer this program, at the National Interagency Fire 
Center alone, 900 phone calls were received asking how to 
participate.
    Senator Bingaman. Good.
    Let me ask about one other thing here. My time is about 
out.
    Mr. Hubbard, I believe in Colorado there has been 
established something called the Small Diameter Utilization 
Center at Colorado State University.
    Mr. Hubbard. Yes, sir.
    Senator Bingaman. That is to help, as I understand it, 
groups and businesses that want to create jobs and do work that 
relates to the small diameter trees that are taken out.
    We have got some organizations in New Mexico. Rocky 
Mountain Youth Corps is one that comes to mind, operating in 
Taos, New Mexico, Betty Vega's group in Silver City, some 
others that I think can benefit from the expertise of this 
center. Could you describe it very briefly for us and tell us 
what services you can provide to organizations like ours?
    Mr. Hubbard. Yes, sir.
    Part of this started with the Four Corners project, New 
Mexico, Arizona, Utah, Colorado, where we tried to find out how 
to reestablish systems, to leave the large trees, to 
reintroduce fire back into the system, and still not have costs 
that we could not afford for that kind of treatment. That Four 
Corners project is still making good progress on how to do that 
locally.
    We then exported that same approach to the front range of 
Colorado where we have fewer large trees and more smaller 
trees, and it is more of a challenge to figure out how to 
reduce those costs and use that material.
    The center that has been created has been given that 
assignment. The Forest Products Lab of the U.S. Forest Service 
has a lot of good research. We are trying to connect that 
information with local processors in local markets and put it 
to use.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Senator Craig. Thank you very much.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Gentlemen, last summer the climatic conditions in Oregon 
were identical to those in Idaho and Montana. We were lucky 
that we did not have the same fires that they did. As we speak, 
we are looking at a near record drought in the Pacific 
Northwest.
    Senator Feinstein and I are spending time on energy these 
days trying to keep the lights on. A lot of the western grid 
runs through public lands, and much of it through national 
forests. Are you factoring in protection of these energy lines 
as you prepare for this summer? Because any disturbance will 
have wide-ranging ramifications to further heighten and magnify 
the kind of blackouts that are easy to predict, anyway.
    Mr. Laverty. Mr. Smith, a similar question was asked 
earlier about when are we going to be able to deal with the 
resources and how do we place ourselves based on forecasts for 
the summer. I believe that with the increased capability, we 
are going to be more flexible in terms of strategically placing 
resources based on conditions. We ran out of people last 
summer. Tim talked about the increased capacity with 
helicopters, and we talked about 5,000 additional fire 
fighters. I think we are going to be able to strategically 
place people around different parts of the country as necessary 
to be responsive to those kinds of conditions.
    Senator Smith. I appreciate that. I just would forewarn and 
plead that you watch out for these electrical transmission 
lines because it could make a bad situation much worse.
    I apologize. I did not hear the exchange between Senator 
Burns and you all. But I am also mindful that there are an 
awful lot of areas in Oregon still where years ago there were 
fires and there is timber still standing. I am wondering, are 
you getting a different signal from this administration as to 
some kind of salvage being a part of helping local communities? 
When this act was passed last year, it was my understanding 
that salvage would not be a part of anything even in roaded 
areas. I am wondering if you are getting a different signal at 
all in that regard.
    Mr. Laverty. I can tell you that one of the items that we 
are, in fact, addressing in the restoration and recovery plans 
for the fires from 2000, recognize the entire set of tools that 
we have available to us. Commercial harvest is one of the 
tools.
    I was just talking to Dale Bosworth, Regional Forester in 
Montana, earlier this morning. One of the projects they are 
looking at in the Bitterroot recovery is that full spectrum of 
alternatives and actions, including salvage of some of that 
timber. I think they are going to be able to look at a series 
of options that will include using salvage sale funds to help 
us accomplish restoration objectives, but it is important to 
talk about what do we need to leave on the landscape, but then 
what can we actually take off. If we can capture some value, 
that is good.
    Senator Smith. Those kinds of activities are proceeding on 
private land and State land, and it does not seem to be 
happening on Federal land.
    Mr. Laverty. I understand on the Bitterroot, we are 
actually going to see some volume being removed by the end of 
this year. And Senator Burns made that very clear to me.
    Senator Smith. I imagine he would.
    [Laughter.]
    Senator Smith. In any event, thank you, gentlemen. Thank 
you, Mr. Chairman. No further questions.
    Senator Craig. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I am a little confused. What is the $240 million that was 
the emergency supplemental that Senator Domenici and I 
cosponsored being used for?
    Mr. Laverty. I believe those are actually being used for 
fuel reduction projects as well.
    Senator Feinstein. Is that $240 million being used for 
this?
    Mr. Laverty. Probably incorporated into that, yes, ma'am.
    Senator Feinstein. Is that funding this plan?
    Mr. Laverty. That was in addition to, I believe, this plan.
    Senator Feinstein. My understanding is that money was just 
allocated to the regions within the last 2 weeks?
    Mr. Laverty. The title IV money of the appropriations for 
2001. I think yours was separate from that.
    Senator Feinstein. I would like to get a breakdown of 
specifically how the $240 million is being utilized, where it 
is being utilized.
    In terms of what I know about California forests, I am a 
little surprised at this, and I would also like to get a 
breakdown, if you would, of the California coverage that is 
provided by this map. New Mexico got help big time, and I 
understand because of the big fires there. But the potential 
for catastrophic fire in California at this time is enormous, 
and we have got one-third of the National Tahoe Forest either 
dead or dying. Yet, you have just got a little square over it, 
not a big sunburst.
    [Laughter.]
    Senator Feinstein. I would like to know how much work you 
are going to do there. I am really very serious about this. I 
would like to know exactly what you are going to do in 
California.
    Mr. Laverty. The conference report directed us to send to 
the Congress a financial and action plan. We delivered that in 
the first part of January, and we will get you a copy of that 
because it does break down all the projects that are being done 
under the hazardous fuel work.
    I was just looking at a table here. For the increase of the 
$1.1 billion that came to the Forest Service, $135 million of 
that was for hazardous fuel reduction. Of that $135 million, 
about $30 million of that is going to California. So, there is 
a major portion of those hazardous fuel projects----
    Senator Feinstein. Right, but now you have another $240 
million.
    Mr. Laverty. That is right.
    Senator Feinstein. That is what I am interested in.
    If I could ask this question. Recently the Forest Service 
has submitted the record of decision for the Sierra Nevada 
Forest Plan. How will the Sierra Nevada framework address the 
fuel loading problem in the Sierras, and does this strategy 
achieve the objectives of the National Fire Plan?
    Mr. Laverty. I have been talking to Brad Powell about that 
question. I was hoping Mr. Hubbard might answer that question 
for me.
    Senator Craig. I am very fascinated by your answer.
    Mr. Laverty. I am sure you are. I am sure everybody is.
    [Laughter.]
    Mr. Laverty. I talked to Brad Powell about that very 
question. I have read through the decision. Based on Brad's 
conversation, he believes that the framework does provide for 
implementation of the National Fire Plan. On the other side of 
the equation, I have had numerous people come and tell me that 
it will not work.
    I know that decision is currently under appeal, and I think 
at that time, we are going to have a chance to look at what is 
it that may or may not be working as we implement the National 
Fire Plan.
    Senator Feinstein. Mr. Chairman, here we are again. Somehow 
we have got to move that project forward. I hope that we can 
have cooperation from you all in doing that. Is that a yes?
    Mr. Laverty. That is a yes.
    Senator Feinstein. On the record.
    Mr. Laverty. On the record.
    Senator Craig. And I heard it too.
    [Laughter.]
    Senator Feinstein. Thank you, Mr. Chairman. That is it for 
me.
    If I could get a full copy of the National Fire Plan. All 
we got are these things.
    Mr. Laverty. I would be happy to do that.
    Senator Craig. Thank you.
    Now let me turn to Senator Pete Domenici who is with us. As 
you all well know, both Senator Domenici and Senator Feinstein, 
as a result of the Los Alamos disaster of last year, co-
authored much of what you are now working with today, which is 
a very important tool in this fire strategy that we are looking 
at today. So, let me turn to Senator Domenici for any comments 
and questions that you would wish to make.
    Senator Domenici. Thank you, Mr. Chairman, and thank you, 
Senator Feinstein.
    We got the unanimous approval of the Senate to the so-
called Happy Forest Amendment. People did not know that was 
going to happen, but you did. You got on it and before too long 
everybody understood that this was the right thing to do, 
including a reluctant administration.
    I am not sure that I am going to have any questions. I put 
a statement in.
    [The prepared statement of Senator Domenici follows:]

       PREPARED STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                            FROM NEW MEXICO

    In the wake of last year's horrible fire season Congress made funds 
available for the creation of a strategy to address the catastrophic 
wildfires that consumed more than 7 million acres in at least 13 
states. We are here today to see how this plan is being implemented.
    Following last year's fire season, frustrations about the fire 
situation peaked. These frustrations echoed across my home state 
recently when the New Mexico legislature passed a bill allowing local 
communities to protect themselves from the threat of fire if their 
federal government won't do it for them. In spite of the legal 
obstacles, this bill sends a strong message that people want action to 
protect their lives and homes, and they want it now.
    I have some frustrations of my own. Much of the burned timber that 
is currently rotting in our forests is not being salvaged. What a 
waste! Additionally, I have seen where the Forest Service would rather 
go into the forests and burn small diameter trees rather than sell them 
for the little value they have.
    I thought that the major fires, the loss of lives, homes and 
livelihoods last year would bring common sense to this issue. After 
watching half a million acres burned in New Mexico last season I 
determined that something should be done. I was pleased that Congress 
supported and funded my request for $240 million for ``Happy Forests,'' 
and the rest of the Fire Plan. If the federal government will truly 
implement this legislation, and use the money we appropriated for it 
wisely, including expansion of salvage timber proposals, using grants 
and cooperative agreements and utilizing local business to get the work 
done, then we will see positive results in many communities.
    It is the way we spend these funds on the ground that will help 
save homes, lives and our nation's forests. We must allow New Mexicans 
and others to re-enter the forests and employ their centuries-old 
knowledge to help restore healthier, happier forests. It is time that 
we stop letting environmental extremism dictate our policies and 
prevent us from seeing the forest for the trees.
    It is still my hope that you will continue expanding on cooperation 
efforts for fire prevention activities. I also challenge you to 
continue pursuing NEPA reviews while getting work done on the ground. 
Finally, I hope that you will take advantage of your ability to 
expedite procedures when you can, including Section 7 consultations 
under the ESA.
    State, private and federal lands are intertwined in the West. Our 
success in achieving results will only come when we plan and work 
together. We have shown you the money. I am anxious for you to show us 
the results!

    Senator Domenici. But I am going to tell you what I am 
worried about. I have read now that in the Santa Fe National 
Forest, as an example, the watershed there, that there is going 
to be a thinning process because it is a fire avoidance area of 
the highest dimension. I read that after it is thinned, up to 7 
inches in diameter, all of the timber that they raze and the 
brush is all going to be burned. Now, I do not think we 
intended that unless there is some other superseding law. I am 
just throwing out one example.
    Frankly, I think it is a disgrace in a State like New 
Mexico where many people use these forests and have in the past 
for a livelihood. If we do this and we say to them, we are not 
going to let you come in and have any of this to use or put it 
out for contract, but we are going to burn it right in front of 
your eyes, I think that would really send the wrong signal to 
what we are up to.
    Now, I have seen a plan in another forest in New Mexico 
where you do not plan to do that, where you plan to use it, and 
I have seen two or three that you have not yet come up with. 
There are some very big burn areas with standing trees where 
you have no plan.
    So, I want to ask you, first, is it within your process to 
permit freestanding burned timber that is usable to be cut down 
and used as timber and lumber or whatever it is good for? Can 
you answer that one first?
    Mr. Laverty. Yes.
    Senator Domenici. What holds you up from getting that done?
    Mr. Laverty. Well, the first answer to that is for the 
forest to go through and complete the NEPA process.
    Senator Domenici. But there is no policy within the 
Departments, either of them, that says we are not going to do 
that because some people think it should stand there and rot in 
place.
    Mr. Laverty. No, sir.
    Senator Domenici. Can we get some of it done, do you think, 
within the next 18 months in a State like New Mexico where we 
have so much of it standing around?
    Mr. Laverty. I believe that we can, yes.
    I was just talking to Bob Leaverton earlier this afternoon 
about what is actually happening in the Southwest, and I think 
we have some projects that are well underway.
    Senator Domenici. My second question is, would you please 
let us know for the record if there are any areas that need 
thinning that are being impeded in terms of thinning because of 
the past President's roadless areas? I think that is what has 
happened to the Santa Fe watershed. But I think we should know 
that, if you would do that for us.
    Mr. Laverty. We will get that for you.
    Senator Domenici. Now, my last question has to do with 
entering into stewardship agreements and the like with people 
in the area. You understand that was given as a preference of 
what we wanted done. There is nobody trying to exercise a 
policy inconsistent with that, is there?
    Mr. Hartzell. Not at all.
    Mr. Laverty. No.
    Senator Domenici. Did we give you enough authority to do 
that kind of stewardship arrangement? We thought we did in the 
appropriation bill.
    Mr. Laverty. I believe we have the authority.
    Senator Domenici. Do you think you have the authority?
    Mr. Hartzell. I believe we do.
    Senator Domenici. Mr. Chairman, I really appreciate your 
giving me some time. I want to insert some other questions, if 
I might, and ask them to answer them.
    I want to tell you, the expert on forests, a little story. 
I was in New Mexico in Los Alamos. There was a big set of 
meetings with the Los Alamos people. Instead of going back the 
same way, I went over the mountain, which anybody who knows New 
Mexico is called the Jemez Mountain, on the other side. And I 
observed something that you obviously have already seen and I 
should have seen it. But half the way up there, I was driving 
through forests that were terrible in terms of looking like 
real forests. There were trees that close together all over the 
place. As a consequence, there were no big trees because there 
is no room for big trees. It is just like driving through a 
thicket that happens to be a little bit green. And you finally 
get to another part that has been handled right, and you see 
beautiful forests, big trees and daylight. They can breathe.
    I just wonder if we ought not to be calling these to your 
attention because one is good management, the other is a result 
of something but not management, either neglect, we did not do 
anything to fix it. It just looks awful, and I do not believe 
it is much of a forest for us to be preserving. That is an 
observation. I think you have seen it more than I, and I just 
want to tell you I know about it now and you know about it. 
Right?
    Mr. Laverty. Senator, I believe that one of the outcomes of 
the investment we are going to make in the National Fire Plan 
will, in fact, bring us back to the restoration of those kinds 
of stands that you last talked about, that are green and 
healthy looking stands.
    Senator Domenici. I hope so.
    Thank you, Mr. Chairman.
    Senator Craig. We will submit your questions for answering, 
and I think because of the time constraints we are going to 
have today, there will be more questions submitted than asked.
    But now let me turn to my colleague from Arizona, Jon Kyl. 
Of course, in his State, especially in the northern end of the 
State, some marvelous experimental work has gone on that 
demonstrates the point that Senator Domenici was making a few 
moments ago that we are going to have this committee focus on 
this year as it relates to the thinning, the necessary 
cleaning, and what can result from it. Anyway, the mike is 
yours for both a statement and questions if you wish, Senator.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. I am just going to make a very brief statement 
because we have this vote. It is now getting close to the end 
of it, and we will have opportunity to visit.
    But I really appreciate the chairman just now mentioning 
what he did. What I would like to do is to offer the committee 
an opportunity for a field hearing perhaps in August, at which 
members and staff and others from the administration can visit 
the work that has been ongoing now for about a decade, 
primarily through Northern Arizona University, Wally Covington 
and his group, which I think you are familiar with. It 
demonstrates what can be done. They now have got plots that 
have been there almost a decade.
    You can see the control plot, which looks exactly like the 
forest that Senator Domenici mentioned, the dog hair thicket. 
It got the name because a dog cannot even run through there 
without losing half its hair. It is so thick. No trees more 
than a very small diameter because they are all competing for 
the same soil, nutrients, water, et cetera. And it is a fire 
waiting to happen. It is disease prone. Nothing is healthy. No 
critters at all.
    Then you see the plots that were either just burned or the 
plot over here that was thinned and then burned. And they are 
lush. There are not as many trees, but the trees that are there 
are pretty. They are bigger. They are healthier. The pitch 
content of the trees is substantially higher so the bark beetle 
does not get them. The grasses are growing all over so the 
critters are running around. The protein content of the grass 
is substantial, and therefore it attracts all of the elk and 
the deer and everything else.
    The point is we know this can work, but here is the 
challenge before us. Last year, 7 million acres burned in 13 
States, more than double the 10-year average, $10 billion 
losses. The 1999 GAO report reminds us that there are 39 
million acres at risk, and they say it has got to be treated 
within a 15- to 20-year period.
    The challenge that you and we have is to identify what can 
and should be done within that time frame and to get the money 
to do it. We have got to do that because what we have been 
doing so far are just small area treatments. They are nice to 
look at. They say to us, wow, we can really make this thing 
work, but we have not applied it to the large area treatments 
that are going to be necessary to save our forests.
    So, I am very much looking forward both with Interior and 
Ag to demonstrate to our colleagues what can really work so 
that we can generate the support here in the Congress. I would 
hope, Mr. Chairman, that we can put such a hearing together and 
that we will all have the opportunity to see what a benefit 
this can be for everything, for the environment. There has to 
be some small industry to help with the thinning. There is 
nothing wrong with that. They can help us out here. There is no 
way we can hire people or get AmeriCorp volunteers to do it 
all. So, some small amount of industry has to be available. But 
everything is so much more environmentally sound at the end of 
the day.
    Then the good news is that when you are all done, you have 
returned it to the state of nature, that enables nature to take 
care of it with burns occasionally as occurred 100 years ago, 
but going through the forest floor burning whatever fuel is 
there and not crowning as it goes up that ladder of fuel.
    I know you all know this better than I. But I just wanted 
to make a little speech, and I hope that the chairman will find 
a way for us to put such a hearing together and that you could 
all help us participate in it.
    Senator Craig. Jon, thank you. We will do that only if Dr. 
Wally Covington will be the guide.
    Senator Kyl. He will do it with great pleasure, I am sure.
    Senator Craig. We do have a vote on. I am going to recess 
the committee for a bit while we vote. Then we will be back to 
take the balance of the testimony. Thank you and excuse us, and 
of course, this panel is excused. We have completed our 
questioning of you. The committee will stand in recess.

    [Recess.]

    Senator Craig. The subcommittee will be back in order.
    Thank you all very much for being a part of the hearing 
this afternoon. I apologize for the breakup, but we are in the 
midst of a series of votes and potentially a conference that I 
may have to attend. But we will proceed. We want your testimony 
and we appreciate the distances you have traveled and the time 
you spent to prepare it.
    So, let us lead with Nils Christoffersen, Wallowa 
Resources, Enterprise, Oregon.
    Mr. Christoffersen, welcome.

  STATEMENT OF NILS D. CHRISTOFFERSEN, FIELD PROGRAM MANAGER, 
               WALLOWA RESOURCES, ENTERPRISE, OR

    Mr. Christoffersen. Thank you very much, Mr. Chairman. 
Thanks for the opportunity to speak here.
    It has been thrilling so far. The previous questions and 
discussions of the previous panel pretty much covered most of 
my testimony, so I need to move on to other points in my 
written testimony. I really appreciate the understanding and 
the interest that your subcommittee has given to our issue.
    I also would like to specifically give thanks to Senator 
Wyden for the attention given to our community in his comments.
    Our situation is familiar to much of the West. We currently 
have the highest unemployment rate in the State of Oregon at 15 
percent. It is because of the transition in emphasis from 
timber supply to restoration across our national forests that 
this has resulted. That transition has hit our community very 
hard and we believe that there is an imperative for all 
interest groups, State and Federal agencies to work together to 
deal with the implications of that transition, that transition 
from an extractive economy to one geared towards restoration 
and stewardship.
    Due to the 90 percent reduction in timber harvest from 
public lands in Wallowa County since 1992, we have lost 350 
forest sector jobs with average wages in excess of $27,000. The 
only significant replacement of jobs has been in the service 
sector. 130 jobs have been added with wages less than $15,000.
    During that same period of job loss, we have had six 
wildfire events, exceeding 40,000 acres in scale, and last year 
over 100,000 acres burned in our county. To suppress those 
fires, $85 million have been spent on fire suppression in our 
county alone. That exceeds the amount spent on restoration 
contracts by a factor of 10 and on payments through the 
Economic Action Plan by more than 100.
    Our community fully shares the national concerns about the 
condition of our forested landscape. We appreciate what got us 
in the condition they are in today. It was excessive logging. 
It was the fire suppression history. We have directly borne the 
costs of past logging and fire suppression.
    We need to work with all partners to assist our remaining 
workforce and the private sector in our county in the 
transition to community stewardship and restoration. Toward 
this end, we desperately need to develop a stewardship 
workforce and the local value-added processing capacity that 
generates increased jobs and income from the tasks and 
byproducts of stewardship.
    With this background in mind, our community welcomed the 
National Fire Plan. We would, as a general comment, like to see 
it integrated in a longer, sustained, and predictable 
commitment from the Federal Government to the restoration and 
stewardship across the public lands. We are encouraged that the 
plan clearly targets both forest and community needs and 
directly encourages collaboration with community organizations 
and micro-businesses.
    However, we are concerned by a number of planning and 
implementation constraints that will limit, if not prevent, the 
intended benefits. Allow me to focus on a few of these.
    The first, as most of you know and you have spoken to, is 
the implementation of NEPA. In our region, it is still a very 
long, cumbersome process. It takes more than 24 months to 
complete, and therefore few, if any, of the projects 
implemented this year were designed to achieve the integrated 
forest and community benefits called for in the fire plan.
    It is very critical that the Forest Service and the 
relevant regulatory agencies receive sufficient funding to 
perform the tasks required by law in an efficient and in an 
effective manner. We would also like to see the regulatory 
agencies working on the ground with us up front in the 
identification and design of projects so that we can push 
through that consultation process and design better projects in 
a more streamlined fashion.
    We are concerned that in our community that none of the 
fuel reduction work scheduled, both through regular contracting 
means and through stewardship contracting, will allow for any 
removal or commercial use of byproducts. This approach greatly 
streamlines the NEPA processes, but it means that the acres 
most in need of treatment will not be treated because those 
acres most in need of treatment with the heaviest fuel load 
need to have the removal of that, which will be a ground-
disturbing activity, which will extend the NEPA process. And we 
need to commit resources to get through that.
    Part of it also relates to benchmarks. When the agency only 
targets benchmarks, like we saw earlier today on the boards, of 
annual acres treated or acres treated through the course of a 
program such as the National Fire Plan, there is a disincentive 
to invest extra time and effort to provide for the removal and 
commercial use of byproduct. This undermines local initiatives 
to develop small log processing capacity that, if established, 
would offset the cost of restoration.
    Local entrepreneurs in my county have invested scarce 
resources in low impact processing and small diameter 
manufacturing capacity. Further investments have been made in 
the utilization and recycling of biomass. We have the 
opportunity to generate green energy at an appropriate scale 
for our landscape and we have supported these investments with 
market research, product trials, and business planning 
assistance, which has been financed through the Economic Action 
Plan and private foundations.
    We desperately need to deal with the serious conditions on 
our landscape that have resulted from lack of attention and 
management, as you have all discussed. We urge you to make 
permanent the stewardship contracting in title IV contracting 
authorities and to insist that they are utilized. We urge you 
to ensure that the Forest Service remains accountable not only 
for the forests and ecological part of its mission but for the 
community health and human service part of its mission as well.
    Thank you very much.
    [The prepared statement of Mr. Christoffersen follows:]

 PREPARED STATEMENT OF NILS D. CHRISTOFFERSEN, FIELD PROGRAM MANAGER, 
                   WALLOWA RESOURCES, ENTERPRISE, OR

    Dear Mr. Chairman and members of the committee: Thanks for the 
invitation to speak today. I am Nils Christoffersen, Field Program 
Manager for Wallowa Resources--a community based non-profit 
organization serving Wallowa County in Northeast Oregon. Wallowa 
Resources emerged after a period of crisis and polarization in the mid-
1990's when the last three mills in the County closed due to the 
decline in timber harvest on public lands. With support from the County 
Commissioners and a broad range of local interest groups, Wallowa 
Resources was created in 1997 to identify and promote a new 
relationship with the land. The community's vision calls for the 
generation and maintenance of family-wage jobs and business 
opportunities from natural resource stewardship. The vision is based on 
broad recognition of the need to adapt our community livelihoods to the 
opportunities and constraints offered by the ecosystem within which we 
live. Wallowa Resources Board of Directors consists entirely of County 
residents and Nez Perce Tribal members. On behalf of my community, I am 
very pleased to provide our local perspective on the National Fire Plan 
to this committee.
    Wallowa County has a long history of Federal, State, Tribal and 
Local collaboration in land and resource stewardship. Wallowa County 
and the Nez Perce Tribe cooperated in the development of a Salmon 
Restoration Plan that targeted the needs of anadromous fish before 
Chinook and Steelhead were listed under the ESA in 1992-93. Currently, 
collaborative efforts led by the Grande Ronde Model Watershed Council, 
the Wallowa Soil and Water Conservation District, and Wallowa Resources 
are uniting public and private landowners in forest, range and riparian 
stewardship programs, as well as an innovative community-led landscape 
assessment and planning process.
    This is real grass-roots collaboration, involving farmers, 
ranchers, loggers, mill-workers, artists, retailers, civil servants and 
many others. The collaboration is driven by both a remarkable vision of 
community stewardship, and by our local economic depression.
    The USFS has a critical role to play in our pursuit of community 
stewardship. The northern half of the Wallowa Whitman National Forest 
accounts for 59% of Wallowa County's total land base. To achieve the 
ecological and social objectives envisioned in the National Fire Plan, 
and those underlying the USFS' central purpose, several critical 
constraints need to be addressed. After summarizing the current crisis 
and opportunity in Wallowa County, I will review general problems in 
the planning and budgeting processes guiding federal land management 
activities, and the specific problems these constraints pose to the 
National Fire Plan.

                         WALLOWA COUNTY: CRISIS

    Wallowa County currently has the highest unemployment rate in the 
State of Oregon at 15%. Over the last eight years, Wallowa County's 
unemployment rate has averaged about 11%. The much talked about 
``longest economic expansion in US history'' has not touched our corner 
of Oregon. While much of the U.S.--in particular the metropolitan areas 
of the East and West Coast--benefited from increasing standards of 
living throughout the 1990's, the people of Wallowa County experienced 
a continuing decline in average wages, a reduction in jobs, increasing 
claims on public assistance, marital break-ups, depression, and mass 
emigration of working age families. School enrollment has dropped 
nearly 20% over the last 6 years. The percentage of Medicare/Medicaid 
patients at our local hospital has increased from 40% to 80%--
reflecting a loss in private sector jobs with health insurance and a 
replacement of working age families by retirees and second home owners. 
Due to the Balanced Budget Act of 1997, Medicare and Medicaid no longer 
pay the real costs of medical treatment, and we are now in jeopardy of 
losing our hospital.
    The listing of a variety of salmonoid fish species under the ESA in 
1992-93 initiated a significant reduction in the program of work in the 
Wallowa Whitman National Forest. The timber harvest from public lands 
in the County dropped from an annual average of about 70 million board 
feet for the ten years prior to the listing of Chinook salmon, to an 
average of about 4 million board feet per year since 1993. This trend 
continues; as no timber sales have been offered in the last two years.
    Other management constraints have contributed to this result 
including: uncertainties in management direction while the Interior 
Columbia Basin Ecosystem Management Project dragged on, the hesitant 
birth of the Blue Mountain Demonstration Area, policy decisions to not 
cut any tree within riparian buffers or any tree over 21 inches in 
diameter, the listing of lynx, etc. Of the 1.2 million acres of 
National Forest land in the County, less than 100,000 acres remains 
available for timber harvest. Most, if not all, of the existing 
constraints to timber harvest (and more generally to the commercial use 
of wood products) are dictated by politics and process--not science. 
This is of course normal in a democracy, but those of us in small, 
impoverished, rural communities feel marginalized by the urban, 
affluent majority.
    The decline in public timber supply since 1992 contributed to the 
loss in over 340 wood and lumber product jobs with an average salary of 
over $27,000 and private health insurance. The county's average salary 
is less than $21,000. The only significant replacement of jobs has been 
in the service sector, which has added 130 jobs over the same period at 
an average salary of less than $15,000 without medical benefits. Today 
even these service jobs are threatened by the continued economic 
stagnation.
    Under current policies, the commercial use of wood products is 
currently possible from about 8% of our public land area. This 
restricts local economic opportunities, and, more importantly, it 
limits our ability to pursue ecological restoration. Federal and other 
public funding is required to cover all of the costs of restoration and 
management on 92% of the public lands in Wallowa County. Is this 
sustainable? Does this accurately reflect the nation's intentions for 
National Forest management? We believe the answer to both questions is 
no. Therefore, we urge the Federal Legislator to commit the time needed 
to forge a new strategic consensus on the management of our National 
Forests, and respond to the significant wildfire risk in the Western 
States.

                      WALLOWA COUNTY: OPPORTUNITY

    Local entrepreneurs have been progressive in their response to the 
shift from resource extraction to resource stewardship. Considerable 
investments have been made by our small private sawmill to retool to 
process smaller diameter logs and increase its value-added processing 
capacity.\1\ By July 2001, this mill will have the capacity to process 
logs down to a 3 inch top diameter. No other mill in Eastern Oregon has 
this capacity. Over the past two years the average diameter of all 
pieces processed in the mill has been 7.2 inches. This mill is uniquely 
positioned as a tool to support fire, insect and disease risk reduction 
in our forested landscapes, as well as support the promotion of healthy 
mature stands by under story thinning.
---------------------------------------------------------------------------
    \1\ Disclosure: On March 19, 2001, Wallowa Resources invested in 
the last operating mill in our County. The investment agreement 
provides us with a small equity position (6010%), and a 50% share of 
the management. This arrangement ensures that our charitable purpose 
(watershed, forest and community health) will be met by the investment. 
Any resulting revenues to Wallowa Resources will be re-invested in 
restoration. The decision to invest came about abruptly. Two years of 
work with the mill on small diameter log processing, waste product 
recycling and secondary manufacturing were at risk due to market 
conditions. Efforts to find ``angel'' investors failed due to broad 
spread concerns about log supply and lumber prices. With time running 
out on the workers' unemployment benefits in a depressed local economy, 
and with an eye toward the restoration role possible for this mill, we 
stepped to the plate. Nothing else we could do would generate 40+ 
family-wage earning jobs and contribute to forest stewardship.
---------------------------------------------------------------------------
    Local processing capacity generates the ability of the private 
sector to offset the costs of restoration efforts on public land. In 
the transition phase from resource extraction to resource restoration 
on public lands, private businesses need clearer signals on the future 
opportunities that might arise from public land management activities. 
Where investments are made which clearly respond to and support the 
restoration needs of the land, it is judicious to merge ecological 
treatment goals with local economic benefit goals.
    Our forest contractors have retrained themselves to take on service 
and stewardship contracts instead of logging contracts, and they've 
invested in new machinery--machines that are light on the land (less 
than 10 pounds per square inch), and can perform a wide variety of 
restoration tasks including slash treatment, wetland and riparian 
restoration, etc. Other ex-loggers have geared up with draft and pack 
horses to handle forest restoration activities in sensitive sites, 
noxious weed management on steep slopes, and riparian fencing in remote 
areas.
    In an effort to make use of our workforce and help catalyze the 
move to restoration, Wallowa Resources has secured private funding and 
invested it in habitat restoration on public and private land. This 
past field season Wallowa Resources invested over $100,000 of non-
federal funding in the restoration of Aspen stands, critical wetlands, 
and riparian areas in the Wallowa-Whitman National Forest, and in 
assisting the USFS with field assessments (e.g. lynx and soil surveys) 
required by NEPA.
    However, local investments in restoration are at risk from a wide 
variety of planning and implementation problems affecting federal 
agencies. These problems are discussed below. Many of the risks to 
forest stewardship work and value-added processing of restoration by-
products also affect tourism and cattle grazing in our County. Income 
from both tourism and grazing on public land has declined along with 
timber receipts over the last 6 years due in part to new limitations on 
the number of people in our wilderness areas and cattle in the national 
forest. We don't all disagree with the ecological basis for these 
limits; we raise this point merely to illustrate that there are no easy 
alternatives to our socio-economic challenges.

             A LOCAL PERSPECTIVE ON THE NATIONAL FIRE PLAN

    The National Fire Plan is long overdue. Numerous scientific 
assessments of the ecological conditions in Eastern Oregon have 
commented on the declining health of our forests, and the increasing 
risks from fire, insect and disease. These assessments have been 
confirmed by the rapid escalation in wildfire damage. Of the 462,035 
acres burnt in Wallowa County between 1955-2000, 89% (or 411,200 acres) 
have burnt since 1986. A total of $85 million in federal funds have 
been spent on fire suppression in our County over the last 15 years, 
with expenditures exceeding $8 million dollars per year in 1986, 1989, 
1994, 1996, and 2000.
    Cost of Fire Suppression (in $ millions) in the Wallowa Fire Zone 
(1986-2000) was as follows: 1986, 12.7; 1987, 0.4; 1988, 4.5; 1989, 
19.4; 1990, 1.7; 1991, 1.8; 1992, 0.7; 1993, 0.01; 1994, 22.7; 1995, 
0.7; 1996, 8.3; 1997, 0.1; 1998, 0.1; 1999, 0.1; 2000, 11.1.
    During the period of local economic decline (1992-2000) discussed 
above, over 227,000 acres of public land in our County have been lost 
to wildfires and $44 million dollars have been spent on wildfire 
suppression. The 2000 Fire Season was significant in Wallowa County: 
102,000 acres burnt and $11 million spent in suppression. US Forest 
Service and University ecologists have been warning (without results) 
the federal government and the general public of the increasing risk of 
wildfire in our County since the late 1970's.
    The Federal Government must address its land stewardship 
responsibilities seriously. As a nation, we should be able to admit 
past errors - timber extraction did exceed ecologically sustainable 
limits even up into the 1980's, as did grazing in many areas, and fire 
suppression has only increased fuel loads and generated increasingly 
catastrophic fires. We must learn from these errors. We are an 
indelible and inseparable part of our nation's ecosystem. With care, 
commitment and adaptation we can chart a course towards more 
sustainable livelihoods - learning from both errors and successes. We 
will never chart such a course by disengaging from our natural 
landscapes.
    Locally, the community is dismayed by the lack of investment in 
``preventive care'' for the Public Lands, a strategy that would benefit 
the National Forest and the local community. From our perspective, the 
last ten years of increasing environmental regulation, reduced public 
land stewardship, acute economic decline in the face of national 
prosperity, and recurrent devastating wildfires, suggest dysfunction in 
our system of governance. I think I speak on behalf of many rural 
communities in the Interior West when I say that we feel politically 
ignored. There appears to be a lack of concerted effort to understand 
the challenges we face, and to construct a legislative and policy 
environment that stimulates viable solutions. We are excited about the 
opportunity this hearing provides to express our opinion, and hope we 
can continue to work constructively with this committee on these 
issues.
    The National Fire Plan is a step in the right direction but it 
needs refinement and focused follow-up if the intended outcomes are to 
be achieved. Specifically, we offer the following recommendations:

  <bullet> Ecological vs. Human Interface Priorities: The focus on 
        larger populated communities in the ``wildlands interface'' 
        criteria of the National Fire Plan should be balanced with a 
        broader effort to address the declining health of public lands 
        across the country--including those in rural and poor 
        communities. The ecological dynamics that have generated the 
        risks of catastrophic wildfires across the public lands of the 
        western States are not correlated with population densities.

    The inclusion of smaller, impoverished communities situated in 
landscapes characterized by high wildfire risk--such as Wallowa 
County--is consistent with the ecological restoration priority in the 
new USFS Planning Rule, and will generate significant socio-economic 
returns.

  <bullet> Legislative and Planning Constraints: The current planning 
        process guided by the National Environmental Policy Act (NEPA), 
        National Forest Management Act (NFMA) and environmental 
        regulations addressing water, air, and endangered species 
        issues is complex, often confused, and always time consuming. 
        Recent legal interpretations of the legislative web dictate an 
        avoidance of any short-term risk without regard to the threats 
        from lack of action or the potential long-term benefits of a 
        particular restoration treatment. These constraints will affect 
        results under the National Fire Plan. Little of the vast 
        acreage warranting fuel reduction treatment in Wallowa County 
        has made it through the various analytical and decision-making 
        steps required by law. These steps currently take 24 months or 
        more to complete. So the bulk of the work that will be 
        accomplished this field season under the National Fire Plan is 
        work that was initially proposed in 1999 or earlier. None of 
        these projects were designed to meet the full intent of the 
        National Fire Plan--which seeks to generate local jobs and 
        accomplish priority rehabilitation and fuel reduction 
        activities.

    Regulatory agency representatives should be located closer to the 
districts for which they are responsible and encouraged to participate 
in all phases of project design and development. This will stimulate 
innovation, creativity, and collaboration. Legislative and policy 
review should accommodate short-term risks where long-term benefits can 
be achieved. These steps are critical to the pursuit of adaptive 
management. The current system of review from afar, and blind aversion 
to short-term risk, generates frustration and hampers restoration 
efforts.

  <bullet> Inefficiencies in Federal budgeting: The USFS budget process 
        is complex, confusing, and incessantly delayed. The delays and 
        the lack of strategic, long-term commitments, stifle local work 
        planning. To the best of my knowledge, our local USFS district 
        still does not know what its budget is for the coming field 
        season. If they do know, confirmation has only been received 
        recently. The inadequacies of this system defeat efforts to 
        generate a local ``restoration workforce''. Our highest 
        qualified workers cannot afford to wait for the USFS to issue 
        contract notices in May or June, and therefore find work 
        elsewhere in the region. Even worse, local entrepreneurs 
        investing in modern harvesting and processing machinery 
        designed for restoration activities are victimized by 
        unpredictable shifts in program funding.

    Clear, long-term funding commitments for land and resource 
management should be established. Restoration and economic objectives 
associated with funding should be spelled out broadly with authorities 
devolved for (i) the definition of local priorities consistent with 
national values, and (ii) the definition and implementation of 
appropriate restoration activities. Collaborative reviews of local work 
programs and accomplishments should be conducted periodically to assess 
consistency with national values, and revise as necessary the 
guidelines accompanying the delegated authorities.

  <bullet> Inappropriate Performance Targets: The collaboration with 
        community organizations and micro-businesses called for in the 
        National Fire Plan is hampered by the over-arching emphasis on 
        ``acres treated'' as a performance indicator. Collaboration 
        takes time to generate trust, relevant skills, and strong 
        working relationships. When performance is measured in annual 
        acres treated, collaborative efforts are perceived as costly. 
        Furthermore, the singular target of acres treated discourages 
        extra effort to provide for opportunities to test new 
        technologies, and develop new value-added processing systems.

    Accountability benchmarks must integrate ecological and socio-
economic performance targets. Congressional review should be structured 
to reward accomplishments that demonstrate effective collaboration, 
generate local economic benefits, and achieve ecological objectives. 
While this incentive structure will increase the costs of ecological 
restoration over the short-term, it should reduce the long-term costs 
as partnerships strengthen and local resources (financial, technical, 
and technological) are committed to collaborative stewardship of our 
public lands.

  <bullet> Federal Authorities Exceed Capacities: The lack of 
        bipartisan consensus on environment and resource management 
        issues has generated increasing disparity between federal 
        authorities and federal capacity. Environmental regulations 
        have increased while funding to federal management and 
        regulatory agencies has decreased. Insufficient capacity in the 
        federal agencies results in long delays in project decision-
        making and implementation, or worse--a complete avoidance of 
        decision-making and a never-ending process of planning and 
        consultation.

    Congress should not cut funding to the management and regulatory 
agencies before laws are revised. Otherwise, rural communities, other 
resource users, and the resources themselves get hurt. The effective 
and efficient execution of current authorities in response to the 
National Fire Plan, and public land stewardship in general, requires 
immediate additional funding for the USFS, USFWS, NMFS, and EPA.

  <bullet> Mechanical Treatment vs. Prescribed Burning: The funding 
        allocation bias to prescribed burning as opposed to mechanical 
        treatment and other forms of fuel reduction is inconsistent 
        with field conditions and with local economic benefit 
        objectives. The ecological impacts of past logging and fire 
        suppression, combined with the management constraints discussed 
        above, have resulted in a landscape in our County where stands 
        characterized by the stem initiation and stem exclusion stages 
        currently exceed their historical range of variability by about 
        50%. In a majority of these young stands, shade tolerant 
        species (especially White/Grand fir) generating higher fuel 
        loads are crowding out the species generally associated with 
        our area (Ponderosa pine, Douglas fir, and Western larch). 
        Wallowa-Whitman National Forest vegetative data lists 80,000 
        acres of backlog thinning. The majority of these acres exceed 
        historical ground fuel loads by eight to ten times or more. 
        Prescribed burning is the cheapest treatment option, but it 
        also carries considerable risks in high fuel load stands. No 
        one wants to see a repeat of the Los Alamos disaster. 
        Prescribed burning in our area falls under an ``Indefinite 
        Delivery Indefinite Quantity'' contract with a large contractor 
        based in Western Oregon. This, and a range of licensing and 
        insurance requirements, precludes any significant local 
        employment benefit from prescribed burning.

    Mechanical treatment (with machines and/or by hand) of fuel loads 
is an ecological necessity in many high fire risk stands, and will 
generate significant local economic benefits--both in terms of labor 
and the potential to add-value to any woody materials removed from the 
land. Where commercial use of low value species and small logs 
develops, restoration costs will be reduced.

               SUMMARY COMMENTS ON THE NATIONAL FIRE PLAN

    The numerous planning and budgetary problems affecting public land 
management preclude the short-term response envisioned in the National 
Fire Plan. In Wallowa County, there is no NEPA ready work that captures 
the mix of ecological and socio-economic objectives desired by Congress 
and the previous Administration when it formulated this Plan. Given the 
significant time required (averaging 24 months or more) to get projects 
through the legislated planning and review process for activity on 
public lands, it is unlikely that any National Forest will undertake 
work specifically targeting the integrated National Fire Plan goals 
with this years funding. Performance targets emphasizing acres of 
treatment per year are jeopardizing local community benefits and 
undermining local investment in small log harvesting, processing and 
manufacturing. As a result, the incentives influencing the USFS program 
of work undermine local opportunities to reduce the costs of 
restoration to the federal government and the tax-paying public.
    Clear policy guidelines and appropriate funding should be packaged 
to promote USFS collaboration with local organizations, as well as the 
utilization of local workforces. The effective utilization of local 
resources as appropriate under existing law should generally be 
prioritized over increased federal agency staffing--with the exception 
of the current imbalance in staffing required to streamline NEPA's 
planning requirements.
    Local planning processes should be guided by long-term national 
objectives (matched by longer-term funding commitments), and defined in 
a site-specific manner relevant to each landscape or watershed. 
Planning processes should be structured to generate targeted (and 
typically small scale) restoration objectives for each field season, 
and implementation should happen fluidly and consistently from year to 
year. Practical and scientifically valid assessment programs should be 
required for all restoration work, and findings should be fed back into 
annual planning cycles. Collaborative or multi-party assessments should 
become standard operating procedure.
    To the extent justified by local ecological and socio-economic 
conditions, priorities under the National Fire Plan should focus on the 
mechanical treatment of fuel loads and ladders. Private sector 
investments in the processing and secondary manufacturing of the small 
diameter logs that will result from mechanical fuel reduction efforts 
should be facilitated. This will require additional investments in NEPA 
preparation and ESA consultation to accommodate product removal and 
commercial use. Research programs in the USFS (especially the Forest 
Product's Lab), within universities, and by local partners, should 
currently be targeted (and funded appropriately) at small diameter log 
utilization and marketing. As forest conditions and public values 
change, research programs should be adjusted to support new restoration 
activities.
    Thank you for the opportunity to share these views and perspectives 
on the National Fire Plan today. All of us in Wallowa County are eager 
to continue working with Congress and the Federal Agencies to improve 
public land management through the country. While this concludes my 
formal comment on the National Fire Plan, the following issues relevant 
to community forestry in Wallowa County are provided for your further 
consideration.

               GENERAL COMMENTS ON PUBLIC LAND MANAGEMENT

    1) Procurement/Grants and Agreements: Clear policy support and 
direction is required to stimulate full use of the existing authorities 
in Stewardship Contracting and other innovative contracting 
arrangements. Optimum solutions are often found when contracting and 
procurement officers participate in the initial project design 
discussions, but such participation is not standard. It should be.
    Stewardship Contracting is still ``outside of the box'' for many 
within the USFS. Stewardship Contracting offers the ability for local 
forest contractors, with a vested interest in the health of the forest 
and significant local knowledge, to transition into family wage-earning 
jobs in restoration rather than logging.
    2) Wyden Amendment: The Wyden Amendment is a critical piece of our 
legislation that is stimulating broader public and private 
collaboration on watershed restoration. Knowledge of the opportunities 
and benefits of this amendment is still developing. It should be 
continued for at least five more years, and then reviewed.
    3) Economic Action Program: The Economic Action Program of the 
Forest Service is under funded and politically marginalized within the 
Department of Agriculture. It needs increased funding, with far fewer 
earmarks. The staff of this program must have effective representation 
at all levels of planning and decision-making. This is critical to the 
stimulation of collaborative efforts, and to the merger of ecological 
and environmentally appropriate economic benefits.
    4) Strike Team: The Strike Team sent out to Northeast Oregon in 
October 2000 to review the progress and constraints of the Blue 
Mountain Demonstration Area was considered locally to be a huge 
success. It resulted in greater awareness of and support for 
collaborative efforts, established accountability benchmarks for the 
USFS Regional Offices and Supervisor's Office, and encouraged broader 
public participation. This type of effort, with the full backing of the 
Administration, should be repeated everywhere collaborative efforts are 
occurring--and as a top priority in those areas experiencing policy 
barriers to progress. This approach generated results whereas the award 
of a National Reinvention Lab Charter two years ago generated nothing 
but confusion.
    5) Blue Mountain Demonstration Area: Demonstration Areas are mixed 
blessings. They generate a lot of promise and expectation, but also 
become the target of political opponents. The Blue Mountain 
Demonstration Area that covers much of our County has taken time to 
establish its planning systems, priority criteria, and mode of 
operation, but it is now positioned to generate results and maintains 
broad support from the community. If the new Administration values the 
original intent and objectives of these Demonstration Areas (which our 
community does), we strongly encourage continuation of this initiative 
for 3-5 more years. Anything short of this time-frame will provide 
insufficient experience to distill lessons learned, and models for 
replication elsewhere.
    6) Small Business Set-Aside: With the decline in the Timber Sale 
program on public lands, the Small Business Set-Aside program needs to 
be revised. It is currently built on 6-month intervals, but our forest 
regularly goes 6 months or more without offering any commercial 
contracts. If the Set-Aside program is not adjusted to the current 
frequency of log supply availability on public lands, it does not serve 
its purpose.
    7) International Trade: The proponents of free trade as the 
purveyor of increased public value from private investment need to 
reconsider. Price competition on the international market is greatly 
affected by national and local regulations and enforcement. The USA has 
some of the most prohibitive and costly environmental regulations in 
the world. While acknowledging the need for some regulations, it is 
obvious that our regulatory environment puts our local producers at a 
disadvantage in the face of international competition. The 
environmental benefit of our regulations is undermined if we allow 
cheaper goods produced in a less appropriate manner to flood our 
markets and eliminate our producers. Furthermore, the ability of the 
federal government and private landowners to act as real stewards of 
the land will diminish if no private sector exists to off-set the costs 
of restoration and conservation. We strongly encourage the maintenance 
of import quotas and/or tariffs on wood and lumber products. We support 
the proposed sliding scale for tariffs correlated with the market price 
for lumber.
    Once again, thank you.
    Supplemental Statement of Nils D. Christoffersen, Field Program 
                       Manager, Wallowa Resources
    Dear Mr. Chairman and members of the committee: Upon returning to 
Wallowa County, Oregon, and further reflection on the hearing, I would 
like to submit the following supplemental statement to my testimony.
    1. Our unemployment rate jumped to 19% by the end of February 
2001--the highest level in several decades. This was driven by the 
first significant reduction in retail employment in over 20 years. The 
sustained decline in manufacturing jobs, with and additional 130 wood 
and lumber products jobs lost in 2000, is having significant impacts on 
the rest of the economy.
    2. The intention of my testimony was to emphasize the opportunities 
that exist to address both forest and community health concerns. Our 
community workforce and the local wood-processing infrastructure have 
adapted to the current need to treat small diameter trees in suppressed 
stands and to clean up heavy fuel loads. This should not be interpreted 
as a push to remove saw logs from the public lands. We are committed to 
improve forest and watershed health as a top priority. However, we want 
to take advantage of any employment and value-added processing 
opportunities that result from forest restoration and stewardship.
    3. Our community is committed to its partnership with the USFS. We 
appreciate the commitment, expertise and experience of our local Forest 
Service employees--who are valued members of our community. We are 
frustrated by the legislative, policy and budgetary constraints 
affecting our ability to deal with serious forest health concerns in 
our County and across Eastern Oregon. To the best of our understanding, 
these constraints are not purely a function of USFS operations and 
management, but reflect more broadly the national political tensions 
surrounding public land management. We want to see priority given 
clearly to a balanced, integrated land management approach that 
generates both forest and community health benefits. We do not want to 
see a return to the past where forested public landscapes were 
subjected to output based forest management, nor the maintenance of the 
present where rural communities and forested landscapes suffer from 
inattention and neglect.
    Thank you.

    Senator Craig. Nils, thank you very much for that very 
observant testimony. I think much of what you are saying is 
part of the ``can we crawl before we walk'' part of where we 
might be in some of this new strategy right now.
    With that, let me turn to Betty Vega, Cooperative Ownership 
Development Corporation, Silver City, New Mexico. Welcome 
before the committee.

STATEMENT OF BETTY VEGA, CEO, COOPERATIVE OWNERSHIP DEVELOPMENT 
                  CORPORATION, SILVER CITY, NM

    Ms. Vega. Thank you, and good afternoon, Mr. Chairman, and 
members of the subcommittee.
    I am Betty Vega, chief executive officer of the Cooperative 
Ownership Development Corporation in Silver City, New Mexico, 
located in Grant County. I want to thank you for the 
congressional support of the National Fire Plan. It provides an 
opportunity to better serve community needs and we greatly 
appreciate it.
    The Cooperative Ownership Development Corporation was 
formed in 1987 and is a nonprofit organization dedicated to 
social, economic, and environmental justice, committed to job 
creation, and finding opportunities for sustainable and livable 
wages. It was formed by people from the low income and Mexican-
American community in Grant County in response to economic and 
unemployment conditions in the area.
    I am going to focus today on opportunities for Congress to 
further assist communities in taking care of the land through 
small business development and other forms of investment in the 
community by acquainting you with the work that a small rural 
community organization is doing to promote community economic 
development using local resources and assets.
    New Mexico and specifically Grant County are rich in 
cultural diversity and natural and human resources. Grant 
County is located in southwest New Mexico on the southern end 
of the Gila National Forest and close to the Mexican border. It 
has a population of approximately 30,000 people and is over 50 
percent Hispanic. Approximately 21 percent of its population 
are living below the poverty level. Though the human 
communities adjacent to the forest are small, their impact have 
been significant.
    We share you concern about forest restoration, hazardous 
fuel reduction, and the sustained health of our communities. 
The recent catastrophic forest fires have emphasized the need 
for attention to the condition of our forests and the direct 
and indirect impacts of these conditions on surrounding 
communities.
    We also recognize that forest restoration requires an 
integrated, holistic approach. An integrated approach begins 
with a community vision of forest restoration. Reestablishing 
sustainable human connections to the land through quality 
restoration jobs and conservation-based economy is part of this 
approach. This must also include a sensitivity to cultural 
values and community needs.
    Second, an integrated approach requires strategic 
application of various restoration techniques. This may require 
a combination of prescribed fires, conservative thinning, 
grazing deferment, erosion control, and road closures, native 
seed planting, and intensive ecological monitoring. It helps to 
minimize disturbance and allows for the introduction of 
positive natural processes. It can also protect the old trees 
remaining.
    Third, it is important to think of this strategic 
restoration as experimental in the beginning. This is an 
entirely new way of thinking about forests, and we have few of 
the answers needed to attempt it on a large scale. A 
conservative approach will allows us to employ restoration 
models that respond to problems plaguing forests today without 
causing more harm than help. These same principles apply when 
considering hazardous fuels reduction. Through natural resource 
management, our interest has been in retaining those natural 
resources for quite some time. We have some experience to 
share, but we have a great deal to learn.
    These challenging environmental and economic conditions 
provide opportunities. The removal of small diameter material 
may help restore ecosystems and allows CODC and local community 
members to develop jobs and create economic uses for wood 
wastes. In other words, a confluence of interests is turning 
the excess small diameter timber of the forest and the ready 
labor of our communities into assets.
    A planning grant and subsequent funding from the Ford 
Foundation resulted in the development of the Jobs and 
Biodiversity Project, a community-based forestry initiative. It 
brings together an impressive group of cooperators and assets 
from environmental groups, educational institutions, the 
business community, small industry, nonprofits, and government 
agencies.
    Two of the central pieces of this project are Tierra Alta 
Wood Products Plant, an incubated business of CODC organized to 
become a worker-owned cooperative, and Gila WoodNet, another 
nonprofit organization with specific experience in small timber 
removal.
    Tierra Alta Fuels uses wood waste and small diameter 
thinning to produce an environmentally clean, renewable, 
nonfossil, premium wood pellet fuel for home heating use.
    Gila WoodNet will establish a wood sort lot, provide a 
local supply of raw material for Tierra Alta and develop other 
wood products.
    So, government assistance and participation is crucial to 
success. For example, the programs created by the Community 
Forest Restoration Act provide an opportunity for our 
organization and the community to coordinate projects with the 
Federal Government. These projects will greatly improve the 
social and economic conditions in our community, as well as the 
conditions in our forest.
    We ask that you consider the following areas in defining 
Government's role in the process: to provide long-term 
appropriations to ensure continued implementation of community-
based restoration projects based on sound ecological 
principles; find ways to fund the pioneering work of rural 
nonprofits and small businesses to develop markets and products 
from restoration byproducts; and provide necessary personnel 
and funding to complete the NEPA process in a timely, cost 
effective manner.
    We have formed a community of interest and of place with a 
vision for the future. It brings together people interested in 
working to create livable wages by investing in the forest for 
future generations.
    Thank you.
    [The prepared statement of Ms. Vega follows:]

     PREPARED STATEMENT OF BETTY VEGA, CEO, COOPERATIVE OWNERSHIP 
                DEVELOPMENT CORPORATION, SILVER CITY, NM

    Dear Mr. Chairman and members of the subcommittee, I am Betty Vega, 
Chief Executive Officer of the Cooperative Ownership Development 
Corporation in Silver City, New Mexico located in Grant County.
    The Cooperative Ownership Development Corporation (CODC) is a non-
profit organization dedicated to social, economic and environmental 
justice, committed to job creation and finding opportunities for 
sustainable and livable wages. It was formed by people from the low 
income and Mexican-American community of Grant County in response to 
perennial cyclical layoffs in the copper industry. The community 
founded the organization with the goal of forming cooperative 
businesses and creating other forms of economic ownership in the area. 
CODC has combined traditional methods with innovative community 
economic development techniques to affect social and economic change.
    Since its beginning in 1987, CODC has been actively involved in 
areas affecting the state of rural communities. Cooperative business 
development began in 1989 with a worker controlled housing rehab 
construction company. This led to later development of Adobe Southwest 
Community Land Trust in 1995-96 with the goal of providing affordable 
housing and rehabilitation to area homes. In 1993, a 3,000 square feet 
business incubation center was built to offer the community a bilingual 
setting in which to give business training and support services to the 
low-income community.
    The commitment to develop local resources led to subsequent 
feasibility studies and research. Use of area natural resources and the 
economic benefits became apparent. Tierra Alta Fuels, a second 
incubated business of CODC, was begun in 1998. This business produces 
wood pellets and other wood products from small diameter timber and 
wood by-products.
    I am going to focus today on opportunities for Congress to assist 
communities in taking care of the land through small business 
development and other forms of investment in the community. I am also 
going to acquaint you with the work that a small rural community 
organization is doing to promote community economic development using 
local resources and assets.

                         BACKGROUND AND VISION

    New Mexico and specifically Grant County are rich in natural and 
human resources and cultural diversity.
    Grant County is located in southwest New Mexico on the southern 
edge of the Gila National Forest and close to the Mexican border. Its 
ecosystems range from semi-arid Sonoran desert in the south, at 4,000 
feet above sea level, to alpine ranges of 11,000 feet above sea level 
in the north.
    Grant County's population of approximately 30,000 people is over 
fifty percent Hispanic. Additionally, over twenty-one percent of the 
population is living below the poverty level. We share your concern 
about forest restoration, hazardous fuel reduction and the sustained 
health of our communities. The quality of life affected by economic, 
social and environmental conditions drives CODC's mission and is the 
center of community action and planning.
    The Gila National Forest is home to a wide variety of wildlife and 
forest cover including Ponderosa Pine, Douglas Fir, Juniper, Pinon, 
Spruce, Oak and Cottonwood trees. Though the human communities adjacent 
to the forest are small, their impact has been significant. The recent 
catastrophic forest fires have emphasized the need for attention to the 
condition of our forests and the direct and indirect impacts of these 
conditions on surrounding communities.
    Forest restoration requires an integrated, holistic approach.
    First, an integrated approach requires a community vision of forest 
restoration. Reestablishing sustainable human connections to the land 
through quality restoration jobs and conservation-based economies is 
part of this approach. Sensitivity to cultural values and community 
needs is also essential.
    Second, an integrated approach requires strategic application of 
various restoration techniques. This may require a combination of 
prescribed fires, conservative thinning, grazing deferment, erosion 
control, and road closures, native seed planting and intensive 
ecological monitoring. It helps to minimize disturbance and allows for 
the introduction of positive, natural processes. It can also protect 
the old trees remaining.
    Third, it is important to think of this strategic restoration as 
experimental in the beginning. This is an entirely new way of thinking 
about forests, and we have few of the answers needed to attempt it on a 
large scale. A conservative approach will allow us to employ 
restoration models that respond to problems plaguing forests today 
without causing more harm than help. These same principles apply when 
considering hazardous fuels reduction. Natural resource management has 
been our concern for quite some time and we have some experience to 
share but a great deal to learn.

                      BUILDING COMMUNITY CAPACITY

    Challenging environmental and economic conditions of the 
communities surrounding national forests provide opportunities. The 
removal of small diameter material may help restore forest ecosystems 
and allows CODC and local community members to develop jobs and create 
economic uses for wood wastes. In other words, a confluence of 
interests is turning the excess small diameter timber of the forest and 
the ready labor of our communities into assets.
    A planning grant and subsequent funding from the Ford Foundation 
resulted in the development of the Jobs and Biodiversity Project; a 
community based forestry initiative. The planning process brought 
together a coalition that includes The Cooperative Ownership 
Development Corporation, Gila WoodNet, The Upper Gila Watershed 
Alliance, The Silver City Grant County Economic Development 
Corporation, The Southwest Forest Alliance, The Center for Biological 
Diversity, The Nature Conservancy and the U.S. Forest Service. In 
addition, religious organizations, community foundations and other 
nonprofit organizations are assisting in the implementation of the 
project. The purpose of the project is to develop economically viable 
forest products while implementing forest restoration projects that 
help to reestablish the functioning of natural systems. Removal of 
small diameter timber in this thinning process will help reduce the 
high density of small trees and help restore the diversity of forest 
cover. It can also aid in protecting large old trees remaining on the 
landscape by reducing the risk of high intensity uncontrolled fires.
    One of the central pieces of the Jobs and Biodiversity Project is 
the Tierra Alta Wood Products Plant. Tierra Alta is a significant wood 
industry and an incubated business of CODC and is organized to become a 
worker owned cooperative. The business uses wood wastes and small 
diameter thinning to produce an environmentally clean, renewable, non-
fossil premium wood pellet fuel for home heating use. Vigas and 
playground fiber are examples of other products from Tierra Alta.
    Another central piece and partner of the project is Gila WoodNet. 
This non-profit organization has specific experience in small timber 
removal and will establish a wood sorting lot, provide a local supply 
of raw material for Tierra Alta and develop other wood products.
    Training in the areas of forest restoration, wood product 
development, business development and ownership and natural resource 
management is necessary. This will not only provide sustainable, 
livable wages throughout the year, but will also create an assurance of 
sustained natural resource management.
    Another form of building community capacity is to create business 
partnerships. This can provide technical expertise and guidance to 
organizations and community groups limited in resources and skills.

                 FEDERAL GOVERNMENT ROLE AND ASSISTANCE

    Government assistance and participation is crucial to success. For 
example, the programs created by The Community Forest Restoration Act 
provide an opportunity for our organization and the community to 
coordinate projects with the federal government. These projects will 
greatly improve the social and economic conditions in our community as 
well as the conditions in our forests.
    3 We ask that you consider the following areas in defining 
government's role in this process:

          1. Provide long-term appropriations to ensure continued 
        implementation of community based forest restoration projects 
        based on sound ecological principles.
          2. Find ways to fund the pioneering work of rural non-profits 
        and small businesses to develop markets and products from 
        restoration byproducts.
          3. Provide necessary personnel and funding to complete the 
        NEPA process in a timely, cost effective manner.

    The Jobs and Biodiversity Project forms a community of interest and 
of place with a vision for the future. It brings together people 
interested in working to create livable wages by investing in the 
forest for future generations. Protecting natural resources and 
restoring resiliency in forested ecosystems is possible through 
restoration efforts. The log sort yard and forest product development 
will get the most value of each log. Producing wood pellets from wood 
byproduct provides an affordable and environmentally clean, alternative 
heating fuel and is the highest and best use of a waste material.
    CODC has effectively developed and sustained an environment of 
cooperation and partnership between business, government entities, 
other nonprofits and the community.
    This effort is making the dream of a healthy environment for our 
children a reality in our community.
    Thank you for your time and the invitation to tell you about the 
progress we are making in our local communities.

    Senator Craig. Ms. Vega, thank you very much.
    Now let us turn to Nancy Farr, Forest Stewardship Project, 
Partnership for a Sustainable Methow, Twisp, Washington.

         STATEMENT OF NANCY FARR, PROJECT COORDINATOR, 
   FOREST STEWARDSHIP PROJECT, PARTNERSHIP FOR A SUSTAINABLE 
                             METHOW

    Ms. Farr. Thank you, Mr. Chairman.
    The project that I coordinate in interior Washington State 
is a nonprofit research and demonstration effort that aims to 
restore the health of the forest while providing new living-
wage jobs for our rural communities. Participants include 
loggers, environmental advocates, ranchers, scientists, and 
others.
    Much of my area's landscape consists of dry forests and 
streams that serve as maternity wards and nurseries for salmon 
and other endangered fish. Our dry forests and our watershed 
are closely interlinked, and both are in trouble.
    Today I will first give you an idea of how much at risk the 
forests in my own community are, and second, I will recommend 
ways that Federal programs and investments can help reduce the 
risk of catastrophic forest loss, restore ecosystem health, and 
relink our community welfare with the land.
    More than 82 percent of the dry forest in the Okanogan is 
currently classified as dense dry. This is dangerously 
different from its historically open condition which was 
created by frequent low-burning fires. The extreme risk of 
catastrophic fires threatens not just our trees, but also the 
soils, the streams, and rivers and everything that depends on 
the intact ecosystem.
    With funds budgeted for the Okanogan Forest this year, less 
than 1 percent of the high-risk lands will be thinned. At that 
rate, it will take more than 100 years to thin all the 
currently overstocked land, during which much of it will burn 
in high intensity stand-replacing fires. The ecosystem, 
including trees, productive soils, and watershed functions, 
will be severely altered.
    Preventive maintenance through thinning and slash 
treatments is effective at reducing the risk in dry forests 
like ours, and it is cost effective. Wildfire suppression and 
emergency rehabilitation averages at least $1,000 per burned 
acre. Forest Service costs for thinning in our area average 
$450 per acre.
    These comparative figures, while compelling, do not tell 
the whole story. High intensity fires also cost the public in 
follow-up vegetation management, lost lives, property, habitat, 
water quality, and sometimes even future soil productivity.
    On the other hand, investments in hazardous fuels 
mitigation have additional benefits, including improved tree 
and forage growth, and increased stream flows and groundwater 
retention. As an agency silviculturalist told me recently, it 
is either pay a little bit now or pay a whole bunch later. 
Congress needs to make a more significant and a more sustained 
investment in preventive hazardous fuels treatments.
    A fundamental principle of the forest stewardship approach 
is that forests should be looked at from a holistic perspective 
with a long view. The interrelationship between forests, water, 
fish, and the local economy in my own area illustrates the 
holistic nature of the forest ecosystem.
    So, my first recommendation on wildland fire strategies is 
to put this subject in its larger context and check each 
proposed action relative to its long-range impacts on the 
entire ecosystem, which includes the human social system.
    Second, we need long range, sustained programs and 
investments because the problems in our forest, workforce, and 
communities are systemic and long-term.
    My last three recommendations relate to how fuels reduction 
and related strategies should be implemented. Here our Forest 
Stewardship Project can serve as a concrete example of how a 
restoration system that combines low-impact techniques, skilled 
workers, and proven best practices can meet sustainability 
objectives. We believe that using conventional logging 
machinery in dry type forests is highly detrimental to the 
ecosystem and has no place in forest restoration. We are 
demonstrating that low-impact machinery, combined with well-
trained workers, can benefit the forest and community 
economics. Significantly our ``light on the land'' approach 
impacts no more than 5 percent of the ground. This is one-fifth 
the impact of conventional machinery on soils and watershed 
functions. Funding for research and demonstration of low-impact 
methods, for example, integrating small machines and horses, is 
essential to gaining the support of environmental advocates and 
to meeting sustainability objectives.
    Another benefit that we are able to demonstrate is that our 
labor-intensive versus machine-intensive approach enables tree 
fallers to decide which trees are best to leave as they move 
through the landscape. Training in ecosystem functions is 
critical for the workers who will implement ecologically 
beneficial fuels treatments. Congress needs to help us invest 
in workforce development. Our project's investment is providing 
three times as many jobs as the conventional ``big machine'' 
approach.
    My last point is the importance of an inclusive process 
that integrates diverse perspectives on an ongoing basis in 
treatment planning, monitoring, and adaptive management. 
Education and involvement of the community in assessing and 
treating the land leads to more learning and better practices.
    To recap, I ask you to create and support programs that, 
first, address the wildland fire problem within its larger 
context, the degraded condition of the whole ecosystem. Second, 
provide sustained funding for restoration planning and 
implementation. We need to know that this Nation is committed 
to sustained restoration work. Third, require and invest in 
development of low-impact restoration treatment methods. 
Fourth, invest in community education, worker training, and 
living-wage jobs. And fifth, finally, mandate and fund ongoing 
multi-party participation in treatment monitoring, evaluation, 
and adaptive management.
    Thank you very much.
    [The prepared statement of Ms. Farr follows:]

     PREPARED STATEMENT OF NANCY FARR, PROJECT COORDINATOR, FOREST 
       STEWARDSHIP PROJECT, PARTNERSHIP FOR A SUSTAINABLE METHOW

    Dear Mr. Chairman and members of the subcommittee, I am Nancy Farr, 
Coordinator of the Forest Stewardship Project in Okanogan County, rural 
Washington state. Our project is a non-profit based research and 
demonstration effort that aims to achieve sustainable forest management 
while providing living wage jobs for our rural communities. Our project 
addresses the needs of the forest and community as a whole system--
where ecology, economy, and social concerns are linked together very 
tangibly. The Forest Stewardship Project is a collaboration of local 
and regional organizations and individuals who embody the full spectrum 
of interests in natural resources. Participants include loggers, 
environmental activists, ranchers, natural resource management 
professionals, and other residents who cherish the ecosystem of which 
we're a part. Together, through the Forest Stewardship Project, we are 
finding common purpose and developing a restoration treatment system 
that will help return the forest ecosystem to balance.
    Okanogan County is physically the third largest county in the 
United States. Much of the landscape is made up of dry forests and 
rivers and streams that serve as maternity wards and nurseries for 
salmon and other endangered and threatened fish. Okanogan's forest 
lands cover 48% of the county and receive approximately 75% of the 
annual precipitation, so our dry forests and our watershed are closely 
interlinked. Both are in trouble, as is agriculture and even hydropower 
on the Columbia River, the destination of water flowing out of our 
forests.
    Today, I will address my comments in two directions. First, I want 
to give you an idea of how much at risk the forests and associated 
resources are in my own community. Second, I will talk about strategies 
that our project is demonstrating which, with your support, can reduce 
the risk of resources lost in catastrophic fire, restore ecosystem 
health and provide economic opportunities to local communities.

                            FORESTS AT RISK

    More than 80% of the forested land in my county is public. The 
majority of that is in the Okanogan National Forest, where there are 
more than 400,000 acres of ``dry forest.'' This means that historically 
they were open, with widely spaced large trees, little underbrush and 
only occasional clumps of smaller trees. Typically these forests 
experienced natural low-burning fires every 5-15 years.
    These forests are dramatically and dangerously different now. 82% 
of forested acres are currently classified as ``dense dry forest.'' 
They are at highest immediate risk of wildfire, because they are 
crowded with small, poorly growing trees--so crowded that 40% or more 
of the crown space is closed. This condition has many negative effects, 
one of which is the extreme risk of catastrophic wildfire that 
threatens not just the trees and timber values but also the soils, 
streams and rivers, and all the human uses and the biodiversity that 
depend on the intact and balanced functioning ecosystem.

                    ALTERNATIVE STRATEGIES AND COSTS

    With funds budgeted in FY 2001, if all goes well, some 2,500 acres 
\1\ will be thinned in commercial and non-commercial projects in the 
Okanogan National Forest. This is less than 1% of the high risk forest. 
At that rate, it will take more than 100 years to treat all the 
currently dense acres, during which many of them will burn in very hot 
stand-replacing fires. Many of the resources, including productive 
soils and watershed functions, will be severely degraded or lost.
---------------------------------------------------------------------------
    \1\ Management of the Okanogan and Wenatchee National Forests was 
recently combined. The FY 2001 budget covers both forests. The thinning 
estimate above assumes that the thinning budget allocation for the 
Okanogan will reflect its share of dense dry acreage.
---------------------------------------------------------------------------
    Preventive maintenance, through thinning of the dense trees plus 
various forms of dealing with thick underbrush and slash, is effective 
at reducing the risk of catastrophic fire in dry forests like those of 
the Okanogan. And it is cost effective when looked at from several 
perspectives. Total cost to the Forest Service for non-commercial 
thinning in our area is averaging $410 per acre, $486 net cost for 
commercial thinning projects. Wildfire suppression and immediate, 
emergency rehabilitation work to prevent or minimize damage to streams 
is running an average of at least $1,000 per acre burned. These 
comparative figures, while compelling, do not tell the whole story.
    Wildfire suppression and emergency rehabilitation cost at least 
$1,000 per acre + plus:

  <bullet> state and local firefighting expenses;
  <bullet> damage to roads, culverts, fences and soils from emergency 
        equipment movement;
  <bullet> followup vegetation management and other rehabilitation 
        expenses; and
  <bullet> lost lives, property, habitat and water quality, and in the 
        hottest fires, soil productivity.

    On the other hand, hazardous fuels mitigation costs approximately 
$450 per acre--and it has additional benefits in:

  <bullet> the value of improved timber and forage production;
  <bullet> the value of increased streamflows and ground water 
        retention; and
  <bullet> the value of improved aesthetics and recreational 
        opportunities.

    As a Forest Service silviculturalist told me, ``With the forest 
conditions we've got on the dry sites, we are really in a situation of 
`pay a little bit now or pay a whole bunch later.' '' Congress needs to 
make a more significant and a more sustained investment in preventive 
hazardous fuels treatments.

                      RECOMMENDATIONS TO CONGRESS

    I am really glad that the subcommittee is looking at how hazardous 
fuels can be reduced in ways that restore ecosystem health and provide 
economic opportunities to local communities. One of the fundamental 
principles of our approach in the Forest Stewardship Project is that 
forest management should be looked at from a holistic perspective, with 
a long view. My earlier description of the interrelationships between 
forests, water, fish, agriculture, hydropower and local economies in my 
own area illustrates the holistic nature of the forested ecosystem.
Whole System, Long-Term View
    So my first recommendation regarding strategies for wildland fire 
management is to put this subject in its larger context and check each 
proposed action relative to its long term impacts on all ecosystem 
functions and resources, including the human social ones. For example, 
Forest Service policies and practices should ensure accountability to 
local communities.
Sustained Programs and Investments
    My second request of Congress is for multi-year, sustained programs 
and investments, because the present problems and needs in our forests, 
workforce and communities are systemic and long term. For example, 
appropriations for hazardous fuels mitigation and community capacity 
building through the Rural Community Assistance program should be 
increased and sustained. Over some time, the tax savings in reduced 
needs for emergency fire suppression and long term resource 
rehabilitation, as well as tax revenues from new rural jobs and 
stronger local economies, may offset the near term costs.
    I want to briefly tell you why sustained investment in programs 
like the USDA Forest Service's Rural Community Assistance (RCA) program 
is so important. RCA has been instrumental in our organization's 
progress on local sustainable economic development over the past two 
and a half years. One grant has enabled the Forest Stewardship Project 
to begin implementing worker training, restoration monitoring and 
community education programs. A $26,000 RCA grant was leveraged to 
support a total first year operating budget of $170,000--84% of which 
went to wages in new jobs. The job creation potential of this project 
is enormously important to our formerly timber-dependent economy, and 
the environmental and natural resource benefits of well targeted 
federal support are similarly enormous.
    We are applying this month for Forest Service administered grants 
for project expansion, from the Rural Community Assistance program and 
from the Title IV National Fire Plan appropriations. These types of 
grants can provide a financial base on which private, community and 
foundation funding can be added along with program income and in-kind 
and volunteer labor to make efforts like ours sustainable. I want to 
emphasize the importance of the language in Title IV of 2001 Interior 
Appropriations Bill that authorizes the Forest Service to enter into 
contracts, grants and cooperative agreements with nonprofit entities. 
This will make a significant difference in our efforts locally and our 
development as a model for other communities.
    My last three recommendations for the subcommittee relate to how 
hazardous fuels reduction and other wildfire strategies are 
implemented. In brief, in addition to the two recommendations above, I 
recommend that Congress:

          3. Require that hazardous fuels treatments be done using low 
        impact methods that benefit rather than damage ecosystem 
        functions. Invest in research and demonstration efforts that 
        show how this can be done effectively in all forest types;
          4. Invest in building local knowledge of the landscape and 
        how to care for it, because the most logical base for 
        stewardship is the local community;
          5. Require multi-party planning, monitoring and adaptive 
        management decision making, because no stakeholder group sees 
        the whole picture on its own.

    I will now discuss the Forest Stewardship Project (FSP) as a 
concrete example of how hazardous fuels can be reduced in ways that 
restore ecosystem health and improve the local economy. In short, we 
are developing and demonstrating a forest restoration system that meets 
sustainability objectives by combining low impact machinery and 
techniques, skilled workers and proven best practices.
Insistence on Low Impact Treatment Methods
    My stand on low impact forest restoration methods is very strong. 
My colleagues and all of our supporters, who include both environmental 
activists and traditional natural resource users like ranchers, believe 
that using conventional logging machinery, typically cut-to-length 
processors and large skidders, in dry type forests is highly 
detrimental to the ecosystem and has no place in holistic forest 
restoration. Our project is beginning to demonstrate that the 
combination of low impact machinery and well trained tree fallers and 
other woods workers can reduce hazardous fuels in efficient ways that 
have acceptable impacts and benefit the community economically as well 
as ecologically.
    Conventional logging machinery directly impacts approximately 25% 
of the forest. Machinery impacts affect soil structure, water 
retention, spread of noxious weeds, standing trees, and the appearance 
of the forest. The low impact, light on the land machinery that we use 
in our work impacts no more than 5% of the ground, one-fifth the ground 
impact of the conventional machinery.
    Another very important benefit of our approach is that the faller 
makes the decisions about which trees are best to leave as he or she 
moves through the landscape. This requires understanding ecosystem 
functions, and it means that park-like tree clusters, openings and 
snags for wildlife are left in patterns similar to what nature creates 
in the dry forest landscape. The natural selection method cannot be 
implemented by a machine operator who is motivated primarily to keep 
his huge capital asset on the move.
    To reiterate, funding for research and demonstration of low impact 
methods is essential to gaining the support of environmental activists 
and meeting sustainability objectives.
Investment in Workforce Knowledge and Skills
    As I indicated, a good understanding of ecosystem functions is 
critical for the workers on the ground to implement ecologically 
beneficial fuels treatments. This means that broad based job training 
and sustained experience in the particular ecosystem are important 
factors in who conducts the treatments. Low-impact treatments are 
relatively labor intensive, substituting skilled labor for high cost, 
high-impact machinery. This means that the workforce is not only good 
for the land. It is also good for the local economy.
    Our project's approach is providing three times as many jobs as the 
conventional big machine approach. And our workers can be eyes and ears 
for the Forest Service out on the ground, providing helpful 
observations on the forests' response to treatments and changing 
conditions. Wildfire strategies and programs should address development 
of a local workforce that is capable of taking on the long term 
responsibility for forest ecosystem restoration and maintenance.
Multi-Party Community Based Process
    Finally, I want to talk briefly about the importance to ecosystem 
restoration and to community well-being of using an inclusive process 
that integrates diverse perspectives on an ongoing basis in treatment 
monitoring and adaptive management. In our project, we have a multi-
party technical advisory group that includes resource management 
specialists, environmental advocates, educators and ranchers. We also 
provide landowner and community education through monthly ``Walks in 
the Woods,'' because stewardship ultimately has to involve the whole 
community. As we do more post-treatment monitoring, all interested 
parties will participate in observation, evaluation and adaptive 
decision making. We welcome scrutiny from all perspectives because it 
leads to more learning and better practices.
    An important validation of our approach is that we have gained 
trust and participation from environmentalists--what some call ``tree 
huggers.'' We're cutting down lots of trees (albeit most are skinny 
ones), yet they are hugging us! The multi-party stewardship approach 
holds great promise for enabling us to improve the productivity of our 
natural resource assets and to spend the dividends, without fighting 
each other in our communities or in court.
    To recap, I ask you to create and support programs that:

          1. Address the wildland fire problem within its larger 
        context--the whole ecosystem and all of its stakeholders over 
        the long term;
          2. Provide sustained funding for forest restoration planning 
        and implementation--including, of course, thinning of dry 
        forests at high risk;
          3. Require and invest in development of low impact 
        restoration treatment methods;
          4. Invest in local capacity for sustained stewardship of all 
        forest resources--community education, worker training, and 
        living wage jobs; and
          5. Mandate and fund ongoing multi-party participation in 
        treatment monitoring, evaluation and adaptive management.

    Thank you.

    Senator Craig. Thank you very much.
    Now let us turn to Cece Headley, Alliance of Forest Workers 
and Harvesters of Eugene, Oregon. Cece, welcome to the 
committee.

STATEMENT OF CELIA HEADLEY, VICE PRESIDENT, ALLIANCE OF FOREST 
               WORKERS AND HARVESTERS, EUGENE, OR

    Ms. Headley. Thank you very much. My name is Cece Headley, 
and I am a forest worker and contractor. I participated in 
service contract work on Federal lands for over the last 20 
years in the Pacific Northwest and Alaska. My comments come 
from my own personal experience in the field. And when I say 
the field, most people here think, oh, that is Portland or 
Eugene, but drive from Eugene several hours, come to the end of 
the road, and that is where I am. So, I am giving you what we 
call the tree roots perspective on contracting.
    My perspective comes from the 20 years that I have been 
working in the woods and contracting with mainly the Forest 
Service but also the Bureau of Land Management.
    Historically service contract work, such as fuels reduction 
work, was accomplished by contracting on a low-bid basis. 
Though these contracts were subject to the Service Contract 
Act, it has been my experience that Federal agencies never felt 
the responsibility to monitor or enforce those worker 
protection provisions in the Service Contract Act, such as 
prevailing minimum wage.
    Due to this, often contracts were awarded below the cost of 
doing business, and that is the cost to the private sector, not 
to the Government. This situation led the Federal agencies to 
contribute to the creation of an underclass industry in doing 
service contract work.
    So, we have some ideas and strategies to maybe remedy the 
situation.
    First, we would like to see the Forest Service conduct a 
collaborative assessment of the current and historic 
procurement program. Ask the question how many contracts are 
awarded below cost, below the Government estimate of what it 
really costs to do the work. Initiate mechanisms within the 
agency to monitor this part of the contracting, not just how 
much work is accomplished, but what it really meant to the 
private sector to accomplish it.
    Second, direct the Forest Service to refrain from 
continuing to award contracts below the cost to accomplish 
them.
    Third--and this is my most important point--is that I 
believe to accomplish the goals in the fire plan, the Congress 
needs to direct and fund a much larger investment in in-house 
personnel in the procurement program of Federal agencies. At 
this time, I believe that the implementation of the goals, 
particularly community goals, cannot be achieved without 
substantial investment in more procurement officers and 
personnel.
    The good news is there actually is a model within the 
Forest Service system, albeit on a very small scale, of these 
mechanisms working, and this is in the Willamette National 
Forest where I live and work in the Jobs in the Woods program 
where many of the mechanisms that are proposed in the fire plan 
have been successful. These include best value contracts 
awarded based on other criterion than just low bid, where 
contracts are designed taking into account the capacity of the 
workforce, and also designed to increase that capacity, 
mechanisms such as multi-task, longer duration.
    Also, the Willamette has recognized the need to assign 
adequate personnel to implement these programs. This is what I 
would suggest all forests that plan to implement these 
programs, particularly to have benefit to the local communities 
and workforce, need to do.
    So, that is about all I have to say. Thank you.
    [The prepared statement of Ms. Headley follows:]

PREPARED STATEMENT OF CELIA HEADLEY, VICE PRESIDENT, ALLIANCE OF FOREST 
                   WORKERS AND HARVESTERS, EUGENE, OR

    Dear Mr. Chairman and members of the subcommittee, I am Celia 
Headley, a forest worker and contractor from Eugene, Oregon, and Vice 
President of the Alliance of Forest Workers and Harvesters. The 
Alliance is a multicultural organization promoting social, 
environmental, and economic justice for non-timber forest workers and 
harvesters in the Pacific West.
    I have participated as a worker on Service Contracts with Federal 
agencies in the Pacific Northwest and Alaska for over 20 years. My 
comments are based on my own experience and those of the many other 
workers in the Alliance. I do not bring an overview of policy, but 
rather the voice of a grassroots practitioner whose work and life is 
greatly affected by policy decisions. I will be referring to details of 
procurement and forest work which, I imagine, are usually outside the 
scope of hearings but which are critical to understand what is 
happening on our public forest lands and to forest workers in the 
Pacific West.
    We want to thank the Chairman and the subcommittee for holding this 
hearing and for inviting us to testify. We appreciate this opportunity 
to provide our perspective, gained from years of direct contact with 
federal land management agencies.

    HISTORICAL ROLE OF FEDERAL AGENCIES WITH RESPECT TO THE SERVICE 
                               WORKFORCE

    Historically, the federal land management agencies strove to 
accomplish service work in what appeared to be a least-cost fashion by 
awarding contracts to the lowest bidder. These contracts, which mostly 
involve mostly labor intense work, are subject to the Service Contract 
Act, which contains worker protection provisions such as a prevailing 
minimum wage. To my experience, the federal agencies have never felt 
much responsibility to monitor or enforce these worker protection 
provisions. This is understandable given the lack of in-house personnel 
and the perceived mission of the agencies, which focused more on 
providing a continuous supply of timber than ensuring economic or 
social equity. However, it cannot be denied that the agencies, by their 
actions and inaction, have played a major role in the creation of an 
``underclass industry'' among service contract workers, and have 
contributed to worker exploitation, particularly with respect to labor-
intensive work such as reforestation. Let me give you an example of how 
this works. The Forest Service puts out a contract for tree planting 
and 18 companies put in bids. Fourteen of the bids are at least 40% 
under the government estimate of what it should cost to do the work. 
Nonetheless, the Forest Service awards the work to the lowest bidder. 
One of many things can happen at this point. In order to accomplish the 
work at such a low price, the contractor can: demand unreasonable 
production and unpaid overtime from the workers; pay less than the 
stated contract minimum wage; or declare only a percentage of the 
workers on the books, thereby avoiding worker's compensation, 
unemployment, and other tax payments. No one really knows what happens 
because the only entities in a position to monitor are the contract- 
issuing agencies, and these agencies do not see monitoring as their 
responsibility. Furthermore, the practice of awarding service contracts 
to below-cost bids often produces low quality results on the ground. In 
the case of reforestation, the result can be that acreage needs to be 
replanted, which is not cost effective for the government.

                  STRATEGIES FOR THE FEDERAL AGENCIES

    In order to remedy this situation we suggest that the federal land 
management agencies institute some of the following strategies:

  <bullet> Reflect on this historical situation and conduct an 
        assessment of the procurement program, both internally and in 
        collaboration with contractors and workers. The assessment 
        should look at more than just the bottom line of how much work 
        was accomplished and how much it cost. Ask questions such as 
        how many contracts were awarded at costs below the government 
        estimate and what were the results and consequences of these 
        contracts with respect to the land and the workforce.
  <bullet> Talk to the government personnel who work most directly with 
        the contracts, contractors, and forest workers to gain an 
        understanding of the true conditions. Key personnel are the 
        ``on the ground'' inspectors who often have daily contact with 
        a project and are aware of the work conditions and results.
  <bullet> Develop open information on how the agencies have played a 
        role in creating an underclass service industry, and design 
        strategies to address this situation. One key strategy is to 
        refrain from awarding below-cost service contracts. In the long 
        run, below-cost contracts are neither cost effective nor in the 
        interest of land stewardship.
  <bullet> Invest in increased personnel and training for the 
        procurement program so that the federal agencies have the 
        capacity to work with forest workers to promote land 
        stewardship and community well being. This is my most important 
        point so I will state it again. Without the commitment to 
        invest much more in the ``in house'' capacity of the agency 
        procurement offices on all levels, I believe there is little 
        hope of achieving the reforms and goals set out in the national 
        fire plan legislation in terms of workers, communities, and 
        land management. This is a major obstacle that needs to be 
        addressed.

                           A SUCCESSFUL MODEL

    There is a model within the Forest Service, albeit on a small 
scale, that illustrates a better way.
    I have the privilege of working in the Willamette Province in 
Oregon in the ``Jobs in the Woods'' contracting program set up through 
the Northwest Economic Adjustment Initiative. This program incorporates 
many of the same contracting mechanisms as proposed in the national 
fire plan including a ``best value'' criterion for contract award, 
which takes into account factors other than just price. There is also 
an attempt to focus not only on benefits to the land, but also on 
benefits to the workforce and community as well. Contracts are 
structured to take into account the capacity of the workforce and to 
increase that capacity by such mechanisms as offering multi-task 
contracts of longer duration. Most importantly, however, is that the 
Willamette Province has understood the need to assign personnel to make 
this program work. The most essential of these is the Contracting 
Officer's Representative, Brad Leavitt. Brad is the connection between 
the people who design the work (e.g. the biologists, silviculturalists, 
engineers, and planners), the procurement officers, and the contractors 
and workers. From the inception of a project through all phases of 
implementation to completion, Brad remains with the project, to insure 
that all objectives are met. I cannot overstate the importance of this 
point: Every National Forest should create and maintain a similar 
position in order to work towards procurement reforms which can only 
benefit the agencies, the land, and the communities and workforce.

                 THE CURRENT SERVICE CONTRACT WORKFORCE

    Having spoken about the federal agencies and their impact on the 
service contract industry and workforce, I would like to now provide 
some understanding of the current workforce that performs service 
contract work. This workforce is often referred to as the ``mobile 
workforce'' due to the fact that we have had to travel throughout the 
West in order to keep working. This workforce is predominately composed 
of Latinos, especially those who perform labor intensive work, and many 
of these workers have done forest contract labor for several years. 
While many forest-based workers from rural communities historically 
were involved in timber harvest activities, the mobile workforce was 
engaged in service work on our National Forests. This service work and 
the mobile workforce have been and remain today highly invisible. The 
work includes all aspects of reforestation, timber stand improvement 
(thinning), wild land fire fighting, trail construction, restoration, 
wildlife habitat enhancement, and technical surveys as well as 
harvesting of non timber forest products such as mushrooms and floral 
greens. Our work has been differentiated from the timber-harvest 
activities of traditional forest-based workers in that it has been 
accomplished through service contracts rather than timber sale 
contracts.
    It is important to note that even though we--the mobile workforce--
are not a ``community of place,'' we are a ``community of interest.'' 
We share concerns about the land and, particularly, about our ability 
to continue to make a living and support our families through our work. 
As the agency makes changes in its programs and the ways it contracts 
for forest work, we believe that those who wish to continue working in 
the woods, whether they have historically harvested trees or planted 
trees, should all benefit from the changes. With the movement towards a 
more holistic or integrated approach to forest work--towards ecosystem 
management that encompasses restoration and use of the byproducts of 
restoration--there will hopefully be a corresponding integration of the 
workforce. Though we might come from different backgrounds and have 
different skin color, we are all forest workers who want to do right 
for the land and our families and communities. A measure of success of 
legislative and agency initiatives would be the development of an 
``ecosystem management industry'' that provides ``quality livelihoods'' 
for whomever participates, no matter which of the historically 
differentiated industries they were in. Those of us from all 
communities affected by federal forest policy understand that we need 
to work together toward realizing our goals of healthy ecosystems, 
healthy communities, and healthy families.

                                SUMMARY

    In summary, I would like to restate my key points:

  <bullet> The federal land management agencies have contributed to the 
        creation of an underclass workforce doing service contract work 
        on the federal forests. This is not only detrimental to the 
        current workforce, but it is one of the major obstacles to 
        communities trying to access service contract work and help 
        make the transition to ecosystem management.
  <bullet> The federal agencies need to assess and build a clearer 
        understanding of their role, and put mechanisms in place to 
        make reforms.
  <bullet> The federal agencies need to look at and learn from 
        successful models of contracting and collaboration. They also 
        need to invest in ``in-house'' capacity for procurement.
  <bullet> The federal agencies need to develop better information 
        about the existing ``mobile workforce'' doing service contract 
        work, and develop mechanisms through which this workforce and 
        traditional timber-related forest workers can both make the 
        transition to an integrated, ecosystem management workforce.

    Senator Craig. Well, Cece, thank you very much. We 
appreciate that.
    Now we turn to Lynn Jungwirth. Of course, Lynn has been 
before our committee before with valuable testimony and heads 
up the Watershed Research and Training Center at Hayfork, 
California. Let us see. That is on the eastern side of the 
mountains, is it not?
    Ms. Jungwirth. No. It is just about 50 miles inland from 
Eureka. We are in the coast range. No, we are not over in those 
Sierras where it is all hard stuff. But you are close.
    Senator Craig. I thought I had you located on my mental 
map, but I guess I do not quite.
    Ms. Jungwirth. You will just have to come visit.
    Senator Craig. I know. I am going to. Thank you.

STATEMENT OF LYNN JUNGWIRTH, EXECUTIVE DIRECTOR, THE WATERSHED 
                      CENTER, HAYFORK, CA

    Ms. Jungwirth. Thanks for having this hearing.
    I think it is pretty clear that the community forestry 
folks have figured out a lot of the economics around the 
National Fire Plan, how do you make it work economically, how 
do you make it integrate with rural development. We have done 
that on a small scale because of two reasons.
    There was a very small scale of activity on the public 
lands. Big industry went away because there was no supply. And 
we were all that was left. We had very little access to 
capital. We had very little access to materials, and we needed 
to rebuild our economies based upon a restoration management 
direction.
    So, we did not leave the mountains. We stayed and said, we 
can learn how to fix these roads. We can learn how to help with 
these streams. We can learn how to help with this habitat. We 
can learn about sustainable forestry. And so we stayed and we 
figured out small scale approaches and we invested in that.
    You are going to find incredible support from communities 
throughout the West for this fire plan not only because they 
are worried about their communities burning up, but because we 
will integrate for you your other goals besides community 
protection. We will integrate the rural development goal. We 
will integrate the conservation goals, and we will build a 
system that will work for those people and our people in the 
forests.
    It is a good thing we will do that because you cannot 
implement this National Fire Plan without us because we have 
done the numbers. Let me explain.
    The Forest Service will put a lot of money into building 
their suppression capacity. Congress gave them a lot of money 
to do that. It was time. They needed to reinvest in that. It 
had been ignored.
    But no matter how many suppression dollars you put into the 
Forest Service, if you do not have a workforce in the field to 
mobilize, if you think your volunteer fire department is 
standing around because it is waiting for a fire to start they 
could go put out, you are mistaken. The volunteer fire 
department is there because the workforce is there. Your 
volunteer fire department shows up when the whistle blows. They 
do not stand around waiting for a fire. If they are not there 
working, they are not going to be there for the volunteer fire 
department. So, you have to have us out there.
    So, if you do not help structure the utilization and the 
procurement mechanisms so we can be out there, then when you 
have a fire and you want to call the workforce that came in and 
did the thinning, you are going to have to call somebody from 
several hundred miles away. You are going to have to call 
somebody from down in the valley at the big ethanol plant and 
ask them if they want to release their crew to come up and 
fight that fire. The answer is going to be: I do not think so.
    So, as we have developed these systems, integrated the 
service contract piece, which you and your committee have taken 
leadership in--you have given us those tools. You have given us 
the title IV authorities. We have the opportunity to make this 
work now and institutionalize it. Because the big guys left, we 
had the opportunity to build some of these other scales. We 
have built systems that now will work.
    Right now, it is wonderful to be in front of you. You are 
the Energy and Natural Resources Committee. If 1 million of 
those acres were treated with mechanical treatment and that 
biomass was brought out to small biomass plants throughout the 
West, you would have 3,000 megawatts on the grid. They could 
build these biomass plants within 1 year. If those biomass 
plants are situated in our communities where our small scale 
processing is happening, it makes the sort yards, the post and 
pole peelers, the pellet plants, the small log processing, the 
little furniture things that are happening more economically 
viable. It gives a market for that material that is much closer 
to where the trees and the vegetation are coming from, which 
makes it more valuable. If that million acres went to those 
little biomass plants by little sort yards, where they could 
take a better and higher use off the posts and poles and the 
small logs, you would generate $750 million.
    The processing plants are not out there to process 3 
million acres worth of activity. They cannot be built 
overnight, but the small processing plants can be built 
overnight. They are being built overnight. These people are 
doing it.
    So, you need us. We need you. You have given us all the 
tools. This is a wonderful opportunity for rural development. 
The 18 people from community forestry who came here this week 
are ready to stand with you guys and do this.
    [The prepared statement of Ms. Jungwirth. follows:]

       PREPARED STATEMENT OF LYNN JUNGWIRTH, EXECUTIVE DIRECTOR, 
                   THE WATERSHED CENTER, HAYFORK, CA

    Dear Mr. Chairman and members of the subcommittee:
    Thank you for the opportunity to comment on the implementation of 
National Fire Plan from a community perspective. The perspectives I 
bring to you today are as Director of the Watershed Center in Hayfork, 
California. In this role, I have helped develop community 
infrastructure for the transition from a timber-based economy to an 
economy dependent upon ecosystem management, watershed restoration, and 
the health and welfare of threatened and endangered species, such as 
the Northern Spotted Owl and the Coho Salmon. My county, Trinity 
County, has helped develop worker training programs, small-diameter 
timber utilization projects, collaborative stewardship projects, county 
level fire plans, and a county Natural Resource Advisory Committee. We 
have implemented restoration plans for the Trinity River and forest 
health projects in the Trinity and Six-Rivers National Forests. We are 
a community of innovators and implementers, trying to take the evolving 
science and policy direction and help develop practical programs that 
sustain both the forest and our community.
    As Chairperson of the Communities Committee of the 7th American 
Forest Congress, I have worked over the last five years with a network 
of community leaders and practitioners from around the country to help 
heighten awareness and understanding of the interdependence between 
forests and communities. Many of us have worked on projects to restore 
healthy forests and watersheds, while building local capacity through 
workforce training and the development of small nonprofit groups and 
business enterprises.
    When Congress passed the FY 2001 Interior Appropriations bill with 
its emergency wildfire provisions (Title IV), many of us involved in 
community-based forestry were very excited about the investment being 
made in wildfire protection strategies. We were especially pleased 
about authorities encouraging the federal land management agencies to 
help build local community capacity through funding mechanisms such as 
contracts, grants, and cooperative agreements. These authorities fell 
under the hazardous fuel reduction provisions and were intended to 
provide job training and employment opportunities as well as stimulate 
small or micro-businesses in rural communities. In response to these 
provisions in Title IV, The Watershed Center put together a framework 
for a community-based wildfire strategy, and we worked with American 
Forests and others to describe what such a strategy might look like. I 
have attached an editorial describing this strategy.
    As we began working with the federal land management agencies at 
the start of this year, many community-based forest practitioners were 
hopeful that we would be able to work a number of our ideas into the 
National Fire Plan. Our discussions and efforts to collaborate with 
agency leadership seemed promising. As the Plan has moved into 
implementation, however, the level of excitement in many communities 
has diminished.
    The focus of the 2001 Fire Plan strategy appears to be rebuilding 
the fire suppression infrastructure within the Forest Service to its 
``most efficient level,'' which means investing in new crews, new 
equipment, and new air attack infrastructure. We at the Watershed 
Center support some reinvestment in suppression forces as long as it 
includes engines and engine crews stationed within the forest. We 
support local Forest Service and BLM ``brush disposal'' crews who can 
work on fuels reduction projects when they are not fighting fire. We 
understand that rebuilding the federal agencies is essential for 
implementation of fuels reduction projects as well as implementation of 
other forest and watershed restoration projects. But, we believe the 
long-term approach must be focused on vegetation management and the 
restoration of forest ecosystems to conditions in which wildfire plays 
a regenerative rather than a destructive role.
    Four other issues my community asked me to bring to you regarding 
the National Fire plan include:
    1. The long-term focus of the National Fire Plan should be on 
vegetation management, not increased suppression forces. In fact, a 
long-term increase in the use of suppression forces is an indication of 
a failed wildfire management strategy. In Oregon and Washington the 
Forest Service and BLM spent a good deal of resources training the 
National Guard and volunteer fire departments. If you add that capacity 
to a complimentary local industry, then the agency can call up 
emergency forces when it needs them. Today the agencies have to try and 
maintain funding levels for in-house, specialized fire crews who are 
not multi-skilled enough to help them do off-season planning, watershed 
restoration, and sustainable forestry. This approach is not sustainable 
over the long term.
    2. The National Fire Plan identifies urban-wildland interface areas 
as high priorities for hazardous fuel reduction. However, these areas 
around communities-at-risk and key ecological areas will not be treated 
in 2001 and they might not be treated in coming years because the 
agencies can't get the NEPA planning accomplished in a timely, cost 
effective fashion. We want NEPA to stay intact and consultation under 
ESA to take place, but the Forest Service needs to find ways to use 
programmatic approaches to fuels reduction projects when those projects 
are of a common type on a common landscape. BLM has a found a way to 
tier their NEPA analysis to a landscape plan and to get a Declaration 
of NEPA Adequacy from the U.S. Fish and Wildlife Service. The Forest 
Service needs a similar device.
    3. Monitoring of the National Fire Plan needs to be funded and it 
needs to be done through partnerships with State and Local Government 
and use a local workforce. The monitoring report needs to focus on 
effectiveness, not implementation.
    4. A mechanism needs to be identified within the Endangered Species 
Act (ESA) to determine whether and when to permit a short-term risk for 
a long-term gain in terms of strategic project implementation under the 
National Fire Plan. We have allowed Spotted Owl and Coho Salmon habitat 
to burn up in stand replacing fires when the stand was old growth in 
key watersheds. It is not logical to save habitat from logging and then 
lose it to fire because we would not remove blow down and fuel ladders. 
Someone must be authorized to compare the risk of management to the 
risk of no management and make a reasoned decision. Right now, ESA 
prohibits that approach because of an assumption that ``no management'' 
is more beneficial to species and habitat. We need a concerted effort 
to validate that assumption and a commitment to make a change if it is 
no longer valid.
    Finally, I would like to provide specific responses to the 
questions I received for community practitioner at this hearing:
    12. What is your vision for improved wildland fire strategies? Our 
vision for improved wildland fire strategies include:
    a. Bring the agency up to the most efficient level
    b. Complete community-based strategic fire plans, fully integrated 
with agency plans and integrated into county general plans.
    c. Implement an aggressive fuels reduction program, consistently 
funded, which includes an appropriate mix of prescribed burns, 
mechanical thinnings from below, and fuel breaks.
    d. Develop local industry for implementation of the fire strategies 
through service contracts.
    e. Develop local value-added processing of the by-products of fuels 
reduction strategies.
    f. Develop a federal program for the local use of biomass for 
small-scale (less than 5 megawatt) co-generation to provide energy for 
the electrical grid and heat for local small-scale industrial use. 
Explore small-scale wood gassification as an alternative for better air 
quality from co-generation.
    g. Develop and maintain a local workforce able to be mobilized for 
fire emergencies. Regional forces like National Guards and volunteer 
fire departments receive training and equipment for emergency response.
    13. How would you characterize the wildland fire threats facing 
your community? Are new strategies needed to address these threats? 
Wildland fire threats in our community include:
    a. winter blowdown not removed has allowed excessive fuel loads on 
ridge tops around town.
    b. fire killed vegetation not removed has allowed excessive fuel 
loads on slopes around our communities.
    c. bug killed vegetation not removed has allowed excessive fuels 
loads in the forests and adjacent to forest roads.
    d. skilled professionals are no longer available within the agency 
or within the private sector to quickly respond to fire emergencies.
    e. intense fires endanger and destroy ESA species' habitat, which 
puts more restrictions and habitat pressure on intact habitat on other 
public and private lands.
    14. What is your perspective on the language in Title IV 
encouraging federal agencies to help build community capacity through 
training and employment opportunities and to assist in the development 
of small businesses that may lead to a sustainable restoration economy? 
How could agency efforts to use these new authorities be improved? My 
community has developed the capacity to provide training and workforce 
development because of the Northwest Economic Adjustment Initiative and 
the Forest Service Economic Action Program. Other communities who have 
not had access to that help have a hard time finding funding for 
retraining projects and industry development.
    15. How would you characterize your community's involvement in 
federal efforts to develop plans and activities under Title IV? My 
community initiated a countywide fire planning effort. The Forest 
Service and BLM participated as landowners. The agencies are using that 
information for their out-year planning efforts.
    16. How could agency efforts to involve communities in carrying out 
activities under Title IV be improved? Agency efforts to involve 
communities could be improved if the Fire Management Officers were 
required to participate in community-based fire planning; if only 
projects identified through community-based planning were fundable; 
and, if only projects identified in a landscape level strategic plan 
were fundable.
    17. What is the current and potential capacity in your community 
for developing training programs to provide skills for planning, 
implementing, and monitoring hazardous fuels reduction activities? We 
have good capacity to participate in the planning and implementation, 
but it has taken us seven years to develop that capacity. Our 
contracting capacity for this work needs to be developed, but we do 
have a small skilled workforce left upon which to build.
    18. What is the current and potential capacity in your community 
for utilizing small-diameter trees from hazardous fuels reduction 
activities? What types of small businesses are using or could use these 
materials in your community? We have some capacity to utilize small 
diameter trees but only because of extensive help from the Forest 
Products Lab, the PNW Research Station, and private Foundations who 
have helped us with R&D over the past five years. (We anticipated this 
need.) Small-scale bio-mass/co-generation plants are an important part 
of this equation and the lessons from Vermont need to move to the 
western states. We currently have a post and pole processing plant, a 
small log processor, a furniture plant and we are working on a fencing 
kit project. With the exception of the furniture plant, these are 
development projects of our non-profit corporation. A consistent 
program of work and a consistent supply of raw material from federal 
lands are issues, even when you work on a small scale. Although our 
business viability requires only 1.5 million board ft. we cannot be 
assured of that volume of small diameter material because it is not in 
the current Forest Service program of work. The Forest Service and BLM 
manage over 75% of the 2.2 million acres in our county. We have 
developed markets for small diameter, sub-merchantable material.
    19. What types of federal financial and technical assistance does 
your community need to develop training programs and small businesses? 
Please discuss both primary and secondary businesses (on-the-ground 
work, mill work, value-added processing, special forest products, 
etc.). We need funding from the U.S. Department of Labor for worker re-
training. We need access to work on agency land for our small 
contractors. We need education dollars for training in value-added 
processing. The agencies need to be funded for monitoring 
implementation, validation, and effectiveness and that monitoring needs 
to be performed by a local collaborative and a local workforce.
    20. What type of skill training is needed to create a workforce 
capable of doing hazardous fuels reduction and ecosystem restoration? 
How are the skills required of ecosystem restoration workers different 
from those of loggers and traditional forest workers? Traditional 
forest work is about productivity and extraction. Restoration work is 
about analysis and precise repair. A restoration worker needs a very 
broad range of skills, from landscape analysis, to data collection and 
analysis, to restoration practices including habitat rehabilitation, 
road improvements and obliteration, riparian rehabilitation and 
monitoring. Restoration often takes specialized, low impact equipment. 
Restoration forestry is very labor intensive and therefore, very 
costly. Costs could be lowered through some mechanization, but without 
constancy of work no business can capitalize even a small investment.
    21. What opportunities exist for developing training programs for 
local workers and contractors in your community? Training programs are 
only possible if the agencies allow the use of some of their projects 
for training purposes. Other partners like Small Business Development 
Centers can provide business training, but fieldwork preparation can 
only happen if you DO field work.
    22. What types of long-term strategies are needed to develop and 
retain and industry and an ecosystem restoration workforce (resident 
and/or mobile) trained to reduce wildland fire threats (i.e., trained 
to undertake hazardous fuels reduction, firefighting, and burned area 
restoration activities) and to help sustain ecosystem health and 
community well-being? What could Congress do to make that possible? We 
cannot develop a local industry around restoration/fuels reduction/
forest health until there is constancy in funding (the demand side must 
be there) for those activities. Today the perceived cuts by the 
administration in next years National Fire Plan budgets is hampering 
the implementation of this years program, which focuses mainly on 
hiring suppression crews. No one, not even the Forest Service, wants to 
develop an infrastructure which will only last one year. Local 
contractors will not purchase thinning equipment and chippers when they 
believe the work will only last a season.
    23. What types of businesses are likely to benefit from a greater 
emphasis on involving the local community, small businesses, and a 
trained workforce? Under what conditions could a successful industry 
devoted to fire management and restoration work develop in your area? 
What are the current gaps? All facets of restoration, from analysis to 
mapping to project design to project implementation can be done by 
local businesses. But industry will not develop if there is no long-
term commitment to forest restoration coupled with sustainable 
forestry. It will also not develop if we succumb to the historic 
``boom/bust'' model of forest management and centralize service 
contracting firms and processing plants in the most urban areas of the 
rural counties. If we want to have a local workforce to use in times of 
fire emergencies, then we must have a local workforce in place doing 
the stewardship work of forest management.
    Thank you for the opportunity to comment. You will find no more 
willing partners in the stewardship and restoration of public lands 
than the workers and families in your rural forest communities. We have 
knowledge and skills to bring to the work and are committed to the 
long-term health and vitality of our national forests.

    Senator Craig. Lynn, thank you very much.
    Time is not going to allow for me to ask the series of 
questions we developed. So, in the spirit of the baseball 
season, I am going to ask a jump question for all of you. 
Basketball. I am sorry. I was never quite the athlete.
    [Laughter.]
    Senator Craig. Lynn, what you were saying and clearly what 
all of you have said begs certain questions that we are sorting 
through at the moment as we look at changes and reform and how 
the Congress will support it or will not support it and how we 
communicate that message and build an understanding of some of 
the new forestry practices that will have to go forward.
    So, I guess my question of all of you would be under what 
conditions could a successful industry devoted to fire 
management and restoration develop in your area and remain a 
sustainable industry without the need for Federal financial 
grants. Do any of you wish to respond to that?
    Ms. Jungwirth. I think every person at this table has 
answers for you. I will just lead it off.
    When you have a consistent program of work for fuels 
reduction, forest restoration, and watershed maintenance--all 
of those things--then you have an ability to finance, have a 
predictable future and do that. We have developed the markets. 
We have developed the products. Those right now work 
economically. That is what we need now to take those models and 
let other communities find out about them and move that out 
into the larger rural areas of the West and the Southeast.
    Senator Craig. Anyone else?
    Ms. Farr. I would like to add. Lynn talked about the market 
side of things. I would like to talk about the forest 
restoration side of things. I think it is really critical for 
community capacity long term that there be emphasis early on, 
right now, in ensuring that the methods that are used to thin 
the forests and to do that restoration work are low-impact 
methods. We are doing it now with the long-term view in mind 
because there is the potential to have a tremendous negative 
impact over the long term if the work that is done is done in a 
large-scale, large machine, large workforce that swoops in, 
takes care of it in the short term and then leaves town. That 
is not going to serve us over the long term, and there are ways 
to get this work done that have low impact to the forests and 
have a tremendous positive impact to workers and the whole 
economy locally.
    Mr. Christoffersen. I think there is good justification for 
some government support in the short term for the transition 
that is needed from the large-scale extractive economy we were 
in to this new vision that we have. I think when you look at 
the total balance of cost to the Government, that it is still 
going to come out in the Government's favor. What I mean is as 
I said. We spent $85 million in Wallowa County alone on fire 
suppression in 14 years. If you spent a fraction of that 
helping micro-businesses develop that could contribute to 
restoration and offset the costs of getting the work done on 
the land, over the long term you would have tremendous savings.
    But I think there are other sources of funding which 
organizations such as mine have been able to secure. We had 
support from the Ford Foundation and other private foundations, 
plus the State of Oregon. We have secured funding that has 
allowed us to invest in a range of very small-scale, 
diversified processing, machines that allow us to process logs 
down to a 3-inch top. We are also looking at getting into the 
cogeneration of electricity and the fermentation of ethanol, 
all again on a very small scale.
    What we would like to be able to do is produce a range of 
products at a small scale, that we can then adapt that 
processing system to whatever the land's needs are because the 
land has different needs at different periods of time, 
depending on different conditions, ecological changes. Right 
now there is a need to deal with the small stands that are 
going to produce 3-inch to 9-inch poles that are going to come 
off, and we have the capacity to process marketable products. 
We want to be able to position that we can shift with the 
land's needs.
    But the other thing is that long term, we are going to need 
support on trade policy. The NAFTA discussions with Canada are 
critical. There is a range of issues related to trade with 
other countries that we need to take into consideration if we 
are going to maintain these small micro-businesses.
    Senator Craig. Yes, Ms. Vega.
    Ms. Vega. Mr. Chairman, I would like to respond from the 
point of view of developing small, independent businesses and 
particularly with the group of people in Grant County which we 
serve, the low income, minority people. It is very difficult to 
start a business with wood products and based on wood products 
and raw material without any kind of support at all. We do get 
some support from other agencies and other funders. But 
Government support is almost critical to us, and it is critical 
because the pricing of our raw material depends on what the 
market is doing in wood products. The finished product, of 
course, the pricing depends on developing a market for it. The 
access to the raw material is very critical to us.
    I think that is possible without government support, but it 
is very difficult. You almost have to have some type of 
additional support for these businesses to begin and to be 
sustainable for the communities.
    Senator Craig. Yes, Cece?
    Ms. Headley. We have talked about the marketing and the 
environmental. I do want to say, in terms of the workforce, 
that there be a commitment to quality jobs and family wage jobs 
and they are sustainable in themselves. From our part, we have 
never been in the grants part. We have always just contracted 
with the Government and made our money through wages and 
contracting. But that is not sustainable. When there is service 
work to be done, the Government has to have a commitment to 
paying family wages for skilled workers.
    Senator Craig. Well, thank you all very much for your 
insight and the experience you have built into our record. That 
is extremely valuable as we go forward. Thank you all.
    Now let me ask our third panel to come forward: Tom 
Bancroft, Steve Holmer, Tom Nelson, and David Smith. Thank you 
all for your patience. We will proceed, first of all, with Tom 
Bancroft, Ecology and Economics Research Department, The 
Wilderness Society here in Washington.

STATEMENT OF G. THOMAS BANCROFT, Ph.D., VICE PRESIDENT, ECOLOGY 
   AND ECONOMICS RESEARCH DEPARTMENT, THE WILDERNESS SOCIETY

    Dr. Bancroft. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to testify today and thank the 
committee members for their interest in this important issue.
    The major fires of last summer unfortunately caused 
substantial damage to homes. Clearly a comprehensive and 
strategic fire program is needed. However, it is important to 
remember that fire is a natural and necessary process as 
sunshine or rain to a healthy forest. In the interior West, the 
problem is that many people are now living in the low 
elevation, dry forests where forest composition and structure 
has changed as a result of fire suppression, grazing, and 
logging. These older forests now respond differently to fire.
    We need a program that protects people and their homes and, 
second, restores forest ecosystems in which management 
practices of the last century have dramatically changed them 
from their natural condition.
    The Wilderness Society feels that the majority of these new 
monies should go to programs that protect people's homes in the 
wildland/urban interface. The structure of the home and how 
close the fire can come to the home determines if it will burn. 
If we reduce the probability that the fire will burn right up 
to a house and reduce the flammability of the house's building 
material, we will reduce the possibility of the house being 
destroyed.
    According to a Forest Service analysis, a number of the 
houses in the Los Alamos fire burned when low ground fires 
spread across dry leaves, needles, and low brush to the edge of 
homes, igniting the siding of the house and then the entire 
house. Had the dry leaves and needles been cleared, it is 
probable that fire would not have reached these houses.
    The Forest Service's structure ignition assessment model 
suggests that large wildland fires, such as forest ground 
fires, would not ignite a wooden house at distances greater 
than 40 meters.
    Fire Wise reports that flammable roofs are the number one 
cause of home loss in the wildland fires. Firebrands, or flying 
burning material, can come from wildland fires greater than 1 
kilometer away and start a home on fire. According to Stanford 
Research Institute, if a house has a nonflammable roof and a 
defensible space of a low flammable material 10 to 20 meters 
out from the house, over 95 percent of the homes survive a 
wildland fire.
    Clearly, society needs a major educational outreach program 
on protecting homes. We strongly urge the Federal Government to 
build up the Fire Wise program to be a major educational and 
outreach program.
    County governments should be advised of the opportunity for 
joint projects between this program and title III of the County 
Payments bill for fire prevention and county planning. We 
suggest that the Forest Service look for counties developing 
defensible space education and regulations and work closely 
with them.
    We agree with the recommendations of the National 
Association of State Foresters, that local and State 
governments use their regulatory authority to recommend 
structural siding, the use of Fire Wise construction materials 
and methods, and creating a defensible space.
    Ecological monies should be focused on the low elevation, 
dry forests where structure and composition has changed as a 
result of decades of fire suppression, logging, and grazing. 
Reducing fuel levels and using fire appropriately is key to 
restoring healthy, resilient conditions, sustaining natural 
resources, and protecting people.
    Credible efforts will be ecosystem based, protect rare 
habitat and species, focus on thinning small diameter classes, 
retain all old large trees, protect soils in roadless areas, 
and avoid constructing new roads.
    We think the Forest Service has some very promising 
restoration projects defined in areas like the Lakeview Federal 
Stewardship Unit in Oregon and several other projects in 
Idaho's Boise and Sawtooth National Forests.
    On the other hand, projects like the Bitterroot Fire 
Recovery Project in Montana and the Upper South Platte 
Watershed Protection and Restoration Project in Colorado do not 
appear to be ecologically sound restoration projects.
    In summary, we are supportive of Congress and the Forest 
Service's efforts to protect homes in the wildland/urban 
interface and to restore a more natural pattern of fires in 
wildland ecosystems where fire regimes have been altered 
because of past management practices. We think this program 
offers a lot of hope for people and the environment, and we 
will continue to support projects that protect homes and 
restore ecosystems.
    To provide significant protection to homes, much of the 
work needs to be focused on the area within 100 meters of homes 
and on the flammable properties of houses. Extensive wildland 
fuel reduction is inefficient and ineffective at reducing home 
losses because fuel reduction for greater than 100 meters 
around homes is greater than necessary for reducing ignition 
from flames and because it is not sufficient to reduce 
firebrands, or that flying fire material.
    We will continue to follow this program closely and try to 
help make sure the money goes to good projects.
    Thank you very much.
    [The prepared statement of Mr. Bancroft follows:]

PREPARED STATEMENT OF G. THOMAS BANCROFT, PH.D. VICE PRESIDENT, ECOLOGY 
       AND ECONOMICS RESEARCH DEPARTMENT, THE WILDERNESS SOCIETY

    I am Dr. Thomas Bancroft, Ecologist and Vice President of the 
Ecology and Economics Research Department for The Wilderness Society, a 
200,000-member national conservation group that focuses on public land 
issues. I appreciate the opportunity to testify today and thank the 
committee members for their interest in this important issue.
    The major fires of last summer unfortunately caused substantial 
damage to homes. Dry conditions this winter and spring in the west and 
southeast suggest that if spring rains fail to materialize this summer 
may also be a severe fire year. Large fires have already occurred in 
Florida as a result of drought conditions there. Last year's fires and 
the threat of a second major fire year emphasize the need for a 
comprehensive and strategic fire program. However, it is important to 
remember that fire is as natural and necessary a process as sunshine or 
rain to a healthy forest. In the interior west, the current problem is 
that many people are now living in the low-elevation dry forests where 
forest composition and structure have changed as a result of fire 
suppression, grazing and logging. When fires do occur, they tend to be 
severe. The mid- and high-elevation forests of the interior west have 
not been significantly altered because their fire cycles are so long--
>35 or >200 years--and have always been characterized by either mixed 
severity or large, hot, stand-replacing fires. Fortunately, people 
don't tend to live in these forests but rather in the low-elevation dry 
forests and my discussion will concentrate on low-elevation forests.
    These dry-site forests of mainly ponderosa pine have changed for a 
combination of reasons. Livestock grazing depleted the fine fuels that 
carried the light, frequent fires, while their hooves exposed mineral 
soil seedbeds for increased pine generation. Fire suppression allowed 
far more of these trees to persist, while logging removed most of the 
large old trees. These forests may have been deprived of ten or more 
natural fire cycles. The result is forests that, due to continuing fire 
suppression, tend to burn less frequently, but when they do burn, the 
fire is much more likely to reach the forest canopy and spread as a 
crown fire, killing many or all of the overstory trees. A historically 
low-severity fire regime has turned into a high-severity or mixed-
severity fire regime, a change that has occurred over millions of acres 
in the West. These higher severity fires are more apt to have 
detrimental effects on soils and watersheds, as well as wildlife 
habitat. They can also have serious implications for humans who have 
chosen to settle in and around these forests.
    We can increase our ability to protect human dwellings and restore 
more natural composition and structure of forests by restoring low-
intensity fires to these habitats. In fire-adapted ecosystems, 
prescribed fire at appropriate intensity, frequency, and time of year 
should be part of management strategies intended to protect watershed, 
species, and other natural values. We agree with the Forest Service 
premise ``that fire-maintained forests should be inherently safer for 
firefighters and the public than in forests in which fire is 
excluded.''
    Before we hasten toward significant policy changes as a result of 
the fires, let's review what burned last year. These are national 
numbers:


------------------------------------------------------------------------
                                                     Acres \1\   Percent
------------------------------------------------------------------------
National Forest....................................  2,333,672       32%
BLM................................................  1,694,407       23%
Other Ownerships...................................  3,364,414       45%
------------------------------------------------------------------------
    Total..........................................  7,393,493     100%
------------------------------------------------------------------------
\1\ National Interagency Coordination Center 2000 Statistics and
  Summary. http://www.nifc.gov/news/yearendreport2000.pdf

    This is not just a Forest Service or just a public-lands issue but 
an issue on all lands, forested and non-forested lands, public and 
private. An analysis of the 2000 fire season shows that only 32% of the 
acreage burned was on National Forest land, much of the land that 
burned was not forested, much of the forested acreage which burned was 
managed timberland, and in the interior west much of the burning 
occurred in forests where intense fires are natural. An analysis of 
five of the largest fires (Valley/Skalkaho (MT), Kate's Basin (WY), 
Canyon Ferry (MT), Burgdorf Junction (ID), and Clear Creek (ID)) shows 
that for these fires 36% of the acreage was non-forested, 57% was in 
naturally high intensity burn forest types, and most of the acres were 
in roaded, managed forests.\2\
---------------------------------------------------------------------------
    \2\ Morrison, Peter et al. 2000. Assessment of Summer 2000 
Wildfires: Landscape History, Current Conditions and Ownership. http://
www.pacificbio.org/pubs/wildfire2000.pdf
---------------------------------------------------------------------------
    There are two critical issues here. First, protecting people and 
their homes and second, restoring forest ecosystems in which management 
practices of the last century have dramatically changed them from their 
natural condition.
    Substantial research shows that extensive wild land vegetation 
management does not effectively change home ignitability and therefore 
will not necessarily protect homes. No matter how much thinning and 
logging are used as a management tool, we are never going to be able to 
``fire-proof'' our forests. Fires will always occur in the Wildland-
Urban Interface. It is therefore critical that these two issues are 
addressed separately and with a focused program that meets the 
respective objectives. People's homes should be the initial focus of 
efforts to prevent and fight fires not the remote forests where fire is 
necessary and beneficial.

                           HOME DEFENSIBILITY

    The Wilderness Society feels that the majority of these new moneys 
should go to programs that protect people's homes in the Wildland-Urban 
Interface. To most effectively target these moneys, it is critical to 
have a mechanism that identifies areas at highest risk. Forest Service 
Research shows that the most important mapping unit for doing this is 
the ``ignitability'' of homes. The current mapping effort is very 
interesting and good for ecological restoration, but we question 
whether it helps in protecting human habitation.
    Ignitability of homes and immediate surroundings is a key 
determinant of whether a house burns during a fire in the Wildland-
Urban Interface. Thinning more than 40 meters from homes does not 
change home ignitability. Fire fighting success strategies should focus 
on defensible space and areas immediately around homes in so called 
defensible zones.
    The ignitability of homes is determined by two factors. The 
structural characteristics of the home and how close the fire can come 
to the home. Heat and fuel determine whether combustion will occur. 
Scientific analyses show that fire spreads as a continually propagating 
process. Locations along the path must meet the requirements of 
combustion to ignite. Reducing the chance that a house will burn 
requires reducing the chance that flames and heat will come right up to 
the house. A second issue is firebrand, or burning material that flies 
on the wind to a house and can cause a house to catch on fire.
    If we reduce the probability that the fire will burn right up to a 
house, we will reduce the possibility of the house being destroyed. 
Similarly, if we reduce the flammability of the house's building 
material, then we can decrease the chance of loss. According to a 
Forest Service analysis, a number of the houses in the Los Alamos fire 
burned when low ground fires spread across dry leaves, needles, and low 
brush to the edge of homes, igniting the siding of the house and then 
the entire home. Had the dry leaves and needles been cleared, it is 
probable the fire would not have reached the house.
    The Forest Service's Structure Ignition Assessment Model suggests 
that large wildland fires such as forest crown fires will not directly 
ignite wooden houses at distances greater than 40 meters. The model 
indicates that at 40 meters the intense flame would need to last for 10 
or more minutes to ignite the side of a wood house, but a typical crown 
fire only lasts about 1 minute in a given tree.
    In summary, extensive research has shown that the area within 40 
meters of the house is the most critical for determining whether flames 
come right up to the house and ignite the house. Homeowners should 
reduce the amount of fuel immediately around their house by cleaning up 
dead leaves and needles, removing flammable brush, and keeping 
woodpiles away from their houses.

                               FIREBRANDS

    Firebrands are also a major concern. Highly ignitable homes, 
especially flammable roofs, can catch on fire during wildland fires 
without fire spreading near the structure. This occurs when burning 
material, firebrands, is carried by the wind and lands on a house. The 
flying burning material can ignite flammable materials on or 
immediately adjacent to a house.
    Firebrands that result in ignitions can originate from wildland 
fires that are at a distance of 1 kilometer or more. For example, 
during the 1980 Panorana Fire (San Bernardino, California), the initial 
firebrand ignition to homes occurred when the wildland fire was burning 
low shrubs about 1 kilometer from the neighborhood. Firebrand ignitions 
are particularly evident for homes with flammable roofs. Often these 
houses ignite and burn without the surrounding vegetation also burning, 
suggesting that homes can be more flammable than surrounding 
vegetation. For example, during the 1991 fires in Spokane, Washington, 
houses with flammable roofs ignited without adjacent vegetation already 
burning. ``Although firebrands may be lofted over considerable 
distances to ignite homes, a home's material and design and its 
adjacent flammables principally determine the firebrand ignition 
potential.'' \3\ Reduce the flammability and one reduces the chance of 
losing the house to a fire.
---------------------------------------------------------------------------
    \3\ Cohen, Jack D. 1999 DRAFT: Reducing the Wildland Fire Threat to 
Homes: Where and How Much? http://www.fs.fed.us/rm/pugs/cohen/
cohen.html
---------------------------------------------------------------------------
    According the ``FireWise \4\,'' ``the number one cause of home 
losses in wildland fires is from untreated wood shake roofs.'' Wind-
blown sparks can land on these untreated wood shake roofs and catch the 
roof on fire. Given nonflammable roofs, Stanford Research Institute 
found 95% survival with a clearance of 10 to 18 meters, and Ethan Foote 
and Keith Gilless \5\ at Berkeley found 86% home survival with a 
clearance of 10 meters.
---------------------------------------------------------------------------
    \4\ ``FireWise'' is a collaborative program designed to bring 
information to the public on how they can live or recreate more safely 
in fire-dependent ecosystems. The web site is developed by the National 
Wildland-Urban Interface Fire Program. More information can be found at 
http://www.firewise.org
    \5\ Foote, E. I. D., K. J. Gilless. 1996. Structural survival. In: 
Slaughter, Rodney, ed. California's-zone. Sacramento, CA: CFESTES; 112-
121.
---------------------------------------------------------------------------
    Further, people must realize that the type of roof they have can 
dramatically affect whether their house survives the inevitable 
wildland fire. Some have suggested that more than three-quarters of the 
homes lost in the Los Alamos fires might have survived had homeowners 
raked up leafs and needles, cleaned needles and leaves off their roofs, 
kept woodpiles and brush away from their homes, and had non-flammable 
roofs. Clearly, society needs a major educational-outreach program on 
protecting homes.

                                MAPPING

    The Strategic Assessment describes a Wildland-Urban Interface 
hazard mapping effort that may not be necessary for home fire losses. 
Home ignitability is the principal cause of home losses during wildland 
fires. If the focus is to protect property then we need to map home 
ignitability as a measure of the threat. Areas with high home 
ignitability should be the focus of efforts under this program.

                  RECOMMENDATIONS ON DEFENSIBLE SPACE

    Clearly, homeowners and local communities have a major 
responsibility in protecting their homes from fire. They need to be 
informed that having a non-flammable roof and keeping brush, dried 
leaves and needles, and woodpiles away from their homes will have a 
major impact on preventing home ignition. We strongly urge the federal 
government to develop and implement a strong ``extension and outreach'' 
program. The ``FIREWISE'' site and program is a major start in this 
direction and should receive increased focus and money.
    This effort cannot be limited to the federal government, but must 
include state and local governments, as well as homeowners. We suggest 
you encourage joint projects between local communities, states and the 
federal government to help improve the defensible space around homes 
and the construction and maintenance of homes. Homeowners have a major 
responsibility here, but we need to provide them with the information 
and tools they need to make wise decisions.
    County governments should be advised of opportunities for joint 
projects between this program and Title III of the County Payment Bill 
(Public Law 106-393) for fire prevention and county planning. A county 
may use these funds for (A) efforts to educate homeowners in fire-
sensitive ecosystems about the consequences of wildfires and techniques 
in home siting, home construction, and home landscaping that can 
increase the protection of people and property from wildfires; and (B) 
planning efforts to reduce or mitigate the impact of development on 
adjacent Federal lands and to increase the protection of people and 
property from wildfire. We suggest that the Forest Service look for 
counties developing defensible space education and regulations and work 
closely with them to leverage resources and protection for people's 
homes.
    Through education, we can encourage the care of land within 40 
meters of homes, but vegetation treatment alone will not suffice. 
Structures must be built or retrofitted to incorporate fire-safe 
elements such as metal roofs, shutters and fire resistant sides. . 
Human values at risk may suggest that the interface zone is a priority 
for attention, but without investment in these structural 
modifications, forest treatment is virtually meaningless. Zoning laws 
that encourage fire resistant construction may be needed. Enactment of 
zoning laws for fire-prone areas is not new--Frederick Law Olmstead 
suggested it 70 years ago as a means of protecting lives, property and 
resources from fires that sweep down from the fire-dependent, fire-
created chaparral in the area around Malibu, California.
    We agree with the National Association of State Foresters' 
recommendation for local zoning initiatives: ``There is a need for 
local and state governments to use their regulatory authorities to 
strike a safe balance between siting structures, the use of fire-wise 
construction materials and methods, and the creating of defensible 
space.'' When a person buys a house in the Wildland-Urban Interface, 
they should know what the fire risk is for the house they are buying. 
This should include some understanding of the consequences of the 
house's structure as well as the surroundings. People should know how 
the local or county governments provide fire protection.

                         ECOLOGICAL RESTORATION

    Much of the low-elevation dry forest landscape in the Intermountain 
West has been transformed. Beginning with livestock grazing in the 
second half of the 19th century and continuing with decades of logging, 
road-building and fire exclusion through the 20th century, these 
changes have degraded watersheds and habitat for fish and wildlife. 
These altered forests now respond very differently to fire, sometimes 
to the further detriment of fish, wildlife, and watersheds, as well as 
endangering the lives and property of people who have chosen to live 
within and adjacent to forest lands.
    Creating the situation where fire can be re-introduced as a natural 
component of these low-elevation forests is critical. In these fire-
adapted ecosystems, we agree with the Forest Service's basic strategy 
that ``reducing fuel levels and using fire at appropriate intensities, 
frequencies, and time of year are key to restoring healthy, resilient 
conditions, sustaining natural resources, and protecting people. 
Science supports the use of prescribed fire and other management 
treatments in ecosystems where low intensity fires were the norm to 
reduce risk of catastrophic wildland fire, to restore plant community 
composition and structure, to restore landscape patterns, and improve 
ecosystem resilience.''
    We also agree with the Forest Service position that the first 
priority for restoration should be the millions of acres of already 
roaded and managed landscapes that are in close proximity to 
communities. Thinning projects outside the Wildland-Urban Interface 
zone should not occur in roadless areas or old growth, because science 
shows they would be highly ineffective. These projects need to focus on 
the low-elevation, dry pine ecosystems that have been heavily roaded 
and logged. It is critical that prescribed fire be an integral part of 
these efforts and must continue following any mechanical thinning to 
maintain lasting benefit. I have attached a report by ecologists Rick 
Brown and Greg Aplet, Ph.D., titled, ``Restoring forests and reducing 
fire danger in the Intermountain West with thinning and fire.'' It 
describes in detail our position on how to restore desired ecological 
conditions in our forests. Based on current knowledge, it appears that 
the most credible efforts will:
    1. Be part of a comprehensive ecosystem and watershed restoration 
plan;
    2. Consider landscape context, and protect rare habitats, such as 
old growth, and populations of rare fish and wildlife;
    3. Protect riparian areas by avoiding major manipulations in these 
areas;
    4. Focus on low-elevation dry forest types;
    5. Focus thinning efforts on the smallest diameter classes and 
retain all large, old (presettlement) trees and provide for their 
replacement over time;
    6. Treat thinning slash and other surface fuels with prescribed 
fire;
    7. Have negligible adverse effects on soils and prevent the spread 
of invasive plants;
    8. Protect roadless areas and avoid construction of new roads;
    9. Concentrate resources on the Wildland-Urban Interface and 
incorporate monitoring as an essential element and cost of the project.

                          BARRIERS TO SUCCESS

    We are supportive of the national fire program but are concerned 
that there might be some serious barriers to success.
    First is the notion that this program will fire proof the forests. 
Humans can not change weather patterns and therefore will never prevent 
fires from occurring. A properly designed program will help provide 
defensible space around human communities and restore the structure of 
low-elevation dry forest ecosystems so that fire will act more the way 
it did historically.
    Second, after dealing with the defensible space around homes, the 
focus should be on removing small diameter trees and brush from altered 
low-elevation dry forest ecosystems. After a century of logging, large 
diameter trees are too rare to be removed. We emphasize that prescribed 
fire must follow any thinning in order to achieve ecological 
restoration. Plans and funding need to be in place to maintain an 
appropriate prescribed fire regime in these areas.
    We think the Forest Service has some very promising restoration 
projects defined in areas like the Lakeview Federal Stewardship Unit in 
Oregon's Fremont National Forest, the Silver Creek Danskin/Gallagher 
project in Idaho's Boise National Forest, and the Lime Creek Aspen and 
Trail Creek projects in the Boise and Sawtooth National Forests. The 
Idaho projects are a mixture of prescribed burning and fuel reduction, 
including thinning, and near private property and/or private homes. The 
thinning activities are limited to the Wildland-Urban Interface and the 
prescribed fires are several thousand acres in size. These projects are 
primarily in the low-elevation dry forests.
    On the other hand, projects such as the Bitterroot Fire Recovery 
Project in Montana are not ecologically sound restoration projects nor 
do they provide significant protection to the Wildland-Urban Interface. 
The Bitterroot project proposes substantial logging, including some 
from roadless areas far from human habitation. Similarly, we do not 
support the Upper South Platte Watershed Protection and Restoration 
Project on the Pike-San Isabel National Forests in Colorado. This 
project proposes to log over 17,000 acres including over 5,000 acres in 
roadless areas and over 4,000 acres of clearcuts. The plan places no 
limits on the size of trees that may be logged in the name of 
restoration. The project has a number of significant environmental 
concerns including alteration of critical habitat for Mexican Spotted 
Owls and low standards of protection for Goshawks.
    Third, we are concerned that performance measures for Forest 
Service personnel tend to emphasize acreage treated rather than the 
reduction in risk areas. These measures tend to encourage managers to 
focus their efforts on lower risk areas. In doing so, they can treat 
more acres for the same money and include the sale of large trees to 
increase the acreage treated. These incentives to managers decrease the 
effectiveness of this program and should be changed.
    Fourth, we are concerned that the budgeting and contracting process 
prohibits the Forest Service from developing the most effective program 
it could. We recommend that Congress appropriate money for this fire 
program over a multi-year time frame so that the Forest Service can 
develop a strategic protection and restoration program. We are 
concerned about the legal parameters of stewardship contracting. The 
current system encourages the removal of large trees. This tends to 
defeat restoration and protection efforts. We suggest that the 
contracts for thinning and restoration be separate from a process to 
sell these materials.

                                SUMMARY

    We are supportive of Congress's and the Forest Service's efforts to 
protect homes in the Wildland-Urban Interface and to restore a more 
natural pattern of fire in wildland ecosystems where fire regimes have 
been altered because of past management practices. We think this 
program offers a lot of hope for people and the environment. We will 
continue to support projects that protect homes and/or restore 
ecosystems. We will follow this program closely to make sure the money 
goes to where it does the most good.

    Senator Craig. Tom, thank you.
    Now let us turn to Steve Holmer, American Lands Alliance 
here in Washington.

       STATEMENT OF STEVE HOLMER, CAMPAIGN COORDINATOR, 
                    AMERICAN LANDS ALLIANCE

    Mr. Holmer. Thank you, Senator. I appreciate this 
opportunity to testify. I am just going to use my statement to 
address some recent events and some of the things I heard 
today.
    We try to look at these things very broadly, and when we 
look at global climate change, we do see a real risk for our 
forests. The scientific analysis suggests that we are going to 
see shifting of climate zones. We are also going to see a 
likely increase in fires.
    So, I would just like to point out it is very disappointing 
the recent changes in government policy where the Bush 
administration said that we are not going to work to regulate 
CO<INF>2</INF> and where we are going to pull out of the Kyoto 
Protocol. I think that is just downright disgraceful. The Kyoto 
Protocol was an opportunity to write forest-friendly rules that 
could have actually provided significant amounts of money for 
reforestation and restoration on public and private lands. So, 
I see that as a huge missed opportunity.
    Now going directly to some of the fire issues that are 
before us right now, scientists have collected evidence 
determining that the primary causes of increasing fire 
intensity and severity of the past century's land management 
policies of road-building, aggressive fire fighting, commercial 
logging, and livestock grazing. So, I think we see it as very 
important to get at the root causes to address these issues. 
So, that means looking at the fire suppression program, looking 
at the timber program, looking at the grazing programs to see 
what role they could play in alleviating this issue.
    Specifically, we are also very concerned that the hazardous 
fuel projects and the program in general is lacking 
environmental safeguards. Our comfort for this program would be 
raised significantly if old growth forest, roadless areas, 
critical habitat for threatened and endangered species would be 
explicitly protected under the law for these projects.
    We are also very concerned that the projects do not seem to 
be focusing on the urban/wildland interface. The Forest Service 
has testified that only 25 percent of the projects are in what 
they would call the urban/wildland interface, and we see that 
as a rather broad definition. We strongly agree with The 
Wilderness Society's testimony that the emphasis should be 
immediately adjacent to the communities.
    There was a chart up here before that showed that there 
would be some 1.8 million acres treated on Federal lands and 
some 400,000 on private lands. Most of these lands that we see 
at risk are on private lands. So, we think the program should 
be largely shifted to sending grants to community forest 
groups, et cetera so that the private lands could be where 
treatment happens first.
    We also want to support efforts for contracting reform to 
support community groups so that we are not in this low bid 
system that is encouraging the use of illegal immigrants and 
transient labor and other things that are not supporting 
communities. So, I think some contracting reform is another 
area that if we are going to really make this work, I think the 
communities' groups have a lot to suggest there.
    Another key area is the issue of fire planning. In the 1995 
wildland fire management policy, it says that there should be a 
fire plan for every burnable acre. Right now only about 5 
percent of the forests have these plans. In our view, we could 
increase the safety of fire fighters, for example, if we had 
these plans.
    The fire policy states that public and fire fighter safety 
is the first priority on every wildland fire. Yet, fire 
fighting is extremely hazardous duty, and the lack of fire 
management plans compels the agency to aggressively attack 
every fire and do an extended attack even in areas where the 
risks to human communities are low and the ecological benefits 
of burning are high. So, this is unnecessarily putting fire 
fighters at risk.
    It also is a way that we are spending incredible amounts of 
money that does not need to be spent. For example, there was a 
fire in California, the Big Bar fire where the Government spent 
some $170 million. Now, this fire was mostly in roadless areas 
and in wilderness. So, this high level of expenditure is really 
questionable for the outcome of it.
    We are also concerned now about the issue of salvage 
logging becoming a part of this program. In the case of this 
California fire, we now have the Six Rivers National Forest 
proposing the Megram fire salvage in this area. There is really 
no scientific evidence that salvage logging is going to do 
anything to help the fire situation.
    In fact, there was a 1995 report, Wildfire and Salvage 
Logging, Recommendations for Ecologically Sound Post-Fire 
Salvage Management and Other Post-Fire Treatments. It is known 
as the Beschta Report. This report found considerable evidence 
that post-fire salvage logging would likely result in 
persistent, significant, and adverse environmental effects. The 
report was prepared by an expert team of agency and university 
scientists and endorsed by the Forest Service. The report's key 
recommendation is that there should be a complete prohibition 
of salvage logging in severely burned areas. So, the notion 
that we should go in there and do this intensive salvage in 
recently burned areas is not supported by the scientists, and 
it is really just based on economic grounds.
    In the case of the Megram fire sale, the agency is actually 
asking for an emergency exemption, and it is based on economic 
grounds. They want to get in there as quickly as possible to 
get the salvage out. Well, this is not going to do anything to 
help fires. It is not going to do anything to help protect 
communities. So, in our view it is a misguided example of 
really why we are concerned about this, which is essentially 
that instead of going out there and reducing fuels to protect 
communities, we are basically seeing an extension of the timber 
sale program.
    That is why in our view how these projects are funded is 
extremely important. We would rather see service contracts than 
commercial timber sales or goods for services stewardship 
contracts. We think that is the way to maintain the highest 
level of accountability and assurance that the ecological 
objectives of these projects are going to be the actual 
outcome.
    So, that is the general direction that we would like to 
propose for this policy. Last year the environmental community 
submitted a letter, which has been included as part of our 
testimony.* This really outlines where and when we think that 
these projects would be appropriate. Thinning projects in the 
urban/wildlands interface, if they are not in old growth and 
cutting big trees or in roadless areas, I think are something 
that you are going to see a lot of flexibility from our 
community about in terms of appeals, protests, and litigation. 
But when we have projects that fall outside of those areas that 
we do feel are putting the ecosystem at risk, we view that as 
an illegitimate project and we are going to be fighting it.
---------------------------------------------------------------------------
    * Retained in subcommittee files.
---------------------------------------------------------------------------
    So, we would like to see this program go in a direction 
that is actually going to work, that is going to lay the 
foundation for real ecological restoration, and is not simply 
going to repolarize the situation and be salvage rider part 2. 
So, when we hear discussions about expediting NEPA, we think 
that that is just completely out of bounds and something that 
is in the end going to undermine the program, undermine the 
agency's credibility, and lead to a great deal of environmental 
harm.
    So, I would just like to conclude my testimony with that, 
that we are willing to work with the community groups, work 
with the agencies and the Congress to make this program work 
and establish a real restoration program.
    [The prepared statement of Mr. Holmer and Dr. Ingalsbee 
follows:]

  PREPARED STATEMENT OF STEVE HOLMER, CAMPAIGN COORDINATOR, AMERICAN 
   LANDS ALLIANCE AND TIMOTHY INGALSBEE, PH.D., WESTERN FIRE ECOLOGY 
                                 CENTER

                              INTRODUCTION

    The wildfires of 2000 have become the most recent flashpoint in the 
debate surrounding federal land management policies. Dramatic news 
photos of homes burning in Los Alamos, New Mexico and the Bitterroot 
Valley in Montana brought the issue of wildfire protection in the 
urban/wildland interface zone to the nation's attention.
    Unfortunately, many of the policy discussions about last summer's 
fires revolved around ``who is to blame?'' rather than focusing on real 
solutions based on sound science. Scientists have collected evidence 
determining that the primary causes of increasing fire intensity and 
severity are the past century's federal land management policies 
promoting aggressive firefighting, commercial logging, livestock 
grazing, and road building. The real issue is not ``who is to blame?'' 
for past mismanagement of public lands, but ``who is going to lead?'' 
in creating management policies that will restore degraded lands and 
altered fire-adapted ecosystems that need more low-intensity prescribed 
fires, while at the same time providing real protection for rural 
communities at risk from high-intensity wildland fires.
    While several of the fires of 2000 were uncharacteristically severe 
due to past abuses, several other fires including some of the mammoth 
fires in Idaho and Montana burned at natural intensities, with 
ecologically beneficial effects. Fire has always been a vital, 
essential part of western forest and rangeland ecosystems. As a natural 
disturbance agent responsible for recycling nutrients, regenerating 
plants, and sustaining diverse wildlife habitats, fire is necessary for 
the continued health and productivity of these fire-adapted ecosystems.
    In response to the wildfire season last year the Forest Service has 
announced a new National Fire Plan which the agency is using to justify 
a massive increase in yearly Congressional appropriations to pay for 
more mechanical fuels reduction treatments, more commercial 
``thinning'' projects, more equipment, more fire crews, and less system 
wide fire planning. The Plan sets the stage for the industrialization 
and mechanization of forest restoration by advocating a massive ten to 
fifteen year hazardous fuels reduction program that will eventually 
affect most National Forests.
    Without additional analysis, development of criteria and 
environmental safeguards, we are concerned that forest ecosystems will 
be put at risk by mechanical fuels reduction projects. Unless changes 
are made in federal fire policy, ecosystems will continue to be 
degraded, the costs of wildfires will continue to increase, 
firefighters lives will be put in jeopardy, and homes will continue to 
be threatened.

         HAZARDOUS FUELS PROJECTS LACK ENVIRONMENTAL SAFEGUARDS

    There is a real risk that ecologically harmful projects will be 
common place because there are no safeguards to exclude projects from 
roadless, old growth, and other ecologically important areas that don't 
need fuels reduction treatments. Projects are already emerging and 
there is growing concern about the emphasis on commercial commodity 
production and the lack of emphasis on doing projects--where the work 
needs to be done--in the urban/wildlands interface.

                    ROOT CAUSES NOT BEING ADDRESSED

    According to a Dec. 5 Congressional Research Service report 
``Forest Fire Protection,'' historic grazing and logging practices (by 
encouraging growth of many small trees) and especially fire suppression 
over the past century, appear to have contributed to unprecedented fuel 
loads in many areas. However, under the current Fire Policy, it appears 
that grazing is being ignored and that more logging (mechanical fuels 
treatment) and fire suppression are being prescribed as the solution. 
This contradicts common sense and will in the end lead to further 
degradation of forest ecosystems. If we are to seriously talk about how 
to restore ecosystems it is necessary to reform the logging, grazing, 
and fire suppression programs that are at the root of poor ecosystem 
conditions.

                 THE 2001 FEDERAL FIRE MANAGEMENT PLAN

    In response to the wildfires of 1994, the Forest Service created 
the 1995 Federal Fire Policy to help coordinate their response. 
Following last year's fire season, this policy document was updated by 
the 2001 Federal Fire Management Plan.
    In the new Plan, the original 1995 Federal Fire Policy was 
reaffirmed, and in some cases even strengthened with new policies 
covering the role of science and education in fire management. However, 
the 2001 Plan discovered that substantial action items such as creating 
Fire Management Plan for each National Forest had not been completed, 
and that there were no mechanisms for oversight or accountability to 
implement the Federal Fire Policy. ``There have been no meaningful 
consequences for failure by agency administrators at any organizational 
level to fully implement all aspects of the 1995 Federal Fire Policy,'' 
says the report.
    Major Policy items that were not implemented over the last five 
years include the failure to adopt Fire Management Plans (FMPs), and 
the failure to minimize the costs of fire suppression on large wildland 
fires. The 2001 Policy reaffirmed that ``Every area with burnable 
vegetation must have an approved Fire Management Plan.'' FMPs cover 
such critical issues as responses to and uses of wildland fires, 
burned-area rehabilitation, fuels reduction, and ecosystem restoration 
activities. Accordingly, FMPs ``are the principal foundation for 
implementation of the 2001 Federal Fire Policy.''
    Congress appropriated a disproportionate amount of funds for 
mechanical fuels reduction. While the majority of the funding goes 
toward mechanical fuels reduction (and a great deal in the regular 
appropriation goes toward aggressive fire suppression), little funds go 
toward fire planning even though it should be the first step in 
implementing a sound National Fire Plan.
fire planning necessary to limit fire suppression to where it is needed
    The 2001 Federal Wildland Fire Policy mandates that ``every area 
with burnable vegetation must have an approved Fire Management Plan.'' 
However, the agency seems to be ignoring this requirement--only 5% of 
National Forests have fire management plans and the National Fire Plan 
provides little funding for National Forests to complete new plans. 
Without these Plans, the Forest Service will continue to commercially 
thin, even in roadless areas, and aggressively suppress fires, even 
where they should be allowed to burn naturally.
    The paradigm of aggressive fire suppression is still rampant. For 
example, the Forest Service is beefing up its fire teams and hotshot 
crews to deal with future fires. The Forest Service has so far hired 
over 850 permanent fire personnel and plans to hire about 4,000 new 
fire fighting personnel total. Also a great deal of funds will go to 
new hardware such as helicopters, fixed-wing aircraft, fire engines, 
bulldozers, chainsaws, etc. to prepare the new staff to ``win the war 
on fire.'' This beef up in personnel and hardware is testimony to the 
fact that the Forest Service is stuck in the old paradigm of aggressive 
fire suppression at any cost. The Forest Service continues to stifle 
real forest restoration by failing to make fire planning one of their 
top priorities. Without fire plans fires will almost always be 
suppressed rather than allowed to burn.
    According to the Federal Wildland Fire Management Policy (Fire 
Policy), ``Every area with burnable vegetation rust have an approved 
Fire Management Plan (FMP).'' However, it has been six years since the 
Fire Policy was first signed by the Secretaries of Agriculture and the 
Interior, and yet over 95% of the National Forest do not have approved 
FMPs that comply with the Fire Policy. There has been a systematic 
neglect within the Forest Service to do required fire management plans. 
The National Fire Plan could fund this critical need, but Congress is 
going to have to give clear, explicit direction to the agency to 
complete FMPs and fully implement the Fire Policy.
lack of fire management plans increases safety hazards for firefighters
    The Fire Policy states that public and firefighter safety is the 
first priority on every wildland fire. Yet, firefighting is inherently 
hazardous duty, and individuals are exposed to health and safety risks 
on every incident. The lack of FMPs in the U.S. Forest Service compels 
the agency to engage in aggressive initial attack and extended attack 
even in areas where the risks to human communities are low, the 
ecological benefits of burning are high, but the hazards to 
firefighters can be very high to extreme. Avoiding unnecessary fire 
suppression actions would decrease hazards to firefighters.
    The highest priority action item needed to implement the Fire 
Policy is for land managers to develop new FMPs that would allow a full 
range of ``appropriate management responses'' to wildland fires. These 
responses could range from simple aerial monitoring of fires burning in 
remote roadless or wilderness areas, to aggressive fireline 
construction where fires threaten to encroach upon human communities. 
FMPs thus enable managers to place firefighters where they would be 
most safe, effective, and needed. Without these FMPs fire managers have 
only one option: total suppression. Consequently, firefighters are 
often exposed to prolonged, unnecessary risks and hazards on ``siege-
like'' campaign fires that, in many cases, defy human control efforts 
and are only extinguished by changes in the weather.

      LACK OF FIRE MANAGEMENT PLANS INCREASES COSTS FOR TAXPAYERS

    The Fire Policy mandates that fires are to be suppressed at minimum 
cost. Yet, in the internal report, ``An Agency Strategy for Fire 
Management,'' the Forest Service acknowledges that ``there are no well-
defined guidelines or direction that specifically lead to minimum-cost 
strategies or tactics;'' consequently, the agency manages emergency 
firefighting funds as ``unbudgeted, unlimited, unallocated, and without 
benchmarks on acceptable spending levels.'' Fire suppression lacks 
fiscal accountability and restraint because it is run as a ``carte 
blanche'' deficit-spending program. The Forest Service gets reimbursed 
for firefighting expenses through emergency supplemental 
appropriations; however Congress routinely ``rubber stamps'' these 
requests without ever scrutinizing the expenditures of fire managers. 
In 1999, the Forest Service spent fully 30% of its firefighting budget 
attempting to suppress two lightning-caused wildfires burning in 
designated wilderness areas. Lack of FMPs for the two affected National 
Forests compelled managers to engage in total suppression devoid of any 
economic analysis of projected suppression costs compared to the values 
at risk.
    Forest Service studies reveal that from 1970 to 1995 the agency 
spent $11.8 billion on fire suppression (adjusted for 1995 dollars). 
The total costs of suppression have been increasing at an average rate 
of 15.5% annually. During the 1980s, the average annual cost of fire 
suppression was $492 per acre, but during the 1990s, this increased to 
$743 per acre (adjusted for inflation). The Fire Policy was developed 
after officials were shocked by the expense of the 1994 fire season--an 
unprecedented $950 million. However, the 2000 fire season has topped 
$1.3 billion--and the bills are still being counted. FMPs can reduce 
suppression costs by restricting inappropriate actions from 
inappropriate places, and helping to focus firefighting action to the 
times and places it is most safe, effective, and necessary.

     LACK OF FIRE MANAGEMENT PLANS INCREASES DAMAGES TO ECOSYSTEMS

    Fire suppression programs and practices have never undergone 
environmental analysis under the National Environmental Policy Act; 
yet, there are significant direct, indirect, and cumulative 
environmental impacts caused by firefighting. In some cases, the 
effects of firefighting can be more significant and enduring than the 
effects of the fire itself. For example, bulldozers cutting firelines 
into steep erosive slopes or roadless areas can cause scars that last 
for decades. Backfires ignited under extreme weather conditions can 
increase the intensity and severity or wildfires, and in some cases, 
can start whole new wildfires when they fail to meet up with the main 
intended fire front. Some fire retardant chemicals degrade into cyanide 
at levels highly toxic to fish and frogs. And the presence of large 
numbers of firefighters and their equipment and vehicles can spread 
invasive weeds, harass wildlife, and damage sensitive lands.
    Fire Management Plans can prohibit certain aggressive suppression 
methods where they would be most damaging (e.g. bulldozers in roadless 
areas, chemical retardants in riparian areas). Alternately, FMPs can 
prescribe ``Minimum Impact Suppression Tactics'' where they would be 
most safe, effective, and least damaging. Without FMPs providing such 
guidance to fire managers, there is no limit to the kinds of 
destructive practices that managers can and do order firefighters to 
wage on wildland fires. FMPs enable managers to set priorities for 
suppression in ways that decrease the short- and long-term damages that 
firefighting can inflict upon the landscape.
what federal fire managers say about the need for fire management plans
    ``Fire management planning has not been a priority, with less than 
5% of the National Forests having current, approved fire plans. The 
agency is not in compliance with the National Fire Management Policy. 
When asked would a Fire Management Plan have made a difference in the 
effectiveness of the suppression efforts for the Big Bar and Kirk 
Complexes, the answer was `YES.' When asked why there was no approved 
Fire Management Plans for the two involved Forests and other National 
Forests in general, the most common reason is lack of priority and 
resources.''
                --Policy Implications of Large Fire Management: A 
                Strategic Assessment of Factors Influencing Costs 
                (USFS; 2000)

    ``Consistent with Land and Resource Management Plans, develop fire 
management plans that provide for suppressing fires that would threaten 
public safety, communities, species habitat, or degrade ecosystems. 
Increase the management of natural ignitions for resource benefits 
where values and resources will be increased or improved.''
                --Protecting People and Sustaining Resources in Fire-
                Adapted Ecosystems: A Cohesive Strategy (USFS; 2000)

    ``Fire Management Plans that implement Federal Fire Policy must be 
completed as soon as possible. All land management agencies should 
place a high priority on completion of these plans. If necessary, land 
management plans should be updated, revised, or amended to allow full 
implementation of Federal Fire Policy.''
                --Review and Update of the 1995 Federal Wildland Fire 
                Management Policy'' (USDA/USDI/DOE/DOD/DOC/EPA/FEMA; 
                2001)

                  URBAN/WILDLANDS INTERFACE UNDEFINED

    An issue that is of primary importance in the Forest Service's 
presentation of the National Fire Plan is their unwillingness to define 
the urban/wildland interface zone. The Forest Service has failed to set 
hard criteria about how to choose the communities in most need for 
fuels reduction. One of the major components to the National Fire Plan 
is to carry out most of the first and second year projects in the 
communities most ``at risk.'' However, the communities that the Forest 
Service is evaluating as the most ``at risk'' comes from a laundry list 
of communities published in the Federal Register on January 4, 2001. 
The Governors and the National Association of State Foresters created 
this community list without any criteria about what a community at risk 
is.
    We are very concerned that to date, the Forest Service has ignored 
the intent of Congress to focus fuel reduction projects on the urban/
wildlands interface to save lives and property. Instead, the Forest 
Service recently admitted that only 25% of the current projects are in 
the area they define as the interface/zone. In addition, we are also 
concerned that the definition being by the agency is overly broad by 
including power lines, roads and other structures.

    INCREASED PRIORITY NEEDS TO BE PLACED ON PROTECTING COMMUNITIES

    Homeowners must be educated about the danger associated with the 
wildland-urban interface zone and the necessity to do their part to 
reduce the risks, Jack Cohen, research scientist at the U.S. Forest 
Service's Fire Sciences Lab in Missoula, Montana, has demonstrated that 
to reduce fire risks in the urban/wildland interface zone, removing 
fuels from within 40 meters of a structure and reducing the 
flammability of the structures are more effective and efficient than 
landscape wide thinning. According to Cohen, ``The evidence suggests 
that wildland fuel reduction for reducing home losses may be 
inefficient and ineffective. Inefficient because wildland fuel 
reduction for several hundred meters or more is greater than necessary 
for reducing ignitions from flames. Ineffective because it does not 
sufficiently reduce firebrand ignitions.''
    Congress should encourage state and local governments to require 
homeowners living in the interface zone to protect their own private 
property through common-sense fire safety practices, such as the use of 
fire-resistant roofing material and the clearance of brush and other 
flammable materials near homes.

     CONDUCT ECOLOGICAL ASSESSMENTS FOR ALL FUEL REDUCTION PROJECTS

    The Forest Service should be required to identify restoration 
priorities before any restoration or fuels reduction activities take 
place. This assessment should involve the public and provide a broad 
array of alternatives--not just commercial thinning--to address 
priority needs in the area. For many areas, removing roads, invasive 
species, and cows combined with prescribed burning would the best 
prescription for ecological restoration.

    HAZARDOUS FUELS PROJECTS SHOULD NOT MIX WITH THE TIMBER PROGRAM

    We are concerned that fuels reduction projects are being conducted 
as part of or conjunction with timber sales. This could allow funds 
intended for fuels reduction to be used to subsidize logging on the 
National Forests. Mixing these funds, are allowing for the appearance 
that hazardous fuels reduction is being used to bolster the timber 
program could ultimately undermine public support and the program's 
effectiveness.
    Attached to this testimony is a sign on letter endorsed by over 
seventy-five national, regional and local environmental and grassroots 
forest protection groups urging environmentally responsible direction 
for the FY 2001 fuels reduction funding. It represents a consensus from 
the environmental community on the types of projects we will support. 
Projects that fall outside of these guidelines are considered fair-game 
by environmentalists for protests, appeals and litigation.
    Congress should prohibit the use of commercial timber sales and 
stewardship contracts for hazardous fuels reduction projects. 
Commercial logging removes the most ecologically valuable, most fire-
resistant trees, while leaving behind highly flammable small trees, 
brush, and logging debris. The use of ``goods for services'' 
stewardship contracts also encourages logging larger, more fire-
resistant trees in order to make such projects attractive to timber 
purchasers. The results of such logging are to increase fire risks and 
fuel hazards, not to reduce them. The financial incentives for abusive 
logging under the guise of ``thinning'' must be eliminated.

    ESTABLISH SEPARATE CONTRACTS FOR FIRE HAZARD REDUCTION PROJECTS

    All fuels reduction projects should be paid for with appropriated 
dollars. Any material of commercial value must be sold in a separate 
contract and all revenues must be returned to the Treasury. This would 
eliminate the current incentive to include larger, more valuable, fire-
resistant trees in order to make timber sales a.k.a. ``fuels reduction 
projects'' more attractive to timber companies.

                 COMMERCIAL LOGGING INCREASES FIRE RISK

    There is strong evidence that commercial logging increases fire 
risk. According to the Congressional Research Service, the remaining 
limbs and tree tops or slash substantially increase fuel loads on the 
ground, at least in the short term, until the slash is removed or 
disposed of through burning. The government's Interior Columbia Basin 
Management Project found that logging slash increased fire risk for up 
to thirty years. The Sierra Nevada Ecosystem Project confirmed that 
commercial logging had been the single greatest contributor to higher 
fire risks in the region stating, ``Timber harvest, through its effects 
on forest structure, local microclimate and fuel accumulation, has 
increased fire severity more than any other recent human activity.''

             POST FIRE SALVAGE LOGGING SHOULD BE PROHIBITED

    There is no scientific evidence that post-fire salvage logging 
reduces the future risk or severity of wild fires. There is also 
substantial evidence that this form of logging causes significant 
environmental harm by disturbing already impacted soils and vegetation, 
removing canopy cover, removing woody debris needed to create new 
soils, harming wildlife and plants that depend on recently burned 
areas. Post-fire salvage logging should have no place in the hazardous 
fuels program.
    The 1995 report, ``Wildfire and Salvage Logging, Recommendations 
for Ecologically Sound Post-Fire Salvage Management and Other Post-Fire 
Treatments'' known as the Beschta Report found considerable evidence 
that post-fire salvage logging would likely result in persistent, 
significant adverse environmental impacts. The Beschta Report was 
prepared by an expert team of agency and university scientists and was 
endorsed the Forest Service. The report recommends the complete 
prohibition of salvage logging in severely burned areas, on erosive 
sites, on fragile soils, on steep slopes and any other sites where 
accelerated erosion is possible.
    The Six Rivers National Forest has released a Draft Environmental 
Impact Statement (EIS) outlining a proposal to salvage log in the 1999 
Megram Fire area west of the Trinity Alps Wilderness. The proposed 
``Fuels Reduction for Community Protection-Phase I'' project would log 
approximately 1,050 acres of ancient forests in the Mill, Horse Linto, 
Sharber, and Quinby Creek watersheds, including within unprotected 
roadless areas. Approximately 0.4 miles of new temporary roads would be 
constructed, and another 2.65 miles of previously used roads would be 
reconstructed, to facilitate the logging.
    Despite the name, the project has nothing to do with either fuels 
reduction or community protection. The proposed logging and road 
construction is located miles away from any community, and will more 
likely increase the risk of fire rather than decrease it. The forests 
and streams in the area provide critical refuge for a host of plants, 
fish and wildlife species, including rare orchids, salamanders, 
northern spotted owls, goshawks, fishers, steelhead, chinook, and coho 
salmon. The proposed logging and road construction threatens to 
severely impact these species, as well as domestic water supplies in 
Hoopa and other Trinity River communities.
    To avoid citizen challenges, the Six Rivers NF has announced that 
it is seeking an ``Emergency Situation'' determination that would 
exempt 863 acres of the project from the appeals and litigation 
process. The Six Rivers NF is claiming that unless an emergency 
situation is declared, the administrative appeals process could prevent 
them logging for another year, at which point the burned trees would be 
so decayed that it would not be economical to log them. The Six Rivers 
NF is attempting to circumvent the ability of citizens to force the 
agency to obey the law, and are using a thinly-veiled ``emergency'' to 
get the cut out.
    There is no need to log within the Megram Fire area. The agency 
should instead work to restore past impacts the area from logging, 
roads, grazing, and fire suppression. The Forest Service should also 
withhold the emergency exemption for the proposed timber sale. There is 
no ``emergency'' in the area, the only reason the Six Rivers NF is 
seeking the exemption is for economic purposes, and that the proposed 
exemption would seriously undermine the public's trust in the agency.

        ENVIRONMENTAL LAWS AND PUBLIC PROCESSES MUST BE FOLLOWED

    Environmental laws, the NEPA process or ESA consultation should not 
be suspended, expedited, or streamlined. According to the Congressional 
Research Service, the extent to which fuel management might reduce the 
extent, damage and control costs of wildfires has not been precisely 
quantified. Given this uncertainty and lack of scientific evidence that 
mechanical fuels reduction benefits forest ecosystems, it is necessary 
that a complete review of each project take place. Streamlining laws 
and shutting the public out of these projects will only lead to 
mistrust and a greater likelihood for public opposition, appeals, and 
litigation.

                      ROADLESS AREAS AND FIRE RISK

    The roadless policy contains broad exemptions for fuel reduction 
and restoration projects and the Forest Service has testified that the 
roadless policy will not prevent the agency from meeting its fire 
fighting responsibility. In addition, agency research indicates that 
roadless areas are in general not the areas most at risk and contain 
few communities nearby. In addition, increased human access leads to 
more fire ignitions--88% of the fires from 1988-1997 were caused by 
humans, with only 12% caused by lightning. Scientific analysis of the 
2000 fire season revealed that the vast majority of burned acres were 
located in previously logged and roaded areas, not in roadless or 
wilderness areas.

            REMOVING COWS NEEDED FOR PROPER FIRE MANAGEMENT

    According to the Congressional Research Service, in the inter-
mountain west livestock grazing has affected ecosystems by reducing the 
amount of grass and changing the plant species mix in forests and on 
rangelands. This reduced the fine fuels that carried surface fires, 
encouraged trees to invade traditionally open grasslands and meadows, 
and allowed non-native species to become established, all of which 
experts believe induce less frequent but more intense wildfires. 
Therefore it is essential that livestock be removed from all areas at 
high risk of fire or where fire risk reductions projects are 
undertaken. Otherwise the problem will continue to worsen.

      FIRE SUPPRESSION HARMS THE ENVIRONMENT--COSTS OUT OF CONTROL

    For most federal programs, Congress sets an annual spending level 
that may not be exceeded by the federal agency. However, in the case of 
fire suppression and the federal budget, these rules do not apply. The 
Forest Service is permitted to take money from other Forest Service 
programs and spend it on fire suppression. Then Congress fully 
reimburses the Forest Service for the difference. Due to this system 
Congress does not set a realistic budget for fire suppression and the 
agency has little accountability or incentive to get serious about fire 
planning and preparedness because it knows Congress has a carte blanche 
policy for funding fire suppression.
    In the aftermath of the 1994 fire season, a very heavy fire year 
similar in intensity as the 2000 fires, Agriculture Secretary Dan 
Glickman and Department of the Interior Secretary Bruce Babbitt signed 
the federal Wildland Fire Policy which requires the creation of fire 
plans for ``every burnable acre'' on National Forest Lands. The agency 
report ``Policy Implications of Large Fire Management'' concludes that 
fire plans are needed to efficiently respond to wildfires.
    According to the report, ``Estimates have shown that for every 
dollar of appropriated preparedness dollars received, there is a 
savings of five to seven dollars in fire suppression and emergency 
rehabilitation funds spent.'' However, only 5% of the National Forests 
have developed such plans, causing the Forest Service to continually 
waste tax dollars, degrade ecosystems, and jeopardize firefighters by 
systematically fighting all fires with aggressive suppression tactics.
    For more information contact Lisa Dix at 202-547-9267, 
mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a032e23320a2b272f3823292b24262b242e396425382d">[email&#160;protected]</a> or Timothy Ingalsbee, Ph.D. at 541-302-
6218, mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfaf5eef9dcf9faf2b2f3eefbb2">[email&#160;protected]</a>

    Senator Craig. Steve, thank you.
    Now we go to Tom Nelson, director of Timber Lands for 
Sierra Pacific Industries, representing the American Forest and 
Paper Association of Redding, California.
    Tom, welcome.

 STATEMENT OF TOM NELSON, DIRECTOR OF FOREST POLICY FOR SIERRA 
PACIFIC INDUSTRIES, ON BEHALF OF THE AMERICAN FOREST AND PAPER 
                          ASSOCIATION

    Mr. Nelson. Good evening, Mr. Chairman. My name is Tom 
Nelson and I am the director of Forest Policy for Sierra 
Pacific Industries in Redding, California.
    I have already submitted written comments to your 
committee, but I wish to highlight portions of that testimony 
during the time frame allotted here today. Specifically, my 
testimony focuses on four issues associated with the National 
Fire Plan and some suggestions for addressing them.
    While I will mention timber harvesting in my testimony, my 
objective is not simply to advocate a more robust timber sale 
program on the Federal lands. The focus of my testimony is on 
sound management practices that help promote the long-term 
sustainability of national forest system and other public 
lands. It is imperative that our public lands are managed to 
promote healthy forests and healthy communities and ensure the 
Federal Government is a good neighbor to adjacent landowners.
    Issue number one, the need for continued fuel hazard 
reduction efforts. Increased fuel reduction efforts by the 
Forest Service and Department of the Interior are badly needed. 
The number of acres of public land that require hazardous fuel 
reduction far exceeds the number of acres treated by the Forest 
Service and the Department. For example, in 1994, the 
Department and the agency treated about 500,000 acres out of a 
total of 39 million acres declared at risk. In 2000, they 
estimated that 72 million acres were now at risk and reduced 
fuel loads on approximately 2.4 million acres, almost five 
times more than the acres treated during 1994.
    That sounds very impressive. However, the combined total 
acreage treated by the Forest Service and the Department in 
fiscal year 2000 was still just over 3 percent of the Forest 
Service lands that require treatment. At this pace it will take 
more than 30 years to treat the existing areas at risk.
    A significant portion of the fiscal year 2001 Interior 
appropriation for hazardous fuels reduction work was directed 
to alleviate immediate threats to urban/wildland interface 
areas. Congress should continue to support the Forest Service's 
and Department's efforts to reduce fuel loads in urban/wildland 
areas and provide assurances to communities that enter into 
cooperative agreements. At the same time, fuel reduction 
efforts outside of these areas, where the bulk of these high-
risk acres actually occur, must not be ignored.
    According to the Forest Service, most of the 72 million 
acres of national forest system lands at risk are not in the 
wildland/urban interface, but in these outside areas.
    The risks and effects of catastrophic wildfire are not 
confined to public lands. On the contrary, they spill over onto 
private inholdings and onto adjacent homes and structures not 
part of the urban/wildland interface. For example, in my 
written testimony, I have attached a map showing ownership 
patterns in California, specifically the private lands owned by 
our company, Sierra Pacific, and the neighboring Federal lands. 
You will note that these two ownerships, as is common 
throughout the western United States, are intertwined and 
intermingled.
    Private forest product companies like ours, as well as non-
industrial forest landowners, have aggressively tried to reduce 
the risks for catastrophic wildfires on our own holdings for 
many years, largely through the use of thinning. However, these 
efforts cannot be effective without the cooperation of our 
Federal neighbors since wildfires do not recognize property 
boundaries.
    AF&PA respectfully suggests that increased appropriations 
in fiscal year 2002 must be provided for hazardous fuel 
reduction work in urban/wildland interface communities at high 
risk of catastrophic wildfire and on a greater percentage of 
areas outside the interface. Additionally, collaborative 
partnerships with owners of inholdings, State foresters, and 
other entities should be pursued to design long-term fuels 
treatment strategies outside of the urban/wildland interface.
    Issue number two, the need for timber harvesting as one 
tool available to the Forest Service and Department of the 
Interior to maintain forest health.
    In a recent statement to the House Subcommittee on Forests 
and Forest Health, Mr. Lyle Laverty of the U.S. Forest Service 
stated that excessive vegetation and dead fuel will be removed 
``through thinning, prescribed fire, and other treatment 
methods.'' I believe Lyle reaffirmed that position earlier 
today.
    We concur with this assessment and wish to emphasize that 
timber harvesting must be a hazardous fire reduction tool 
available to the Forest Service and the Department of the 
Interior. After 50 to 80 years of fire suppression in the West, 
timber harvest is a prerequisite activity before fire can ever 
be safely reintroduced into the natural ecosystem.
    Issue number three, implementation of the National Fire 
Plan must not reduce or eliminate the Forest Service's or the 
Department of the Interior's ability to conduct other agency 
and departmental programs. I will skip over that one in the 
interest of time.
    Issue number four, the Forest Service must carry out its 
mission and be held accountable for its operations. Language in 
the National Fire Plan calls for the Forest Service and 
Department of the Interior to be accountable for oversight, 
coordination, program development, and monitoring performance 
for fire fighting, restoration and rehabilitation, hazardous 
fuels reduction, and community assistance.
    While progress is being made toward accomplishing these 
goals, more can be done by the agency and Department to ensure 
that accountability is achieved. In particular, two elements 
appear to be missing.
    To ensure that the Forest Service and Department establish 
a credible system of accountability, AF&PA respectfully 
suggests that the Forest Service and Department of the 
Interior, one, provide a clear link between National Fire Plan 
goals and performance measures to the overall mission of both 
the Forest Service and the Department of the Interior; and two, 
develop more specific performance measures to permit evaluation 
of program effectiveness, both from a financial standpoint and 
from the standpoint of improvement in forest health conditions.
    Thank you, Mr. Chairman, for the opportunity to present 
these comments on behalf of the American Forest and Paper 
Association. I would be glad to answer any questions.
    [The prepared statement of Mr. Nelson follows:]

PREPARED STATEMENT OF TOM NELSON, DIRECTOR OF FOREST POLICY FOR SIERRA 
    PACIFIC INDUSTRIES, ON BEHALF OF THE AMERICAN FOREST AND PAPER 
                              ASSOCIATION

                           EXECUTIVE SUMMARY

  <bullet> The Department of the Interior and the Forest Service's 
        efforts to reduce hazardous fuel loads are not keeping pace 
        with the increase in these materials. At risk are unique 
        ecosystems, urban-wildland interface communities, in-holdings, 
        and homes and other structures outside interface areas. Support 
        in the Fiscal Year 2002 Interior appropriations bill is needed 
        for increased hazardous fuels reduction work.
  <bullet> Timber harvesting should be a tool available to the Forest 
        Service and the Department of the Interior to maintain forest 
        health.
  <bullet> Personnel must not be reassigned from their core functions 
        to conduct National Fire Plan-related activities.
  <bullet> The Forest Service and the Department of the Interior have 
        an obligation to carry out their missions and to be held 
        accountable for their operations.

                               TESTIMONY

    Good afternoon Mr. Chairman. My name is Tom Nelson and I am the 
Director of Forest Policy for Sierra Pacific Industries in Redding, 
California. I am presenting my testimony today on behalf of the 
American Forest and Paper Association's (AF&PA) member companies, 
associations, and allied groups. AF&PA members include forestland 
owners, manufacturers of solid wood products, and producers of pulp and 
paper products. The U.S. forest products industry has sales of over 
$195 billion annually and employs 1.6 million people, more than one 
percent of the U.S. work force. AF&PA members are committed to 
sustainable forestry for all forestlands, public and private.
    My testimony focuses on four issues associated with the National 
Fire Plan and suggestions for addressing them. The issues are: the need 
for continued support of fuel hazard reduction efforts; use of timber 
harvesting as one of many tools for fuel reduction efforts; the impact 
implementation of the National Fire Plan has on other Forest Service 
programs; and accountability.
    While I will mention timber harvesting in my testimony, my 
objective is not simply to advocate a more robust timber sale program 
on the federal lands. The focus of my testimony is on sound management 
practices that help promote the long-term sustainability of National 
Forest System and other public lands. It is imperative that our public 
lands are managed to promote healthy forests and healthy communities 
and ensure the federal government is a good neighbor to adjacent 
landowners.

Issue #1: Need for continued fuel hazard reduction efforts.

    Increased fuel reduction efforts by the Forest Service and 
Department of the Interior are needed. The number of acres of public 
land that require hazardous fuel reductions far exceeds the number of 
acres treated by the Forest Service and the Department. Given their 
limited resources, hazardous fuels reduction projects focus on 
alleviating threats to urban wildland interface areas. Congress should 
continue to support the Agency and Department's efforts to reduce fuel 
loads in urban-wildland areas. At the same time, fuel reduction efforts 
outside of these areas must not be ignored.
    The Forest Service's and Department of the Interior's hazardous 
fuel reduction efforts have not kept pace with the steady increase in 
over-accumulation of vegetation, outbreaks of insect infestations and 
disease, and accumulation of fine fuels. During the past decade, the 
Forest Service and the Department of the Interior accelerated their 
efforts to reduce hazardous fuel loads. For example, in 1994, the 
Department and Agency treated about 500,000 acres.\1\ In 2000, they 
reduced fuel loads on approximately 2.4 million acres, almost five 
times more than the acres treated during 1994.\2\ The figure appears 
impressive until one realizes that in 1998, the Forest Service 
estimated that ``approximately 39 million acres of National Forest 
System lands [were] at high risk from damaging, high-intensity, 
wildland fire'' due to over-accumulation of vegetation and high 
mortality from insects and disease.\3\ The combined total acreage 
treated by the Forest Service and Department in 2000 was less than 6 
percent of the total Forest Service lands requiring treatment in 1998 
and today, the Forest Service estimates that 72 million acres of the 
land it manages is at risk. At this pace, it will take more than 30 
years to treat the existing areas at risk.
---------------------------------------------------------------------------
    \1\ The Forest Service treated about 385,000 acres across the U.S. 
Statement of Lyle Laverty, National Fire Plan Coordinator, USDA Forest 
Service, before the House Subcommittee on Forests and Forest Health, 
March 8, 2001.
    \2\ The Forest Service treated about 750,000 acres in 2000. 
Statement of Lyle Laverty, National Fire Plan Coordinator, USDA Forest 
Service, before the House Subcommittee on Forests and Forest Health, 
March 8, 2001.
    \3\ Janice Mcdougle, USDA Forest Service Associate Deputy Chief, 
State and Private Forestry, prepared statement before the House 
Subcommittee on Forests and Forest Health, September 28, 1998, http://
www.fs.fed.us/intro/testimony/19980928.html. Accessed 3/22/01.
---------------------------------------------------------------------------
    As hazardous fuel loads increase, so too does the duration, 
severity, and intensity of the fires fueled by them. For example, 
assessment teams in the Interior Columbia River Basin ``concluded that 
over all forest types, fires have become less frequent and more intense 
and fire severity has shifted from non-lethal to lethal.'' \4\ As the 
number of intense wildfires increases, our ability to control them 
decreases. As documented in the Sierra Nevada Forest Plan Amendment 
Draft Environmental Impact Statement, ``current technology is not 
capable of eliminating the high-severity fires.'' \5\ Hiring additional 
fire fighters and purchasing more equipment is not enough. We must 
aggressively attack the problem: hazardous fuel loads.
---------------------------------------------------------------------------
    \4\ Roadless Area Conservation Final Environmental Impact 
Statement, Vol. 1, page 3-73.
    \5\ Roadless Area Conservation Final Environmental Impact 
Statement, Vol. 1, page 3-77.
---------------------------------------------------------------------------
    A significant portion of the Fiscal Year 2001 Interior 
appropriation for hazardous fuels reduction work, about $120 million 
under Title IV, was directed to alleviate immediate threats to urban-
wildland interface areas. To help stretch appropriations for hazardous 
fuel reduction work, efforts will be made to ``match, where possible, 
joint projects with state cooperators.'' \6\ However, as one 
representative of the National Interagency Fire Center noted, community 
representatives are concerned there is no guarantee the federal 
government will continue to provide needed funding for their projects 
and, thus, communities worry they will be left to pay the entire cost 
of hazardous fuels reduction work.
---------------------------------------------------------------------------
    \6\ USDA Forest Service National Fire Plan: Action and Financial 
Plan--Title IV Funding, http://www.na.fs.fed.us/nfp/pa/financial--plan/
overview.htm, Accessed 2/22/01.
---------------------------------------------------------------------------
    Congress should continue to support the Forest Service and 
Department's efforts to reduce fuel loads in urban-wildland areas and 
provide assurances to communities that enter into cooperative 
agreements. At the same time, fuel reduction efforts outside of these 
areas, where the bulk of these ``high risk'' areas actually occur, must 
not be ignored.
    According to the Forest Service, most of the 72 million acres of 
National Forest System lands at risk of uncharacteristic wildfire are 
not in the wildland-urban interface.\7\ However, because of limited 
resources, hazardous fuel reduction in many of these areas will be 
deferred for years. Accumulation of fine ground fuels and encroachment 
of shrubs and other vegetation beneath dominant canopies will continue. 
As a result, the likelihood of severe fire behavior in these areas will 
escalate. The forest industry is very worried about this situation.
---------------------------------------------------------------------------
    \7\ Lyle Laverty, USDA Forest Service National Fire Plan 
Coordinator, Statement before the House Subcommittee on Forests and 
Forest Health, March 8, 2001.
---------------------------------------------------------------------------
    The risks and effects of catastrophic wildfire are not confined to 
public lands. On the contrary, they spill over on to private in-
holdings and onto adjacent homes and structures not part of the urban-
wildland interface. For example, I have attached a map showing 
ownership patterns in California--specifically, the private lands owned 
by our company (Sierra Pacific Industries) and the neighboring federal 
lands. You will note that these two ownerships, as is common throughout 
the Western United States, are intertwined and intermingled. Private 
forest products companies, like ours, as well as non-industrial forest 
landowners have aggressively tried to reduce the risks for catastrophic 
wildfires on their own holdings for many years, largely through the use 
of thinning. However, these efforts cannot be effective without the 
cooperation of our federal neighbors, since wildfires do not recognize 
property boundaries.
    Throughout the West, private landowners, state fire experts, and 
rural communities are poised and ready to implement management 
activities that will reduce the potential risks of devastating 
wildfires like we witnessed last summer in Montana and Idaho. A good 
example of this is the State of California's program to implement Fire 
Safe Councils in rural counties. We believe that this type of 
partnership between private forest landowners, the State, and local 
county officials is the most effective way to combat the inherent 
dangers to the 72 million acres now at risk within our National Forest 
System lands. But this cannot, and will not, occur without the key 
player at the table the federal land managers.
    Reversal of fuel conditions cannot occur overnight. Clearly, 
however, there is an urgent need to prevent fuel conditions from 
advancing at their current pace. It is not enough to provide funding 
for additional fire fighters and equipment. AF&PA respectfully suggests 
that increased appropriations in Fiscal Year 2002 must be provided for 
hazardous fuel reduction work in urban-wildland interface communities 
at high risk of catastrophic fire and on a greater percentage of areas 
outside the interface. Additionally, collaborative partnerships with 
owners of in-holdings, state foresters, and other entities should be 
pursued to design long-term fuels treatment strategies outside of the 
urban-wildland interface.

Issue #2: Need for timber harvesting as one tool available to the 
Forest Service and Department of the Interior to maintain forest 
health.

    The Forest Service states that excessive vegetation and dead fuels 
will be removed ``through thinning, prescribed fire, and other 
treatment methods.'' \8\ Timber harvesting should be a hazardous fuel 
reduction tool available to the Forest Service and the Department of 
the Interior. After 50 to 80 years of fire suppression in the West, 
timber harvest is a prerequisite activity before fire can ever be 
safely reintroduced into the natural ecosystem.
---------------------------------------------------------------------------
    \8\ Lyle Laverty, Statement before the House and Senate 
Subcommittees on Interior and Related Agencies, March 14, 2001.
---------------------------------------------------------------------------
    The condition of the forests determines the risk of catastrophic 
wildfire. The prescription for disaster is ignoring overcrowded 
forests, with many dead and dying trees. As mentioned previously, 72 
million acres of national forests are at risk for catastrophic fires. 
As the Government Accounting Office reports, ``timber harvesting may 
make useful contributions to reducing accumulated fuels in many 
circumstances.'' \9\ Consider thinning. A Forest Service research 
report states, ``well-thinned, relatively open areas scattered across 
the landscape, interspersed with denser, less intensively managed 
areas, would provide a wide array of wildlife habitat, and would be a 
forest less prone to large-scale catastrophic wildfire.'' \10\
---------------------------------------------------------------------------
    \9\ Ann Bartuska, Letter to John Talberth, November 6, 2000.
    \10\ Dahms and Geils, 1997.
---------------------------------------------------------------------------
    It should be noted that use of best management practices may help 
reduce the risk of catastrophic wildfire. For example, as noted in the 
Sierra Nevada Ecosystem Project Report, ``when slash is adequately 
treated and treatments are maintained, logging can serve as a tool to 
help reduce fire hazard.'' \11\
---------------------------------------------------------------------------
    \11\ Ann Bartuska, Letter to John Talberth, November 6, 2000.
---------------------------------------------------------------------------
    Certainly, depending on local conditions, hazardous fuel reduction 
through prescribed burning or other means may be more effective than 
timber harvesting. Nonetheless, harvesting should not be precluded as 
one of many tools available to the Forest Service and Department of the 
Interior for reducing hazardous fuels. AF&PA respectfully suggests that 
language should be included in the National Fire Plan and in relevant 
related documents specifically stating that timber harvesting is a tool 
available to the Forest Service and Department of the Interior to 
maintain forest health.

Issue #3: Implementation of the National Fire Plan must not reduce or 
eliminate the Forest Service's or the Department of the Interior's 
ability to conduct other Agency and Departmental programs.

    There are indications that certain National Forest Districts are 
shifting personnel, including biologists and NEPA coordinators, from 
their core functions to National Fire Plan-related work. The shift in 
personnels' priorities may result in the slowing or cessation of other 
critical Forest Service programs. While AF&PA members agree that the 
implementation and long-term goals of the National Fire Plan are 
important, they should not be the sole priority of the Forest Service.
    The Forest Service is working with the Fish and Wildlife Service to 
secure funding necessary to hire biologists needed to perform Section 7 
Consultations. Efforts to identify the kinds of positions and the 
number of personnel needed, such as this, are steps in the right 
direction. Actions to ensure accountability may help address concerns, 
as well, and are discussed in the next section of my testimony.
    The bottom line is that Forest Service personnel must not be 
reassigned from their core functions to conduct National Fire Plan-
related activities. AF&PA respectfully suggests that efforts to 
identify the kinds of positions and the number of personnel needed to 
implement the National Fire Plan should be continued and supported as 
needed in Fiscal Year 2002 Interior appropriations. But it is also 
important that other funded programs don't suffer because of the 
National Fire Plan.

Issue #4: Accountability.

    Language in the National Fire Plan calls for the Forest Service and 
Department of the Interior to be accountable for oversight, 
coordination, program development, and monitoring performance for 
firefighting, restoration and rehabilitation, hazardous fuels 
reduction, and community assistance. While progress is being made 
toward accomplishing these goals, more can be done by the Agency and 
Department to ensure that accountability is achieved.
    As has been noted during recent Congressional hearings, the Agency 
and Department are making progress to ensure accountability. For 
example, the Agency and Department are developing a database designed 
to track accomplishments for projects funded under Title IV. According 
to the Forest Service, ``once it is fully operational . . . [the 
Agency] will be able to report'' project data in specific national 
forests, by state, or congressional district.\12\
---------------------------------------------------------------------------
    \12\ Lyle Laverty, Statement before the House Subcommittee on 
Forests and Forest Health, March 8, 2001.
---------------------------------------------------------------------------
    The Forest Service and Department of the Interior are to be 
commended for their efforts to ensure accountability. However, a clear 
link between National Fire Plan goals and objectives to the Forest 
Service's and Department of the Interior's overall strategic plans must 
be articulated. Such an explanation will facilitate the early 
identification of conflicts between programs, needed resources, and 
staff responsibilities. As a result, confusion about program 
implementation, duplicative efforts, and unnecessary delays in 
implementing program objectives may be reduced or avoided.
    In addition to providing a clear link between National Fire Plan 
goals to their overall mission and other core programs, specific 
performance measures need to be developed further for each National 
Fire Plan goal. The performance measures, or objectives, should explain 
how the agency intends to accomplish each goal and include action plans 
for achieving each objective. Most important, performance measures must 
be developed in a manner that will enable Agency and Department 
personnel evaluate program effectiveness based on financial and forest 
health considerations.
    Certainly, such an undertaking is time-consuming and will require 
Congressional support. However, developing and articulating specific 
information on how to accomplish National Fire Plan goals and 
timeframes for completing activities helps ensure the most efficient 
use of Agency and Department resources.
    The Forest Service and Department of the Interior must be held 
accountable for achieving National Fire Plan goals, as well as other 
Agency and Departmental core functions. AF&PA respectfully suggests 
that, as part of those efforts, the Forest Service and Department of 
the Interior:

          1. Provide a clear link between National Fire Plan goals and 
        performance measures to the Forest Service's and Department of 
        the Interior's overall mission and strategic plans; and
          2. Develop more specific performance measures to permit 
        evaluation of program effectiveness both from a financial 
        standpoint and from the standpoint of improvement in forest 
        health conditions.

                               CONCLUSION

    Over-accumulation of vegetation, outbreaks of insect infestations 
and disease, and accumulation of fine fuels are outpacing the Forest 
Service's and Department of the Interior's hazardous fuel reduction 
efforts. As such, the risk of cataclysmic wildfire is escalating on 
public lands as well as on private in-holdings and adjacent homes and 
structures. Aggressive action must be taken to reduce hazardous fuel 
both within the urban-wildland interface and outside of the interface. 
It is imperative that all appropriate tools to reduce hazardous fuel 
loads be available to the Forest Service and Department, including 
timber harvesting. Lastly, it is important that the National Fire Plan 
be linked to the broad strategic plans of the Agency and Department and 
accurate and reliable performance measures be developed and 
implemented.
    AF&PA looks forward to working with the Subcommittee and others to 
help ensure that the Forest Service and Department of the Interior have 
resources necessary to address immediate threats to forests and 
grasslands and develop long-term strategies for protecting them.
    Thank you for the opportunity to testify, Mr. Chairman. I would be 
happy to answer questions from the Subcommittee.

    Senator Craig. Tom, thank you very much.
    Now let me turn to Dr. David Smith, professor emeritus, 
Virginia Tech at Blacksburg.

     STATEMENT OF DAVID WM. SMITH, Ph.D., VICE PRESIDENT, 
                 SOCIETY OF AMERICAN FORESTERS

    Dr. Smith. Mr. Chairman, my name is Dave Smith, and I am 
here today as vice president of the more than 17,000-member 
Society of American Foresters.
    I would like to make five points.
    Number one, a long-term commitment is absolutely essential.
    Number two, there are barriers to the Forest Service 
accomplishing some of the fire plan goals.
    Three, commercial harvests need to be considered on a case-
by-case basis.
    Four, decisions need to be made in concert with State and 
local communities.
    And five, an enhanced research effort is essential.
    Going back to number one, a long-term commitment, I want to 
thank the committee and Congress for providing last year's 
emergency appropriations. There is no doubt that the additional 
funding helped the forestry community and, indeed, the country 
get through a difficult fire season and to begin to prepare for 
another difficult one this summer. It took us nearly 100 years 
to get into this situation. It is going to take more than 1 
year to get out of it. We need a long-term continuing 
commitment to truly address this management issue.
    Arguably, the most significant aspect of last year's 
unprecedented emergency appropriation was the explicit 
acknowledgment on the part of Congress, the administration, and 
the land management agencies that fire is not only a 
suppression problem, but also a land management problem.
    We hope this year's appropriations bill will follow through 
on the commitment to a national long-term solution and that 
this committee will continue to perform the oversight to make 
sure the land management agencies follow through on that 
commitment.
    The barriers. In the fiscal year 2001 appropriations bill, 
Congress provided $401 million for fuel reduction projects in 
the wildland/urban interface. It has come to our attention that 
a significant portion of Forest Service fuel reduction projects 
will be outside of these areas and have not adequately involved 
communities in the decision making process. While this is 
understandable, it is also regrettable. The Forest Service has 
to show progress with this significant increase in funding, but 
to be successful, they have had to resort to projects that have 
already been through the NEPA process and, in some cases, 
section 7 consultation under the Endangered Species Act. This 
has caused SAF to ask what are the barriers to the Forest 
Service being the responsive agency we know it wants to be and 
one that involves local communities. In fact, we have developed 
a proposal to examine that issue and we hope to report back to 
you on our work.
    Commercial harvest. Simply stated, we want to ensure that 
commercial timber harvest will be considered as one tool among 
many to address the hazardous fuel problem. If trees that need 
to be removed are of commercial size and the land management 
agencies follow environmental safeguards, then there is no 
reason that agencies should not sell the timber. Selling the 
materials that result from fuel reduction projects will reduce 
the burden on taxpayers and stimulate economies. Currently the 
United States is a net importer of wood products. It seems 
inappropriate not to utilize forest products here in our own 
country.
    Local decision making. While we believe the partnership 
between the State and Federal Governments continues to improve, 
we are anxious to see similar partnerships with local 
communities. Communities must be part of the solution to our 
wildland fire issues and we must build their capacity to be 
involved in these discussions. In many ways, they have the most 
at stake, but the fewest resources and the smallest voice. This 
must change if the National Fire Plan is to be viewed as a 
success. We must remember that early detection and quick 
response are the answers in many cases.
    Research. Cost effective and sustainable fire management 
depends on sound science. This research should include 
partnerships with colleges, universities, and private sector 
research units in order to reap the best and most effective 
results. Many of the key barriers to the implementation of the 
National Fire Plan stem from the lack of scientific knowledge 
about the effectiveness and the effects of fire and fuels 
management. Because of the increased incidence of extreme 
fires, the growing complexity of the fire management situation, 
and the vital link between fire management and land management 
policy, it is imperative that we have a strong research and 
development program.
    In conclusion, the last summer's fires raged in part 
because policy gridlock has prevented forest managers from 
doing what it takes to address the conditions that lead to 
catastrophic fire. A forest manager can take steps to alleviate 
these conditions by removing combustible materials and 
mechanically removing dead and dying trees from at-risk 
forests, particularly in the wildland/urban interface.
    The current situation guarantees failure as managers are 
resigned to do very little to address these problems. We hope 
that this committee will continue to urge for adequate funding 
and to explore changes in authority that will help end this 
gridlock.
    Our Nation's forests cover one-third of the land area of 
the country and are unequalled in their value to people and our 
economy. They are far too valuable not to manage utilizing the 
best science and experience possible. Forest resource 
management decisions that we make today will be reflected in 
the forests of the 22nd century and beyond. We must do it right 
today if we are to maintain the integrity and productivity of 
these forests for our grandchildren and their grandchildren.
    Our profession of forestry is a dedicated partner in this 
endeavor, and we will shoulder a significant part of the 
responsibility for implementing this plan. Thank you.
    [The prepared statement of Dr. Smith follows:]

     PREPARED STATEMENT OF DAVID WM. SMITH, PH.D., VICE PRESIDENT, 
                     SOCIETY OF AMERICAN FORESTERS

    Mr. Chairman and members of the committee, my name is David Smith, 
and I am here today as Vice President of the Society of American 
Foresters. Many of our 17,000 members are involved in reducing the 
risks associated with wildfire, and working to implement the National 
Fire Plan. The Society of American Foresters holds sustainability of 
forest resources as a core value. Sustainability means meeting 
environmental, economic and community aspirations simultaneously. It 
requires the development and protection of natural resources at a rate, 
and in a manner, that enables people to meet their needs while 
providing future generations with the means to do the same. Our goal is 
to see that all the forests of this nation are managed sustainably.
    I would like to make five brief points today. The first is that 
Congress, the Administration, and the land management agencies need to 
make a long-term commitment to the National Fire Plan, and that 
treating fire requires land management. The second is that there are 
significant barriers to the Forest Service being a responsive agency. 
Next, that commercial timber harvest, can, and should be part of a 
fuels reduction program. Fourth, that the land management agencies must 
make decisions at the local level, involving the states and local 
communities. And finally, we must make a significant commitment to 
improving our fire research capacity.
     long-term commitment to land management and fire preparedness
    First, I want to thank the Committee and the Congress for providing 
last year's emergency appropriations. There is no doubt that the 
additional funding helped the forestry community, and indeed the 
country, get through a difficult fire season, and to begin to prepare 
for another difficult one this summer. It took us nearly 100 years to 
get into this situation; it is going to take more than one year to get 
out of it; we need a long-term commitment to truly address this 
management problem. We hope the Administration will request, and the 
Congress will provide the funding necessary to continue the commitment 
to effectively deal with wildland fire now and in the future. 
Investments made today in reducing the risks associated with wildland 
fire will eventually reduce the need for the massive emergency 
appropriations made last year.
    We believe Congress and the Appropriations committee recognized the 
need for a long-term commitment to reducing the risks associated with 
wildfire. The Congress included language in the Conference report of 
the FY 2001 Appropriations bill that stated, ``the managers strongly 
believe this FY 2001 funding will only be of value . . . if it is 
sustained in future years.'' It went on to request the Administration 
work with the states to develop a long-term solution to the fire 
problem, and restoration needs.
    Fire exclusion has directly contributed to fuel buildup. In 
addition many forests are currently beyond the natural range of tree 
stocking, and endemic and exotic pests have reached epidemic 
proportions. This combination of excessive basal area or tree density 
and increased pests results in fuel loads considerably above what 
historically occurred. The greatest problems we are facing in regard to 
wildland fire are high forest density developed from nearly a century 
of fire protection, lack of active management that can encourage fire 
adapted species, and the introduction of exotic species.
    The Forest Service has stated that nearly 73 million acres of 
national forests (61 million in the West and 12 million in the East) 
are at high to moderate risk of catastrophic fire. Cost estimates of 
treating this problem are in the tens of billions of dollars. That 
acreage does not necessarily account for lands off national forests 
that also have significant problems. In the past few years we have seen 
major fires in Texas, Florida, Virginia, New York, and New Jersey, 
states with little or no national forests. This truly is a national 
problem that requires national solutions.
    In addition to the development of heavy fuel loads, the jobs of 
contemporary firefighters have been complicated by the growth of the 
wildland-urban interface. Developed properties, frequently people's 
homes, stand in the way of today's wildfires. From last year's fires in 
Montana, where homes and other property were destroyed in the 
Bitterroot Valley, to the 1999 Fire Siege in Florida, where 
firefighters spent a great deal of time ``steering'' fires around 
development, the interface complicates firefighting and increases the 
values that are at stake.
    Arguably the most significant aspect of last year's unprecedented 
emergency appropriation was the explicit acknowledgment on the part of 
Congress, the Administration, and the land management agencies that 
fire is not only a suppression problem but also a land management 
problem. Last year, the SAF expressly requested Congress provide 
increases in restoration, rehabilitation and fuels reduction projects 
over and above the administration's emergency request. We were pleased 
to see Congress do just that by providing $648 million for restoration 
and fuel reduction efforts in the appropriations package.
    Our intention is not to minimize the necessity of suppression 
activities. There is no doubt that we will have to continue to fight 
fire, even if we had endless resources to address land management 
needs. There is too much at stake, particularly in the wildland-urban 
interface where we will have to continue building capacity to fight 
fire due to the risks to people and property. However, focusing 
attention on the health of ecosystems and the land management activity 
necessary to reduce the risk of fire is a welcome change. We strongly 
encourage the Congress to continue and increase this funding.
    Since we will have to prioritize where the limited funding 
available for this work will be most effective, we suggest focusing on 
the wildland-urban interface. This does not mean that we should not 
treat more remote areas. There are compelling reasons to work on other 
areas of our national forests, however, our first priority ought to be 
to protect human life and property. Though much of the fuel problem is 
on federal lands, the solutions rest with a range of stakeholders. We 
are encouraged that the Administration and the land management agencies 
are working cooperatively with the state forestry agencies, state land 
boards, volunteer and local fire departments, and local communities 
both to determine priority treatment areas, and to conduct the work 
where possible.
    We need coordinated leadership from all federal agencies, not just 
the Forest Service and BLM. The National Fire Plan provides a framework 
for that coordination, and other federal agencies should be engaged in 
a dialogue about fire priorities. The Departments of Defense, Energy, 
and Commerce, and agencies such as the National Marine Fisheries 
Service, Federal Emergency Management Agency, National Weather Service, 
United States Fire Administration, United States Geological Survey, and 
other agencies all play important roles in wildland fire management. 
The federal family needs to work in a coordinated fashion, as we will 
not have success if federal agencies work independently of each other 
and their state and community partners.
    In addition, some adjustments will likely be needed in the federal 
agencies' Most Efficient Level (MEL) analysis system. Currently the 
method for determining MEL only considers likely suppression needs on 
federal lands and therefore does not adequately address the wildland-
urban interface.
    We hope this year's Appropriations bill will follow through on the 
commitment to a national long-term solution, and that this committee 
will continue to perform oversight to make sure the land management 
agencies follow through on that commitment. Additionally, we believe 
there are certain barriers to the BLM, and the Forest Service in 
particular, to treating our fire problems with greater efficiency. We 
hope this committee will continue to examine those issues, and possibly 
offer bipartisan legislative solutions.

                                BARRIERS

    In the FY 2001 appropriations bill Congress provided $401 million 
for fuel reduction projects in the wildland-urban interface. It has 
come to our attention that a significant portion of Forest Service fuel 
reduction projects will be outside of these areas, and have not 
adequately involved communities in the decision-making process. While 
this is understandable, it is also regrettable. The Forest Service has 
to show progress with this significant increase in funding, but to be 
successful they have had to resort to projects that have already been 
through the NEPA process, and in some cases Section 7 consultation 
under the Endangered Species Act. The Agency has had to resort to 
implementing preplanned projects because they cannot implement fuels 
reduction projects in less than one year. This has caused SAF to ask 
what are the barriers to the Forest Service being the responsive agency 
we know it wants to be, and one that involves local communities. In 
fact, we have developed a proposal to examine that issue, and are 
currently seeking funding to conduct that work.
    The Forest Service plans to conduct fuel reduction projects on 1.8 
million acres using $205.6 million. We know that in subsequent years 
the Forest Service will do a better job of implementing fuel reduction 
projects. However, we believe there are authority changes that may help 
them better implement their goals. For fuel reduction projects we 
believe Congress could:

  <bullet> Adopt the BLM appeals process for the National Forest 
        System, including the administrative law functions currently in 
        use by the Interior Board of Land Appeals.
  <bullet> Increase the requirements for filing an administrative 
        appeal by requiring participation in the decision process 
        related to the specific decision.
  <bullet> Revise the National Environmental Policy Act decision 
        process in the following way. First, publish a scoping document 
        that lists alternatives but does not propose a preferred 
        option. Second, propose a resource management plan or 
        management action based on the scoping document and public 
        comments received in the first round. The proposed plan or 
        action is then subject to public comment and review. Third, 
        make a formal decision.

    Once we conduct our analysis of the barriers the Forest Service 
faces, we will make more concrete suggestions. Mr. Chairman, we believe 
this Committee has done an excellent job exploring these issues in 
recent years, both by examining our report entitled Forest of Discord, 
and your past focus on comprehensive reform. We hope this Committee 
will continue to explore the ideas in our report, this committee's 
thoughts on reform, and of the ideas of those who want to find 
solutions to these challenges. We believe many of these barriers could 
be removed by implementing some of the concepts that have come before 
this committee in the last few years.

                       COMMERCIAL TIMBER HARVEST

    Simply stated, we want to ensure that commercial timber harvest 
will be considered as one tool among many to address the hazardous 
fuels problem. If trees that need to be removed are of commercial size, 
and the land management agencies follow environmental safeguards, then 
there is no reason the agency should not sell the timber. Selling the 
materials that result from fuel reduction projects will reduce the 
burden on taxpayers, and stimulate economies. Currently the United 
States is a net importer of wood products. It seems inappropriate to 
not utilize forest products here in the United States.
    As a practical matter, mechanically treating stands will include 
commercial logging. Some critics characterize logging as wholesale 
ecological destruction. This is just not true. The science is clear: 
Logging can help us out of this overstocked situation by removing 
materials that intensify wildfires. While the majority of these fire 
problems cannot be addressed through commercial logging, it is one tool 
available to managers, and it should be utilized. Much of the work will 
consist of pre-commercial thinnings as well as potentially commercial 
thinnings. Additionally, much of the immediate fire problem we are 
facing is on shrub and grasslands that do not have much timber. We 
agree that innovative contracting mechanism such as Stewardship 
Contracting and other efforts that do not focus on merely offering 
timber volume for sale will be needed, and we believe you should direct 
the Forest Service to pursue these efforts vigorously including working 
with Congress where new authority may be necessary.
    We understand that former Chief Dombeck has stated that no 
emergency money will be used to conduct commercial timber sales. We 
hope that on-the-ground managers do not interpret this prohibition to 
mean that they are not to conduct commercial timber sales, nor to 
interfere with their management prescriptions. According to Forest 
Inventory and Analysis data, in the state of New Mexico, if every tree 
twelve inches in diameter and less were harvested, the forests of the 
state would still be significantly overstocked. We stress the need for 
environmental safeguards and proper planning when conducting management 
activities. Additionally, as Americans we should be proud to use timber 
from our national forests. Some of the best natural resource 
professionals in the world plan national forest management activities. 
They do so with an extensive public involvement process, and ensure 
strict adherence to environmental laws. Consumers should feel good 
about using forest products from national forests.

              LOCAL DECISION-MAKING AND CAPACITY BUILDING

    State governments share responsibility with their federal 
counterparts for the administration of many resources and public 
services within their boundaries. This intergovernmental partnership is 
critical for providing safe and effective responses to wildland fire, 
especially in the wildland-urban interface where initial attack is 
conducted by volunteer, local, county, state or federal firefighters 
regardless of where the fire started.
    We fully support the overall approach to the issue espoused by the 
Western Governors Association. The Governors met face-to-face with the 
Secretaries of Agriculture and Interior in September 2000 and 
emphasized that their priorities for both short and long-term wildfire 
response are as follows:

  <bullet> Full state involvement in all relevant planning, 
        prioritization, decision-making and implementation processes at 
        the national, regional and local levels;
  <bullet> Funding and implementation of rehabilitation, hazard 
        reduction, and ecosystem restoration projects across all lands, 
        regardless of ownership; and
  <bullet> Development and funding of a long-term (10+ years), 
        intergovernmental strategy to address ``the wildland fire and 
        hazardous fuels situation as well as the needs for habitat 
        restoration and rehabilitation in the Nation.''

    Congress also recognized the importance of involving state 
decision-makers in the FY 2001 appropriations bill by stating in 
several instances that their involvement and capacity building was 
critical to the success of the effort. It appears that the states and 
the federal agencies have heard Congress on this point. There is an 
enhanced level of state-federal partnerships beginning to develop in 
many states as federal agencies are faced with the task of identifying 
projects and allocating increased levels of funding according to both 
Congressional and Administrative direction. We hope this process 
continues, and that the states and federal government begin to work 
together on many aspects of land management.
    It is important to note that each of these partnerships has been 
strengthened by the availability of increased funding to state and 
community assistance programs. These additional dollars for cooperative 
fuels reduction on non-federal lands, for training and equipping of 
local fire departments, and for assistance to communities impacted by 
wildland fire greatly increase the ability of non-federal entities to 
participate fully in large-scale project planning and prioritization. 
Moreover, these are the critical components to reducing the risk to 
life and property in the wildland-urban interface, which is creating 
unprecedented levels of complexity for wildland firefighters from coast 
to coast.
    While we believe the partnership between the state and federal 
governments continues to improve, we are anxious to see similar 
partnerships with local communities. Communities must be part of the 
solutions to our wildland fire issues, and we must build their capacity 
to be involved in these discussions. In many ways they have the most at 
stake, but the fewest resources and the smallest voice. This must 
change if the National Fire Plan is to be viewed as a success.

                                RESEARCH

    Cost-effective and sustainable fire management depends on a sound 
and vigorous program of scientific discovery, validation, and 
application, and should include partnerships with colleges, 
universities, and private sector research units in order to reap the 
best and most effective results. Many of the key barriers to the 
implementation of the National Fire Plan stem from the lack of 
scientific knowledge about the effectiveness and the effects of fire 
and fuels management. Because of the increased incidence of extreme 
fires, the growing complexity of the fire management situation, and the 
vital link between fire management and land management policy, it is 
imperative that we have a strong research and development program.
    Fire operations today benefit from wise investments made in fire 
research in previous years. But improvements to meet the future demands 
in fire management will also require aggressive investment. 
Unfortunately, the R&D capacities of the USDA Forest Service and the 
Department of Interior have been severely constrained.
    Examples of some of the key research questions that need to be 
explored include:

  <bullet> Improving long-term forecasts for fire season severity and 
        extreme fire events.
  <bullet> Improving organizational effectiveness and safety practices.
  <bullet> Effectiveness of Burn Area Emergency Rehabilitation (BAER) 
        treatments on the risk of extreme water and mudflows.
  <bullet> The effects of wildfire (with or without post fire 
        treatments) on habitat for terrestrial, aquatic, and riparian 
        species.
  <bullet> Development of integrated silvicultural, processing, and 
        marketing systems to economically reduce fire hazards.
  <bullet> Utilization research at the Forest Products Laboratory 
        designed to find value-added opportunities for small diameter 
        wood.
  <bullet> Effects of fuel treatment options on air quality, 
        watersheds, habitat for threatened and endangered fish and 
        wildlife, and public opinion.
  <bullet> Better understanding of public knowledge, beliefs, and 
        attitudes about fire and fire management.
  <bullet> Knowledge of social and economic impacts of hazardous fuels 
        reduction, fire rehabilitation and restoration activities.
  <bullet> Understanding the barriers to fuel reduction--and the 
        opportunities for utilizing economically marginal by-products 
        of fire management.
  <bullet> Learning new ways to reduce the vulnerability of communities 
        and home.
  <bullet> Fire behavior in complex fuels--understanding the impact of 
        variability in fuels.
  <bullet> Fuel moisture dynamics--live fuels and moisture effects that 
        are not covered in existing models.
  <bullet> Predicting fire injury to plants and soil--the basis for 
        estimates of higher level, more integrated prediction.

    The base fire research budget (FY 2000 and pre-Fire Plan 2001) for 
the Forest Service is about two percent of its fire expenditures. Total 
investment in fire research is only 1/4 to 1/2 of one percent of the 
total economic activity caused by fire, including suppression costs by 
federal and state agencies, estimated at $5-10 billion per year. This 
is a pitifully small foundation effort for a so-called ``science-
based'' program. The consequences of under funding R&D include 
inefficiency, vulnerability to litigation, reduced safety of 
firefighters and the public, and the possibility of large-scale 
ecological and economic mistakes. Congress, the administration, and the 
land management agencies need to work together to secure increases in 
funding, improve accountability, and restructure how these funds are 
allocated.

                               CONCLUSION

    For this plan to be successful we must make long-term commitments 
to funding, remove barriers that prevent success, use all the 
management tools available, treat fire as a land management problem, 
involve local decision-making, and strengthen our research efforts. Too 
often we have searched for short-term solutions. Twelve years ago Dr. 
Jim Agee, a fire ecologist with the National Park Service, cautioned 
that:

    ``. . . the large wildfire years, such as 1987 and 1988 in the 
West, will encourage innovative fuel treatments, but in several years' 
time the threat of such fires will have diminished in the public's 
eyes, while anxiety about potential prescribed fire control and smoke 
problems [as well as other fuel control methods] will be freshly 
renewed each season.''

    While the challenges may seem huge, there is no doubt that failure 
will result in major damage to communities and our nation's forests.
    Last summers' fires raged in part because policy gridlock has 
prevented forest mangers from doing what it takes to address the 
conditions that lead to catastrophic wildfires. A forest manager can 
take steps to alleviate these conditions by removing combustible 
material and mechanically removing dead and dying trees from at-risk 
forests, particularly in the wildland-urban interface, and sensibly 
reintroducing fire to a landscape that has been starved of it for 
years. Forest managers have made mistakes in the past, and there is no 
doubt that we will make some in the future, but the current situation 
guarantees continued failures as managers are resigned to do very 
little to address these problems. We hope that this committee will 
continue to urge for adequate funding, and to explore changes in 
authority that will help end this gridlock.
    Our Nation's forests cover one-third of the land area of the 
country and are unequalled in their value to people and our economy. 
They are far too valuable not to be managed utilizing the best science 
and experience possible. Forest resource management decisions that we 
make today will be reflected in the forests of the 22nd century and 
beyond. We must do it right today if we are to maintain the integrity 
and productivity of these forests in perpetuity.

    Senator Craig. Doctor, thank you very much.
    A couple of questions. I know the hour is late and you all 
have been very patient. I apologize for the timing here today.
    For the record, I am curious. How many of you as 
individuals or organizations supported the Clinton 
administration's National Fire Plan and what is now known as 
the Domenici-Feinstein Happy Forest Urban Interface Fire 
Reduction Program? Did The Wilderness Society support those, do 
you know?
    Dr. Bancroft. We support the fire plan. We think it is a 
very impressive plan and it needs some more work on it. I am 
not familiar with the other. I would have to get back with The 
Wilderness Society and ask some other people on that.
    Senator Craig. I would like to know.
    Steve.
    Mr. Holmer. American Lands feels like the fire plan could 
be improved.
    Senator Craig. Did you support it originally when it was 
being talked about and implemented and then we were funding it?
    Mr. Holmer. Yes, we were very involved in the discussions 
about it. There is a serious lack of accountability. If the 
agency does not do the fire plan, for example, there is no 
repercussion. So, we would like to see a little greater 
accountability built into the plan.
    We opposed the Domenici amendment last year primarily 
because it lacked the kind of environmental safeguards that we 
felt were necessary to allow us to support it. If there had 
been a clear definition of the urban/wildlands interface, a 
clear limitation on the cutting of large trees, limitations on 
entering roadless areas and riparian zones and habitat for 
threatened and endangered species, we could have probably 
supported that, but none of those safeguards were written into 
the language.
    Senator Craig. Mr. Nelson.
    Mr. Nelson. I believe we have supported it, yes.
    Dr. Smith. As a society, we do not support per se. We are 
looking at and evaluating the implications of the bill and how 
it might impact on the resource from a biologic aspect, from a 
social aspect, and from an economic aspect. So, there are parts 
that we agree with based on those three parts and parts that we 
do not agree with.
    Senator Craig. I asked the question for what probably is 
the obvious reason. To support the plan and be effectively 
critical of it is one thing. To not have supported the plan and 
be critical of it in my, I hope, objective opinion is somewhat 
different. If you are critical in the beginning and you are 
still critical, it means you cannot be very objective in 
offering good advice. I am being a bit blunt, Steve.
    I find it fascinating at a time when we are struggling to 
change the entire dynamics of forest management in a direction 
that you have been an advocate of for some time, that there 
does not seem to be anything that quite works, at least in your 
definition. I do not mean to single you out.
    I spend a great deal of time with climate change. I spend a 
great deal of time in Western Europe trying to keep the 
Europeans and everybody else from disallowing us to use our 
forests as credits for sequestration. I do know that a healthy 
vibrant forest is much greater a sequester of carbon than an 
old, dead or dying forest. In fact, the sequestration models 
that we are working on now I think are going to come back even 
suggesting scientifically that our forests may even sequester 
more carbon than was originally thought.
    So, I am not quite sure I understand the dynamics. If we 
are interested in using our forests for environmental purposes 
and one of those being the ability to sequester carbon--because 
as hard as we try, I doubt that we will ever get our carbon 
levels down, unless we shut our economies down to a post-99 or 
less level, but we should work to try through technologies and 
all other things and through the vibrance of a healthy forest 
that has a capacity to sequester. I do not know how you get 
there if in the end you have forests that are going to be 
subject to catastrophic fires that wipe out vast acreages and 
put millions of tons of carbon in the air when we might be able 
to extract carbon and keep it from getting into the atmosphere 
if we are cautious about how we handle it.
    It is a bit of a side note from where we are with forests, 
but I believe, my friend, it directly relates today more than 
it ever has before.
    Mr. Holmer. Yes. I think we do need to take a broad 
perspective. It is our understanding on the sequestration 
question that in fact old growth forests are where you have the 
highest level of carbon. In fact, in logging of old growth 
forests, you see a substantial release. I know that some people 
would argue that by keeping things in forest products, that in 
fact we will sequester the carbon that way.
    Senator Craig. A little.
    Mr. Holmer. When this stuff goes into a landfill, it 
creates methane which is an even more powerful greenhouse gas. 
So, I do not think the science will really support that view 
either.
    We are interested in seeing real restoration, but in our 
view that often means taking what we consider to be harmful 
things out of good places. So, that might mean taking the cows 
out because the cows have been shown to increase fire risk over 
time. That means possibly taking roads out because the roads 
are not being maintained, but also humans are the highest 
reason you have fires. Some 88 percent of all fires are human 
caused. So, if you remove a road from an area, you might 
actually reduce the risk of an ignition in that area.
    We just think that there are other areas where the emphasis 
should be prioritized. If we are talking about thinning and the 
cutting of trees, again if that is happening in the urban/
wildland interface and there is not a commercial incentive to 
cut big trees, to cut too many trees, that is something that 
our community is likely to say, okay, you can go ahead and do 
that.
    But if it gets outside of those boundaries, I would say we 
are going to have to look at each project. Some of the projects 
that you mentioned are not acceptable and they are going to be 
subject to the usual contestation appeals and litigation, et 
cetera.
    Senator Craig. Well, Steve has kind of suggested the jump 
ball question. Do any one of you wish to comment on that before 
we adjourn the committee?
    Yes, Dr. Smith?
    Dr. Smith. I would like just to amplify your comment 
concerning the sequestration and all the issues involved in old 
growth. I think we have to keep in mind that old growth dies 
and something has to take its place. It is like any population. 
There are new individuals, medium-aged, old-aged, and they keep 
rotating from place to place. We have choices. We can use wood 
or it will burn or turn to carbon dioxide and water. That is 
the cycle. That is going to happen.
    And we have to be very much aware if we do not use wood in 
a manner that we know we can, environmentally sound, then we 
have to look at the substitutes and what are their costs 
environmentally in terms of energy, carbon, when we go to using 
steel, aluminum, plastics, oil products and so on that do much 
greater in terms of their energy consumption than using wood 
which we know is recyclable and we can grow it and we know how 
to do that.
    Senator Craig. Thank you.
    Yes.
    Dr. Bancroft. I just wanted to say that we have been very 
supportive of several of the projects. We have worked a lot 
over the last year on the Lakeview project in Oregon. Mike 
Anderson, who has been here and talked in front of you several 
times in the past, has been down there working extensively on 
that. We think that was a great opportunity.
    We also liked some of the projects in Idaho, the Silver 
Creek project in Boise National Forest and the Danskin and 
Gallagher fuel reduction projects. All of those appear to be 
good restoration projects focusing on thinning and 
reintroducing prescribed fire.
    We are also concerned on other projects like the Upper 
Platte project in Colorado where it is proposing, under the 
guise of restoration, to actually take out a lot of timber, 
including extending into roadless areas. So, we are really 
concerned when you get some of those big projects and they are 
not focused on restoration but more focused on timber 
harvesting.
    On your earlier question, I just wanted to say we are also 
very concerned about the contracting procedures in that we need 
to separate the actual removal of thin material from the 
selling of that. We think we may need to readdress some of 
those contracting procedures.
    We also agree that we need multi-year funding. It is hard 
for the Forest Service and these communities to plan into the 
future without some multi-year funding.
    Senator Craig. Thank you.
    Mr. Nelson, any additional comments?
    Mr. Nelson. Yes. I agree with your comments on the 
sequestration, but I think that that is a bit more complicated 
than really the issue at hand here. The fact remains there are 
72 million acres that the Forest Service has identified that 
are at risk of burning up in a wildfire. What we are trying to 
do--we being foresters and the Forest Service itself--are 
trying to come up with a strategy to reduce that risk. So, if 
nothing else, I want to make sure that we leave you with the 
magnitude of this problem. That is a lot of acres out there, 
and even though the Forest Service is doing 2 million acres a 
year, it is going to take a long time even at that rate.
    I would also like to add that the community panel that was 
up here--I have been involved with the Quincy Library group 
since 1993, 8 years.
    Senator Craig. I know you have.
    Mr. Nelson. We have done all those things. We excluded the 
California spotted owl areas. We excluded the riparian areas. 
We excluded the old growth areas, the roadless areas. We did 
all that. There were still a number of groups, two of which are 
on this panel, that opposed it right down the line, and it has 
yet to be implemented. So, I would say to you that we are on 
the right track, but we have to keep pushing forward here.
    Senator Craig. Well, thank you all very much for your time 
and your testimony. We appreciate it.
    Before I adjourn the committee, I wanted to introduce this 
group of young people who came in. Last year as Idaho citizens, 
some of them, they witnessed our skies turn black in Idaho with 
wildland fires that burned nearly a million acres of land in my 
State of Idaho, and to devastating environmental results, 
tragically enough.
    They happen to be an ag class from the College of Southern 
Idaho, and a few of them might end up being ranchers that would 
want to graze a few cattle, Steve.
    [Laughter.]
    Senator Craig. That is the options in this business that we 
have to work with.
    Anyway, thank you all very much for your testimony, and we 
will stand the committee at adjournment.
    [Whereupon, at 5:42 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                            Owens & Hurst Lumber Co., Inc.,
                                        Eureka, MT, March 13, 2001.
Senator Conrad Burns,
Chairman, Appropriations Committee Subcommittee on Interior, Dirksen 
        Senate Office Bldg., Washington, DC.
    Dear Senator Burns: I submit my testimony today on behalf of my 
community, a town that is laden with fear, apprehension, insecurity and 
distrust. Quite simply, Eureka, Montana, is going broke. Federal land 
management policies are bankrupting our schools, our historic way of 
life and more tragically, our spirit.
    Central to our community is a sawmill. A mill that for the past 20 
years has produced a majority of its product from dead and dying trees 
harvested initially from the Kootenai National Forest and more recently 
from the burned forest of Northern Alberta.
    On January 18, 2001, the mill permanently laid off approximately 
40% of its workforce, the primary reason being the unavailability of 
reasonably priced logs. Certainly, the current poor lumber market, 
brought about by foreign imports, was a contributor; but the fact 
remains, if the mill can process a cheap log, it can produce cheap 
lumber. Owens and Hurst has a dwindling supply of timber and most of it 
is expensive as a result of declining timber sales which fosters 
intense competition.
    Seven miles from the mill is the beginning of a charred forest 
created by last summer's fires, 25,000 acres containing enough timber 
to run the local mill for 3 to 4 years, 25,000 acres with a 
transportation system in place, none of it in roadless designation. The 
blackened and deteriorating timber still stands as the Forest Service 
plods through the lengthy NEPA process. Forest officials estimate the 
timber will be offered for sale this fall after it endures a long hot 
summer which will cause a massive amount of deterioration and a 
resultant loss of value. By their own estimates, nearly one third of 
the timber will be wasted this summer, a loss to the Federal treasury 
of over $2,000,000.
    In summary, as it now stands, the process is not acceptable, there 
are 25,000 acres of burned trees in a roaded area of the forest that 
need to be treated immediately. There is a willingness within our 
community supporting such an effort in addition to urban interface 
fuels reduction work. The pieces, parts and players are all in place, 
now the USDA Forest Service needs to perform their duties as 
responsible and responsive forest managers. Otherwise, while the Forest 
Service fiddles, Eureka will burn--again.
    Thank you for allowing me the opportunity to provide input to the 
subcommittee.
            Sincerely,
                                                 Jim Hurst,
                                                         President.
                                 ______
                                 
                              Pyramid Mountain Lumber Inc.,
                                   Seeley Lake, MT, March 14, 2001.
Senator Conrad Burns,
Chairman, Interior Appropriations Sub-Committee, Dirksen Senate Office 
        Bldg., Washington, DC.
    Dear Senator Burns: Pyramid Mountain Lumber, Inc. is a small, 
family owned business in the rural community of Seeley Lake, Montana. 
We have survived without a fee land base by developing and maintaining 
long term relationships with landowners, professionalism, vision and 
through the commitment of the Johnson Family and the Mood Family for 
over 50 years. Pyramid is proud of its 140 employees and the more than 
200 related jobs in logging, trucking, road building and various other 
support positions. We are optimistic about the potential for the Forest 
Products industry in Montana but, very concerned about the continued 
neglect of National Forest Lands and lack of active forest management.
    Fires of 2000, which blackened thousands of acres of Montana 
landscape, produced challenges but, also opportunities. The 
opportunities come from the strong broad based public support for 
active management to reduce forest fuels--including green sawlogs and 
salvaging forest products as soon as possible. The Forest Service is 
responding under the same tedious, cumbersome process which not only 
wastes natural resources but also, delays actions on the ground which 
would facilitate the recovery of these burned forests, reduce the 
public safety hazards, and restore healthy forests.
Example:
    Pyramid Mountain Lumber, Inc. third partied a Forest Service timber 
sale named Bear T.S. on the Bitterroot National Forest from Derby 
Lumber, Inc. in the fall of 1999. The entire 5300 acre sale area 
located between Sleeping child and the Skalkaho burned in August, 2000. 
Although Pyramid had not planned any harvest on Bear T.S. in 2000, we 
immediately expressed our interest in salvaging as soon as possible to 
recover the value in Ponderosa Pine and Douglas Fir. Approximately 50% 
of the logs we process in our converting facility are Ponderosa Pine 
which lose a minimum of 25% of their value when the logs become blue 
stained the next Spring after death by fire.
    Forest Service Foresters, Fire Specialists, Hydrologists, Soil 
Scientists, Wildlife and Fisheries Biologists, Engineers and Landscape 
Architects quickly reviewed the burned over Bear Drainage and came to 
resolution on treatments to salvage log and rehabilitate the drainage, 
including our 5300 acre sale area. Under the Catastrophic Damage Clause 
in all Forest Service contracts, the Contracting Officer has a great 
deal of flexibility and authority to resolve situations such as the 
Bear T.S. Historically, the agency would modify the contract--taking 
into account loss in values, increased, logging and manufacturing 
costs, and the need to act promptly to treat the sale area and expedite 
the recovery process on their forested landscapes.
    November, 2000 Pyramid was offered 3 options which OGC was willing 
to defend the Forest Service on in court as advised by the Department 
of Justice.
    Option 1: ``Cancellation by Mutual Agreement'' which is always an 
option and requires no decision.
    Option 2: Remark sale unit boundaries and trees to cut on 275 acres 
to represent the exact harvest prescription before the area burned and 
adjust contract rates to reflect increased logging and manufacturing 
costs and loss in value. This option includes harvesting green Douglas 
Fir which did not burn but, were to be cut under the original sale 
design. No new decision made.
    Option 3: Do Nothing. Wait for at least 12-18 months until the EIS 
is complete for the entire Bitterroot, assuming no appeals or 
litigation.
    Pyramid preferred Option 2 even though, the logic behind this 
alternative was incredibly conservative and not consistent with 
Professional Forester's and Specialist's opinions. The options were 
constrained by process and political agencies in Washington, D.C. but, 
Option 2 did provide a small volume on 5% of the burned over sale area 
which helped Pyramid operate its plant through the winter and provide 
high paying jobs in the small town of Seeley Lake. A normal 
interpretation and implementation of the Catastrophic Damage Clause 
would have produced enough additional volume in merchantable sawlogs to 
operate our mill for 4\1/2\ months.
    Small mills, such as ours, not only provide employment and the 
basis for economic diversification in rural communities but, also, we 
provide the infrastructure for Federal, State and Private Forest 
Landowners to actively manage their forested lands and maintain forest 
health, reduce forest fuels, provide defensible space, and implement 
restoration forestry treatments. We provide the outlet for forest 
products produced from such treatments which helps offset the 
tremendous cost of forest management. At the same time, we are 
supplying solid wood products to meet the demands of society and also, 
we're providing raw materials in the form of chips, shavings, sawdust, 
and hog fuel to plants producing paper, particleboard and power.
    Senator Burns, Pyramid appreciates your interest and attention in 
expediting salvage, active forest management and restoring our nations 
forests to a healthy condition. Time is of the essence, consequently, I 
have included a list of possible solutions to help expedite the 
processes which have constrained the Forest Service Professional's 
performance in managing this country's forests on behalf of the public. 
Should you or your staff have any questions, please contact me at your 
convenience.
            Respectfully,
                                             Gordon Sanders
                                                  Resource Manager.
                                 ______
                                 
                            Owens & Hurst Lumber Co., Inc.,
                                        Eureka, MT, March 15, 2001.
Bob Castaneda,
Forest Supervisor, Kootenai National Forest, 1101 U.S. Hwy. West, 
        Libby, MT.
    Dear Bob: Thank you for requesting my economic evaluation regarding 
the 25,000 acres of burned timber near Eureka from an action versus no 
action perspective. As you know, over six months have elapsed and the 
charred timber still stands, losing value every day. By the Forest 
Service's own admission, at least 11,000,000 board feet of timber will 
be ruined if removal isn't expedited, a volume that would supply our 
mill for five months on our current reduced operating schedule. As you 
are aware, this timber is located in an area that has a transportation 
system in place.
    If the 11,000,000 board feet were saved, it would in essence save 
65 jobs for nearly half a year, producing wages of approximately 
$1,500,000 at the mill plus another $500,000 or more in the woods for 
harvesting and restoration efforts, not to mention the Forest Service 
jobs associated with the project. Using the revolving multiplier, that 
could mean seven to ten million dollars worth of economic activity in 
Eureka and surrounding communities. Coincidentally, the Forest Service 
will lose the revenues from the sale of timber, revenues that could be 
returned to the land in the form of forest restoration activities, 
activities that will eventually be a cost to the Forest Service if no 
action is taken.
    In addition, had the burned timber been offered for sale in the 
fall of 2000 (as the state of Montana did) it would have probably 
prevented the permanent layoff of 40 workers at our company, a loss of 
over $1,500,000 in wages annually in the Eureka area. As a sidebar, 
local businesses have also been reducing their workforce and their 
hours, of operation, not to mention the school district has amended its 
free lunch program to accommodate residents who no longer can afford to 
provide lunches for their children.
    I have addressed the projected waste of wood, delayed restoration 
efforts and job losses resulting from the loss of 11,000,000 board 
feet; at the same time, I am very concerned about the continued 
deterioration of the wood left standing. You should realize by now that 
as our forests deteriorate so does our customary way of life. Social 
values charge, crime becomes more predominant and county government 
incurs the burden of providing more and more services with less 
revenues.
    There will be a substantial negative economic consequence to the 
Eureka area if the remaining burned timber is not advertised for sale 
in an expedited fashion, while it still has enough value to turn it 
into lumber of a quality that allows our company or others to compete 
with lumber produced and imported by foreign countries.
    To be quite blunt, I will assess the direction of the USFS timber 
sale program this summer, focusing on the fire areas. Based upon your 
performance I will make a decision either to go to auction or keep 
operating. In good conscience I cannot let the lives of my employees 
hinge on false hopes created by flawed projections and missed deadlines 
which have become all to common within the Forest Service. The 
devastation caused by our closing would be of a magnitude not felt in 
this area since the Great Depression. To elaborate, the job count would 
go like this:

        Owens and Hurst Lumber Company............................    65
        Lone Pine Timber Industries...............................    35
        Four logging contractors..................................    20
        Independent log haulers...................................    10
        Eureka Pellet Mills.......................................    30
                                                                  ______
          Total industry related jobs.............................   160

    The elimination of one hundred and sixty jobs would suck 
approximately six million dollars, in wages only, from a local economy 
that is already staggering from the loss of forty positions. The 
societal upheaval that would result from such an unnecessary event is 
unimaginable.
    From a forest health standpoint, the demise of yet another mill 
creates problems of a huge magnitude for the Forest Service. If the 
agency takes an aggressive move toward forest health restoration 
projects the necessary infrastructure to do the work and process the 
material will be lost, as evidenced by similar situations in New Mexico 
and Arizona. What will be the resultant cost to the government and the 
environment?
    Your people openly admit that without a mill in Eureka their 
opportunities for improving forest health diminish greatly. They have 
also expressed deep concern about their ability to fight wildfires 
without the expertise and equipment provided by our local logging 
contractors.
    In summary, facts indicate that if 11,000,000 bf of timber is 
wasted, a loss of $7,000,000 to $10,000,000 in economic activity plus 
other negative consequences will be the result. Regarding the remaining 
volume of burned timber, it is imperative to remove fiber and begin the 
reforestation process rapidly, to delay has ominous consequences 
neither you or I can fully comprehend.
            Thank you,
                                                         Jim Hurst.
                                 ______
                                 
                                              Forest Trust,
                                      Santa Fe, NM, March 29, 2001.
Senator Larry Craig,
Subcommittee on Forests and Public Land Management, Attention: Calli 
        Daly, Hart Senate Office Building, Washington, DC.
    Dear Senator Craig: Enclosed are comments of the Forest Trust on 
implementation of the National Fire Plan. Please include these comments 
in the record for the Subcommittee on Forests and Public Land 
Management's hearing of Thursday, March 29, 2001.
            Sincerely,
                                       Laura Falk McCarthy,
                                                Assistant Director.
[Enclosure].
     Statement of Laura McCarthy, Assistant Director, Forest Trust
    On behalf of the Forest Trust, a New Mexico-based organization 
dedicated to protecting forest ecosystems and improving the lives of 
people in rural communities, I am pleased to share our observations 
about how the national fire plan is being implemented in the Southwest. 
Our staff includes seven professional foresters and we work principally 
with rural communities, landowners, and Forest Service personnel to 
meet our goals.
    We have noted several wide discrepancies between the plans and 
progress reports prepared by the national fire team and implementation 
of the national fire plan in the Southwest. In this testimony, I will 
provide specific examples of what we have heard the national fire team 
say and how we have seen their direction carried out in our region and 
in New Mexico in particular.

          FOCUS ON REDUCING FIRE THREAT TO COMMUNITIES AT RISK

    The national fire team published a preliminary list of communities 
at risk in the Federal Register of January 4, 2001 as a first step to 
ensure that agency efforts focus on reducing fire risk in the areas 
adjacent to these communities. The national fire team also requested 
that each national forest provide a list of fuel reduction projects 
analyzed in accordance with the National Environmental Policy Act 
(NEPA). Projects on these lists are considered top candidates for 
implementation in FY 2001 with Title IV funding. However, the Forest 
Service has not outlined a procedure to ensure that these projects will 
benefit the communities at risk.
    To illustrate this concern, I compared the list of NEPA-ready fuel 
reduction projects for the Santa Fe and Carson National Forests to the 
list of communities at risk that was published in the Federal Register. 
I found that only 6 of the 40 proposed NEPA ready projects are in 
communities at risk. The implication is that it is more important to 
meet the fuel reduction target for 2001 than to ensure that the funds 
for fuel reduction treatments benefit the communities most at risk.

             TAKING ACTION IN THE URBAN WILDLAND INTERFACE

    The Federal Register publication suggests that one definition of 
the urban wildland interface be adopted. However, some regions and 
national forests have already created their own definitions of urban 
wildland interface and are using them to plan fuel reduction 
treatments. I asked a number of Forest Service personnel in Region 3 
their opinion of the proposed definition. Most were unaware that a 
draft definition had been published in the Federal Register. One person 
who knew of the definition informed me that the selection would make 
little difference to decisions about where to implement fuel reduction 
treatments. I found this comment disturbing because without a standard 
definition of urban wildland interface, there will be no consistency in 
the use of emergency fire funds. Furthermore, the attitude that such a 
definition will make no real difference is indicative of the disconnect 
between the national fire team's rhetoric and the way the fire plan is 
being carried out on the ground.
    The selection of a definition of urban wildland interface will 
guide the agency's decisions about where to apply fuel management 
treatments and how to expend the emergency funds. For example, the 
definition of urban wildland interface will determine whether emergency 
funds can be used to thin forests that are categorized as high-risk but 
are miles from population centers. In another example from the 
Southwest, the Forest Service drafted a preliminary list of fire 
prescriptions for vegetative types within the urban wildland interface. 
The prescriptions call for using basal area standards instead of 
silvicultural guidelines to thin a diverse range of ponderosa pine and 
mixed conifer forest types. Reducing basal areas to 40 to 60 square 
feet per acre may be indeed by needed in densely populated areas, but 
is not necessarily appropriate in rural settings with scattered 
structures.
    The definition of urban wildland interface is a significant policy 
decision and the Forest Service needs to involve the public in its 
formulation. The process proposed in the Federal Register is reasonable 
and should be taken seriously within the agency. Once a definition is 
adopted, the Forest Service will need to assure that all levels of the 
organization use the definition in the same manner.

        COLLABORATION WITH CITIZENS AND GOVERNMENT AT ALL LEVELS

    The conference report for the 2001 Interior and Related Agencies 
Appropriation Act explicitly directs the agencies to collaborate with 
state, local, and tribal governments and citizens. My observation of 
the Southwest is that some collaboration is taking place, but that it 
is limited to relationship building among the various levels of 
government. While many see interagency collaboration as welcome 
progress, the Forest Trust is concerned that citizens and community 
groups are being left-out of the process. For example, a recent meeting 
in Albuquerque, NM to kick-off national fire plan implementation in the 
Southwest was well attended by State, Tribal and local government 
officials, but few community representatives were informed of the 
meeting. When I learned of the meeting, I made three attempts to get 
information about it. I was first told, by a regional fire plan 
coordinator, that the meeting was by invitation only. Despite the fact 
that the regional fire team intended the meeting to be open to the 
public, the message I received was that the process was closed.
    Collaboration is a Congressional expectation that is hard to 
measure. Furthermore, it takes a considerable amount of time to foster. 
Yet, the Forest Service needs to be accountable for the collaborative 
goals in the Appropriation Bill, even if that means emphasizing 
relationships with communities over quick accomplishment of targets.
    Experience in the Southwest has demonstrated that projects that are 
planned and implemented without collaboration are more likely to end up 
in an appeal. By contrast, when planning proceeds slowly and involves 
many stakeholders, there tend to be fewer impediments to 
implementation. Thus, we recommend that the Forest Service be asked to 
create some measures of successful collaboration to accompany the 
accomplishment reporting to Congress.

                     FOCUS OF FIRE-RELATED RESEARCH

    The Title IV funds present a great opportunity to shift the Forest 
Service's focus away from research-as-usual to address the compelling 
need for information about the effectiveness of fuel management 
treatments. Ross Gorte of the Congressional Research Service pointed to 
one of the most significant research needs in his memo of September 20, 
2000, where he states that ``It is logical, and widely accepted, that 
reducing fuels will reduce the severity of wildfires, but no research 
literature documenting this relationship has been found.'' Therefore, 
we were surprised to learn how few of the research projects funded by 
Title IV address the effectiveness of fuel management treatments at 
reducing fire intensity and the frequency and severity of crown fires. 
The majority of research projects are not directly linked to the issues 
raised by the 2000 fire season, for example research about fire in 
Northeastern oak forests. We are concerned that little of the 
authorized research will be useful to inform management decisions in 
the forests that are most at risk of catastrophic fire.

                          VIEW FROM THE FIELD

    The view from the field is that implementation of the national fire 
plan is progressing rapidly and unevenly. The Forest Trust appreciates 
the difficulty of the implementation task and commends the Forest 
Service for its efforts to get the job done. We are grateful for the 
opportunity to share with the Subcommittee our observations of the 
discrepancies between the intent of the national fire team and how the 
fire plan is being carried out on the ground. We do this not to be 
critical, but to provide information that will be useful to evaluate 
the progress of program.
                                 ______
                                 
                The Watershed Research and Training Center,
                                       Hayfork, CA, March 31, 2001.
Senator Larry Craig,
Chairman, Subcommittee on Forests and Public Land Management, Committee 
        on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Thank you for the opportunity to testify at the 
hearing on March 29, 2001 on the National Fire Plan. Your commitment to 
ensuring that communities have a voice in the process is extraordinary. 
It was empowering to be on a panel with four other community leaders 
struggling with the same issues my community faces.
    The purpose of this letter is two-fold. First, I would offer some 
additional thoughts on how the fire plan can serve as a component to 
our greater efforts to rebuild rural communities. Second, I would like 
to augment my answer to your final question regarding the National Fire 
Plan and the criteria for building a sustainable local industry to 
utilize the by-products of fuels reduction and ecosystem restoration 
projects.
    While we are very enthusiastic about the National Fire Plan, and 
applaud the investment that Congress has made, we recognize that the 
land management agencies need a consistent program of work for all 
aspects of forest restoration and maintenance. These include vegetation 
management to restore water quality and quantity, protection of 
wildlife and aquatic species habitat, soil integrity and other critical 
components that are necessary for critical ecological processes to take 
place. We hope that the National Fire Plan serves as a way to focus 
work around hazardous fuels reduction but recognize that its 
effectiveness will depend on the agency having a consistent program of 
work in all its program areas.
    In response to your question, I would like to add the following 
into the record:
    1. Working Together for Rural America: 2000 and Beyond
    Part A--Integrating Natural Resource Management and Rural Community 
Assistance A strategic plan for the USDA Forest Service Economic Action 
Programs September 2000--FS-681 (attached)
    This strategy was written through a collaborative stakeholder 
process, which provided information for the formation of this plan. It 
outlines an approach to reconnect people in rural America to a working 
landscape through activities of the Rural Community Assistance Program, 
the Forest Products Conservation and Recycling Program, and the Market 
Development and Expansion Program. The current challenge is to 
integrate these EAP (Economic Acton Program) components with the land 
management activities of the National Forest System. Please ask the 
National Forest System leaders to help you understand how they are 
helping to implement the goals of this strategic plan as they carry out 
the National Fire Plan.
    2. Our sense of the essential elements to help create community-
based approaches to economically sustainable and self-financing small 
scale industries in rural areas in relation to the fire plan are:
    A. A consistent program of work from the Forest Service and BLM, 
including vegetation management for hazardous fuels as well as other 
necessary watershed restoration work, including wildlife habitat 
rehabilitation, stream restoration, noxious week removal, road work 
data collection, sustainable forestry, and monitoring.
    B. The expansion of the Economic Action Programs of Cooperative 
Forestry. These programs are usually under-funded and heavily 
earmarked. They are extremely critical to the development of community-
based, small-scale business development. They need to be available to 
more rural forested communities. Community assistance to both federal 
lands communities and private forest land communities is essential for 
the successful implementation of a fire plan integrated with landscape 
level restoration activities and community fire protection.
    C. The expansion of the amount of technical expertise available 
from the Madison National Forest Products Laboratory, the Forest 
Service Research Stations, and University Extension Research Units. 
These institutions have proven invaluable as local communities have 
searched for the highest and best use of bio-mass from fuels reduction 
and forest restoration activities.
    D. Credit, business assistance, and marketing assistance from 
focused application of existing EDA, RDA, and SBA programs, including 
revolving loan funds.
    E. Pilot projects in small-scale bio-mass electrical generation 
plants integrated with local value-added manufacturing plants. A 
percentage of the net revenue from each plant should contribute to a 
``watershed restoration and maintenance trust fund'' for long-term 
forest health activities (through the FERC license negotiations).
    F. Focused application of SBA Hub-zone contracting authorities for 
both BLM and the Forest Service as they award service contracts related 
to the National Fire Plan Title 4 projects.
    G. It is essential for us to understand the outcomes of the 
implementation of the National Fire Plan and specifically how the 
social, economic, and ecological goals are being met. A monitoring 
report for Congress should show:
     measures of social impacts: who gets the work and who benefits
    1. How many BLM and FS new hires under the Fire Plan came from HUB-
Zone counties? Hub-Zones are census blocks which significantly exceed 
the state averages in poverty and unemployment. They are a SBA 
designation.
    2. How much bio-mass was utilized in businesses within the county 
where the fuels reduction project was implemented.
    3. What percentage of contracts were awarded locally (within the 
county where the work was implemented)? What percentage of contract 
dollars were awarded locally.
    4. What percentage of contracts were awarded using the new Title IV 
Authorities.
    5. How many acres were treated which were identified in a 
community-based fire plan integrated with an agency strategic fire plan 
or another landscape level strategic fire plan.
             measures of economic impacts of the fire plan
    1. How many new businesses were established in value-added 
manufacturing and service contract work.
    2. What percentage of bio-mass removed in fuels reduction projects 
was utilized.
            measures of ecological impacts of the fire plan
    1. How many communities-at-risk have completed fuels treatments 
adjacent to them which significantly alter the behavior of fire on the 
landscape as revealed through fire behavior modeling, comparing pre-
treatment behavior to post treatment behavior. (In other words, was the 
scale of the fuels reduction treatments sufficient to alter fire 
behavior. The only way to check is through fire behavior models.)
    2. What percentage of the fuels reduction treatments (prescribed 
fire, mechanical treatments, mechanical treatments with fire) met the 
full management prescription. How many treated areas met with water 
quality soil covering standards and water quality ``best management 
practices''.
    Thank you for the opportunity to add to my testimony of March 29th. 
Together we can re-build the workforce and manufacturing infrastructure 
for a sustainable rural America as we continue to use ``small-scale'' 
approaches on a large scale.
            Sincerely,
                                            Lynn Jungwirth,
                                                Executive Director.
                                 ______
                                 
   Statement of Rick Brown, Conservation Science Support Center, and 
              Gregory Aplet, Ph.D., The Wilderness Society

                              INTRODUCTION

    Much of the forest landscape in the Intermountain West has been 
transformed. Beginning with livestock grazing in the second half of the 
19th century and continuing with decades of logging, road-building and 
fire exclusion through the 20th century, these changes have degraded 
watersheds and habitat for fish and wildlife. These altered forests 
also respond very differently to fire, sometimes to the further 
detriment of fish, wildlife, and watersheds, as well as endangering the 
lives and property of people who have chosen to live within and 
adjacent to forest lands.
    While these problems can appear daunting, methods to address many 
of them are being developed and refined. Unfortunately, progress lags 
behind potential for a host of reasons including institutional inertia, 
commercial pressures, inter-agency conflicts, budgetary limitations, 
lack of political will, and the aesthetic preferences of individual 
landowners. Ecological problems are pervasive, and in one sense 
restorative actions taken almost anywhere would provide some benefit. 
In light of the risk of loss of populations and species of fish and 
wildlife, the needs of local human communities, and limited resources 
available for restoration efforts, what is needed are strategically 
focused, integrated approaches that will get maximum benefits for a 
given cost while minimizing unintended adverse effects. Focusing 
treatments in high priority areas while integrating aquatic, 
terrestrial, and socio-economic considerations should increase the 
probability of success of restoring healthy landscapes.
    Neither haste nor hesitation is acceptable. Millions of acres in 
the Intermountain West could use some form of treatment (including 
simple rest from past and ongoing abuses) if we are to avoid 
unacceptable effects on wildlife, fish, and human communities. Problems 
150 years in the making will take many decades to correct. The needs 
are great and our knowledge is adequate to begin but the gaps in our 
knowledge are so substantial that these tasks must be approached with 
humility and a commitment to learn from both our successes and 
mistakes.

                      FOREST TYPES AND CONDITIONS

    While the character and distribution of forests are determined by a 
complex of factors, including differences in slope and aspect, the 
distinctive responses of each species of tree to environmental factors, 
fire history (including burning by Native Americans), and climatic 
variation, discussion of the role of fire can be facilitated by a 
simplifying characterization of Intermountain forests. Generally, lower 
elevations are dominated by dry forests of ponderosa pine (and 
sometimes larch and Douglas-fir). Historically, these forests were 
shaped by what is sometimes referred to as a ``stand-maintenance'' fire 
regime of low-severity, frequent fires that generally burned grasses, 
brush, small trees, and fallen needles and branches, but had little 
effect on older trees with thick insulating bark. Death of lower 
branches from shading or the effects of fire raised the bottom of the 
canopy to the point where it was not adversely affected by the typical 
fire. Periodically, small groups of older trees were killed by bark 
beetles and, often after falling, would be consumed by fire. This would 
leave exposed mineral soil and an opening in the canopy, ideal 
conditions for establishment of a group of young pine trees, which 
would be thinned by competition, insects, disease and fire as they grew 
older, eventually replacing the patch of older trees that previously 
occupied the site. This dynamic would repeat across the landscape, 
producing extensive stands of large old trees that appeared even-aged 
but were actually comprised of many patches of trees of different ages 
(Weaver 1943). The clearing effects of fire produced the classic 
``park-like'' stands of old-growth pine described by early settlers.
    While some areas still resemble historic conditions, it is these 
dry-site forests of ponderosa pine that typically have been changed the 
most by human activities in the last 150 years. Livestock grazing 
depleted the fine fuels that carried the light, frequent fires, while 
their hooves exposed mineral soil seedbeds for young ponderosa pine 
(Swetnam et al. 1999). Fire suppression, beginning after 1910 and 
becoming effective around 1940, allowed far more of these trees to 
persist, while logging removed most of the large old trees. These 
forests may have been deprived of ten or more natural fire cycles. The 
result is forests that, due to continuing fire suppression, tend to 
burn less frequently, but when they do burn, the fire is much more 
likely to reach the forest canopy and spread as a crown fire, killing 
many or all of the overstory trees. A historically low-severity fire 
regime has turned into a high-severity or mixed-severity fire regime, a 
change that has occurred over millions of acres in the West (USDA 
Forest Service 2000a, Skinner and Chang 1996). These higher severity 
fires are more apt to have detrimental effects on soils and watersheds, 
as well as wildlife habitat. They can also have serious implications 
for humans who have chosen to settle in and around these forests.
    Mid-elevation forests are more difficult to describe in general 
terms. Cooler, moister conditions allow less drought- and fire-tolerant 
species such as grand fir and white fir, as well as Douglas-fir, 
western larch and ponderosa pine, to grow in these areas. In some areas 
presettlement fire patterns produced ponderosa pine-dominated stands 
similar to the drier forests at lower elevations. Complex species 
distributions and variable environmental conditions produce a ``mixed'' 
fire regime in which fires could range from low to high severity, 
depending on fuel buildup, weather conditions, and topography, 
producing a ``mosaic'' of stand conditions and wildlife habitat that 
would shift across the landscape over time. These mid-elevation 
forests, which tend to be the most productive, have been heavily 
altered by logging and road-building, and fire suppression has allowed 
the development of more dense, multi-storied forests on more of the 
landscape. The fire regime can still be described as mixed, but the 
relative proportion of fire types has shifted, and severe fires are 
more likely to occur on more of the landscape than they would have 
historically.
    At still higher elevations, forests of subalpine fir, Englemann 
spruce, mountain hemlock and lodgepole pine predominated. These forests 
are slower-growing, but cool, moist conditions generally caused 
significant fires to be infrequent, allowing greater accumulations of 
wood. The fire regime for these forests can be described as weather-
dominated in that high fuel loadings are typical and the fire events 
that determine forest patterns occur under uncommon, extreme weather 
conditions that can result in stand-replacing fires over large areas 
(Agee 1997b). While logging and road-building have had some very 
detrimental effects on these forests, the fundamental dynamics are 
relatively little-changed since fire suppression has been effective for 
less than one natural fire cycle. Fuel levels may suggest a high fire 
``hazard'' under conventional assessments, but negative ecological 
consequences of wildfire are likely to be minimal, as demonstrated by 
the Yellowstone fires of 1988 (Romme and Despain 1989, Knight and 
Wallace 1989).

                    RESTORATION GOALS AND PRIORITIES

    There appears to be broad agreement that some form and degree of 
restoration of habitats, populations of fish and wildlife, productivity 
of soils, integrity of watersheds is appropriate. One commonly 
suggested approach is to restore landscapes to some semblance of 
``presettlement'' conditions, within their ``historical range of 
variability.'' As Swanson and others (1994) put it, ``A key premise of 
ecosystem management . . . is that native species have adapted to and, 
in part, evolved with the natural disturbance events of the Holocene 
(past 10,000 year) environment. Accordingly, the potential for survival 
of native species is reduced if their environment is pushed outside the 
range of its natural variability.'' While attempts to strictly recreate 
conditions of the past will often be neither desirable nor feasible 
(Hessburg et al. 1999, Swanson et al. 1994), careful determinations of 
past conditions can help clarify the types and extent of changes that 
have occurred in ecosystems, and help inform the identification of 
management objectives and restoration priorities. Understanding 
historical condition is also critical to the concept of ``ecological 
integrity'' (Angenneier and Karr 1994), which looks beyond forest 
structure to incorporate the essential components basic to ecosystem 
sustainability: soils, water, species and habitat diversity, resistance 
to disturbance and evolutionary potential (Perry 1998). Effective 
communication across traditional disciplinary boundaries will be 
essential to the determination of appropriate restoration goals based 
on historical conditions.
    Ecological restoration efforts are often categorized as either 
active or passive. Passive restoration is the ``cessation of . . . 
activities that are causing degradation or preventing recovery,'' 
(Kauffman et al. 1997) and can be considered the first step in 
restoration (National Research Council 1996). The primary techniques 
employed in active restoration include thinning of undesired trees and 
other vegetation, the intentional use of fire, closure and obliteration 
of roads, control of off-road vehicles, improved livestock management, 
in-stream work, and noxious weed control. Though all of these actions 
are critical to comprehensive ecosystem restoration, we focus our 
discussion here on the two techniques most frequently discussed for the 
Intermountain West, thinning and prescribed fire, and we offer 
recommendations for their use.
Focus on water and watersheds
    The high value of water, the widespread degradation of watersheds, 
and the prevalence of at-risk populations of fish require that these 
values receive special consideration in forest management decisions, 
including forest restoration. Strategies for conserving both aquatic 
and terrestrial resources at multiple scales are based on similar 
principles: secure areas with high ecological integrity (``anchor 
habitats''), extend these areas, and connect them at the landscape 
level (Lee et al. 1997, Gresswell 1999). An approach that 
simultaneously considers the condition of a watershed and its 
associated forests, and the status of aquatic populations (Rieman et 
al. 2000) appears to offer the best prospects for balancing potentially 
competing objectives. Simplistic assumptions that what's good for the 
forest will be good for watersheds and fish will not suffice. 
Successful forest restoration may help improve watershed resilience and 
thus aquatic habitats, but active forest restoration carries a risk of 
further degrading watersheds, especially if it involves road 
construction or other soil disturbance (Gresswell 1999, Lee et al. 
1997). Healthy fish populations can be quite resilient to the effects 
of wildfire (Gresswell 1999). Most often, healthy populations are 
associated with roadless or wilderness areas and cool moist forests 
that have been relatively little affected by logging and fire 
suppression (Lee et al. 1997, Rieman et al. 2000). Prescribed fire 
(ignited either by humans or lightning) may be the best means of 
managing and restoring these areas (Rieman et al. 2000). Active 
restoration involving both thinning and prescribed fire may be more 
appropriate in more heavily roaded, lower elevation forests and in 
areas adjacent to more intact watersheds (Lee et al. 1997).
Account for rare ecosystem elements
    Determination of restoration goals needs to recognize potential 
conflicts or trade-offs among reasonable objectives. Aggressively 
modifying stands to be highly resistant to severe fire may 
unintentionally degrade watersheds and habitats for fish and wildlife 
(Rieman and Clayton 1997, Gresswell 1999). Heavily thinning stands to 
reduce canopy density and the risk of spread of crown fire may degrade 
habitat for wildlife needing more closed-forest conditions. For 
example, on the east side of the Cascades, fire suppression has 
resulted in the development of northern spotted owl habitat 
uncharacteristic of dry forests, but these "unnatural'' stands now 
provide habitat critical to the species' survival. In other places, 
opening the canopy may increase erosion and degrade aquatic habitats. 
Watershed analysis should provide a mechanism for identifying and 
resolving potential conflicts among objectives.
Protect riparian areas
    Riparian areas provide habitat benefits for wildlife far out of 
proportion to these streamside areas' relatively limited distribution 
on the landscape, notably for migratory birds (Marcot et al. 1997). 
Riparian areas and the vegetation they support are also essential to 
the quality of water and aquatic habitats and contribute many functions 
to ecosystem integrity (National Research Council 1996). Logging in 
riparian areas can cause ground disturbance resulting in sediment 
delivery to streams, and can reduce shade and the input of large wood 
to streams, thus degrading aquatic habitat. Riparian areas and their 
relationship to broader landscapes are highly complex, as are the risks 
of wildfire, which may be the same, less or greater than in adjacent 
uplands (Agee 1999). While precommercial thinning may have some 
application in riparian areas (Gregory 1997), restoration treatments 
should initially focus on uplands (Johnson et al. 1995, Lee et al. 
1997). Larger trees may not need to be thinned in riparian areas, but 
if they are, they can be left on the floodplain or placed in the 
channel (Gregory 1997). Prescribed fire, carefully applied based on 
site-specific analysis, may be the most appropriate treatment in 
riparian areas (Kauffman et al. 1997, Agee 1999).
Stay low
    Thinning for restoration does not appear to be appropriate in 
higher elevation, cold, moist forests (Agee and Huff 1986). These 
forests have often not yet missed a full fire cycle and the historical 
dynamic of generally high fuel loadings and a fire regime dominated by 
weather-driven, lethal fires has not changed significantly. Efforts to 
manipulate stand structures to reduce fire risk are apt not only to be 
futile (Agee 1996, 1998a), but also to move systems away from 
presettlement conditions to the detriment of wildlife and watersheds 
(Johnson et al. 1995, Weatherspoon 1996).
    Low elevation, dry forests appear to offer the clearest 
opportunities for thinning--in conjunction with prescribed fire--to 
contribute to restoration of wildlife habitat while making forests more 
resistant to uncharacteristically severe fire. Within this zone, high 
forest integrity will generally be associated with the presence of old 
growth trees, especially ponderosa pine. Highest priority should be 
given to securing high-integrity ``anchor habitats'' that still closely 
resemble historic conditions, which can be maintained with prescribed 
fire alone. Adjacent areas that have developed dense post-settlement 
understories are apt to be a priority for restoration treatment with 
thinning and/or fire to help reduce the likelihood of crown fire 
spreading into the high integrity stands. Treatment of these areas 
could help to secure the remnant intact stands from wildfire risks 
while extending more natural stand conditions across the landscape, 
eventually connecting high-integrity areas. In general, protection of 
remnant old growth pine, from stands to individual trees, should be a 
top priority, in light of how depleted these trees have become and 
their importance not only as habitat but also as genetic and scientific 
resources (Henjum et al. 1994, Wickman 1992). On the other hand, 
reproduction of ponderosa pine is infrequent and unpredictable (White 
1985), and care should be taken to retain young pine trees necessary to 
replace old trees as they eventually die.
    Mid-seral ponderosa pine stands (roughly 60 to 100 years old) may 
represent a secondary priority for restoration treatments. These stands 
are often well on the way to developing old growth characteristics, and 
treatments to help ensure that this trend is maintained can increase 
the probability that old growth habitats are restored more quickly than 
they would be otherwise. Thinning to remove smaller trees can reduce 
the risk of fire spreading into the canopy, while improving the growth 
rate of remaining trees. Variable density thinning can help mimic the 
clumped distribution and associated processes found in pre-settlement 
stands (Harrod et al. 1999). Conventional silvicultural treatments tend 
to thin to a density low enough to have a low likelihood of attack by 
bark beetles. Leaving some areas at a density greater than this would 
allow bark beetles to continue to function as source of mortality, 
providing a key food source for woodpeckers and influencing subsequent 
decay of snags (George and Zack in press). Rather than taking stands to 
desired densities in a single treatment, it may be more appropriate to 
use thinning to make stands less vulnerable to severe wildfire 
(Stephenson 1999, Agee and Huff 1986) while allowing fire, insects and 
disease to maintain a trajectory toward old growth conditions.
Stay below
    ``Thinning'' generally refers to ``understory thinning,'' 
``thinning from below'' or ``low thinning'' to describe the cutting and 
removal of small trees that may be necessary to meet objectives for 
restoration of habitat and fire regimes. Some have argued that thinning 
from below does not sufficiently open the canopy to breakup fuels and 
reduce fire danger, and they have proposed the removal of large trees 
in what is known as a ``crown thinning.'' However, in most cases, it is 
the vertical continuity of fuels, not the continuity of the canopy that 
most needs to be disrupted. As Agee et al. (2000) note, ``Fuel 
fragmentation does not have to be associated with structural 
fragmentation or overstory removal, but must be associated with . . . 
reduction of surface fuels and increases in height to live crown as a 
first priority, and decreases in crown closure as a second priority . . 
. Thinning must be linked with surface fuel reduction and increases in 
height to live crown to be an effective fuel treatment.'' Thinning from 
below directly addresses this need by removing the fuel ladder that can 
carry fire up into the canopy. In those instances where restoration 
requires opening of the canopy, the effect can be achieved by an 
aggressive low thinning. After more than a century of commercial 
logging of western forests, large trees are simply too rare on the 
landscape to allow them to be removed in a ``restoration'' treatment.
Treat fine fuels with prescribed fire
    Restoration objectives may be accomplished by prescribed fire alone 
in some forest types (Agee and Huff 1986, Weatherspoon 1996). However, 
thinning alone, which may successfully reduce fire hazard, is very 
unlikely to meet ecological objectives unless it is combined with 
prescribed fire (Weatherspoon 1996) since thinning cannot replicate 
many of the beneficial ecological effects of fire (National Research 
Council 1999) Thinning can also lead to more severe fires (Agee 1996, 
Weatherspoon 1996), especially through inadequate treatment of logging 
slash. Thinning without subsequent prescribed fire to consume fine 
fuels, like needles and small branches, will likely do nothing to 
reduce fire danger or restore ecosystem health (van Wagtendonk 1996, 
Stephens 1998). Of course, neither thinning nor fire will be a panacea; 
both must be used, but used thoughtfully. Nothing will make forests 
fire proof, but it appears feasible to make some forests more ``fire 
safe,'' as long as prescribed fire is used to reduce fine fuels.
Avoid disturbing soils
    One potential problem with understory thinning operations is that 
the low value of the wood being removed encourages the use of low-cost 
logging methods. This typically means ground-based equipment, which can 
have seriously detrimental effects on soils. Soil compaction, which can 
take decades to recover (Harvey et al. 1989), both reduces plant growth 
and inhibits infiltration of water, increasing erosion, sedimentation 
and spring run-off. Fire can also adversely affect soils, but these 
effects are relatively short-lived (Rieman and Clayton 1997), and 
should not be presumed to give license to unnecessarily degrade soils 
during thinning operations. To maintain both ecological integrity and 
management credibility, it will be essential to employ low-impact 
equipment and use it properly (Johnson et al. 1995).
Avoid roads and protect roadless areas
    The adverse ecological effects of roads are legion (Furniss et al. 
1991, Trombulak and Frissell 2000), and road construction to access 
thinning sites is highly unlikely to be justified either ecologically 
or economically. Limitations on road construction and other soil 
disturbance will also help limit the spread of invasive exotic plants 
(noxious weeds). In the interest of getting necessary work done, 
restoration efforts should focus on already roaded portions of the 
landscape, where controversy is less and there is no shortage of stands 
appropriate for treatment. Roadless watersheds have the highest levels 
of ecological integrity and the greatest resiliency to wildfires 
largely due to the absence of logging and road construction (USDA 
Forest Service and USDI BLM 1997). Accordingly, they are the lowest 
priority for restoration.
Concentrate on the wildland-urban interface
    The wildland-urban interface or ``intermix zone'' is often not very 
precisely defined but generally describes areas where human housing 
intermingles with mostly forested land. The dramatic fires of the 2000 
fire season have put the interface zone fully in the national public 
eye. Growing political attention, although tardy and prone to 
misdirection, may be appropriate. Not only are human property and lives 
at risk, but the interface zone most typically occurs in the dry forest 
types that are most amenable to restoration efforts combining 
mechanical and prescribed fire treatments. The presence of people, 
their developments, and their pets mean that habitat values are already 
somewhat compromised, reducing the severity of some of the unintended 
consequences that may accompany restoration efforts. On the other hand, 
the close proximity of people can complicate prescribed burning 
programs. Perhaps the most important consideration regarding efforts to 
make the interface zone fire safe is that treatment of public forest 
lands alone will not be enough. The crucial area for treatment is 
within 40 yards of structures (most apt to be private land), and even 
here vegetation treatment alone will not suffice (Cohen 1999). 
Structures must be built or retrofitted to incorporate fire-safe 
elements such as metal roofs and shutters. Human values at risk may 
suggest that the interface zone is a priority for attention, but 
without investment in these structural modifications, public investment 
in forest treatment is pointless.

                               CONCLUSION

    While there is much to be learned about the current status of 
forested ecosystems on National Forest lands and about the efficacy of 
thinning and prescribed fire to make these forests more sustainable, it 
appears clear that action must be taken to reverse trends of 
degradation, and that thinning and fire can play a role in these 
restoration efforts. Because thinning is a form of logging, and because 
of decades of Smokey Bear's education about the evils of forest fire, 
both techniques will be controversial with at least some portions of 
the public. Every effort should be made to apply these tools 
thoughtfully, in ways and in locations where they will have the highest 
prospects for success and the lowest likelihood of unintended 
consequences. Based on current knowledge, it appears that the most 
credible efforts will:

  <bullet> be part of comprehensive ecosystem and watershed 
        restoration;
  <bullet> consider landscape context, and protect rare habitats, such 
        as old growth, and populations of rare fish and wildlife;
  <bullet> avoid riparian areas;
  <bullet> focus on low-elevation, dry forest types;
  <bullet> focus thinning efforts on the smallest diameter classes and 
        retain all large, old (pre-settlement) trees and provide for 
        their replacement over time;
  <bullet> treat thinning slas and other surface fuels with prescribed 
        fire;
  <bullet> have negligible adverse effects on soils and prevent the 
        spread of invasive plants;
  <bullet> protect roadless areas and avoid construction of new roads;
  <bullet> concentrate resources on the wildland-urban interface and 
        incorporate monitoring as an essential element and cost of the 
        project;
  <bullet> learn from monitoring and adapt management accordingly.

    It may not be feasible to address all of these considerations for 
every area, but managers who focus their attention on areas where these 
criteria can be met will have greater prospects for building the 
experience and credibility that will allow greater discretion in the 
future. It will also be essential to acknowledge how little empirical 
scientific study supports assumptions of the efficacy of thinning to 
restore habitat and reduce fire risk. While additional scientific 
research is necessary, much can also be learned from routine 
monitoring, especially if it is structured to reflect a more consistent 
case studies approach, which could be facilitated by regional guidance 
from Forest Service research stations. Support within the Forest 
Service and from the Congress for research, administrative studies, and 
monitoring will be crucial to refining techniques and building public 
trust. As much as scientific knowledge, that trust must form the basis 
for successful action.

                               REFERENCES

Agee, J.K. 1996. The influence of forest structure on fire behavior. 
        Presented at the 17th Annual Forest Vegetation Management 
        Conference, Redding CA, January 16-18, 1996.
Agee, J.K. 1997b. The severe weather wildfire--too hot to handle? 
        Northwest Science 71: 153-156.
Agee, J.K. 1998a. The landscape ecology of western forest fire regimes. 
        Northwest Science, Vol. 72 Special Issue
Agee, J.K. 1999. A coarse-filter strategy. Forum for Applied Research 
        and Public Policy 14 (1): 15-19.
Agee, J.K., B. Bahro, M.A. Finney, P.N. Orm, D.B. Sapsis, C.N. Skinner, 
        J.W. van Wagtendonk, C.P. Weatherspoon. 2000. The use of shaded 
        fuelbreaks in landscape fire management. Forest Ecology and 
        Management 4801 (1999): 1-12.
Agee, J.K. and M.H. Huff. 1986. Structure and process goals for 
        vegetation in wilderness areas. Pages 17-25 in R.C. Lucas, 
        compiler. Proceedings--National wilderness research conference: 
        current research, 23-26 July 1985, Fort Collins, Colorado, USA. 
        USDA Forest Service General Technical Report INT-212.
Angenneier, P.L. and J.R. Karr. 1994. Biological integrity versus 
        biological diversity as policy directives. BioScience 44: 690-
        697.
Cohen, Jack D. 1999. Draft: Reducing the Wildland Fire Threat to Homes: 
        Where and How Much? USDA Forest Service--Rocky Mountain 
        Research Station.
Furniss, M.J., Roelofs, T.D. and C.S. Yee. 1991. Road Construction and 
        Maintenance in Meehan, W.R.. ed. Influences of Forest and 
        Rangeland Management on Salmonid Fishes and Their Habitats. 
        American Fisheries Society Special Publication 19:297-323. 
        American Fisheries Society, Bethesda, MD.
George, T.L. and S. Zack. In Press. Spatial and Temporal Considerations 
        in Restoring Habitat for Wildlife. Restoration Ecology. (Paper 
        presented at Society for Ecological Restoration annual meeting, 
        The Presidio, San Francisco, CA, September, 1999.)
Gregory, S.V. 1997. Riparian Management in the 21st Century in Kohm, 
        K.A. and J.F. Franklin, eds., Creating a Forestry for the 21st 
        Century, Island Press, Washington, DC.
Gresswell, R.E. 1999. Fire and aquatic ecosystems in forested biomes of 
        North America. Trans. Amer. Fish. Soc, 128: 193-221.
Harrod, R.J., H.M. Bradner, and W.E. Hard. 1999. Historical stand 
        reconstruction in ponderosa pine forests to guide silvicultural 
        prescriptions. Forest Ecology and Management 114: 433-446.
Harvey, A.E., R.T. Meurisse, J.M. Geist, M.F. Jurgensen, G.I. McDonald, 
        R.T. Graham, and N. Stark. 1989. Managing Productivity 
        Processes in the Inland Northwest--Mixed Conifers and Pines in 
        Perry and others, eds., Maintaining the Long-Term Productivity 
        of Pacific Northwest Forest Ecosystems. Timber Press, Portland, 
        Oregon.
Henjum, M.G., J.R. Karr, D.L. Bottom, D.A. Perry, J.C. Bednarz, S.G. 
        Wright, S.A. Beckwitt and E. Beckwitt. 1994. Interim protection 
        for late- successional forests, fisheries, and watersheds: 
        National forests east of the Cascades crest, Oregon and 
        Washington. The Wildlife Society Technical Review 94-2, 
        Bethesda, MD. 245 PI). Hessburg, P.F., G.B. Smith and R.B. 
        Salter. 1999. Detecting change in forest spatial patterns from 
        reference conditions. Ecological Applications 9:1232-1252.
Johnson, K.N., J. Agee, R. Beschta, J. Beuter, S. Gregory, L. Kellogg, 
        W. McComb, J. Sedell, T. Schowalter and S. Tesch. 1995. Forest 
        Health and Timber Harvest on National Forests in the Blue 
        Mountains of Oregon. A Report to Governor Kitzhaber.
Kauffman, J. Boone, R.L. Beschta, N. Otting and D. Lytjen. 1997. An 
        Ecological Perspective of Riparian and Stream Restoration in 
        the Western United States. Fisheries, vol. 22, no. 5. Knight, 
        D.H. and L.L. Wallace. 1989. The yellowstone fires: issues in 
        landscape ecology. Bioscience 39 (10): 700-706.
Lee, D.C., J.R. Sedell, B.E. Rieman, R.F. Thurow and J.E. Williams. 
        1997. Broadscale Assessment of Aquatic Species and Habitats in 
        Quigley, T.M. and S. Arbelbide, tech. eds., An Assessment of 
        Ecosystem Components in the Interior Columbia Basin. Volume 
        III. USDA Forest Service, Pacific Northwest Research Station. 
        General Technical Report PNW-GTR-405.
Marcot, B.G., M.A. Castellano, J.A. Christy, L.K. Croft, J.F. 
        Lehrrikuhl, R.H. Naney, R.E. Rostentreter, R.E. Sandquist and 
        E. Zieroth. 1997. Terrestrial Ecology Assessment in Quigley, 
        T.M. and S. Arbelbide, tech. eds., An Assessment of Ecosystem 
        Components in the Interior Columbia Basin. Volume Ill. USDA 
        Forest Service, Pacific Northwest Research Station. General 
        Technical Report PNW-GTR-405.
National Research Council. 1996. Upstream: Salmon and Society in the 
        Pacific Northwest. Committee on Protection and Management of 
        Pacific Northwest Anadromous Salmonids.
National Research Council. 1999. Environmental Issues in Pacific 
        Northwest Forest Management. National Academy Press. 
        Washington, DC. 259 pp.
Perry, D.A. 1998. The Scientific Basis of Forestry. Ann. Rev. Ecol. 
        Syst. 29:435-66.
Rieman, B.E. and J. Clayton. 1997. Wildfire and native fish: issues of 
        forest health of sensitive species. Fisheries 22 (11): 6-15.
Rieman, B.E., D.C. Lee, R.F. Thurow, P.F. Hessburg and J.R. Sedell. 
        2000. Toward an integrated classification of ecosystems: 
        defining opportunities for managing fish and forest health. 
        Environmental Management 25(4):425-444.
Romme, W.H. and D.G. Despain. 1989. Historical perspective on the 
        Yellowstone fires of 1988. Bioscience 39 (10): 695-699.
Skinner, C.N., and Chi-ru Chang. 1996. Fire regimes, past and present 
        in Sierra Nevada Ecosystem Project: Final report to Congress. 
        Chapter 38, Vol. II Assessments and Scientific Basis for 
        Management Options. Wildland Resources Center Report No. 37. 
        Davis: Centers for Water and Wildland Resources, University of 
        California; 1041-1069.
Stephens, S.L. 1998. Evaluation of the effects of silvicultural and 
        fuels treatments on potential fire behaviour in Sierra Nevada 
        mixed-conifer forests. Forest Ecology and Management 105: 21-
        38.
Stephenson, N.L. 1999. Reference conditions for Giant Sequoia forest 
        restoration: structure, process, and precision. Ecological 
        Applications 9: 1253-1265.
Swanson, F.J., J.A. Jones, D.O. Wallin and J.H. Cissel. 1994. Natural 
        Variability--Implications for Ecosystem Management in Jensen, 
        M.E. and P.S. Bourgeron, eds. Eastside Forest Ecosystem Health 
        Assessment, Vol. II: Ecosystem Management: Principles and 
        Applications. USDA Forest PNW Research Station, General 
        Technical Report PNW-GTR-318.
Swetnarn, T.W., C.D. Allen and J.L. Betancourt. 1999. Applied 
        historical ecology: using the past to manage the future. 
        Ecological Applications 9: 1189-1206.
Trombulak, S.C. and C.A. Frissell 2000. Review of Ecological Effects of 
        Roads on Terrestrial and Aquatic Communities. Conservation 
        Biology 14 (1): 18-30.
USDA Forest Service, Washington Office. 2000a. Protecting People and 
        Sustaining Resources in Fire-Adapted Ecosystems: A Cohesive 
        Strategy. The Forest Service management response to the General 
        Accounting Office Report GAO/RCED-99-65, April 13, 2000.
USDA Forest Service and USDI Bureau of Land Management. 1997. Eastside 
        Draft Environmental Impact Statement, Interior Columbia Basin 
        Ecosystem Management Project. USDA Forest Service, Pacific 
        Northwest Region.
van Wagtendonk, J.W. 1996. Use of a Deterministic Fire Growth Model to 
        Test Fuel Treatments. Pages 1155-1166 in Sierra Nevada 
        Ecosystem Project, Final Report to Congress, vol. II 
        Assessments and Scientific Basis for Management Options. 
        Centers for Water and Wildland Resources, University of 
        California, Davis.
Weatherspoon, C.P. 1996. Fire-silviculture relationships in Sierra 
        forests in Sierra Nevada Ecosystem Project: Final Report to 
        Congress, Vol. II, Chapter 44. University of California, 
        Centers for Water and Wildland Resources, Davis, California.
Weaver, H. 1943. Fire as an ecological and silvicultural factor in the 
        ponderosa pine region of the Pacific slope. Journal of Forestry 
        41 (1): 7-15.
White, A.S. 1985. Presettlement regeneration patterns in a southwestern 
        ponderosa pine stand. Ecology, 66 (2): 589-594.
Wickman, B.E. 1992. Forest Health in the Blue Mountains: The influence 
        of insects and disease. USDA Forest Service, General Technical 
        Report PNW-GTR-295.
                                 ______
                                 
Statement of the National Environmental and Religious Organizations and 
  Coalition, and the Regional and Local Grassroots Forest Protection 
                             Organizations
Hon. Dan Glickman,
Secretary of Agriculture, Washington, DC.

Hon. Bruce Babbitt,
Secretary of the Interior, Washington DC.
    Dear Sirs: On behalf of the undersigned national and grassroots 
forest protection organizations, we are writing to express concern 
about provisions in the Interior Appropriations bill which threaten to 
increase logging and undermine good stewardship on the public lands. We 
were pleased with the Administration's efforts to underscore the 
importance of avoiding another salvage logging debacle, protecting 
roadless areas and prioritizing the noncommercial removal of brush and 
shrubs in the recent report to the President.
    We feel that similar efforts are required in preparing for the 
expenditure of the significant funds provided for hazardous fuels 
reduction and rehabilitation in the Interior Appropriations bill. Of 
particular concern are the provisions concerning mechanical treatments 
for hazardous fuels reduction, timber sale funding levels and the 
stewardship contracting rider.
        hazardous fuel treatments lack environmental safeguards
    Our community strongly supports a scientifically sound fuels' 
reduction program targeted to protect communities in the urban 
wildlands interface. However, the fuels reduction language lacks 
adequate environmental safeguards to protect Wilderness, roadless 
areas, old growth forests, endangered species habitat and riparian 
areas. We request the Secretaries issue a directive to ensure that 
these ecologically critical areas will be excluded from mechanical 
fuels reduction projects.
    In addition, we believe direction is needed to ensure that fuels 
reduction projects focus on the fine and surface fuels which create the 
greatest fire risks. Forest Service fire staff indicate the priority 
for treatment should primarily be trees below 4" inches in diameter. We 
urge the Secretaries to direct the agency to develop ecologically-sound 
treatment criteria to prevent the logging of large trees.
    The Interior bill also includes language providing the 
Administration with an option to develop expedited NEPA procedures 
within the next 60 days. We are strongly opposed to any weakening of 
the current NEPA procedures and public involvement in decision-making 
for fuels reduction projects. Instead, we urge you to utilize existing 
NEPA regulations, which have been carefully developed and time-tested 
in planning and reviewing projects to be conducted with these funds. 
Moreover, fuels reduction options entail great uncertainty about 
effectiveness and often--especially in cases of mechanical removal of 
vegetation--are accompanied by significant environmental harm. As 
practiced to date, therefore, they generally are among the land 
management activities most needing careful consideration and public 
input. We respectfully urge the Administration not to exercise this 
authority to expedite NEPA procedures.
    We also believe the funding increase for fuels reduction could be 
better targeted to protect communities at risk from wildfire. Forest 
Service research indicates that to protect homes and communities, the 
focus for treatments should be within 200 feet of the structure, not in 
distant wildlands or forests located miles away. We urge the 
Administration to adopt this standard and to redirect emergency fuels 
reduction funds to support the Firewise program and other cooperative 
efforts for community protection. In addition, to property owners and 
communities, to fireproof their homes and businesses are needed to help 
clear brush and replace wooden roofs with metal ones.
    There is a significant increase in funding for preparedness 
activities. We urge the Administration to make the completion of fire 
management plans the top property for these funds. Currently only 5% of 
the National Forests have completed fire management plans which were 
mandated by the Fire Management Policy of 1995.
    The Interior bill directs that $15 million in fuels reduction funds 
shall be used to implement the Quincy Library Group Plan which could 
allow these funds to be used for commercial logging. This Plan calls 
for extensive logging in the name of fuels reduction in the Sierra 
Nevada and is strongly opposed by the environmental community. We are 
concerned that funds intended for fuels reduction will go instead for a 
logging program that will cause environmental harm and not reduce fire 
risks. We urge the Secretaries to direct that none of the Quincy funds, 
or other emergency hazardous fuels funds will be spent on or in 
conjunction with commercial timber sales.
    We are concerned that the Forest Service and BLM will attempt to 
take old projects off the shelf including timber sales, that are not 
environmentally sound fuels reduction projects. We urge the Secretaries 
to direct the agency to not spend emergency fuels reduction funds on 
timber sales and to ensure that all old projects are reviewed to ensure 
that they have an exclusive fuel reduction objective.
    There is serious concern about language in the Administration's 
fire policy supporting salvage logging to recoup fuels reduction costs. 
There is strong scientific opinion that salvage logging does more harm 
to forest ecosystems than good. Focusing on economic recovery could 
undermine the ecological restoration goals of this program and 
encourage harmful resource extraction. We urge the Secretaries to 
exclude salvage logging from the fuels reduction program.
    We are also concerned that funds intended to address hazardous 
fuels issues in Western forests, will be spent on Eastern forests which 
do not have the same, ecological needs. The relatively moist Southern 
Appalachian forests, for example, naturally limit the spread of fire. 
Fuel reduction bears little relevance to the decline of native forest 
types, which is a major threat confronting the Southern Appalachians. 
We urge the Secretaries to not spend emergency fuels reduction funds in 
Forest Service regions 8 and 9.

        TIMBER TARGET LANGUAGE AND INCREASED SUBSIDIES PROMOTE 
                         IRRESPONSIBLE LOGGING

    We appreciate that the Administration opposed and was able to 
remove the timber target bill language. However, the Interior bill 
still contains timber target language that attempts to urge the Forest 
Service to prepare for sale 3.6 billion board feet of timber. This 
represents a significant increase in timber sales above the current 
level of 2.1 billion board feet.
    The timber targets language is backed up by a significant increase 
in funding for logging. The bill contains a $40 million increase in 
logging subsidies, including $5 million earmarked specifically 
targeting Alaska's Tongass National Forest. This $40 million in 
additional logging subsidies will lead to more harmful timber sales on 
the National Forests. We urge the Secretaries to use this un-asked for 
increase to mitigate the environmental degradation from timber sales by 
spending it on forest restoration through road decommissioninig and 
obliteration.

   STEWARDSHIP CONTRACTS, NEW VEHICLE FOR INCREASED TIMBER PRODUCTION

    We appreciate the Administration's efforts that resulted in the 
removal of two anti-environmental riders affecting the White River and 
White Mountains National Forests from the bill. However, the Interior 
bill still contains language that authorizes the Forest Service to 
enter into an additional 25 ``end-result'' stewardship contracts.
    The ``goods-for-services'' authority in stewardship contracts 
allows the Forest Service to trade National Forest trees for contracted 
services and could encourage large-scale logging in conjunction with 
restoration projects. One current stewardship project in Idaho using 
goods-for-services proposes to log 173 million board feet in the name 
of ``elk restoration.'' This is one of the largest logging projects in 
the nation right now. We urge Secretary Glickman to direct the agency 
to forgo this authority and not to issue any additional stewardship 
contracts, and to oppose the use of ``goods-for-services.''
    When viewed together, the stewardship contracting rider and these 
substantial funding increases for timber sales and mechanical hazardous 
fuels treatments open the door to a significant increase in logging on 
public lands thereby threatening clean water and habitats for 
endangered fish and wildlife. We look forward to working with the 
Administration to mitigate the potential impacts of these provisions in 
the Interior bill.
            Sincerely,

   NATIONAL ENVIRONMENTAL AND RELIGIOUS ORGANIZATIONS AND COALITIONS

Alaska Rainforest Coalition, Matt Zencey, Washington, D.C.
American Lands Alliance, Steve Holmer, Washington, D.C.
Defenders of Wildlife, Mary Beth Beetham, Washington, D.C.
Earthjustice Legal Defense Fund, Marty Hayden, Washington, D.C.
Endangered Species Coalition, Brock Evans, Washington, D.C.
Friends of the Earth, Courtney Cuff, Washington, D.C.
John Muir Project, Rene Voss, Washington, D.C.
National Audubon Society, Dan Beard, Washington, D.C.
National Catholic Rural Life Conference, Robert Gronski, Des Moines, IA
National Environmental Trust, Robert Vandermark, Washington, D.C.
National Forest Protection Alliance, Jeanette Russell, Missoula, MT
Native Forest Network--Public Lands Project, Matthew Koehler, Missoula, 
        MT
Natural Resources Defense Council, Nathaniel Lawrence, Olympia, WA
Network for Environmental and Economic Responsibility of the United 
        Church of Christ (USA)
Pacific Rivers Council, David Bayles, Eugene, OR
Sierra Club, Melanie Griflin, Washington, D.C.
The Wilderness Society, Michael Francis, Washington, D.C.
U.S. Public Interest Research Group, Tiernan Sittenfeld, Washington, 
        D.C.
World Wildlife Fund, Dominick Dellasala, Ashland, OR

     REGIONAL AND LOCAL GRASSROOTS FOREST PROTECTION ORGANIZATIONS

100 Percent Natural Productions, Scott Whinery, Tarzana, CA
Allegheny Defense Project, Rachel Martin, Clarion, PA
Alliance for the Wild Rockies, Mike Wood, Missoula, MT
American Wildlands, Deb Kmon, Bozeman, MT
Audubon Society of Corvallis, Jim Fairchild, Corvallis, OR
Blue Mountain Audubon Society, Chris Howard, Walla Walla, WA
CAFIG (Corvallis Area Forest Issues Group), Claudia McCue, Monroe, OR
California Trout, Inc., R. Brett Matzke, Coarsegold, CA
California Wilderness Coalition, Paul Spitler, Davis, CA
Cascadia Fire Ecology Education Project, Catia Juliana, Eugene, OR
Cascadia Forest Alliance, Donald Fontenot, Portland, OR
Cascadia Wildlands Project, James Johnston, Eugene, OR
Center for Biological Diversity, Todd Schulke, Tucson, AZ
Center for Native Ecosystems, Jon Jenson, Boulder, CO
Center for Sierra Nevada Conservation, Craig Thomas, Georgetown, CA
Center for Social Justice and Global Awareness, James Facette, San 
        Antonio, TX
Central Cascades Alliance, Kimberly Burkland, Hood River, OR
Central Oregon Forest Issues Committee, Steve Huddleston, Bend, OR
Citizens for Better Forestry, Susan Hope Bower, Hayfork, CA
Civilian Filibuster, Erik Holland, Reno, NV
Clearwater Biodiversity Project, Chuck Pezeshki, Moscow, ID
Coast Range Association, Chuck Willer, Corvallis, Oregon
Colorado Wild, Jeffrey Berman, Durango, CO
Columbia River Conservation League, Bob Wilson, Richland, WA
Cumberland Greens Bioregional Council, Howard Switzer
Dakubetede Environmental Education Programs, Laurel Sutherlin, 
        Jacksonville, OR
Deerlodge Forest Defense Fund, Paul Richards, Boulder, MT
Drake Environmental Action League, Rose Winkeler, Des Moines, IA
Forest Conservation Council, Bryan Bird, Boca Raton, FL
Forest Guardians, Sam Hitt, Santa Fe, NM
Forest Unity Network Jay Gerring, Seattle, WA
Friends of the Abajos Dan Kent, Moab, Utah
Friends of the Boundary Waters Wilderness, Kevin Proescholdt, 
        Minneapolis, MN
Friends of the Bitterroot, Larry Campbell, Hamilton, MT
Georgia ForestWatch, Randall F. White, Ellijay, GA
Green-Rock Audubon Society, Bill Hallstrom, Beloit, WI
Headwaters, Inc., Jim Ince, Ashland, OR
Heartwood, Alison Cochran, Bloomington, IN
Helping Expressions, Guy Errickson
The Highlands Chapter of the Western North Carolina Alliance, Dave 
        Barstow, Highlands, NC
Hoosier Hikers Council, Suzanne Mittenthal, Martinsville, IN
Illinois Student Environmental Network Laura Huth, Urbana, IL
International Primate Protection League, Shirley McGreal
Kalmiopsis Audubon Society, Jim Britell, Pt. Orford, OR
Kettle Range Conservation Group, Timothy J. Coleman, Republic, WA
Klamath Forest Alliance, Carol Wright Etna, CA
Lake Region Audubon Society, John Perry, Lake Superior Greens, Jan 
        Conley, Superior, WI
League of Women Voters, Pat MacRobbie, Sequim, WA
Leavenworth Audubon Adopt-a-Forest, Pat Rasmussen, Leavenworth, WA
Madison Audubon Society, Karen Etter Hale, Madison, WI
Madison Greens, John E. Peck, Madison, WI
Magic, Robin Bayer, Stanford, CA
Marion County Water Watch, Barbara Warner, Lebanon, KY
The Minnesota Project, John Lamb, MN
Montana Wildlife & Habitat Conservation Project, Seth Wilson, Missoula, 
        MT
Mt. Adams Adopt-A-Forest, Marc Harvey, Lyle, WA
Northcoast Environmental Center, Tim McKay, Arcata, CA
Northeastern Californians for Wilderness, Carl H. Schwarzenberg, Etna, 
        CA
Northeastern Minnesotans for Wilderness, Will Rhodes, Duluth, MN
Northwest Environmental Defense Center, Eric Wilborn, Portland, OR
Oregon Natural Resources Council, Ken Rait, Portland, OR
Pacific Crest Biodiversity Project, Michael Clossen, Seattle, WA
Palos Verdes/South Bay Audubon Society, Jess Morton, Palos Verdes 
        Peninsula, CA
Pennsylvania Audubon Society, Carmen T. Santasania, Harrisburg, PA
Physicians for Social Responsibility-Oregon Chapter, Catherine 
        Thomasson, MD, OR
Regional Association of Concerned Environmentalists, Mark Donham, 
        Brookport, IL
RESTORE: The North Woods, Michael Kellett, Concord, MA
Rev. Douglas B. Hunt, Ph.D., Wheaton NO
Rocky Mountain Recreation Initiative, Roz McClellan, CO
Rogue Valley Audubon Society, Ted Cassidy, OR
SAFE: Save Our Ancient Forest Ecology, Dr. Rob Schaeffer, Modesto, CA
Seattle Audubon Society, Helen Ross, Seattle, WA
Siskiyou Project, Kelpie Wilson, Grants Pass, OR
Sky Island Alliance, Matt Skroch, Tucson, AZ
South Carolina Coastal Conservation League, Caitfin Winans, Charleston, 
        SC
South Carolina Forest Watch, Kathy McDeed, Westminster, SC
South Yuba River Citizen's League, Shawn Garvey, Nevada City, CA
Southern Appalachian Biodiversity Project, Andrew George, Asheville, NC
Southern Oregon Nature Excursions, Jack Leishman, Talent, OR
Southwest Forest Alliance, Todd Schulke, Flagstaff, AZ
Sublette Riders Association, Jonathan Ratner, Pinedale, WY
The Fyke Nature Association, Hugh Carola, Ramsey, NJ
The Lands Council, Mike Petersen, Spokane, WA
The Ecology Center, Inc., Jeff Juel, Missoula, MT
The Waldo Inn, Robert E Lee Jr., OR
Threatened & Endangered Little Applegate Valley, Chant Thomas, 
        Jacksonville, OR
TN Forest Defense Council, Katey Culver, Nashville, TN
Trillium Community Land Trust, Susanna Bahaar Thomas, Jacksonville, OR
Umpqua Watersheds, Inc., Francis Eatherington, Roseburg, OR
Western Fire Ecology Center, Timothy Ingalsbee, Ph.D., Eugene, OR
West Virginia Rivers Coalition, Jeremy Muller, Ekns, WV
Wild Wilderness, Scott Silver, Bend, OR
Wild Alabama, Lamar Marshall, Moulton, AL
Wildlands Center for Preventing Roads, Bethanie Walder, Missoula, MT
WildLaw, Ray Vaughan, Montgomery, AL
Yosemite Area Audubon, Richard Kuntsman, Mariposa, CA


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
